<html>
<title> - ATTACKS ON THE HOMELAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                        ATTACKS ON THE HOMELAND

=======================================================================



                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2013

                               __________

                           Serial No. 113-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
82-590                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina*
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

 *Mr. Mark Sanford of South Carolina was elected to the committee 
    on June 12, 2013.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                         THURSDAY, MAY 9, 2013

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts................................     8

                               Witnesses

Hon. Joseph I. Lieberman, Former Senator, State of Connecticut:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Edward F. Davis, III, Commissioner, Boston Police Department:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19
Mr. Kurt N. Schwartz, Under Secretary, Executive Office of Public 
  Safety and Security, Commonwealth of Massachusetts:
  Oral Statement.................................................    23
  Prepared Statement.............................................    26
Mr. Erroll G. Southers, Professor and Associate Director of 
  Research Transition, DHS National Center for Risk & Economic 
  Analysis of Terrorism Events (CREATE), Sol Price School of 
  Public Policy, University of Southern California:
  Oral Statement.................................................    30
  Prepared Statement.............................................    31

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, Washington Post.......................................    41

                                Appendix

Questions From Honorable Sheila Jackson Lee for Honorable Joseph 
  I. Lieberman...................................................    69
Question From Honorable Susan W. Brooks for Edward F. Davis, III.    70
Questions From Honorable Sheila Jackson Lee for Edward F. Davis, 
  III............................................................    70
Questions From Honorable Susan W. Brooks for Kurt N. Schwartz....    72
Questions From Honorable Sheila Jackson Lee for Kurt N. Schwartz.    73

                        WEDNESDAY, JULY 10, 2013

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    75
  Prepared Statement.............................................    77
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    79
  Prepared Statement.............................................    81

                               Witnesses

Mr. Rudolph W. Giuliani, Former Mayor, New York City:
  Oral Statement.................................................    86
  Prepared Statement.............................................    91
Mr. Michael E. Leiter, Former Director, National Counterterrorism 
  Center:
  Oral Statement.................................................    93
  Prepared Statement.............................................    96
Mr. Bruce Hoffman, Professor and Director, Center for Peace and 
  Security Studies and Security, Georgetown University:
  Oral Statement.................................................   100
  Prepared Statement.............................................   101

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Statement of Bart R. Johnson, Executive Director, International 
    Association of Chiefs of Police..............................   144
  Letter From Stephen D. Kelly, Assistant Director, Office of 
    Congressional Affairs........................................   146


                   THE BOSTON BOMBINGS: A FIRST LOOK

                              ----------                              


                         Thursday, May 9, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:02 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Broun, Miller, 
Meehan, Duncan, Marino, Chaffetz, Palazzo, Barletta, Stewart, 
Hudson, Daines, Brooks, Perry, Thompson, Jackson Lee, Clarke, 
Higgins, Richmond, Keating, Barber, Payne, O'Rourke, Gabbard, 
Vela, Horsford, and Swalwell.
    Also present: Representative Markey.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today for the first in 
a series of hearings examining the Boston bombings of April 15, 
2013. I now recognize myself for an opening statement.
    The attacks in Boston shook this Nation and brought back 
memories of that day in September 2001 that changed our lives 
forever. I am confident that we will emerge from this tragedy 
stronger than ever before. Anyone who thinks they can execute 
an attack on this country and change our way of life greatly 
underestimates our spirit and our resolve.
    It is the responsibility of this committee to provide 
oversight and investigate what happened, what went wrong, and 
what we can do to better protect American lives. The victims 
and their families deserve no less. We will never forget April 
15, but we must do more than remember. We must hold accountable 
those who did us harm as well as the terrorists who inspired 
them. We must also demand more than just answers for any 
mistakes that were made. We must find solutions so that it does 
not happen again.
    In the chaos following the blasts, the American people, 
including myself, were amazed at the courage of first 
responders and civilians who ran towards the explosion instead 
of running away. These men and women motivate us all to pick up 
the pieces and to move forward.
    Commissioner, we are so honored and proud to have you here 
today. We applaud you as well as the first responders and law 
enforcement officers who risked their lives to save others, and 
we owe all of you a debt of gratitude.
    [Applause.]
    Chairman McCaul. In order to move forward, today we look 
back. The families who lost loved ones and the over 260 wounded 
deserve answers about how this happened and what can be 
improved in the future. Almost 3 weeks after the smoke cleared 
on Boylston Street, many questions remain. What we know today 
is that radical Islamists still threaten our homeland, and 
while we don't know if this attack was foreign-directed, we 
certainly know it was foreign-inspired.
    Tamerlan Tsarnaev's trip to the Chechen region, the radical 
videos proclaiming the caliphate that he posted when he 
returned, and the types of bombs that he and his younger 
brother used all signal an al-Qaeda-inspired terrorist attack. 
While mystery continues to surround what happened on the older 
brother's trip to Dagestan, much can be drawn from what we know 
about the region. Many Chechen rebels have forged a bond with 
the al-Qaeda jihadist movement. These lethal warriors have 
fought side-by-side with al-Qaeda and the Taliban against U.S. 
soldiers in Afghanistan and Iraq. In fact, my constituent's 
son, Marine Sergeant Byron Norwood, was killed by nine Chechen 
rebels in Iraq. Perhaps most appalling are the suspect's 
reported statements following his capture. These men who hate 
our values used our freedoms to kill Americans.
    Since the bombing, questions have been raised about whether 
the dots were connected before and after the attack. We know 
that Russian intelligence warned the FBI about Tamerlan, and 
that he may travel outside the United States to meet with 
extremists. We know he was then investigated and interviewed by 
the FBI. But when he traveled to the Chechen region in 2012, 
the FBI was unaware. The CIA also received an alert from 
Russian intelligence, and the agency asked that he be added to 
a terror watch list.
    We now know that DHS was alerted to his trip overseas, but 
nothing was done. In other words, he was on our radar screen, 
and then he was off. What remains unanswered is whether this 
information was shared between Federal agencies and State and 
local officials.
    Almost 9 months after Tamerlan returned, he and his 
brother, Dzhokhar executed the largest terrorist attack on our 
soil since 
9/11. This demonstrates that the radical jihad movement is 
alive and well around the world and in the homelands. We 
learned over a decade ago the danger in failing to connect the 
dots.
    The cornerstone of the 9/11 Commission report was that 
agencies had stovepiped intelligence which prevented us from 
seeing potential terrorist plots. In fact, the DHS was created 
in the wake of 
9/11 to help fix this problem. My fear is that the Boston 
bombers may have succeeded because our system failed. We can 
and we must do better.
    Equally concerning is the emerging narrative which 
downplays the spread of the global jihadist movement. From the 
attack at Fort Hood to the tragedy at Benghazi, the Boston 
bombings are our most recent reminder that we must call 
terrorism really for what it is in order to confront it. You 
cannot defeat an enemy you refuse to acknowledge.
    I was disturbed in the days following the attack to read 
that some officials had closed the case on whether there was a 
foreign connection, when the FBI had just begun its 
investigation. As a former Federal counterterrorism prosecutor, 
this rush to judgment, in my view, was premature and 
irresponsible.
    The American people demand and deserve accountability, and 
while we investigate what may have gone wrong, we must also pay 
tribute to what went right. Just as tragedy often exposes 
weaknesses, it also reveals our character. The acts of heroism 
in Boston in the minutes and days after the attack made us all 
proud to be Americans.
    With that, the Chairman now recognizes the Ranking Minority 
Member, Mr. Thompson.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              May 9, 2013
    The attacks in Boston shook this Nation, and brought back memories 
of that day in September, 2001, that changed our lives forever. I am 
confident that we will emerge from this tragedy stronger than ever 
before. Anyone who thinks they can execute an attack on this country 
and change our way of life, greatly underestimates our spirit and our 
resolve.
    It is the responsibility of this committee to provide oversight and 
investigate what happened, what went wrong and what we can do to better 
protect American lives. The victims and their families deserve no less.
    We will never forget April 15. But we must do more than remember, 
we must hold accountable those who did us harm, as well as the 
terrorists who inspired them. We must also demand more than just 
answers for any mistakes made. We must find solutions so that it does 
not happen again.
    In the chaos following the blasts, the American people, including 
myself, were amazed at the courage of first responders and civilians 
who ran towards the explosion, instead of away. These men and women 
motivate us all to pick up the pieces and move forward.
    Commissioner, we applaud you, as well as the first responders and 
law enforcement officials who risked their lives to save others. We owe 
all of you a debt of gratitude.
    In order to move forward, today we look back. The families who lost 
loved ones, and the over 260 wounded deserve answers about how this 
happened, and what can be improved in the future. Almost 3 weeks after 
the smoke cleared on Boylston Street, many questions remain.
    What we know today is that radical Islamists still threaten our 
homeland. While we don't know if this attack was foreign-directed, we 
certainly know it was foreign-inspired. Tamerlan Tsarnaev's trip to the 
Chechen region; the radical videos proclaiming the caliphate that he 
posted when he returned; and the type of bombs he and his younger 
brother used, all signal an al-Qaeda-inspired terrorist attack.
    While mystery continues to surround what happened on the older 
brother's trip to Dagestan, much can be drawn from what we know about 
the region. Many Chechen rebels have forged a bond with the al-Qaeda 
jihadist movement. These lethal warriors have fought side-by-side with 
al-Qaeda and the Taliban against U.S. soldiers in Afghanistan and Iraq. 
In fact, my constituent's son, Marine Sergeant Byron Norwood, was 
killed by nine Chechen rebels in Iraq.
    Perhaps most appalling, are the suspect's reported statements 
following his capture. These men who hate our values used our freedoms 
to kill Americans.
    Since the bombing, questions have been raised about whether dots 
were connected before and after the attack. We know that Russian 
intelligence warned the FBI about Tamerlan, and that he may travel 
outside the United States to meet with extremists. We know he was then 
investigated and interviewed by the FBI, but when he travelled to the 
Chechen region in 2012, the FBI was unaware. The CIA also received an 
alert from Russian intelligence and the agency asked that he be added 
to a terror watch list.
    We now know that DHS. was alerted to his trip overseas, but nothing 
was done. In other words, he was on our radar and then he was off. What 
remains unanswered is whether this information was shared between 
Federal agencies and State and local officials.
    Almost 9 months after Tamerlan returned, he and his brother 
Dzhokhar, executed the largest terrorist attack on our soil since 9/11. 
This demonstrates that the radical jihad movement is alive and well 
around the world and in the homeland.
    We learned over a decade ago, the danger in failing to connect the 
dots. The cornerstone of the 9/11 Commission Report was that agencies 
had ``stove-piped'' intelligence, which prevented us from seeing 
potential terrorist plots. In fact, the DHS was created in the wake of 
9/11 to help fix this problem. My fear is that the Boston bombers may 
have succeeded because our system failed. We can and must do better.
    Equally concerning is the emerging narrative which downplays the 
spread of the global jihadist movement. From the attack at Fort Hood, 
to the tragedy at Benghazi, the Boston bombings are our most recent 
reminder that we must call terrorism what it is, in order to confront 
it. You cannot defeat an enemy you refuse to acknowledge.
    I was disturbed in the days following the attack to read that some 
``officials'' had closed the case on whether there was a ``foreign 
connection,'' when the FBI had just begun its investigation. As a 
former Federal counterterrorism prosecutor, this rush to judgment was 
both premature and irresponsible.
    The American people demand and deserve accountability. And while we 
investigate what may have gone wrong, we must also pay tribute to what 
went right. Just as tragedy often exposes our weaknesses, it also 
reveals our character. The acts of heroism in Boston in the minutes and 
days after the attack made us all proud to be Americans.

    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing, and I want to thank our witnesses 
for appearing.
    This hearing has been billed as a first look at the Boston 
Marathon bombing. While it is appropriate that we examine the 
events of April 15, we need to understand and recognize our 
limitations. First, we must recognize that the events of the 
day remain under investigation. While we must fulfill our 
oversight responsibilities under the Constitution, we must be 
careful not to jeopardize an on-going criminal investigation. 
So we must exercise some discretion in our questioning and our 
statements about these events, the suspects, and theories about 
links to others who may not be in custody.
    Despite these limitations, there is much that we can 
discuss regarding the Boston Marathon bombing. We can and 
should discuss the incredible response from the police, 
firefighters, and emergency medical personnel. Once again, the 
first responder community ran toward a catastrophic situation 
when others were running away. So I want to commend the Boston 
first responders for their bravery and heroic actions, but I 
also must recognize that as first responders, they demonstrate 
that kind of bravery every day.
    Second, we need to acknowledge the people of Boston and the 
surrounding area. They not only responded with calm and 
determination on that day, but in the days that followed, they 
responded to law enforcement's call for help by sharing their 
photographs and videos. That kind of community spirit, the 
willingness to pull together and lend a hand, is one of the 
qualities that makes this country a great place.
    Additionally, we must recognize the thoughtful and 
difficult decision by the Governor of the Commonwealth of 
Massachusetts. Requiring residents to remain in their homes for 
a few days after the bombing and placing an entire city on 
lockdown was not easy. But given that the exact nature of the 
threat was unknown, it was a decision which had to be made.
    Finally, we must acknowledge the decision of the Attorney 
General to immediately refer to the bombing as an act of terror 
and send the FBI and other Federal law enforcement to assist in 
the effort to locate, arrest, and bring to justice those 
responsible.
    Mr. Chairman, as we look at the events of April 15 and the 
days that followed, we must also look at what happened before 
April 15. As the Committee on Homeland Security, we must 
acknowledge that the kind of response that occurred on that day 
would not have been possible without Federal grant funds. The 
effectiveness of the response executed by the first responders 
is a direct result of over a decade of investment and 
preparedness and response capabilities and exercises supported 
by the Federal Emergency Management Agency and its targeted 
Homeland Security grants.
    Since 2002, the Commonwealth of Massachusetts and the 
Boston urban area have received over $1.3 billion in funding 
through Federal grant programs. The Commonwealth and the Boston 
urban area have used these funds to develop the capabilities to 
prevent, prepare for, mitigate the effect of, respond to, and 
recover from natural disasters and terrorist attacks like the 
Boston Marathon bombing. Anyone who has doubts about the value 
of Federal grant dollars should be reminded of the brave 
actions of the first responders on April 15.
    So as this Congress continues to cut funding for these 
programs, I hope my colleagues on the other side who are 
Members of the committee will oppose these cuts. Refusal to 
support these funding cuts will be the greatest tribute any of 
us could make to the people of the Boston area.
    Mr. Chairman, I also recognize that in addition to the 
positive effects of Federal grant funding, the Boston bombing 
also revealed some negatives that we cannot ignore. We cannot 
ignore that, once again, it has taken a tragedy to reveal 
problems in our vast, varied, and numerous Federal databases. 
We faced a similar problem of a faulty database in a Christmas 
day bombing incident. Now we learn that there were database 
problems which made it possible for one of the bombing suspects 
to re-enter the country after a trip to Russia. It is time to 
recognize that we must develop a way to fix and integrate the 
various databases.
    We must also realize that in the Federal Government, no one 
agency or entity has the responsibility and authority to scrub 
and integrate these vast systems that contain records on 
millions of people. Congress cannot continue to complain about 
the failure of the databases without giving the authority and 
the funding to one agency to fix these problems. I guarantee 
you that if we fail to act, we will be discussing this issue 
again.
    But that is not the only issue we must act upon. Mr. 
Chairman, in response to the events of September 11, Congress 
enacted the Terrorism Risk Insurance Act of 2002. That measure 
increased availability of terrorism risk insurance for at-risk 
American businesses by guaranteeing that the Government would 
share some of the losses with private insurers should a 
terrorist attack occur. That act is set to sunset in 2014.
    Today I am introducing a bill that would not only extend 
the act, but would add some needed improvements. I urge my 
colleagues on this committee to co-sponsor this act. We must 
recognize that small businesses and others that suffer an 
economic loss due to a terrorist act should not have to 
shoulder the burden alone and should not have to rely on the 
kindness of charity.
    Finally, Mr. Chairman, as we take the first look at the 
Boston bombing, I hope we do not fall into a pattern of 
reaching conclusions before all the facts are known. At this 
point in the investigation speculation about the motivations of 
the suspects and the role of external influences seem to change 
daily. We all want to know the answers and are attempting to, 
are tempted to, reach our own conclusions, but everywhere I 
read, for everything, there is a time and a season. This is not 
the time and the season has not yet come, but it will arrive 
shortly.
    So I look forward to our second look, Mr. Chairman, where 
we can receive testimony from representatives of the 
intelligence and investigative agencies that may serve to 
answer many of our questions about motivations, the suspects, 
and external influences.
    Again, I want to thank the witnesses for appearing today, 
and I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 9, 2013
    This hearing has been billed as a first look at the Boston Marathon 
bombing. While it is appropriate that we examine the events of April 
15, we need to understand and recognize our limitations.
    First, we must recognize that the events of that day remain under 
investigation. While we must fulfill our oversight responsibilities 
under the Constitution, we must be careful not to jeopardize an on-
going criminal investigation. So we must exercise some discretion in 
our questioning and our statements about these events, the suspects and 
theories about links to others who may not be in custody.
    Despite those limitations, there is much we can discuss regarding 
the Boston Marathon bombing. We can and should discuss the incredible 
response from the police, fire fighters, and emergency medical 
personnel. Once again, the first-responder community ran toward a 
catastrophic situation when all others were running away. So, I want to 
commend the Boston first responders for their bravery and heroic 
actions. But I also must recognize that as first responders, they 
demonstrate that kind of bravery every day.
    Second, we need to acknowledge the people of Boston and the 
surrounding area. They not only responded with calm and determination 
on that day, but in the days that followed, they responded to law 
enforcement's call for help by sharing their photographs and videos. 
That kind of community spirit--the willingness to pull together and 
lend a hand--is one of the qualities that make this country a great 
place.
    Additionally, we must recognize the thoughtful and difficult 
decision by the Governor of the Commonwealth of Massachusetts. 
Requiring residents to remain in their homes for a few days after the 
bombing and placing an entire city on ``lockdown'' was not easy. But 
given that the exact nature of the threat was unknown, it was a 
decision which had to be made.
    And finally, we must acknowledge the decision of the Attorney 
General to immediately refer to the bombing as an act of terror and 
send the FBI and other Federal law enforcement to assist in the effort 
to locate, arrest, and bring to justice those responsible.
    As we look at the events of April 15 and the days that followed, we 
must also look at what happened before April 15.
    As the Committee on Homeland Security, we must acknowledge that the 
kind of response that occurred on that day would not have been possible 
without Federal grant funds. The effectiveness of the response executed 
by the first responders is a direct result of over a decade of 
investment in preparedness and response capabilities and exercises 
supported by the Federal Emergency Management Agency (FEMA) and its 
targeted homeland security grants. Since 2002, the Commonwealth of 
Massachusetts and the Boston Urban Area have received over $1.3 billion 
in funding through Federal grant programs.
    The Commonwealth and the Boston Urban Area have used these funds to 
develop capabilities to prevent, prepare for, mitigate the effect of, 
respond to, and recover from natural disasters and terrorist attacks 
like the Boston Marathon bombings. Anyone who has doubts about the 
value of Federal grant dollars should be reminded of the brave actions 
of the first responders on April 15.
    So, as this Congress continues to cut funding for these programs, I 
hope my colleagues on the other side of the aisle who are Members of 
this committee will oppose those cuts. Refusal to support these funding 
cuts would be the greatest tribute any of us could make to the people 
of Boston.
    But I also recognize that in addition to the positive effects of 
Federal grant funding, the Boston bombing also revealed some negatives 
that we cannot ignore.
    We cannot ignore that once again, it has taken a tragedy to reveal 
problems in our vast, varied, and numerous Federal databases. We faced 
a similar problem of a faulty database in the Christmas day bomber 
incident. Now we learn that there were database problems which made it 
possible for one of the bombing suspects to re-enter the country after 
a trip to Russia.
    It is time to recognize that we must develop a way to fix and 
integrate these various databases. But we must also realize that in the 
Federal Government, no one agency or entity has the responsibility and 
the authority to scrub and integrate these vast systems that contain 
records on millions of people. Congress cannot continue to complain 
about the failure of the databases without giving the authority and the 
funding to one agency to fix these problems.
    I guarantee you that if we fail to act, we will be discussing this 
issue again.
    But that is not the only issue we must act upon. In response to the 
events of September 11, Congress enacted the Terrorism Risk Insurance 
Act of 2002. That measure increased the availability of terrorism risk 
insurance to at-risk American businesses by guaranteeing that the 
Government would share some of the losses with private insurers should 
a terrorist attack occur. That act is set to sunset in 2014. Today, I 
am introducing a bill that would not only extend the act, but would add 
some needed improvements.
    I urge my colleagues on this committee to co-sponsor this act. We 
must recognize that small businesses and others that suffer an economic 
loss due to a terrorist act should not have to shoulder that burden 
alone and should not have to rely on the kindness of charity.
    Finally, as we take this first look at the Boston bombings, I hope 
we do not fall into a pattern of reaching conclusions before all the 
facts are known. At this point in the investigation, speculation about 
the motivations of the suspects and the role of external influences 
seems to change daily.
    We all want to know the answers and are tempted to reach our own 
conclusions. But somewhere I read--to everything there is a time and 
season. This is not the time and the season has not yet come. But it 
will arrive shortly. So, I look forward to our second look, where we 
can receive testimony from representatives of the intelligence and 
investigative agencies that may serve to answer many of our questions 
about motivations, the suspects, and external influences.

    Chairman McCaul. I thank the Ranking Member. Let me just 
say as a former Federal prosecutor I always reserve judgment 
until all of the evidence is in on the case. With respect to 
grant funding, I met with the Boston Fire Commissioner 
yesterday who told me if it wasn't for the Department of 
Homeland Security grant funding that helped them with their 
training exercises and response exercises, that it could have 
been a different situation, and that that helped in saving, I 
think, many American lives.
    So, with that, let me just say we are pleased to have the 
witnesses here today on this important topic. Our first 
witness, no stranger to the Congress, our friend and colleague, 
Senator Joseph Lieberman. We all know he represented the State 
of Connecticut in a very distinguished way in the United States 
Senate from 1989 to 2013. In the months after September 11, he 
led the fight to create the Department of Homeland Security 
which led to the creation of this committee and the Senate 
Homeland Security Committee, which he chaired until his 
retirement from the Congress earlier this year.
    With that, I thought it would be appropriate for my fellow 
colleague and friend from the Boston area, he has one of the 
best districts probably in the country, the Boston area, and he 
also represents Watertown, and I thought it would be 
appropriate for him to introduce the police commissioner and 
Mr. Schwartz.
    Mr. Keating. Thank you, Mr. Chairman. I haven't hit 
Watertown. Most of the State I have represented at one time or 
another, but thank you, Mr. Chairman, thank you, Ranking 
Member.
    I just have the pleasure of introducing Boston Police 
Commissioner Ed Davis. In 2006 Commissioner Davis was appointed 
by Boston Mayor Tom Menino to be the 40th police commissioner 
in the city of Boston. In this role he oversees police services 
for over half a million people, along with all those visitors 
that come into the great city.
    Mr. Davis I knew before he was commissioner because of his 
work in Lowell. He worked with the Lowell Police Department for 
decades. He also was a leader in using that position to bring 
different layers of law enforcement and officials together 
working in a task force with major cities. He was the 
superintendent of the office in Lowell in 1994 and during this 
period, he was recognized for reducing the crime rate in Lowell 
quicker than any other superintendent in America with over 
100,000 residents.
    Most recently, Mr. Davis led the police department's 
response to the Boston Marathon bombings on April 15. The 
heroic actions and the quick thinking of the men and women 
under Mr. Davis' leadership as well as the National Guard, Fire 
Department, first responders, and civilians and extraordinary 
medical community that we have in Boston led to the survival of 
17 critically-injured civilians on that fateful day.
    I also want to note during his leadership that he kept 
first and foremost in his mind the four victims that lost their 
lives, Lingzi Lu, Martin Richard, Krystle Campbell, and Sean 
Collier. He demonstrated extraordinary leadership and I want to 
thank you for that, Commissioner, and we are pleased to have 
you here today.
    Another friend of mine, Kurt Schwartz, is the under 
secretary of the committee in Massachusetts. He has been a 
person who has just done extraordinary work in so many 
different regards. He was an EMT himself, he was a police 
officer himself, and he has served so many different important 
positions in Massachusetts at times of crisis and emergency. In 
the Homeland Security Emergency Management in the Executive 
Office of Public Safety and Security in 2007, he was the 
leader. He also serves as the director of our MEMA agency, as 
well as the homeland security advisor for Governor Patrick in 
the State.
    He has had a long history of service to the Commonwealth 
and he has also been under secretary for law enforcement and 
fire services under Governor Patrick as well. Further, he has 
worked for 8 years under the Attorney General where he worked 
with district attorneys and other law enforcement officials 
like myself. For the 5 years as chief of the Criminal Bureau 
and the 12 years as assistant district attorney in Middlesex 
County, he, again, expanded a resume that is rich and deserved.
    This doesn't really include the full picture of Kurt 
Schwartz. He is a man who brought people together. Most 
recently, Under Secretary Schwartz played a critical role in 
emergency planning and response to the Boston Marathon attacks. 
He oversaw and participated in many of the training exercises 
which aided in the response so successfully on April 15 and 
further managed Governor Patrick's shelter in place ordered or 
the lockdown for the city of Boston. This aided in the 
successful apprehension of the suspects and also saved possible 
damage for their other actions that they had contemplated.
    I want to thank both of these gentleman for being here. I 
have been proud to work with you personally, and you are to be 
both thanked for what you have done to save lives in this 
terrible tragedy that hit us in Boston. Thank you.
    Chairman McCaul. I thank the gentleman from Massachusetts.
    Our final witness is Professor Erroll Southers. Mr. 
Southers is the associate director of the National Homeland 
Security Center for Risk and Economic Analysis of Terrorism 
Events at the University of Southern California. Thanks for 
being here today. Mr. Southers formerly served as deputy 
director in California in the Office of Homeland Security.
    The witnesses' full statements will be made part of the 
record. The Chairman now recognizes Senator Lieberman for his 
5-minute opening statement.

STATEMENT OF HON. JOSEPH I. LIEBERMAN, FORMER SENATOR, STATE OF 
                          CONNECTICUT

    Mr. Lieberman. Chairman McCaul, Ranking Member Thompson, 
and Members of the committee, thanks very much for inviting me 
to testify and for giving me the honor of doing so alongside 
Commissioner Davis, Secretary Schwartz, and Professor Southers.
    As the Chairman was kind enough to say, after the terrorist 
attacks on America on 9/11/01, I was privileged to work with 
colleagues in both Houses, both parties, and the Executive 
branch to enact the most comprehensive reforms of our National 
security system since the beginning of the Cold War in the late 
1940s, and that was appropriate because as a result of 9/11, we 
entered a new phase of our security history against a very 
unconventional enemy. I am grateful that the reforms we adopted 
and the organizations we created have worked very well to 
protect the American people from terrorist attack since 9/11. 
But, as we saw in Boston, they are not perfect. Here is the 
record in brief.
    Since 9/11, no terrorist plot planned and launched from 
abroad against our homeland has succeeded. At least 65 home-
grown terrorist plots have been stopped. That is a remarkable 
record and a tribute to the men and women, civilian and 
military, public and private, who have devoted their lives to 
keeping us safe. But the reality is that three terrorist 
attacks, all home-grown, have succeeded: Carlos Bledsoe, who 
killed an Army recruiter in Little Rock in 2009; Nidal Hasan, 
who killed 13 at Fort Hood later that same year; and now the 
Tsarnaev brothers who killed 4 and severely wounded many more 
in Boston less than a month ago.
    The Boston attack was, in fact, the first successful 
terrorist attack, foreign or home-grown, on civilians, 
nonmilitary personnel, in America since 9/11. Could it have 
been prevented and stopped? Well, from what I know of the facts 
in Boston, and none of us know them all at this point, and from 
what I have learned over the years about home-grown Islamist 
terrorism, I believe that though it would not have been easy, 
it was possible to have prevented the terrorist attacks in 
Boston. In a literal sense, the homeland security system we 
must acknowledge that we built after 9/11 to protect the 
American people from terrorist attacks failed to stop the 
Tsarnaev brothers. With your help, we must find out why and fix 
it.
    I remember a leader in our homeland security system 
nationally once said to me that terrorists can keep coming at 
us and they only have to succeed once. We have to stop them 
every time, and that is almost impossible, but that is the 
standard our homeland security defenders hold themselves to and 
we have to as well. That is why I am so grateful you have begun 
this investigation. I think you have got to go back step by 
step, pull it apart, and ask: What more could the public and 
private individuals involved here have done to prevent this? If 
I may respectfully offer four brief points of counsel.
    The first is that in today's political environment whenever 
there is a Governmental failure, there is also the risk that 
the administration in power will become defensive and not share 
information and that Congress will be divided by partisan 
politics and lose sight of its overriding mission which, of 
course, is to protect the American people from the next planned 
terrorist attack. I hope and believe that this Congress and 
this administration will not let that happen this time.
    Second, the Boston Marathon attacks should, again, teach us 
that the enemy we face is violent Islamist extremism, not just 
al-Qaeda. Osama bin Laden is dead, and the remaining leadership 
of al-Qaeda is on the run, but the ideology of violent Islamist 
extremism is rapidly spreading.
    We don't know yet whether the Tsarnaev brothers were 
involved with any foreign group, but we do know that they 
adopted the outrageously false narrative of violent Islamist 
extremism, that Islam and America are involved in a struggle to 
the death with each other. That fact compels us to ask again 
how this ideology and radicalization to it can be countered and 
ultimately stopped. The leaders and members of the world's 
Muslim communities, including our own fellow Americans who are 
Muslim, probably have the greatest capacity to do the most 
important work of counter-radicalization, but the rest of us 
have a responsibility to help.
    No. 3: Prior to 9/11, Mr. Chairman, as you have said, there 
was too little sharing of information about terrorist threats 
among Government agencies, and therefore, the so-called dots 
could not be connected because they weren't even on the same 
board. Our post-9/11 reforms aimed to overcome that serious 
problem, and to a significant degree, they did.
    In fact, today there is so much information being shared on 
the same metaphorical boards by Governmental agencies that the 
larger problem for our homeland security personnel may be being 
able to separate the wheat from the chaff, to identify the most 
important dots on the board so that they can be connected.
    That may have been a big part of the problem in the Boston 
case. I urge you to try to determine whether it was, as well as 
to ask whether lingering failures to share information, in this 
case, particularly by the FBI and the Department of Homeland 
Security, made it more difficult to prevent the Boston attack. 
It may be that the most damaging failure to share information 
was committed by the Russian intelligence service whose 
original inquiries to the FBI and CIA were quite vague and 
apparently whose knowledge of what Tamerlan Tsarnaev did in 
Dagestan and Chechnya last year was not really conveyed to our 
Government in any degree until after the Boston Marathon 
attacks.
    However, we have still got to ask, and I hope you will: 
Shouldn't the fact that the first notice of Tamerlan Tsarnaev's 
possible radicalization came to us from a very uncommon source, 
Russian intelligence, have marked the case for special handling 
by our Government, and guaranteed that this file would not be 
closed?
    Were the original FBI interviews of Tamerlan Tsarnaev 
adequate to determine whether he was likely to radicalize to 
violent Islamic extremism? Was the FBI investigation curtailed 
by existing Attorney General guidelines on such investigations, 
which go back to the previous administration? Did the FBI 
enlist the help of State and local law enforcement, either on 
or off the Joint Terrorism Task Force in Boston to continue to 
watch Tamerlan engage with his friends, associates, and 
community leaders and monitor his internet activities for the 
purpose of assessing whether he was radicalizing even further? 
Why didn't the Department of Homeland Security notify the FBI 
and the Boston JTTF when its system pinged that Tamerlan 
Tsarnaev had returned from Dagestan and Chechnya?
    Finally, fourth, when it comes to preventing home-grown 
terrorists from attacking us, our Homeland Security agencies 
cannot do it alone. The Government needs the help of the 
American people. If people see something suspicious, they must 
say something to our Government.
    In this case, there were people who clearly could have 
prevented the massacre at the marathon by just saying 
something. Most obvious are the three friends of Dzhokhar 
Tsarnaev that have been arrested. Certainly they should have 
told police what they saw and heard instead of allegedly 
obstructing justice. It is also true that the leaders and 
members of the Boston mosque that threw Tamerlan out because of 
his extreme views could have said something to the police, and 
even done something to counter his radicalization. Even members 
of the Tsarnaev family, including Tamerlan's wife, could have 
saved lives, including Tamerlan's, if they had said something 
or asked someone for help.
    Mr. Chairman, Ranking Member, the cost of silence as we 
learned again on April 15 can be enormous, as enormous as the 
cost of not aggressively carrying out the post-mortem 
investigations that you in Congress and the administration have 
now begun. I thank you for that, and I will do anything I can 
to help you in this investigation, beginning with answering 
your questions this morning.
    [The prepared statement of Mr. Lieberman follows:]
           Prepared Statement of Senator Joseph I. Lieberman
    Chairman McCaul, Ranking Member Thompson, thank you for inviting me 
to testify and for giving me the honor of doing so alongside Boston 
Police Commissioner Edward Davis and Massachusetts Under Secretary for 
Homeland Security Kurt Schwartz.
    After the terrorist attacks on America on 9/11/01, I was privileged 
to work with colleagues in both houses, both parties, and the Executive 
branch to enact the most comprehensive reforms of our National security 
architecture since the beginning of the Cold War in the late 1940s. The 
attacks of 9/11 forced America into a new war with a very different 
kind of enemy that required us to develop new offensive and defensive 
capabilities.
    I am grateful that the reforms we adopted and new organizations we 
created have worked well to protect the American people from terrorist 
attacks but, as we saw in Boston, they are not perfect.
    Since 9/11, no terrorist plot planned or launched from abroad 
against our homeland has succeeded. That is a remarkable record and is 
a testament to the commitment of the men and women--both civilian and 
military--who have devoted their lives to keeping us safe.
    Since 9/11, at least 65 home-grown terrorist plots planned and 
launched right here in the United States have been stopped. But three 
have succeeded in that at least one American was killed--Carlos Bledsoe 
killed an Army recruiter in Little Rock in 2009; Nidal Hasan killed 13 
at Fort Hood later that same year, and now the Tzarnaev brothers killed 
4 and severely wounded many more in Boston during the week of April 15, 
2013.
    The Boston attack was the first successful terrorist attack--either 
home-grown or launched from abroad--on a non-military target in America 
since 9/11. From what I know of the facts and what I know about home-
grown Islamist terrorism and our efforts to prevent it, I believe it 
would have been hard--but not impossible--to have stopped the Tzarnaev 
brothers before the attacks.
    To put it bluntly, our homeland defense system failed in Boston. 
With your help, we must find out why and fix it.
    As you know, the 9/11 Commission concluded that our Government's 
most significant failure that helped make those attacks possible was a 
failure of imagination--we could not imagine that an Islamist terrorist 
organization operating out of Afghanistan would have the intent and 
capability to send 19 men to the United States to hijack four airliners 
with the purpose of crashing them into buildings and killing as many 
innocent Americans as possible.
    We cannot say there was the same failure of imagination regarding 
the Boston attacks. A home-grown terrorist attack on a large public 
event just like the one in Boston had been a concern of Federal, State, 
and local law enforcement for years, and especially since the London 
transit bombings in 2005 when four individuals living legally in the 
United Kingdom planted bombs on busses and trains killing 52.
    In the aftermath of those attacks, the law enforcement and 
intelligence communities as well as Congress tried to determine the 
extent to which similar attacks might happen here. At the time of the 
2005 London bombings, the conventional wisdom was that America was 
relatively immune from such attacks because we did a better job 
assimilating and integrating immigrant communities. It was widely 
believed that young men in the United States--and it is nearly always 
young men between the ages of 18 and 35 who are involved--felt more 
accepted here than their peer groups did in Europe and could self-
identify as both American and Muslim.
    In contrast, according to this view, in communities in Europe where 
the threat of home-grown Islamist terrorism was greater, there was a 
tendency for young immigrants to feel isolated and alienated. The 
result was an identity crisis that left disenfranchised young men 
looking for answers about who they were and how to solve the personal 
problems they were facing.
    The solution they were looking for occasionally arrived in the form 
of violent Islamist extremism (VIE), an ideology that provided an 
identity but also an ideology that justified violence against those 
they thought responsible for their problems. The ideology of VIE 
includes some or all of the following tenets:
  <bullet> A global state--or caliphate--must be re-established in 
        which the most radical interpretation of Shari'ah (Islamic 
        religious law) will be adopted and strictly enforced;
  <bullet> Adherents of VIE should be loyal to the global Islamist 
        community--the ummah--rather than the community or country in 
        which they live; and
  <bullet> The tactic of choice to restore the caliphate and hurt those 
        responsible for global and/or specific regional Muslim 
        suffering was and remains acts of terrorism against any 
        meaningful target, regardless of whether it be military or 
        civilian.
    In the years before and immediately following 9/11, America's 
ability to assimilate and integrate immigrant communities proved to be 
our best defense against home-grown attacks inspired by VIE.
    But those defenses began to fail as al-Qaeda and other Islamist 
terrorists organizations turned to the internet. Al-Qaeda leadership, 
with the help of its English language spokesperson American Adam 
Gadahn, began disseminating videos and other messages on-line targeting 
potential recruits inside the United States. Chatrooms and other on-
line fora emerged as platforms where VIE sympathizers all over the 
world, including here in the United States, could connect and build 
networks. Increasingly, VIE sympathizers could find material that 
provided instructions to actually carry out a home-grown attack. One of 
the most prominent examples of such operational material is al-Qaeda in 
the Arabian Peninsula's (AQAP) on-line magazine Inspire, which was 
written in part by an English-speaking American named Samir Khan and 
included instructions in how to build bombs like the ones used in the 
Boston bombings. Dzhokhar Tzarnaev has apparently told authorities that 
he and his brother learned how to build the bombs they used by 
following the instructions in Inspire.
    As VIE spread on the internet and bypassed America's traditional 
defenses, our law enforcement and intelligence communities grew 
increasingly concerned that we would also face a growing home-grown 
threat. A July 2007 National Intelligence Estimate entitled The 
Terrorist Threat to the U.S. Homeland stated:

``[T]he spread of radical--especially Salafi--Internet sites, 
increasingly aggressive anti-U.S. rhetoric and actions, and the growing 
number of radical, self-generating cells in Western countries indicate 
that the radical and violent segment of the West's Muslim population is 
expanding, including in the United States. The arrest and prosecution 
by U.S. law enforcement of a small number of violent Islamic extremists 
inside the United States--who are becoming more connected 
ideologically, virtually, and/or in a physical sense to the global 
extremist movement--points to the possibility that others may become 
sufficiently radicalized that they will view the use of violence here 
as legitimate.''

    FBI Director Mueller testified that same year at a hearing on the 
sixth anniversary of the 9/11 attacks that ``al-Qaeda [was] also 
inspiring individuals with no formal links to the group. The threat of 
home-grown terrorists or extremists, acting in concert with other like-
minded individuals, or as lone wolves, has become one of the gravest 
domestic threats we face.''
    An attack like the Boston bombing has been a concern for the U.S. 
Government for years. In fact, we have not only been concerned about 
the possibility of such attacks, we have made considerable efforts to 
understand why and how individuals become radicalized, why some 
terrorists succeed and others do not, and, most importantly, what we 
can do to prevent homegrown terrorism.
    Unlike 9/11, the ability of the Tzarnaev brothers to plan, arm 
themselves, and carry out the bombings without detection right here in 
the United States was not the result of a failure of imagination. 
Rather an attack like this had been predicted for years, which leads me 
to conclude that the success of these attacks was the result of errors 
made within our existing homeland security system--both public and 
private--and by a failure to do enough at the Federal, State, and local 
levels to counter home-grown terrorism inspired by VIE in the first 
place.
    After the Fort Hood shootings in 2009, Senator Collins and I 
launched an investigation in which we had two key lines of inquiry that 
I think are relevant here. We started with an assessment of the 
information the Government had prior to the Fort Hood attacks and the 
actions it took or failed to take in response to that information. And 
then we asked what additional steps are necessary to protect against 
future home-grown terrorist attacks inspired by the ideology of VIE.
    With regard to the first line of inquiry, it is still too early to 
determine which mistakes were made in the run-up to the Boston attacks, 
but it is not too early to ask some direct questions that demand 
answers, including the following:
    (1) Should the fact that the first notice we received of Tamerlan 
        Tzarnaev's radicalization was from the Russian intelligence 
        service have warranted special handling or guaranteed that his 
        file would not be closed too soon? Experts who have studied 
        homegrown Islamist terrorism have found that those who had 
        prior relationships with Islamist terrorists overseas were more 
        likely to succeed in planning and carrying out an attack at 
        some point. It is also often the case that those with foreign 
        contacts who travel overseas are more likely to come to the 
        attention of law enforcement and the intelligence communities. 
        That happened here, but the FBI did not act on that notice and 
        the foreign travel and contacts by Tamerlan were, for some 
        reason, not enough of a collective red flag to warrant more 
        attention from our homeland security personnel.
    (2) Were the FBI's interviews and surveillance of Tamerlan adequate 
        to determine that he was not a candidate to radicalize to the 
        point of wanting to commit a terrorist attack? Radicalization 
        is, after all, a process and it is possible Tamerlan was not 
        yet considering violence when the FBI interviewed him. 
        Nevertheless, did the FBI interviewers know what to look for in 
        terms of the radicalization process? Did they consider whether 
        Tamerlan might fit the profile of an emerging home-grown 
        terrorist who warranted greater monitoring and surveillance?
    (3) Did the FBI enlist the help of State and local law enforcement, 
        either on or off the JTTF, to continue to watch the brothers, 
        engage with their friends, associates, and community leaders or 
        monitor their internet activities--including Tamerlan 
        Tsarnaev's YouTube account, which openly recommended a 
        collection of jihadist videos--for the purpose of assessing if 
        either or both of the brothers were radicalizing? The FBI does 
        not have the resources or personnel to monitor all potential 
        terrorist threats in this country and must rely on State and 
        local law enforcement, which, as Commissioner Davis and 
        Secretary Schwartz will tell you, know their communities best 
        and are proven force multipliers in efforts to prevent 
        terrorist attacks, particularly home-grown attacks.
    (4) Did the FBI and specifically the JTTF in Boston enlist the help 
        of the local Muslim community in assessing whether Tamerlan was 
        likely to radicalize? Did the FBI or local law enforcement have 
        sufficient relationships within the local Muslim community to 
        make that request? Or was there a wall that prevented the local 
        Muslim community from assisting law enforcement with its 
        assessment of whether Tamerlan might become a threat?
    (5) Why didn't the DHS notify the FBI and the Boston JTTF when its 
        system ``pinged'' that Tamerlan Tzarnaev had left America for 
        Russia on his way to Dagestan? As this committee knows, JTTFs 
        are units in FBI field offices that conduct counterterrorism 
        investigations primarily in their areas of jurisdiction. The 
        failure of JTTFs to share critical information made it possible 
        for Nidal Hasan to carry out the attacks at Fort Hood. Did 
        something similar happen here? Had the Boston JTTF known about 
        Tamerlan's departure and lengthy stay in Dagestan, would they 
        have taken a second look at his potential ties to Islamist 
        terrorists?
    As for the second line of inquiry, I hope your committee will also 
ask what other programs or policies could protect the United States 
from future home-grown terrorist attacks while also not violating First 
Amendment rights of free speech and free exercise of religion. The case 
of Zachary Chesser, a U.S. citizen now serving a 25-year sentence for 
material support for terrorism, illustrates some of the challenges law 
enforcement faces in these cases. Just before turning 19 in 2008, 
Chesser, a Virginia native, started posting on Anwar al-Awlaki's blog 
and the following year, he created his own website--themujahidblog.com, 
which he dedicated to ``those who give their lives for this religion.'' 
Despite Chesser's postings and declared allegiances to VIE, there was 
little law enforcement could do. It was not until 2010 that Chesser had 
taken enough steps to be arrested for material support for terrorism. 
From the initial reports about the FBI's investigation into Tamerlan 
Tzarnaev, it appears they were forced by internal rules and guidelines 
to stop watching Tzarnaev even though he was arguably a prime candidate 
for radicalization.
    We must find ways to stop the spread of VIE and stop the 
radicalization process even if no crime has been committed. That is one 
of the primary policy challenges before us as we try to identify ways 
to prevent an attack like the one in Boston from ever happening again.
    The key to making that happen is a ``whole-of-society'' approach 
rather than just relying on the law enforcement and intelligence 
communities. Such an approach has been discussed and debated for some 
time now and strategies have even been written and released by the 
current and the previous administrations. If we are to move beyond the 
strategies and take steps that will fill the gap between support for 
VIE and the planning and carrying out of an attack, I believe the 
following are necessary steps:
    (1) Recognize that the Enemy is al-Qaeda and Violent Islamist 
        Ideology.--In a prescient passage, the 9/11 Commission 
        explained:

        ``Our enemy is twofold: al-Qaeda, a stateless network of 
            terrorists that struck us on 9/11; and a radical 
            ideological movement in the Islamic world, inspired in part 
            by al-Qaeda, which has spawned terrorist groups and 
            violence across the globe. The first enemy is weakened but 
            continues to pose a grave threat. The second enemy is 
            gathering, and will menace Americans and American interests 
            long after Usama bin Laden and his cohorts are killed or 
            captured. Thus, our strategy must match our means to two 
            ends: dismantling the al-Qaeda network and prevailing in 
            the longer term over the ideology that gives rise to 
            Islamist terrorism (emphasis added).''

    The first step in a whole-of-society approach is to recognize that 
        our enemy is more than just al-Qaeda and other franchised 
        Islamist terrorist organizations around the world. It is, as 
        the 9/11 Commission told us also the ideology of VIE. And when 
        law enforcement is unable to arrest an individual who might be 
        subscribing to this ideology, it is incumbent on others in our 
        society to intervene. This burden disproportionately falls on 
        the Muslim-American community, which is often in a much better 
        position to identify individuals who are espousing the ideology 
        of VIE.
    (2) Understanding the Radicalization Process.--The second step in 
        the whole-of-society approach is to understand the process by 
        which an individual transitions becoming an Islamic terrorist.
    Many news stories have been written about the personal challenges 
        of the Tzarnaev brothers and though the details of their lives 
        might be unique, the radicalization process that turned them 
        into terrorists is not. In 2007, the New York City Police 
        Department (NYPD) released a seminal report titled 
        Radicalization in the West: the Homegrown Threat.
    Recognizing that more plots against America since 9/11 had in fact 
        been home-grown rather than from overseas, NYPD set out to 
        document the radicalization process, which they broke down into 
        four stages: (1) Pre-radicalization, (2) self-identification, 
        (3) indoctrination, and (4) jihadization. The affinity for VIE 
        accelerates during the self-identification phase when a young 
        man experiences a personal crisis or crises and feels alienated 
        from his local community. He then connects their personal 
        grievances to one of the many global grievances championed by 
        violent Islamists around the world, which leads to a sense of 
        renewed purpose and a mission: To advance the cause of VIE by 
        planning and carrying out a terrorist attack against an 
        American target and those targets are increasingly in the 
        United States.
    Law enforcement, community leaders, and anyone in authority who 
        might come in contact with an individual embracing VIE must 
        become familiar with the radicalization process so that they 
        know if and when there might be a problem that warrants 
        intervention, which is the most effective ways to stop the next 
        home-grown terrorist attack.
    (3) Information Sharing Must Continue to Improve.--Prior to 9/11 
        there was too little sharing of information about terrorist 
        threats among Government agencies and therefore the so-called 
        dots could not be connected because they were not on the same 
        board. The post-9/11 reforms sought to overcome that serious 
        problem and, to a significant but not total degree, they have. 
        In fact, today there is so much information being shared on the 
        same board that the larger problem for our homeland security 
        personnel often may be seeing the important dots so that they 
        can be connected. That may have been the problem in this Boston 
        attack. I urge the committee to examine the extent to which 
        that problem as well as lingering failures to share information 
        made it more difficult to prevent the Boston attack.
    (4) Local Law Enforcement.--Defending the American people from 
        overseas threats is the first responsibility of the Federal 
        Government. The unique challenge of VIE is that it is an 
        overseas threat that, with the help of the internet, can bypass 
        our National security infrastructure and find receptive 
        audiences inside the United States. Even with the significant 
        resources the FBI has committed to counterterrorism, including 
        setting up more than 100 JTTFs around the country, there are 
        simply not enough Federal law enforcement personnel on the 
        streets and in communities to identify and prevent VIE 
        radicalization and terrorism.
    That gap must be filled by local law enforcement. Local law 
        enforcement personnel know the communities they serve better 
        than anyone else and are present in those communities every 
        day.
    There are two key ingredients to making local law enforcement a 
        more effective counterterrorism force, especially with regard 
        to stopping home-grown radicalized terrorists like the Tzarnaev 
        brothers.
    The first is education. As part of their training, local law 
        enforcement personnel should become familiar with the basic 
        tenets of VIE and the radicalization process. The second is 
        relationships. As part of their day-to-day responsibilities, 
        local law enforcement personnel are already in the business of 
        building relationships with leaders in the communities they 
        serve, but now there must be a premium on building 
        relationships with leaders of local Muslim-American 
        communities.
    The NYPD has done this well, and so has the LAPD. The LAPD's 
        approach to working with Muslim-American communities, as it was 
        explained by Deputy Chief Michael Downing to the Senate 
        Homeland Security Committee in 2007, is relevant and 
        instructive:

        ``In the LAPD, we believe that no amount of enforcement or 
            intelligence can ultimately prevent extremism if the 
            communities are not committed to working with law 
            enforcement to prevent it. Muslim-American neighborhoods 
            and communities have a genuine responsibility in preventing 
            any form of extremism and terrorism. If the broader 
            communities are intolerant of such things, these ideologies 
            cannot take root. We need to show our belief in human 
            dignity, the family, and the value of the individual, and 
            that community policing initiatives in Muslim communities 
            should aim to create a shared sense of threat. Society as a 
            whole fears the indiscriminate mass violence we are seeing 
            around the world, and only when community leaders support 
            this effort will there be a flow of credible 
            intelligence.''

    (5) See Something, Say Something.--Early intervention in the 
        radicalization process must just be one part of a National 
        ``See Something, Say Something'' effort. Our very good record 
        of stopping home-grown terrorist plots before they are carried 
        out is due in many instances to an alert member of the public. 
        ``See Something, Say Something'' must become an integral part 
        of our counterterrorism efforts so that the first instinct of 
        family and friends or associates of Dzhokhar Tzarnaev who have 
        been indicted for obstruction of justice would be to call law 
        enforcement rather than help those who are radicalized or have 
        become fully radicalized.
    ``See Something, Say Something'' is most important for leaders and 
        members of Muslim-American communities around the county for 
        they are often in the best position to identify early stages of 
        radicalization. Would the Tzarnaev brothers have been able to 
        carry out the attacks if leaders and members of the Boston 
        mosque that threw Tamerlan out because of his extremism had 
        said something to the police and done something to counter his 
        radicalization?
    The cost of silence, as we learned again on April 15, can be 
enormous, as enormous as the cost of not doing the post-mortem 
investigations that Congress and the Executive branch have now begun.
    Chairman McCaul and Ranking Member Thompson, thank you again for 
the opportunity to testify today and I look forward to helping the 
committee in any way I can as you move forward with the investigation.

    Chairman McCaul. Thank you, Senator. Thank you for your 
service to our Nation on National security issues, homeland 
security issues. We look forward to working with you. We also 
are open to your advice and counsel. I think you raised some 
excellent questions and excellent points.
    The Chairman now recognizes Commissioner Davis. Again, let 
me just say that your actions and the people of Boston made us 
all proud to be Americans. With that, I recognize you for an 
opening statement.

STATEMENT OF EDWARD F. DAVIS, III, COMMISSIONER, BOSTON POLICE 
                           DEPARTMENT

    Commissioner Davis. Thank you, Mr. Chairman. It was truly a 
team effort.
    Chairman McCaul, Ranking Member Thompson, distinguished 
Members of the committee, thank you for inviting me here today 
to discuss the tragedy that occurred in Boston on Patriot's Day 
when two cowardly brothers laid siege to one of Massachusetts's 
most venerated traditions, the Boston Marathon. I am here as 
the commissioner of the Boston Police Department, but I also 
speak on behalf of Mayor Thomas Menino, the Mayor's emergency 
management staff, and law enforcement from across the State and 
across the Nation when I describe our cooperative response to 
these attacks and what they did to our community.
    I would like to point to the four people who were killed in 
this attack. They are indicative of who was there at that event 
that day. We have 8-year-old Martin Richard who was there with 
his mother and sister, and his father had just run by 
completing the marathon when the blast went off.
    We have a Boston University graduate student, Lu Lingzi. 
She was finishing her studies and was there with friends right 
next to Martin when that bomb went off; we have a restaurant 
manager, 29-year-old Krystle Campbell, who stood with her 
friends and was at the finish line when the first explosion 
occurred and lost her life there; and a few days later we have 
officer Sean Collier who was sitting in his cruiser in 
Cambridge when these two brothers came up and assassinated him, 
a young man that had committed his life to law enforcement, a 
young man who was about to go on the Somerville Police 
Department. These individuals turned the city upside down. The 
impact on Boston will last for years. The Boston Marathon will 
come back stronger next year, but it will never happen again 
without the memory of this tragic event.
    But out of that tragedy and out of that terrible 
experience, comes an enormous amount of strength on the part of 
the community. It was alluded to earlier in conversations, but 
the medical people who staffed the tents at the finish line, 
they were there to treat people with blisters and exhaustion, 
and instead they ended up being thrown into a battlefield 
scenario treating injuries that were horrendous. If it wasn't 
for the actions of my police officers, firefighters, EMS people 
who responded to the scene and those medical people from the 
tents that ran down the street, the death toll would be much 
higher.
    So that kind of response is indicative of what happened in 
the city of Boston. I think it underlies this whole 
conversation of how Boston is strong. It involved the BAA who 
runs the event, it involved spectators, businesses in the 
downtown area, especially in the Back Bay area that were shut 
down for over a week because of the evidence processing that 
had to happen. The amount of charitable giving that occurred 
there, the patience that people had was spectacular. The cities 
and residents of Boston, Cambridge, and Watertown cooperated 
with us. When the mayor and the Governor made the decision to 
shut the city down, that was the right decision to make based 
on the information that we had at 3 or 4 o'clock that morning, 
and the residents fully cooperated, which was astounding.
    Boston is a stronger city because of this, and I hope that 
the people who commit these atrocious acts understand that 
there is a futility in their efforts. The city is back on its 
feet. We will never forget the people that you see to my left, 
but I will tell you that they had no effect on the city of 
Boston except to make us a stronger community.
    One of the things that has been much discussed here is the 
information sharing that occurred before and after this 
incident. I can't tell you how much I appreciate the 
cooperation of the FBI, the Alcohol Tobacco and Firearms, the 
Massachusetts State Police, and all of the help that they gave 
us when this happened. In the seconds after I was notified of 
this, the very first phone call I made was to Rick DesLauriers, 
the SAC of the FBI in Boston. Him and Tim Alvin, the Colonel of 
the State police, were my go-to people because we needed SWAT 
assets and EOD assets in the downtown expecting that a further 
incident would happen.
    They responded immediately and gave us all the equipment 
available in Massachusetts to respond to this thing. They were 
literally there within 30 minutes. The first victims were 
evacuated within 22 minutes, and within 30 minutes, we had 
every SWAT team in the Commonwealth either on-site or on the 
way to Ring Road, which is where we had our first meeting and 
command post.
    The information sharing that we did before-hand to prepare 
for the marathon was good. We certainly need to look at 
everything we did, and the Senator's comments are well taken. 
Everything that we did has to be reviewed so that we make sure 
that this does not happen again, and we are in the process of 
doing that. But until all the facts are out on the table, it is 
hard to say what we could have done differently. But I am 
satisfied with the preparation that we put in place.
    After 9/11, I met with Director Mueller from the FBI with 
several police chiefs, just 2 or 3 days after the incident, and 
he committed to including us in the JTTFs, and he has been good 
to his word. This is not a perfect process, but we are real 
members of that organization. I have three detectives and a 
sergeant that are at the JTTF every day and working very 
closely with the Bureau.
    We certainly need to enlist the community better. The 
points about identifying radical extremism and ferreting that 
out, the first thing that we need to do is go to the community. 
We need to explain to the community that they have a 
responsibility to their community and to their Nation and to 
what is right to report the kind of activity that these 
brothers were involved in prior to the incident. I think that 
is the first line of defense.
    There is going to be a lot of conversation about cameras 
and other technical means. There is no technical means that you 
can point to, there is no computer that is going to spit out a 
terrorist's name. It is the community being involved in the 
conversation and being appropriately open to communicating with 
law enforcement when something awry is identified, that really 
needs to happen.
    So that should be our first step. Do we have to look at 
cameras? Sure we do. Do we have to look at more bomb dogs? Do 
we have to look at utilizing the assets that the Department of 
Homeland Security and the Federal Government have provided us? 
We do have to do that, and it is really important.
    The training that you alluded to, Mr. Chairman, it is 
extremely important. It made all the difference in the world in 
our response here. People are alive today because of Urban 
Shield and the terrorism training that the Department of 
Homeland Security provided to us, there is no doubt about that, 
and further investment needs to be made in those things.
    Moving forward, the help of the Federal Government was 
critical to our response here. We need to look at how it 
happened and why it happened, and we need to do everything we 
can to prevent it. But the truth of the matter is, nobody bats 
1,000, and I think as a Nation, we need to come to terms to it 
and do everything we can to prevent it, but also recognize that 
fusion centers and intelligence analysis and Joint Terrorism 
Task Forces are part of our future.
    Boston is an international city and we derive an enormous 
benefit from the people who come to Boston for school and for 
hospital care and just to be part of our community, but the 
world is a dangerous place and I think we need to recognize 
that and be prepared for it.
    Thank you, sir.
    [The prepared statement of Commissioner Davis follows:]
        Prepared Statement of Commissioner Edward F. Davis, III
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, thank you for inviting me here today to discuss the 
tragedy that occurred in Boston on Patriots Day, April 15 when two 
cowardly brothers laid siege to one of Massachusetts' most venerated 
traditions, the Boston Marathon.
    I am here as the Commissioner of the Boston Police Department, but 
I also speak on behalf of Mayor Thomas Menino, the Mayor's Emergency 
Management staff and law enforcement from across the State and across 
the Nation, when I describe our cooperative response to these attacks 
and what they did to our community.
    On April 15 at 2:50 p.m., the elite runners had long passed the 
finish line. Boylston Street was busy with runners, spectators, and 
those enjoying the restaurants on a beautiful Marathon Monday. A young 
family with three small children, happy and clapping, stood in front of 
the Forum restaurant, pressed up against the barriers for a closer look 
at the runners. One of the children was 8-year-old Martin Richard. 
Close by was Boston University graduate student, Lu Lingzi. A 
restaurant manager, 29-year-old Krystle Campbell stood with her friends 
near the finish line. Suddenly without warning an explosion rocked the 
sidewalk of Boylston Street, near the finish line, killing Krystle 
Campbell. Before the smoke had even cleared, a second bomb exploded 12 
seconds later, in front of the Forum Restaurant, a few blocks west of 
the finish line. Martin Richard and Lu Lingzi both perished.
    First responders sprung into action and ran toward the bomb scenes 
to help. They did so with full knowledge that there could still be 
other unexploded devices in the immediate area. When I saw Boston 
Police Sgt. Christopher Connolly of the Explosive Ordnance Unit at the 
site preparing to slice open unattended backpacks that had been 
abandoned as spectators fled, searching for unexploded bombs, I paused 
to wish him luck and safety.
    Other heroes, meanwhile, rushed injured and maimed people by 
wheelchairs to the nearby medical tent with lost limbs and massive 
bleeding. Runners and spectators with medical training also did what 
they could to comfort gravely injured and dying people.
    Terrorists had killed three innocent people and injured nearly 300 
others.
    The death toll increased later in the week when MIT Police Officer 
Sean Collier was executed by the same two terrorists in nearby 
Cambridge when they ambushed him and unsuccessfully tried to get his 
weapon. Finally, Transit Officer Richard Donohue was gravely injured 
during a pursuit of these individuals who were throwing explosives and 
shooting at police officers. Thankfully, Officer Donohue will survive.
    There was tremendous work by police and other first responders 
throughout the week culminating in the death and capture of the 
brothers in the nearby community of Watertown. There was unprecedented 
cooperation among Federal, State, and local law enforcement agencies at 
the leadership and ground levels.
    The Boston Police Department for many years has enjoyed long-
standing professional and personal relationships that helped facilitate 
effective collaboration during this case. For example, within moments 
of my receiving notification from my officers about the two explosions 
at the finish line, I contacted my colleague, Special Agent in Charge 
of the FBI Boston Office Richard DesLauriers and shared all of the 
information I had at the time. He immediately began to deploy resources 
to assist us.
    Detectives and detective supervisors from the Boston Regional 
Intelligence Center represent the Boston Police Department on the FBI 
Joint Terrorism Task Force. Additionally, the Boston Police Department 
maintains a close and on-going working relationship with both the FBI 
and DHS through the intelligence personnel both agencies have assigned 
to work within the Center.
    I want to acknowledge the U.S. attorney's office, the Attorney 
General's office, the FBI, ATF, ICE, the National Guard, and our 
Massachusetts partners including the Executive Office of Public Safety 
and Security, the State Police, the attorney general's office, 
Cambridge, Watertown, MIT, transit and other neighboring police 
departments, as well as everyone who worked around the table at our 
command posts, helping us find answers.
    I also want to thank President Obama and his administration and 
especially the Department of Homeland Security for their immediate 
offer of assistance to our efforts during that crucial time.
    The Boston Marathon route is a target that spans not just the 26.2 
miles traveled by the runners, but grows to a 55-mile perimeter when 
you factor in the surrounding environs. It is clear after these events 
and other types of mass casualties such as those which have happened in 
our Nation's schools and colleges that we need to continue to harden 
soft targets, especially events that lend themselves toward large 
gatherings celebratory in nature. In the future we will review the need 
to deploy more assets including technology, cameras, undercover 
officers, and specialized units. We will continue to enhance 
preparedness training for all of our officers to protect these large 
events.
    This need, however, must be balanced against the protection of our 
Constitutional liberties. I do not endorse actions that move Boston and 
our Nation into a police state mentality, with surveillance cameras 
attached to every light pole in the city. We do not, and cannot live in 
a protective enclosure because of the actions of extremists who seek to 
disrupt our way of life.
    My police career has been built on the concept of community 
policing that encourages our officers to get out of cars, talk with 
people, and solve problems in partnership with the community. This 
absolutely works. The community played a critical role in this fight 
against terrorism. In Watertown, despite heavy police presence for more 
than 12 hours, and a house-by-house search in a 20-block perimeter for 
one of the two suspects, it was the critical observation of a neighbor 
that something was amiss in his backyard that led to the capture of one 
of the bombers. In Boston, it was the cooperation of the owners of the 
Forum Restaurant whose video cameras led to the identification of the 
two terrorists. It was the cooperation of the people of Boston, 
Watertown, and several other neighboring communities who voluntarily 
assisted our police departments by staying indoors during this 
protracted manhunt that led to the safe resolution of the capture.
    Communication with the public was essential throughout the entire 
week. Employing the Boston Police Department's Facebook and Twitter 
social media accounts allowed us to stay immediately connected with our 
residents, tourists, and business community. We were able to both give 
and receive information that maintained our dialogue with our community 
partners.
    The Federal Government provided invaluable assistance both in 
helping us prepare for and respond to this tragic event. Preparedness 
training provided through UASI and other Federal funding set a 
framework for multiple jurisdictions to work seamlessly with one 
another in a highly effective manner. Technology such as the vehicle 
that pulled the tarp off a boat in Watertown where the second suspect 
was hiding and we believed was armed with another improvised explosive 
device, or other support systems such as our command posts or armored 
vehicles all provided safety and allowed for the suspect to be captured 
alive.
    Additionally, the world-wide exchange of information that has 
occurred in law enforcement has absolutely led to better preparation 
and training for our first responders. For example, I and other members 
of the Police Executive Research Forum met in London with Metropolitan 
Police Commissioner Sir Ian Blair following the 2005 terrorist bombings 
there. At that meeting, Sir Ian provided certain information about 
backpack bombs, information that 8 years later would prove invaluable 
to our management and helped me make informed, strategic decisions.
    Working with police officials from Northern Ireland, Israel, and 
Jordan has given me invaluable insight in dealing with what is now a 
global problem. Such meetings and exchange of information going forward 
should be a fundamental part of our preparedness in this country.
    The actions of September 11, 2001, as well as the other discovered 
plots against our Nation have helped all of us prepare better. We have 
all adapted our way of living, and have forced us to think the 
unthinkable. Because of that preparation, when a crisis does emerge, 
there are carefully scripted and measured responses to these 
emergencies. This evolving process has taught us to remain vigilant and 
to continue to strive for the highest level of safety possible.
    Clearly, we can and must do more. I come before you today to ask 
for continued investments in infrastructure that would aid in our 
policing efforts.
    In the case of the Boston Marathon bombings, we had to rely almost 
exclusively on the support of our business partners to provide critical 
video surveillance along the finish line. The information helped us 
identify and catch these two terrorists. I strongly support the 
enhanced ability to monitor public places. This monitoring, which been 
upheld by the United States Supreme Court, violates no 
Constitutionally-protected rights but gives police the ability to 
investigate and effectively prosecute. Images from cameras do not lie. 
They do not forget. They can be viewed by a jury as evidence of what 
occurred.
    These efforts are not intended to chill or stifle free speech, but 
rather to protect the integrity and freedom of that speech and to 
protect the rights of victims and suspects alike.
    I also encourage the Federal Government to continue the important 
funding for the hiring of police officers as well as intelligence 
analysts, who are needed for both the prevention of further crimes as 
well as to respond to incidents such as this one.
    Additionally, law enforcement needs secure radio bandwidth in a 
public safety spectrum dedicated exclusively to public safety use. We 
cannot rely on commercial carriers for public safety emergency 
communications. In the minutes immediately following the attacks, cell 
phone communication was ineffective, and virtually non-existent. For 
this reason, radio communications for first responders became the only 
means to deploy forces and manage the operations. These frequencies 
play a critical role during a major incident and allow us to do our 
jobs properly.
    Patriots Day 2013, and indeed, the ensuing days that saw the 
largest manhunt in the history of New England unfold across several of 
our communities, changed us all forever. It is my fervent hope that we 
can maintain our freedom, and protect our fundamental values and at the 
same time, harden our resolve to discourage and thwart extremists like 
the two who tried and failed to change our way of life. These 
criminals, who cultivated their plans by accessing extremist literature 
and then executed them on unsuspecting men, women, and children, are 
reprehensible deviants, nothing more.
    In closing, on behalf of the Boston Police Department, I want to 
thank the massive showing of support from law enforcement agencies who 
answered our call for help during that week in April. I also want to 
thank the scores of unexpected heroes who emerged during that horrific 
event, literally saving the lives of innocent victims.
    The actions of the Boston Marathon medical personnel who rushed and 
provided life-saving first aid to the victims, as well as those runners 
and spectators who assisted, and the scores of doctors and nurses at 26 
of some of the best hospitals in the world saved dozens more lives. 
Thank you also to the scores of Boston Athletic Association volunteers 
who assisted the Boston Police, Fire, and EMS first responders on the 
scene.
    We also must acknowledge the tidal wave of financial support that 
has helped raise more than $30 million for the victims, money raised by 
grassroots events such as community bake sales, or from everyday 
citizens like the staff at the Lenox Hotel, which was commandeered as a 
tactical command post, and whose staff donated every penny of their 
tips during those initial days to the One Fund charity set up to help 
the victims.
    I want to acknowledge the devastating effects those explosions took 
on nearly 300 innocent victims--the four you see before you, as well as 
victims such as Celeste and Sydney Corcoran from Lowell, Massachusetts, 
where I first became a police officer. I had the honor of visiting with 
them in their hospital room, and to say I was humbled by their courage, 
tenacity, and unyielding human spirit would be a gross understatement. 
I also met with Transit Officer Richard Donohue, shot in the leg during 
a shoot-out with the suspects in Watertown. He lost his whole volume of 
blood and nearly died from his wounds but was saved by fire department 
personnel and hospital medical personnel. Thankfully, he is on his way 
to recovery.
    I want to thank the residents of the city of Boston, as well as our 
neighboring communities who found themselves under attack during those 
five days in April, and in many cases, provided us with crucial 
information to help bring this case to a resolution.
    I want to thank Governor Deval Patrick and Boston Mayor Thomas 
Menino for their unrelenting support and the on-going deployment of 
resources to assist both law enforcement and the victims of this 
attack.
    But most importantly, I want to recognize names that must never, 
ever, under any circumstances, be forgotten.
    MIT Police Officer Sean Collier was assassinated by the two 
terrorists while doing his job, helping to keep his college community 
safe. Sean wanted nothing more than to be a police officer, and his 
courage and legacy must never be forgotten.
    Boston University graduate student Lu Lingzi was on Boylston Street 
with her college friends, cheering alongside the thousands of other 
supporters when one of the bombs killed her.
    Krystle Campbell was described by friends as always having a smile 
on her face. Her smile lives on in all of the memories and photographs 
of her shared by family and friends.
    And finally, remember the name of Martin Richard, the innocent 8-
year-old boy who stood wide-eyed as marathon runners raced past him, 
standing atop the braces of a metal barrier as one of these killers 
purposely left a backpack of explosives just feet from him, a boy now 
forever immortalized by his school project poster, imploring ``No more 
hurting people. Peace.''
    Thank you on behalf of the city of Boston, where next April we will 
proudly honor not just the tens of thousands of runners in the 118th 
Boston Marathon, but we will also remember the countless supporters who 
come to cheer them on and who help make the Boston Marathon such an 
historic celebration of perseverance and the human spirit. Boston is 
considered by many to be the birthplace of our Nation's liberty, and we 
won't let actions like these deter us. We continue to move forward, 
because in Boston, home of the Boston Marathon, we were born to run.
    These two terrorists tried to break us. What they accomplished was 
exactly the opposite. They strengthened our resolve, causing us to band 
to together as a city and a Nation in times of crisis, to help one 
another during life-changing moments, to allow heroes to emerge, and to 
prove to Bostonians and to the world, that our city is indeed, Boston 
Strong.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman McCaul. Thank you, Commissioner. Let me say on 
behalf of the committee, we thank you for your efforts, your 
department. Our hearts really go out to the victims and their 
families, both those killed and then the 260 that were wounded 
on a battlefield, many of whom I believe your department and 
the first responders saved on that day. So let me just say 
thank you for that.
    The Chairman now recognizes Under Secretary Schwartz for an 
opening statement.

   STATEMENT OF KURT N. SCHWARTZ, UNDER SECRETARY, EXECUTIVE 
     OFFICE OF PUBLIC SAFETY AND SECURITY, COMMONWEALTH OF 
                         MASSACHUSETTS

    Mr. Schwartz. Thank you, Chairman McCaul, Ranking Member 
Thompson, Members of the committee. On behalf of Governor 
Patrick, I thank you for this opportunity to share thoughts and 
insights as you take your first look at the tragic events 
related to the Boston Marathon bombings.
    The week of April 15 in and around Boston demonstrated the 
value of our investments of money, time, and resources in our 
local, State, and Federal homeland security enterprise. Within 
seconds of the bomb blasts at the finish line of the marathon 
an array of personnel, resources, and capabilities, many of 
which were funded with homeland security grant dollars, were 
brought to bear to triage and care for the wounded, communicate 
with the public, provide situational awareness for decision 
makers, ensure the safety and security of the public and 
critical infrastructure, set up a joint command center, and 
ultimately identify and apprehend the suspected terrorists.
    The speed with which Boston responded, supported by the 
State police, the National Guard, the transit police and dozens 
of local, regional, State, and Federal law enforcement agencies 
and other first responders is a testament to the Homeland 
Security spending and investments in preparedness, training, 
and exercises, effective mutual aid systems, coordinated 
response systems, and outstanding leadership.
    I speak with first-hand knowledge of the heroic work done 
by our public safety team on April 15 and in the following 
days. I arrived on Boylston Street only minutes after the blast 
where I joined city and State public safety officials, 
including Commissioner Davis and Colonel Alvin of the 
Massachusetts State Police, and I was still with this team, 
privileged to be with this team 4 days later when the last of 
the suspected terrorists was captured in Watertown.
    I commend Governor Patrick and members of his 
administration, including Secretary of Public Safety Cabral, 
the State police, the transit police, the National Guard, and I 
also commend Commissioner Davis, the men and women he commands 
and the first responders from the Boston Fire Department and 
Boston EMS and the many other local, State, and Federal public 
safety agencies that responded into Boston for their 
extraordinary performance under horrific circumstances.
    As you all know, April 15 marked the 117th running of the 
Boston Marathon, one of the most prestigious marathons in the 
world. In Massachusetts, quite simply, the marathon is a big 
deal and public safety for the marathon also is a big deal. For 
local, regional, and State public safety officials, the Boston 
Marathon is one of our largest annual events, and we 
appropriately dedicate substantial planning and operational 
resources to protect as best we can the runners and spectators 
and the eight cities and towns that host the race.
    On April 15, the public safety community was prepared. As 
it has done in the past, the Massachusetts Emergency Management 
Agency, MEMA, brought together a multi-agency, multi-discipline 
team last January that spent 3 months developing the 
operational plans, the coordination plans for this year's 
marathon. On race day, an 80-person, multi-agency coordination 
center was operational at MEMA. Representatives from Boston's 
police, fire, and EMS services, and public safety personnel 
from the other seven cities and towns along the 26-mile course 
were present in the center, along with key State and Federal 
agencies such as the Massachusetts State Police, the Department 
of Fire Services, Office of Emergency Medical Services, public 
health, National Guard, the Commonwealth Fusion Centers, the 
FBI, the Department of Homeland Security, the FAA, the Coast 
Guard, and our partners, the Boston Athletic Association.
    Along the 26-mile course, local, regional, and State 
tactical teams, hazardous materials response teams, DOD teams, 
the National Guard civil support team, mobile command posts and 
State Police helicopters were deployed as part of an all-
hazards operational plan.
    In short, when the 27,000 runners started the race in 
Hopkinton, as a community, we were prepared from the starting 
line to the finish line in Boston. As we well know, at 2:50 
p.m., April 15, two powerful bombs were intentionally detonated 
12 seconds apart on Boylston Street within a short distance of 
the finish line. The results were catastrophic; three people 
killed and over 250 injured, dozens of them seriously.
    The response by the public, by bystanders, witnesses, and 
volunteers in those moments after the blast was nothing short 
of remarkable. The public safety response was equally 
incredible. The response that I witnessed speaks volumes about 
the investments that we have made in the Commonwealth to 
enhance our homeland security.
    From a high-level systemic view, several common themes and 
key factors stand out as we assess the massive, swift, and 
effective public safety response to the bombings. There is a 
clear correlation, as others have said, between the 
effectiveness of response operations in the aftermath of the 
bombings and our homeland security investments. The response to 
the bombings relied heavily on specialized capabilities that 
have been built and sustained through our homeland security 
programs. The response to the bombings was augmented through 
preexisting inter- and intrastate mutual aid agreements that 
have been built on regional response strategies and plans.
    Interoperability was a huge success story. Over the years 
the millions of dollars that we have invested under local, 
regional, and State interoperability plans ensured the 
responders and command personnel were able to effectively 
communicate between agencies, between disciplines, and between 
jurisdictions.
    We benefited from our history of using pre-planned events 
like the marathon as real-life opportunities to exercise and 
utilize our command posts and our emergency operations centers, 
to test our plans and mutual aid systems, to activate our 
specialized response teams, to stay familiar with the 
technology systems that we rely on during emergencies, and to 
strengthen personal and professional relationships amongst 
people, agencies, disciplines, and jurisdictions that otherwise 
may not have opportunities to work together.
    We benefited from our investments in regional exercise 
programs that allow first responders to hone specialized skills 
and gain familiarity with responders from other areas who may 
be called in to support under mutual aid agreements.
    The cooperation and collaboration across agencies, 
disciplines, and jurisdictions was immediate and extraordinary. 
There was unity of focus and unity of purpose at the command 
level and through the ranks all the way down to the first 
responders on Boylston Street on April 15 and to the thousand-
plus police officers that participated in the State's largest 
man-hunt on April 18 and 19.
    The relationship between public safety leaders and public 
officials at all times was open, positive, and constructive. 
Governor Patrick and Mayor Menino regularly communicated with 
each other and consulted with and were briefed by their public 
safety leaders such as Commissioner Davis and Colonel Alvin of 
the State Police. Their decisions were informed by and 
reflected public safety concerns, needs, and objectives, and 
this fostered constructive decision making and opportunities 
for bold out-of-the-box decisions.
    The support from the Federal Government, as you have heard 
from others, was immediate and effective. I need to personally 
thank FEMA, the Department of Homeland Security, the Executive 
Office of Health and Human Services, all of whom were on the 
ground and with us and supported us throughout this week-long 
event.
    Finally, local and State public safety and emergency 
management agencies effectively communicated with the public 
through social media, reverse 9-1-1 systems, smart phone apps, 
and for the first time in Massachusetts, we pushed an emergency 
notification through the new Wireless Emergency Alert Service.
    The response by the public to the bombings and ensuing hunt 
for the suspected terrorists was nothing short of incredible. 
On April 15 and in the following days, people did not panic or 
act out of a sense of anger or frustration. Rather, these 
tragic and shocking events brought out the best in our 
communities. They supported our first responders and heeded 
requests and directions from Governor Patrick and Mayor Menino 
and public safety leaders including the unprecedented request 
on April 19 that residents of Boston, Watertown, and four other 
surrounding cities remain indoors.
    The community, as you have heard, has responded to these 
tragic events with compassion, with strength, and with support 
for the survivors of the bombings, the families of our victims, 
our first responders, and the impacted communities. Boston, 
Watertown, and all of our impacted communities have shown us 
what it means to be resilient.
    In the days, weeks, and months ahead, we will conduct a 
comprehensive local regional and State after-action review of 
the bombings and their aftermath including our pre-bombing 
prevention, protection, and mitigation strategies and actions 
and our response and recovery efforts. We will engage in this 
full review not because we have a basis to believe that the 
system did not work, but because no matter how well it did 
work, an event of this magnitude and tragedy requires that we 
gather and analyze all of the facts and determine what worked, 
what might not have worked, and if there are areas for 
improvement.
    Finally, it is important to end by stating that Governor 
Patrick and I have tremendous pride in our community of public 
safety professionals who demonstrated so well its commitment to 
public safety, even under the most difficult of circumstances. 
These were trying times and we are able to look back upon them 
with admiration for the collaboration and partnerships that 
truly made a difference. Thank you.
    [The prepared statement of Mr. Schwartz follows:]
                 Prepared Statement of Kurt N. Schwartz
    Chairman McCaul, Ranking Member Thompson, and Members of the 
Committee on Homeland Security: My name is Kurt Schwartz and I serve in 
Governor Patrick's administration as the under secretary for homeland 
security and homeland security advisor, and the director of the 
Massachusetts Emergency Management Agency. On behalf of Governor 
Patrick, I thank you for this opportunity to share thoughts and 
insights as you take a first look at the tragic events related to the 
Boston Marathon bombings. As you know, these events began with the 
terrorist bombings on April 15 during the Boston Marathon and continued 
through April 18 and 19 when one police officer was shot and killed and 
another seriously injured before one of the suspected terrorists was 
killed during a shoot-out with law enforcement officers and the other 
was captured after a day-long manhunt.
    The week of April 15 in and around Boston demonstrated the value of 
our investments of money, time, and resources since 2001 in our local, 
State, and Federal homeland security enterprise. Within seconds of the 
bomb blasts at the Finish Line of the Boston Marathon, an array of 
personnel, resources, and capabilities--many funded with homeland 
security grant dollars--were brought to bear to triage and care for the 
wounded, communicate with the public, provide situational awareness for 
decision makers, ensure the safety and security of the public and 
critical infrastructure, set up a joint command center, and identify 
and apprehend the suspected terrorists.
    As the world watched, first responders, aided by the public, 
swiftly provided on-scene emergency medical care to those injured from 
the blasts, and emergency medical services (EMS) partners followed 
established plans to triage and transport the wounded to area trauma 
centers. And even as the wounded were being evaluated, treated, and 
transported, tactical and other specialized teams, many of which 
deployed into Boston under established mutual aid agreements, conducted 
chemical, biological, radioactive, and nuclear (CBRN) monitoring in the 
area, searched for additional explosive devices, deployed to and 
secured our regional transit systems and other critical infrastructure, 
and established a large security zone and crime scene perimeter. The 
speed with which Boston, supported by the Massachusetts State Police, 
the National Guard, the Transit Police and dozens of local, regional, 
State and Federal law enforcement agencies and other first responders, 
evacuated the wounded to hospitals, took control of the crime scene, 
established a large security perimeter, and established communication 
with the public, is a testament to homeland security spending and 
investments in preparedness, training, and exercises, effective mutual 
aid systems, coordinated response systems, and outstanding leadership.
    I speak with first-hand knowledge of the heroic work done by our 
public safety team on April 15 and in the following days; I arrived on 
Boylston Street only minutes after the blasts where I joined city and 
State command-level public safety officials, including Commissioner Ed 
Davis of the Boston Police Department and Colonel Timothy Alben of the 
Massachusetts State Police. And I was still with this team 5 days later 
when the last of the suspected terrorists was captured in Watertown.
    I commend Governor Patrick and members of his administration for 
the professionalism they all displayed in responding to the tragic 
events that unfolded so quickly and so unexpectedly. From my colleagues 
in the Executive Office of Public Safety and Security, including the 
Commonwealth's Secretary of Public Safety and Security Andrea Cabral, 
the State Police, the Transit Police, the National Guard, and the many 
others who were on the scene at the time of the blasts or responded 
quickly thereafter, their superb training and commitment to public 
service was certainly on display.
    I also commend Commissioner Davis of the Boston Police Department, 
the men and women he commands, and the multitude of first responders 
from the Boston Fire Department and Boston EMS for their extraordinary 
performance of their duties under horrific circumstances.
    April 15, 2013, marked the 117th running of the Boston Marathon, 
one of the most prestigious marathons in the world. As it does every 
year, the race took place on Patriot's Day, a State holiday that 
commemorates the anniversary of the first battles of the Revolutionary 
War in 1775. Patriot's Day and the Boston Marathon are inextricably 
linked and, quite simply, are big deals in Massachusetts.
    Public safety for the Boston Marathon also is a big deal. Unlike 
most marathons, the Boston Marathon's 26.2-mile course is a relatively 
straight line that starts in Hopkinton, Massachusetts and proceeds east 
through eight cities and towns and three counties before ending on 
Boylston Street in Boston. For local, regional, and State public safety 
officials, the Boston Marathon is one of our largest annual events and 
we appropriately dedicate substantial planning and operational 
resources to protect, as best we can, the runners and spectators, and 
the 8 cities and towns that host the race. These extensive planning and 
preparedness efforts are intended to ensure readiness to respond to any 
and all unexpected hazards that threaten health, safety, or property.
    On April 15, the public safety community was prepared.
    As we have done for the many years, the Massachusetts Emergency 
Management Agency brought together a multi-agency, multi-discipline 
team last January to begin developing the operational plans for this 
year's marathon. We did worst-case scenario planning, preparing for a 
wide array of incidents and events that might impact the marathon or 
the host communities. In early April, this multi-disciplinary team 
conducted a comprehensive tabletop exercise to ensure our readiness.
    On race day, an 80-person Multi-Agency Coordination Center--a 
MACC--was operational in the State's Emergency Operations Center at the 
Massachusetts Emergency Management Agency. Representatives from 
Boston's police, fire, and EMS services, and public safety personnel 
from the other 7 cities and towns along the 26.2-mile course, were 
present in the MACC along with key State and Federal public safety 
agencies such as the Massachusetts State Police, the Department of Fire 
Services, the Office of Emergency Medical Services, the Department of 
Public Health, the National Guard, the Commonwealth Fusion Center, the 
FBI, the Department of Homeland Security, the FAA, the Coast Guard, and 
the Boston Athletic Association. The MACC was also connected to 
emergency operations centers in all 8 cities and towns, as well as the 
Boston Medical Intelligence Center and the Department of Health's 
Operations Center. Additionally, first responders along the course and 
command-level personnel from all local, State, and Federal public 
safety agencies were using interoperable channels on portable radios to 
maintain effective communications paths. Along the course, local, 
regional, and State tactical teams, hazardous materials response teams, 
explosive ordinance disposal (EOD) teams, the National Guard Civil 
Support Team, mobile command posts, and State Police helicopters were 
deployed as part of an all-hazards operational plan.
    In short, when 27,000 runners started the race in Hopkinton, we 
were prepared from the starting line in Hopkinton to the finish line in 
Boston. In large part, our high levels of preparedness were due to:
  <bullet> Investments made in collaboration with Governor Patrick's 
        administration over the past years using Federal homeland 
        security grant funds;
  <bullet> A long-standing commitment to and implementation of multi-
        agency, multi-discipline, and multi-jurisdictional training and 
        exercises throughout the State;
  <bullet> A strong record of collaboration, coordination, and 
        cooperation by public officials and public safety leaders; and
  <bullet> An unwavering 24/7 commitment to homeland security by all 
        local, regional, State, and Federal public and private partners 
        and stakeholders.
    At 2:50 PM on April 15, two powerful bombs were intentionally 
detonated 12 seconds apart on Boylston Street in Boston within short 
distances of the finish line. The bombs were placed outside of the 
secure zone of the race course on the public venue sidewalks between 
the race spectator perimeter and the store fronts along Boylston 
Street. These areas were packed with race spectators and shoppers. The 
results were catastrophic: Three people killed and over 250 were 
injured, dozens of them seriously.
    The response by the public--bystanders, witnesses, and volunteers--
in those moments after the blast was nothing short of remarkable. This 
sense of community and empowerment to take care of our own was 
demonstrative of the way our Commonwealth has come together in this 
time of shock and tragedy.
    The public safety response was equally incredible. I witnessed this 
response, and it speaks volumes about the investments that we have made 
in the Commonwealth to enhance our homeland security. On April 15 and 
during the next 4 days, our investments across all five homeland 
security mission areas--prevention, protection, mitigation, response, 
and recovery--paid off in dividends.
    From a high-level systemic view, several common themes and key 
factors stand out as we assess the massive, swift, and effective public 
safety response to the bombings.
    Foremost, there is a clear correlation between the effectiveness of 
response operations in and around Boston in the aftermath of the 
bombings and local, regional, and State investments in training, 
exercise programs, building and sustaining specialized capabilities, 
activating and maintaining an incident command system, activating and 
operating emergency operations centers and mobile command posts, as 
well as our long-standing focus on developing regional response 
capabilities and mutual aid agreements, and building pre-existing 
strong personal and professional relationships amongst public safety 
leaders.
    There are other key factors that contributed to the effectiveness 
of response operations.
  <bullet> The response to the bombings relied heavily on specialized 
        capabilities that have been built and sustained through our 
        homeland security programs, including SWAT and EOD teams, bomb 
        detection K-9's, CBRN detection systems and surveillance 
        systems, command posts, and emergency operations centers.
  <bullet> The response to the bombings was augmented through pre-
        existing inter- and intra-state mutual aid agreements that have 
        been built on regional response strategies and plans.
  <bullet> Interoperability was a success story. Over the years, 
        millions of dollars have been invested under local, regional, 
        and State interoperability plans, and our investments in mutual 
        aid channels, tactical channel plans, radio towers, new radios, 
        and specialized training allowed first responders, as well as 
        command-level personnel, to effectively communicate by radio 
        between agencies, between disciplines, and between 
        jurisdictions. The availability of interoperable radio systems 
        was particularly important to first responders in the first few 
        hours after the bomb blasts because cell phone and land-line 
        telephone systems in the greater Boston area were overloaded by 
        the spike in demand, rendering them largely inoperable.
  <bullet> We benefited from our history of using pre-planned events 
        like the marathon as real-life opportunities to exercise and 
        utilize our command posts and emergency operations centers, to 
        test our operational plans and mutual aid systems, to activate 
        our specialized response teams, to stay familiar with the 
        technology-based systems that we rely on during emergencies, 
        and to strengthen personal and professional relationships 
        amongst people, agencies, disciplines, and jurisdictions that 
        otherwise may not have many opportunities to work together.
  <bullet> We also benefited from our investments in regional exercise 
        programs, such as the Urban Shield exercises conducted by the 
        Boston Urban Area Security Initiative (UASI), that allow first 
        responders to hone specialized skills and gain familiarity with 
        responders from other areas who may be called in for support 
        under mutual aid agreements.
  <bullet> The cooperation and collaboration across agencies, 
        disciplines, and jurisdictions was immediate and extraordinary. 
        This was truly a best practice that should be noted Nation-
        wide. Within minutes of the blasts, local and State public 
        safety leaders responded to Boylston Street and followed 
        Boston's lead in establishing a command group that effectively 
        shared information, pooled resources, and collaboratively 
        managed a massive response. There was unity of focus and unity 
        of purpose at the command level and through the ranks all the 
        way to the first responders on Boylston Street on April 15 and 
        the thousand-plus police officers that participated in the 
        State's largest manhunt on April 18 and 19.
  <bullet> The relationship between public safety leaders and public 
        officials at all times was open, positive, and constructive. 
        Governor Patrick and Mayor Menino regularly communicated with 
        one another, and consulted with and were briefed by their 
        public safety leaders such as Commissioner Davis, Colonel Alben 
        of the Massachusetts State Police, General Rice of the 
        Massachusetts National Guard, and Chief Paul MacMillan of the 
        Transit Police Department. Their decisions were informed by, 
        and reflected public safety concerns, needs, and objectives. 
        This positive working relationship was based on trust, respect, 
        and a commonality of purpose and mission, and it fostered 
        constructive decision making and opportunities for bold ``out 
        of the box'' decisions such as Governor Patrick's decision to 
        deploy the National Guard into Boston on April 15 to support 
        law enforcement efforts, and issue the April 19 shelter-in-
        place request for Boston, Watertown, and four other surrounding 
        cities.
  <bullet> The support from the Federal Government was immediate and 
        effective. On the law enforcement side, every imaginable 
        Federal agency dispatched personnel and resources in support of 
        local, regional, and State law enforcement response efforts. On 
        the emergency management side, the Federal Emergency Management 
        Agency and the Department of Health and Human Services had 
        senior people in the command center in Boston only hours after 
        the bombings, and they helped ensure that direct Federal 
        assistance was provided as needed. Additionally, I was in 
        regular contact with FEMA's Regional Administrator in Boston, 
        and with senior headquarters personnel from both FEMA and the 
        Department of Homeland Security in Washington, DC. And, the 
        White House and FEMA quickly turned around the Governor's 
        request for an Emergency Declaration, approving direct Federal 
        assistance and Category B Emergency Protective Measures within 
        24 hours of the Governor's request.
  <bullet> Finally, local and State public safety and emergency 
        management agencies effectively communicated with the public 
        through social media, reverse 9-1-1 systems, press releases, 
        press conferences, an emergency alerting Smart Phone app, and--
        for the first time in Massachusetts--pushed an emergency 
        notification to the public through the new Wireless Emergency 
        Alert Service that is part of the Integrated Public Alert and 
        Warning System known as IPAWS.
    The response by the public to the bombings and ensuing hunt for the 
suspected terrorists was nothing short of incredible. On April 15, and 
in the following days, people did not panic or act out of a sense of 
anger or frustration. Rather these tragic and shocking events brought 
out the best in our communities: The support for first responders has 
been unprecedented. The public heeded requests and directions from 
Governor Patrick, Mayor Menino, and public safety leaders, including 
the unprecedented request on April 19 that residents of Boston, 
Watertown, and four other surrounding cities remain indoors. Businesses 
heeded this request as well, and remained closed for an entire business 
day. The community has responded to these tragic events with 
compassion, with strength, and with support for the survivors of the 
bombings, the families of the victims, and the impacted communities. 
Boston and Watertown, and all of our impacted communities have shown us 
what it means to be resilient.
    We will conduct a comprehensive local, regional, and State after-
action review of the bombings and their aftermath, including our pre-
bombing prevention, protection, and mitigation strategies and actions, 
and our response and recovery efforts. At the end of this process, an 
After-Action Report and corrective action plans will be published. We 
will identify what worked well, where there is need for improvement and 
gaps that need to be addressed through training, exercises, planning, 
and homeland security investments. We welcome and support a full 
review, not because we have a basis to believe that the system did not 
work, but because an event of this magnitude and tragedy requires that 
we gather and analyze all of the facts and determine what worked, what 
might not have worked, and if there are areas for improvement.
    However, upon initial examinations made thus far, I can confidently 
state that investments made with homeland security dollars enhanced our 
capability to respond to these tragic events.
    I think it's important to end by stating that Governor Patrick and 
I have tremendous pride in our community of public safety professionals 
who demonstrated so well its commitment to public safety, even under 
the most difficult of circumstances. These were trying times, and we 
are able to look back upon them with admiration for the collaboration 
and partnerships that truly made a difference.

    Chairman McCaul. Thank you, under secretary, and please 
express to the mayor and the Governor our appreciation and 
thanks.
    The Chairman now recognizes Professor Southers for an 
opening statement.

   STATEMENT OF ERROLL G. SOUTHERS, PROFESSOR AND ASSOCIATE 
DIRECTOR OF RESEARCH TRANSITION, DHS NATIONAL CENTER FOR RISK & 
   ECONOMIC ANALYSIS OF TERRORISM EVENTS (CREATE), SOL PRICE 
   SCHOOL OF PUBLIC POLICY, UNIVERSITY OF SOUTHERN CALIFORNIA

    Mr. Southers. Chairman McCaul, Ranking Member Thompson, 
Members of the committee, thank you for inviting me to appear 
before you today.
    It is extremely unfortunate and saddening that our 
gathering and important conversations were precipitated by the 
tragic events in Boston, but this hearing and those to follow 
offer valuable opportunities to discuss the methods and 
strategies that can best address and disrupt the ever-present 
threat of terrorism and violent extremism. My deepest 
condolences, thoughts, and prayers go to the victims of this 
cowardly act.
    The Boston Marathon bombing was conducted by terrorists who 
grew up within miles of where they committed their tragedy. 
They were locals, educated, living and working in the area. 
Because of this, they knew the target environment, did not 
require training to familiarize themselves with the area and 
its protective measures. Put simply, the Tsarnaev brothers were 
home-grown violent extremists, and because of them, Boston 
joins a cluster of cities around the world that have endured 
terrorist attacks, plotted and executed by their own residents, 
even as the extremist ideology to which they ascribe was likely 
influenced by ideas created and embraced elsewhere in the 
world.
    Much like the Madrid-trained bombings in 2004, as well as 
the July 2005 bombings in London, the terrorists' familiarity 
with the target area afforded them critical situational 
awareness that facilitated their ability to plan and execute a 
local attack.
    As a starting point for any analysis on this tragic event, 
it is essential to explore why and how these incidents happened 
and available options to reduce the risk of future attacks. In 
the context of our country, home-grown violent extremism, or 
HVE, describes terrorist activity or plots targeting the United 
States or United States assets by American citizens or 
residents who have embraced their extremist ideology largely 
within this country.
    A precursor to HVE is a process of radicalization, though 
like the term ``terrorism,'' the concept of radicalization is 
widely referenced but remains poorly defined. The term is not 
limited to any one racial, religious, or issue-oriented group. 
Radicalization is a process whereby individuals identify, 
embrace, and engage in furthering extremist ideologies. The 
final element, engagement, is one part of the indoctrination 
pathway continuum which has the potential to yield violent 
extremist activities.
    An examination of radicalization yields broad questions 
regarding how a person becomes engaged, stays engaged, or may 
actually disengage from a group or extremist ideology. 
Terrorism requires a combination of three things: An alienated 
individual, a legitimizing ideology engaged through 
radicalization, and an enabling environment. Of the three, it 
is the environment that is most susceptible to positive 
influences that supported by appropriate policies and behaviors 
can reduce the risk of home-grown violent extremism.
    As law enforcement and counterterrorism officials analyze 
the Boston Marathon attacks, we should resist the urge to fix 
something absent specific evidence or some failure or 
compromise of the system until all of the facts are in.
    Security is comprised of policies, processes, and 
technology. As it relates to environments like sporting events 
or critical infrastructure, the emphasis should be on policies 
that are risk-based; that is, focused on threats that present 
the most danger, and are most likely to occur. We have the 
applied research capacity to and do model potential attack 
paths given the desirability or utility yielded to an 
adversary.
    Citizen awareness, actionable intelligence, and 
interdisciplinary methodologies such as our successful 
application of game theory randomization around the country, in 
addition to other new available cutting-edge technologies 
currently being tested in the United States and in Brazil in 
cooperation with the 2014 World Cup and 2016 Olympics, will 
continue to hold significant importance for holistic 
countermeasure strategies.
    At the same time, recognizing that the goal is to contain 
terrorism, we should seek out and prioritize opportunities to 
engage communities to take part in disrupting the 
radicalization process that could ultimately lead to violent 
action.
    One challenge in this case is the role the on-line media 
can play in fostering violent extremism.
    Arguably the internet's capacity for propelling extremists 
through the radicalization process is the single most important 
and dangerous innovation since the terrorist attacks of 
September 11, 2001. The internet in some ways is a virtual 
community, and future attacks against the United States and its 
interests will likely involve adversaries who have traversed 
the radicalization process at least in part on-line.
    Securing a democratic society is a formidable challenge, 
and we will never be completely free of a terrorist threat. 
Protecting the country is an on-going effort that must remain 
versatile in the face of creative and adaptive adversaries. 
Every step towards greater security is matched with a would-be 
terrorist exploitation of an unaddressed vulnerability. There 
is no finish line in homeland security.
    Thank you very much for having me today.
    [The prepared statement of Mr. Southers follows:]
                Prepared Statement of Erroll G. Southers
                              May 9, 2013
    Members of the committee, thank you for inviting me to appear 
before you today. It is extremely unfortunate and saddening that our 
gathering and important conversations were precipitated by the tragic 
events in Boston, but this hearing, and those to follow, offer valuable 
opportunities to discuss the methods and strategies that can best 
address and disrupt the ever-present threat of terrorism and violent 
extremism. My deepest condolences, thoughts, and prayers go to the 
victims of this cowardly act.
    The Boston Marathon bombing was conducted by terrorists who grew up 
within miles of where they committed their tragedy. They were locals, 
educated, living and working in the area. Because of this, they knew 
the target environment and did not require training to familiarize 
themselves with the area and its protective measures. Put simply, 
Tamerlan and Dzhokhar Tsarnaev were home-grown violent extremists, and 
because of them, Boston joined a fraternity of cities around the world 
that have endured terrorist attacks plotted and conducted by their own 
residents. Much like the Madrid train bombings in March 2004, as well 
as the July 2005 bombings in London, the terrorists' familiarity with 
the target area afforded them critical situational awareness that 
facilitated their ability to plan and execute local attacks, as well as 
the capacity to remain largely unidentified by our counterterrorism 
efforts until after the attack.
    Superseding the issue of how the Tsarnaev brothers were able to 
succeed is a matter how they arrived at the decision to attack in the 
first place. The Tsarnaevs came to the United States long before 
embracing the ideology that, in their minds, legitimized their violent 
activity. As a starting point for any analysis on this tragic incident, 
it is essential that law enforcement, counterterrorism agencies, the 
Members of this committee, and the country overall understand that the 
Tsarnaev brothers became terrorists in this country and were thus home-
grown, even as the extremist ideology to which they ascribed was likely 
influenced by ideas created and embraced elsewhere in the world. The 
Boston attacks were not a case of foreign-borne terrorism, but rather, 
of home-grown violent extremism (HVE).
                   the complex radicalization process
    In the context of the United States, HVE describes terrorist 
activity or plots targeting the United States and U.S. assets by 
American citizens or residents who have embraced their extremist 
ideology largely within this country. A precursor to HVE is a process 
of radicalization, though like the term ``terrorism,'' the concept of 
radicalization is widely referenced but remains poorly defined. The 
term is routinely used as a synonym for extremist activities conducted 
by Muslim Identity adherents. This is short-sighted, as radicalization 
is not limited to any one racial, religious, or issue-oriented group. 
Radicalization is a process whereby individuals identify, embrace, and 
engage in furthering extremist ideologies. This final element--
engagement--is one part of the indoctrination pathway continuum, which 
has the potential to yield violent extremist activities.
    To be sure, many people who hold extremist views do not engage in 
violent activity. The Constitution protects speech, even hate speech, 
which is inherently extremist. In that regard, we should be mindful of 
the totality of circumstances that create the capacity for violent 
incidents and avoid a narrow focus on the presence of extremist 
ideologies in general. Little attention has been given in the scholarly 
or policy literature to defining criteria for which extremist 
ideologies pose a threat to National or global security, or whether 
extremist ideologies matter in the absence of violent actions. A 2009 
U.S. Presidential Task Force on Confronting the Ideology of Radical 
Extremism suggests the administration should expand its focus from 
violent to nonviolent extremism.\1\ This is an important distinction 
deserving further analysis, and perhaps an even more important issue is 
how an individual identifies and embraces extremism to begin with.
---------------------------------------------------------------------------
    \1\ Task Force on Confronting the Ideology of Radical Extremism 
(March 2009). Rewriting the Narrative: An Integrated Strategy for 
Counterradicalization. Washington, DC: Washington Institute for Near 
East Policy.
---------------------------------------------------------------------------
    Indiscriminant violent action can be the result of radicalization, 
but the process often begins with a ``cognitive opening'' that is 
unique to the individual. This opening may be a traumatic event that 
makes someone more susceptible to accepting extremist ideology. It is 
as if a ``grievance switch'' is flipped on, grievances that can stem 
from myriad experiences and perceptions, such as conflicted identities, 
injustice, oppression, or socio-economic exclusion. Personal grievances 
may be economic (such as losing a job or stinted mobility), social or 
cultural (such as racism or humiliation), or political (such as 
discrimination). Some grievances incorporate a sense of victimization 
by crime, including a perceived crime committed by the United States 
Government, as was the case with Timothy McVeigh and his view of the 
Government stand-off events of Whidbey Island (1984), Ruby Ridge (1992) 
and Waco (1993).
    While understanding and addressing these grievances is one 
potential avenue for predicting and preventing violent extremism, the 
radicalization pathway is not a fixed trajectory, with specific, 
identifiable indicators that can be acknowledged on an itemized 
checklist of suspicious activities. Caution should be exercised against 
viewing radicalization as a conveyor belt that starts with grievances 
and ends with violence, with easily discernible signposts along the 
way.\2\ Rather, a more effective approach is to identify the 
circumstances under which an individual can progress to violence 
through the radicalization process yet beneath the homeland security 
radar.
---------------------------------------------------------------------------
    \2\ Patel, Faiza (2011). Rethinking Radicalization. Brennan Center 
for Justice at New York University School of Law.
---------------------------------------------------------------------------
    An examination of radicalization yields broad questions regarding 
how a person becomes engaged, stays engaged, or may actually disengage 
from a group or extremist ideology. Terrorism requires a combination of 
three things--an alienated individual, a legitimizing ideology (engaged 
through radicalization), and an enabling environment. Of the three, it 
is the environment that is most susceptible to positive influences 
that, supported by appropriate policies and behaviors, can reduce the 
risk of HVE.
    Our security policies and technologies are an essential component 
in the never-ending counterterrorism effort. Yet, as we encounter the 
threat from home-grown violent extremism, such as the kind seen in 
Boston, our National efforts should also address the role communities 
play in facilitating and more importantly, hindering radicalization.
         risk-based security and positive community engagement
    As law enforcement and counterterrorism officials analyze the 
Boston Marathon attacks, we should resist the urge to ``fix'' 
something, absent specific evidence of some failure or compromise of 
the system. Boston's is one of the most famous marathons in the world, 
which from a National security and law enforcement perspective, brings 
with it a range of protective measures afforded to a Department of 
Homeland Security (DHS) National Special Security Event (NSSE).
    Security is comprised of policies, processes, and technology. As it 
relates to environments like sporting events or critical 
infrastructure, the emphasis should be on policies that are risk-
based--that is, focused on threats that present the most danger and are 
most likely to occur. We have the applied research capacity to and do 
model potential attack paths, given the desirability or utility yielded 
to an adversary. Interdisciplinary methodologies, such as our 
successful application of game theory and randomization, will continue 
to hold significant importance in holistic countermeasure strategies.
    At the same time, recognizing that the goal is to contain terrorism 
and not simply stop terrorists, we should seek out opportunities to 
empower communities to take part in disrupting the radicalization 
process that could ultimately lead to violent action. Community 
inaction, either through tacit approval of extremist ideas or a 
hesitancy to speak up when encountering an individual exploring a 
legitimizing ideology, provides an enabling environment. Inasmuch as we 
strive to intercept individuals in their transition from ideological 
extremist to violent adversary, we should also work with communities 
where such threats may arise to disrupt the radicalization process 
altogether, both by addressing grievances, and by recognizing and 
encouraging stakeholder engagement.
    One challenge in this case is the role on-line media can play in 
fostering violent extremism. Arguably, the internet's capacity for 
propelling extremists through the radicalization process is the single 
most important and dangerous innovation since the terrorist attacks of 
September 11, 2001. The internet is in some ways a virtual community, 
and future attacks against the United States and its interests will 
likely involve adversaries who have traversed the radicalization 
process, at least in part, via the internet. Inasmuch as real-world 
communities can take part in preventing or facilitating violent 
extremism, the same is true for the digital environment.
    Securing a democratic society is a formidable challenge, and we 
will never be completely free of the terrorist threat. In the aftermath 
of tragedies like Boston, the public is generally amenable to 
sacrificing certain liberties in the name of security. However, we must 
live by our principles, which in the United States are upheld by the 
rule of law. To alter our Government's use and amendment of law with a 
reactive policy response to a terrorist threat is to concede victory to 
the adversary. What is more, singling out a person or entire community 
as suspect based on anything other than fact undermines the community 
cohesion we need to counter the persistent threat.
    Collective vigilance and awareness of how grievances can make 
individuals susceptible to extremist ideas are fundamental tools that, 
when employed by counterterrorism officials as well as the public, 
provide essential supplements to the broader mission of preventing 
tragedies of the kind seen in Boston. Protecting the country is an on-
going effort that must remain versatile in the face of creative and 
adaptive adversaries. Every step towards greater security is matched 
with a would-be terrorist's exploitation of an unaddressed 
vulnerability. There is no finish line in homeland security.

    Chairman McCaul. Thank you, Professor.
    The Chairman now recognizes himself for 5 minutes for 
questions.
    Commissioner Davis, first I would like to start with you. 
As I said, post-bombing, you know, the actions of police 
department and all law enforcement, Federal, State, and local, 
was unparalleled, and I commend that. But I would like to ask 
you a few questions about before the bombing.
    Before the bombing, were you aware of the Russian 
intelligence warning regarding Tamerlan and the fact that he 
may travel overseas to meet with extremists?
    Commissioner Davis. We have three detectives and a sergeant 
who are assigned to the Joint Terrorism Task Force. One of my 
detectives is actually in the squad that investigated that. We 
have access to all the databases, but we were not, in fact, 
informed of that particular development.
    Chairman McCaul. Sir, it is fair to say that your police 
officers assigned to the Joint Terrorism Task Force did not 
know of this information?
    Commissioner Davis. That is correct.
    Chairman McCaul. Would you have liked to have known that 
information?
    Commissioner Davis. In hindsight, certainly.
    Chairman McCaul. Before the bombing were you aware that 
based on this Russian intelligence, that the FBI opened an 
investigation into Tamerlan?
    Commissioner Davis. We were not aware of that.
    Chairman McCaul. Would you have liked to have known about 
that?
    Commissioner Davis. Yes.
    Chairman McCaul. Before the bombing were you aware that Mr. 
Tamerlan traveled to the Chechen region?
    Commissioner Davis. No, we were not.
    Chairman McCaul. Again, would you have liked to have known 
that?
    Commissioner Davis. Yes.
    Chairman McCaul. Before the bombing were you told that he 
posted radical jihadist video websites on-line?
    Commissioner Davis. No, Mr. Chairman, we were not aware of 
the two brothers. We were unaware of Tamerlan's activities.
    Chairman McCaul. Again, would you have liked to have known 
that fact?
    Commissioner Davis. Yes, sir.
    Chairman McCaul. We know there was a Department of Homeland 
Security officer in the Joint Terrorism Task Force who was 
alerted of Mr. Tamerlan's overseas trips, a trip to Russia and 
the Chechen region. Were you aware of that information before 
the bombing?
    Commissioner Davis. I was not.
    Chairman McCaul. Were the officers on the--that you 
assigned to the Joint Terrorism Task Force aware of this?
    Commissioner Davis. They told me they received no word on 
that individual prior to the bombing.
    Chairman McCaul. After the bombing, after the bombing, were 
you made aware of this information?
    Commissioner Davis. Yes.
    Chairman McCaul. At what point in time was that?
    Commissioner Davis. The information started to come in 
immediately upon our identification of Mr. Tamerlan--of the 
older brother on the morning of the Watertown arrest. So the 
shoot-out occurred late in the evening on Thursday into Friday. 
Friday in the early morning hours, we started to get 
information about the identity of the individuals.
    Chairman McCaul. Commissioner Davis, if you had had this 
information before the bombing, would you have done--your 
police force and you--would you have done anything differently?
    Commissioner Davis. That is very hard to say. We would 
certainly look at the information. We would certainly talk to 
the individual. From the information I have received, the FBI 
did that, and they closed the case out. I can't say that I 
would have come to a different conclusion based upon the 
information that was known at that particular time.
    Chairman McCaul. If you knew of a Russian intelligence 
warning that this man is an extremist and may travel overseas, 
and the fact that he did travel overseas, and he came back into 
the United States, would that may not have caused you to give 
this individual a second look?
    Commissioner Davis. Absolutely.
    Chairman McCaul. Under Secretary Schwartz, the Department 
of Homeland Security funds these fusion centers. Was the fusion 
center given any of this information that I just asked the 
commissioner?
    Mr. Southers. Like the Boston Police Department, the State 
police through its--through the Commonwealth Fusion Center, 
has, I believe, seven troopers assigned on a full-time basis to 
the JTTF. My understanding is that at no time prior to the 
bombings did any member of the Massachusetts State Police or 
the fusion center have any information or knowledge about the 
Tsarnaev brothers.
    Chairman McCaul. The whole point of having fusion centers 
and Joint Terrorism Task Forces is to share information and 
coordinate. I used to work with the Joint Terrorism Task 
Forces. But the idea that the Feds have this information, and 
it is not shared with the State and locals defies, you know, 
why we created the Department of Homeland Security in the first 
place, and it is very troubling to me.
    Senator Lieberman, you went through a litany of cases where 
individuals, al-Awlaki, Bledsoe, the Fort Hood shooting that 
you did a fantastic investigation looking at why the dots 
weren't connected. Here we are 12 years later. We put billions 
of dollars into this. Why are we still having problems 
connecting the dots?
    Mr. Lieberman. Thanks, Mr. Chairman.
    Let me first say that the line of questioning that you have 
just carried out with Commissioner Davis and Secretary Schwartz 
and their answers are very important. This may be one of the 
most significant and painful takeaway lessons from the Boston 
Marathon terrorist attacks, because, particularly when you are 
dealing with home-grown radicals, the community around them is 
probably going to be your first line of defense. State and 
local law enforcement will always have a better knowledge of 
the neighborhood, of the institutions that the people might be 
involved in. So I would say that the fact that neither the FBI 
nor the Department of Homeland Security in the one case of that 
Customs and Border Protection agent didn't notify the local 
members of the Joint Terrorism Task Force in Boston is really a 
serious and aggravating omission.
    So, look, you know, as the commissioner said, nobody bats 
1,000 percent. It is true. FBI and DHS, I am probably one of 
their biggest fans and admirers in the country. But here was a 
case, and they have got to the look back at it themselves, why 
didn't they involve the local law enforcers who could have 
stayed on this case and picked up signals from the--some of the 
students who interacted with them, from the people in the 
mosque who threw out Tamerlan because he was such an extremist, 
seeing the videos that he posted when he came back from 
Dagestan, that could have prevented all this from happening?
    So how do you explain it? You know, people are imperfect. 
But information is being shared in a technological way 
constantly. A lot of the old stovepipes have come down. But in 
this case, aggravatingly, we have two of our great homeland 
security agencies that didn't involve before the event the 
local and State authorities that could have helped us prevent 
the attack on the marathon.
    Chairman McCaul. In closing, I completely agree with you, 
Senator. We have stopped so many of these cases, and they are 
very difficult to stop. I do applaud, you know, the FBI, Joint 
Terrorism Task Force, Department of Homeland Security, State 
and locals, but I am concerned and troubled by the fact that 
maybe in this case it wasn't shared even within the Federal 
Government jurisdictionally, and it certainly, by the testimony 
here today, was not shared with the State and locals, which 
you, I think, very excellently pointed out are really the eyes 
and ears because they are on the ground. If just maybe someone 
had looked at him when he came back, just going up on his 
YouTube website, may have seen that this person had radicalized 
after he came back from a very dangerous part of the world.
    So with that, I now recognize the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Chairman, I ask unanimous consent that the gentleman 
from Massachusetts, Representative Markey, be permitted to sit 
for the purpose of questioning the witness at today's hearing.
    Chairman McCaul. Without objection, so ordered.
    Mr. Thompson. Thank you.
    Commissioner Davis, one of the other responsibilities we 
have as a committee is to look at what actually happened. If, 
in fact, the monies that we have provided to your Department 
were not available, and the training that went with the money, 
as well as the equipment, how would you have been able to 
respond to that situation?
    Commissioner Davis. Our response would have been much less 
comprehensive than it was. We have received--just in the area 
of ordnance disposal, we have received funding to put trucks 
and equipment, protective equipment, for our officers.
    Sergeant Chris Connally was there. He had just done 
something called cut and tags on a bunch of parcels that had 
been left by people running away from the incident, and it was 
very dangerous work. I got to talk to him when he was putting 
his equipment on. He was clearing literally hundreds of 
potential bombs, very dangerous work that could not have been 
done safely without the money that we received from the Federal 
Government.
    The training that we received has given us an opportunity 
to test our systems, and we have discovered gaps in radio 
communications, for instance, that were closed because of the 
training. Those gaps being closed caused us to be able to 
communicate with fire and other responding agencies 
interoperably that was not even--we were not even aware that we 
had the problem until we did the scenario training.
    So the answer to your question is the response would have 
been much less than it was.
    Mr. Thompson. Thank you.
    Those funds have been an integral part of your Department's 
ability to respond like it has been.
    Commissioner Davis. Right. That funding has not only set up 
response on the street, but has also put our fusion center, 
called the Boston Regional Intelligence Center--that operation 
has been put together with Federal funding. It helps us not 
only with the threat of terrorism, but also with the threat of 
homicide and other things that we deal with in the urban 
environment. That money is critical to our operation of the 
police department.
    Mr. Thompson. Thank you.
    Professor Southers, you are a former FBI agent. 
Commissioner talked about the need to engage immigrant 
communities, regardless of who they are, in this total process 
for identifying potential terrorists in our communities. Can 
you share with me your experience on the community engagement 
aspect of what we are talking about?
    Mr. Southers. Yes, sir, I can. The commissioner is 
absolutely right that, with all due respect to intelligence 
that comes in, the most valuable information that you are going 
to obtain are from those community members, those family 
members, in this case perhaps those members of the mosque, who 
could have shared some information that the Joint Terrorism 
Task Force could have worked on.
    We have seen in the past where--in a number of instances 
where working with the community, although it didn't stop 
people from leaving this country and engaging elsewhere, we 
were aware of, in fact, activities that were going on. To name 
a few, Adam Gadahn, who is with al-Qaeda and still outstanding 
possibly in Yemen, was thrown out of a mosque in Orange County, 
California, but not before the people in the JTTF and the FBI 
were aware of the fact of what was going on down there.
    Samir Khan--and I know that Inspire magazine has been 
referred to a number of times since the incident. Samir Khan is 
an American. He was the editor-in-chief of Inspire magazine. He 
was in North Carolina and engaged by his family and members of 
the mosque, and, unfortunately, was able to leave the country 
before that information became known. It would have been very 
valuable.
    Then last but not least, Omar Hammami, who is from Alabama 
and has left the country, but, again, was engaged by his family 
and members of the community about the fact he was taking on a 
form of Islam that was not appropriate and is now engaged in 
al-Shabab, which is an al-Qaeda affiliate in Somalia.
    So that kind of information coming from the communities 
that we need to help us is critical. It is very important that 
we don't engage in any activities that would compromise that 
relationship and, in fact, stigmatize that community from 
coming forward to let the appropriate authorities know what was 
going on.
    Mr. Thompson. Thank you.
    Senator Lieberman, good seeing you again. I am sure that 
the next life you now serve is a far less stressful one.
    Mr. Lieberman. Well, there is--one of my former colleagues 
in the Senate refers to it as the afterlife. It is okay out 
here, but I hope you and the others will stay here and do the 
important work you are doing.
    Mr. Thompson. I wanted to get your comments. We have 
invested significant resources in getting communities and 
States where they can respond as the commissioner said. But 
also, I have heard you over time express concern that the 
Government's proposal to eliminate grants to State and 
localities is probably not what we ought to be doing. Can you 
share that, your thoughts on that?
    Mr. Lieberman. Yes, sir. Thanks, Congressman Thompson. 
Great to be with you again.
    We are in a war, and as I said, it is against an ideology 
that is not receding. It is spreading, and it has taken a very 
difficult turn, which is, as we saw in the Boston case--because 
the only three attacks against America, terrorist attacks, that 
have succeeded since 9/11 are homegrown terrorists.
    You can't fight this war without resources. I mean, the 
homeland security front is no different than the Department of 
Defense. The grants that we have created and funded have been 
critically important in this battle. Again I come back to the 
fact that that, particularly with home-grown terrorists, the 
State and law enforcers are in the best position to create the 
relationships within the communities that will allow them, and 
have allowed them in numerous cases, to stop terrorist attacks 
before they occur. They are simply not going to do it without 
funding.
    Every level of government is pinched. There are a couple of 
police departments in our country, notably New York and Los 
Angeles, that spend a lot of money funding counterterrorism 
programs, and a lot of those programs are outreach to the 
community, and that is part of the reason why they have been so 
effective. In a way, part of what we are all saying here, at 
least I am saying, is we have to rely more in this phase, new 
phase, of this war with terrorism on the State and locals, and 
they can't do it without financial help from the Federal 
Government.
    Mr. Thompson. Thank you very much. I yield back.
    Chairman McCaul. The Chairman now recognizes the former 
Chairman of the committee, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Let me thank you for 
scheduling this hearing. It is absolutely vital, and I commend 
you for it.
    Commissioner Davis, first of all, thank you for your 
leadership. It was absolutely phenomenal.
    Let me just ask you, though, from the time of the attack on 
Monday afternoon until the shootout early Friday morning, did 
the FBI bring to your attention at all the fact that the older 
brother had been under investigation by the FBI?
    Commissioner Davis. No. We didn't start to look at that 
until after the shootout.
    Mr. King. So this is 3\1/2\ days after, and the FBI still 
did not make you aware of it.
    Commissioner Davis. That is correct. I should stress that 
there was an on-going investigation and a lot of information 
coming in from a lot of different sources. But the answer to 
your question is no, we didn't look at the brothers until after 
the shootout.
    Mr. King. After the photos were posted late Thursday 
afternoon, did anyone from the local mosque come forward to 
identify either of the brothers?
    Commissioner Davis. I am not certain of that. I don't know 
of anyone that did, but I know that there was some conversation 
with a group that we meet with frequently from the mosques 
called Bridges. But I am not quite sure what their role was in 
the conversation.
    Mr. King. Can you check and get back to us on that whether 
or not--to me, if their photos were all over television, 
someone should have recognized him from the mosque.
    Commissioner Davis. By all means.
    Mr. King. Also, did anybody--did any student from UMass 
Dartmouth come by to identify younger brother?
    Commissioner Davis. They did not.
    Mr. King. Senator Lieberman, first of all, it is wonderful 
to see you here today. During the time I was Ranking Member and 
Chairman, I didn't work more closely with anyone than you.
    Mr. Lieberman. Thank you.
    Mr. King. Conference committees, legislation, a joint 
hearing we held on Islamic radicalization in the military, I 
want to thank you for that.
    In your statement, though, you must mention any number of 
times the term ``violent Islamist ideology,'' ``violent 
Islamist extremism.'' I have not heard one administration 
official, including the Attorney General and the President, use 
the term ``Islamist.'' As Chairman McCaul said, how are we 
going to know the enemy if we don't identify the enemy?
    Mr. Lieberman. Well, I agree with that.
    Look, we know that there are other sources of terrorism 
than violent Islamist extremism. We know that from the Oklahoma 
City bombing, we know it from the Unabomber. But it was self-
evidently and publicly violent Islamist extremism that led to 
the attacks against us on that 9/11/01 and didn't take 
detective work. Osama bin Laden and everyone else declared that 
to be the purpose. They want to bring down America and our 
civilization.
    You know, it is the old Chinese wisdom. A millennia ago, 
the first thing you got to know in war is who your enemy is, 
and you have to call it by its name. Now, I understand the 
sensitivity here. But I think in some sense it is unfair to the 
overwhelming majority of Muslims in the world, and particularly 
our fellow Americans who are Muslim, to leave it unspoken as if 
somehow they are part of this.
    It is obvious that the violent Islamist extremists are a 
very, very, very small minority of the community. The community 
in America, which is the one I can speak about, is--as we all 
know from our friends and neighbors, is law-abiding and 
patriotic. I don't think we do any service to them, in some 
sense it is almost unfair, not to call this by its name. We are 
all looking for the right words to distinguish this small group 
of radicals, extremists, terrorists from the great majority 
of--overwhelming majority of Muslims in this country, and maybe 
we haven't found the right words.
    But in this case, what I gather happened in the mosque in 
Boston is very instructive. When Tamerlan Tsarnaev came back 
from his trip overseas, he was clearly radicalized. He began to 
speak in such an extremist way that I gather the people in the 
mosque asked him to leave. That is representative of, if I can 
say, the mainstream Muslim community in our country.
    Mr. King. Senator, I am running out of time.
    Mr. Lieberman. I am sorry.
    Mr. King. One statement I would like to make for the 
record, Mr. Chairman. We are talking about the lack of 
information sharing. I think it is absolutely indefensible that 
the FBI found out on Sunday that there was a planned attack 
against Times Square and never notified the NYPD. Here is a 
city that has been attacked twice, had 16 plots against it, and 
the FBI refused to give that information to the NYPD. Their 
reaction, when Commissioner Kelly and Mayor Bloomberg and I 
went public, was to criticize us, saying we were somehow 
compromising the investigation, at the same time saying the 
reason they didn't give the information to the NYPD because 
there was no threat, that it was not a real threat.
    They can't have it both ways. The failure to share 
information is absolutely indefensible. I think they owe 
everyone an explanation as to why they withhold information. To 
me, it fits right into this pattern of keeping to it themselves 
and not sharing and not intending to stop attacks. I just can't 
explain it, I can't understand it, and, to me, it is a severe 
breakdown in law enforcement.
    Yield back.
    Chairman McCaul. I thank the gentleman. That is certainly 
something this committee will be looking into.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I find 
this to be an overwhelming experience.
    To the witnesses, let me thank you very much to be in this 
place and to be speaking about an attack on our soil.
    I think it is important as I take a moment just to call the 
names of Martin, the youngest of 8 years old; Krystle; Lu 
Lingzi, and Officer Sean Collier. We should always take a 
moment--just a moment to recognize them.
    I want to proceed with first enormous thanks, Commissioner 
Davis, for the leadership and heroics of everybody in Boston 
and our first responders. Many of us have worked with officers 
throughout our professional life. Again, we thank you, and we 
thank the people of Boston and your great State, the 
Commonwealth of Massachusetts.
    Commissioner Davis. That is kind of you. Thank you, 
Congresswoman.
    Ms. Jackson Lee. I want to pursue, Senator Lieberman, a 
thorn that if you can pursue for me, and we are limited in this 
time frame: The Russia contact. It still baffles all of us, in 
spite of diplomacy issues, why, if nothing else, that was not a 
trigger in our various centers, the Joint Terrorism Center, to, 
one, probe; and to, one, pursue that information and share it 
with our local law enforcement. What do you think happened?
    Mr. Lieberman. Congresswoman Lee, good to see you again.
    I agree with you. Again, as you said, hindsight is always 
clearer. But this was an unusual circumstance for Russian 
intelligence to notify us about two Americans really. They 
included the mother originally, the Tsarnaev mother, in this 
case.
    Now, we understand that we are operating in a context of 
mistrust between U.S. intelligence and Russian intelligence, 
and yet there is cooperation in some areas. So as I look back 
at this, it seems to me that the fact that this original 
notification--you kind of look back as you investigate at what 
went wrong--at what points could somebody have acted to stop 
this. This really should have raised it, this case, to a very 
high profile internally because of where it came from.
    Now, as I said it in my opening statement, it could be that 
the most consequential failure to share information was the 
failure of the Russian intelligence to explain in more detail 
to us why they were interested in Tamerlan Tsarnaev. But if it 
had been raised to that level--and that is why I think--I hope 
you will go back and speak with the FBI and the Attorney 
General's office, take another look at those Attorney General 
guidelines to see if in any way they constrained the FBI from 
acting more aggressively or sharing the information with the 
State and local law enforcers.
    Ms. Jackson Lee. Let me ask the Chairman--thank you--for 
unanimous consent to put a number of questions in the record.*
---------------------------------------------------------------------------
    * The information is included in the Appendix.
---------------------------------------------------------------------------
    Chairman McCaul. Without objection.
    Ms. Jackson Lee. And to put an article from the Washington 
Post dated today in the record.
    Chairman McCaul. Without objection.
    [The information follows:]
           Article Submitted by Honorable Sheila Jackson Lee
 House committee hearing on Boston bombings Thursday, as investigators 
           continue to trace activities of Tsarnaev brothers
                    by sari horwitz and greg miller
May 09, 2013, The Washington Post.
    Dozens of federal agents and local and state police officers are 
tracing the steps of the Tsarnaev brothers in the weeks and months 
before the Boston Marathon bombing, but they have not been able to 
connect them to a foreign terrorist organization, according to law 
enforcement and intelligence officials.
    The House Committee on Homeland Security will hold a hearing 
Thursday on the deadly bombings, which killed three and injured more 
than 200. Rep. Michael McCaul (R-Tex.), the committee's chairman, 
called for the hearing to investigate and review what U.S. agencies 
knew about the alleged bombers before the attacks.
    Some reports have suggested that one of the brothers, Tamerlan 
Tsarnaev, met with militants in the strife-torn region of Dagestan last 
year during his six months in Russia. But one U.S. official, speaking 
on the condition of anonymity, said that issue was ``still in the 
category of question marks.''
    At the same time, agents from the Bureau of Alcohol, Tobacco, 
Firearms and Explosives are trying to trace the gun that Tsarnaev 
allegedly used in a gunfight with police before he was killed April 19. 
They are hoping that identifying the first purchaser of the gun could 
shed light on where Tsarnaev obtained the firearm.
    Tracing the 9mm Ruger handgun has been difficult because the serial 
number was erased. But agents were able to partly raise the number and 
are working on a handful of possible leads, law enforcement officials 
said.
    FBI agents, working out of Boston's Joint Terrorism Task Force and 
traveling to other U.S. cities and abroad, are scouring computer, 
financial, phone, and travel records to learn all they can about the 
activities of Tsarnaev and his brother, Dzhokhar, before they allegedly 
detonated two pressure cookers filled with explosives at the finish 
line of the Boston Marathon on April 15. The agents are also conducting 
interviews with anyone who may have come into contact with the brothers 
in the United States or abroad.
    ``We are trying to determine the full story of this crime,'' FBI 
spokesman Paul Bresson said. ``Anything and everything we can find out 
about it. There are still many, many questions.''
    Dzhokhar Tsarnaev, who suffered gunshot wounds and was captured, 
told FBI investigators before he was charged that he and his brother 
made the bombs in the apartment in Cambridge, Mass., that his brother 
shared with his wife, Katherine Russell, and their daughter. A law 
enforcement official said Wednesday that Dzhokhar told investigators 
that his sister-in-law was not involved in the plot.
    Russell has not been charged, and her lawyer has said she was 
shocked by the bombing. An FBI spokesman said the bureau is still 
investigating whether she was involved.
    Even as that criminal probe proceeds, there is a parallel effort to 
produce a multi-agency assessment of the ``radicalization'' of the 
Tsarnaevs, officials said.
    The U.S. official said that the FBI, the National Counterterrorism 
Center, and the Department of Homeland Security are developing a formal 
intelligence assessment on the factors that moved the Tsarnaevs toward 
hard-line Islamist views, and whether there was a single development or 
tipping point in their alleged turn to violence.
    ``We need to understand it to counter it,'' the official said. 
``From that we look at how do you put a brake in the radicalization 
process, and can you put something in that path to detect it.''
    The official said the research, which involves experts on 
radicalization at NCTC and other agencies, is expected to take several 
months, culminating in a formal intelligence assessment that could be 
distributed across the executive branch.
    Officials seeking to reconstruct the plot said the Tsarnaevs may 
have left fewer clues because they appear not to have communicated 
extensively with each other about the alleged plan, or with other 
individuals.
    ``The problem here is you've got two brothers,'' the official said. 
In other cases, including the shooting at Fort Hood, Tex., in 2009, the 
suspect was accused of communicating with al-Qaeda operatives overseas 
or seeking other direction and help in the attack.

    Ms. Jackson Lee. Thank you very much.
    Let me go to Commissioner Davis and just simply say that 
this probe has to continue.
    In the course of information coming to you, did the 
Homeland Security Department provide you with any information 
about the student visa or the visa of any of the second-tier 
individuals that were arrested earlier than the fact of the 
bombing that occurred? Did you get any information about there 
was some concern about the visas dealing with the senior 
brother and then the others?
    Commissioner Davis. We did not. We have a Homeland Security 
analyst in our BRIC, the Boston Regional Intelligence Center, 
but neither the BRIC nor the JTTF----
    Ms. Jackson Lee. You feel confident you could have acted on 
that information or at least had a structure in your operation 
that could have looked at that.
    Commissioner Davis. We certainly have a structure that 
would have looked at it, yes.
    Ms. Jackson Lee. At this point is there any mass labeling 
of the Muslim community in Boston?
    Commissioner Davis. That is always a concern of ours. I 
have met with members of that community, and they are concerned 
about it, but there have been no incidents reported to me.
    Ms. Jackson Lee. Professor Souther, what would be the 
better way of dealing with the vast number of Muslims in this 
Nation that, in essence, pay their taxes, serve in the United 
States military, and call this country a country that they 
love? How do we work with this community for those 100 percent, 
99 percent who want to do well?
    Mr. Southers. Congresswoman, the most important thing we 
can do right now is to build a bridge instead of a wall. Any 
community or family can facilitate radicalization by inaction, 
and that is what we don't want at this point. We want an 
engaged community. We want a community that feels comfortable 
and confident in sharing information. As we have seen time and 
time again, as the Senator alluded to, a number of thwarted 
plots have come because we have had an engaged community. So at 
this point bridges are very important.
    Ms. Jackson Lee. I thank you.
    Is this a partisan--I think, Senator Lieberman, you made a 
very good point, so let me just conclude it on the record, that 
this tragedy, for those of us who started on the Homeland 
Security Committee and the Select Committee on Homeland 
Security devising this Department, this is not a place to raise 
a partisan divide between Congress and the administration. This 
is a place to stand against this ever happening again. 
Professor, would you say that?
    Mr. Southers. Absolutely, Congresswoman.
    Ms. Jackson Lee. Senator Lieberman.
    Mr. Lieberman. Yes, ma'am. Thank you for saying that. I 
appreciate it. That is most important. It should be unifying, 
really, because we are all in this together.
    Ms. Jackson Lee. Absolutely. To save lives.
    I thank you, and I yield back.
    Chairman McCaul. Excellent point.
    The Chairman now recognizes the Vice Chair of the 
committee, Mrs. Miller.
    Mrs. Miller. Thank you, Chairman.
    Again, we have all said thank you, and we just can't say 
thank you enough, out eternal gratitude and gratefulness and 
admiration for what all of you have done on that terrible, 
terrible day.
    You know, I was mentioning to the commissioner before we 
came in here one of the counties I represent has an annual 
breakfast where all the first responders, emergency management 
come. It was last week. We had 700 people. That was almost the 
entire topic of conversation over in Michigan about what you 
all did in Boston, and how well you reacted, and how you 
responded; and that one of the most heartening things, I think, 
and anybody that was watching the TV that didn't have tears in 
their eyes when they watched all the people on the sidelines as 
you were exiting the neighborhoods after you caught the second 
murderer applauding, people applauding the first responders. 
That was a remarkable moment, I think, for every American, and 
certainly something that none of us will ever forget.
    One of the things that Senator Lieberman mentioned when you 
said the battlefield--you mentioned the Christmas day bomber. I 
will just pick up on that, because I am from Detroit. We are 
facing a new type of enemy now, something that our country has 
not faced in the past, who see the battlefields asymmetrically, 
who see the battlefield in a different way. The battlefield 
that day was seat 19-A of that Northwest flight for that 
murderer, attempted murderer. The battlefield then was at the 
end of the Boston Marathon.
    So there has been a lot of talk about information sharing, 
and I am very appreciative of the questions and the comments 
about that. But I guess I--my question today would be about 
how--as we go forward, how we can better resource and utilize 
existing resources for our first responders not only at 9/11 
when we remember it was the first responders who responded, not 
really the military. In this case, of course, we had the 
National Guard that were a force multiplier for you. I think in 
these days of economic times perhaps there is a way--and I 
would ask for some comments on that--how did the National Guard 
actually meld into your--what you were doing there?
    I just ask that because I am wondering if there is a way, 
as we are resourcing the National Guard, whose role really has 
changed and expanded since 9/11--we all have National Guard 
units in every State--about doing a joint--perhaps joint 
training exercises with our first responders, all kinds of 
various things that they may be able to utilize that you could 
utilize as well.
    I mean, I have got a big National Guard. I am just outside 
of Detroit. We have a big National Guard base there. They are 
everywhere, really. Perhaps this is a way that we could have 
them share--even though they are under DOD, really, I think 
there is a lot of application, things that we are already 
resourcing through the Department of Defense, through the 
National Guard, that may have--we could utilize better from 
training exercises, et cetera, with the first responders. I 
don't know what you think of that, Commissioner, if you have 
any comments on that?
    Commissioner Davis. I don't know what the National standard 
is, but I can tell you in the city of Boston and throughout 
Massachusetts, the National Guard has been at the table for all 
of our training exercises back to just after 9/11. One of the 
big roles that they played immediately after was the CBRN 
detection and having units that could come in and monitor to 
make sure there were no chemicals or other things that we had 
to be concerned about in the environment.
    But the day of the marathon, they were an integral part of 
our preparation. They had already been deployed prior to the 
bombing to assist us in our traffic control and security 
operations. So there were several hundred National Guards 
people at the scene. The general came right into the command 
post, one of the first people to arrive. He was tremendously 
helpful. By the end of the day, we had over 1,500 troops 
available to us, assisting our officers in securing, as I 
described, the most complex crime scene that we had ever 
processed in the city of Boston. Those troops stayed on the 
ground for a 7-day period until that scene was shut down.
    But more than just perimeter security, they arrived at the 
scene of the pursuit and brought equipment in. At one point we 
needed three of our SWAT teams to deploy out to Dartmouth, 
Massachusetts, and they brought in helicopters to make that 
happen. Blackhawks came in and took the teams out. The State 
police have helicopters, but they were nowhere near as large as 
we needed to move people around.
    So General Rice played a very--a critical role in not only 
preparation and prevention, but also response after the 
incident happened.
    Mrs. Miller. I appreciate that. My time is up, but I ask 
that question--I am so delighted to hear all of that, because I 
think that is an area where we can--I think as a Congress needs 
think about melding some of the various things that are 
happening with the National Guard in response to the--with the 
first responders, et cetera.
    Just in my own area there, on our National Guard base, we 
actually have an air and marine wing from the Department of 
Homeland Security with an operational integration center, which 
all the information is fed by all the affected stakeholders and 
then used for--principally for border security. But we have 
used the National Guard along the border. But I just think 
there is something that the Congress needs to think about more. 
So I am very appreciative of your answer. Thanks.
    I yield back my time.
    Chairman McCaul. Thank the Vice Chair.
    The Chairman now recognizes the gentleman from 
Massachusetts Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I was just going to delve quickly into while everything was 
going on after the explosion. The big picture is just 
extraordinary coordination, amazing, all that training, all 
that effort, and heroism that was involved in that. But I think 
we want to look carefully at some of the information sharing 
even during that period.
    You mentioned, Commissioner Davis, that you first learned 
of the individuals that were terrorists Friday morning, just 
the senseless killing of Officer Collier. At that moment, can 
you share with us who linked that in first to the terrorist 
attack, how that information was conveyed to you, how soon 
did--were you able to put the identities of these people and 
connect it to that atrocity as well?
    Commissioner Davis. I can certainly speak about the pursuit 
of this--of these individuals. I hesitate to get too far into 
who knew what when as far as the identification, because it is 
part of the on-going criminal case. But let me do the best I 
can to answer your question.
    We received word of Officer Collier's murder within 30 
minutes of the incident occurring. I received a call at my 
home.
    Mr. Keating. From whom?
    Commissioner Davis. I received a call from Superintendent 
Paul Fitzgerald, who was at the FBI command post at that time.
    But the information that we had received was that it was 
most likely associated with an armed robbery that had occurred 
prior. They were not establishing a link to our investigation 
at that point in time, but we were highly suspicious of it, and 
everyone was concerned about it.
    But after a couple of phones calls, we sent officers to 
assist. My chief of the department went to the scene and had a 
conversation with lieutenant colonel in charge of the 
investigations for the State police, who was running that 
scene, and the first indications were it is probably not 
related.
    But after the carjacking occurred, it was clear that there 
was something going on. We deployed more officers into the area 
at that point, and certainly as soon as the Watertown officer 
engaged the suspect and there were reports of firepower and 
bombs being involved, there was no doubt in our mind. So that 
is the way the thing progressed.
    Mr. Keating. You were informed Friday morning about the 
identities. Who conveyed that to you?
    Commissioner Davis. The FBI. The FBI teams had been sent to 
process the body, and they were very quick to identify who the 
individual was that was killed in the shoot-out.
    Mr. Keating. Yeah. This is going on on so many levels. The 
area that I think is worth pursuing, it was mentioned here, is 
the messages they received from Russia. I am curious about 
people's thoughts. I don't think there is anyone that would 
have an answer.
    Exactly--when the FBI tried to get more information, if 
they were so interested in this person and initially informed 
the FBI, when the FBI tried to get further information from 
them, they didn't get any even though they had asked. I know 
there is just such a history of distrust, but there is such an 
opportunity for mutual benefit in terms of both countries' 
security in this area, especially in the Caucasus region. But 
it is clear that the insurgents in the Caucasus region now are 
just not focusing only on Russia, but Western Europe and the 
United States now. So this communication is going to be so 
important.
    Either Professor Southers or past-Senator Lieberman, you 
could shed some light on how we can pursue better 
communications when it is so much in our benefit to do that.
    Mr. Lieberman. Thanks, Congressman. I think you are onto 
something very important. I mean, look, I am sure you know that 
particularly--well, in the aftermath of 9/11, a remarkable and 
very important transformation has occurred in the FBI, which is 
that it has become a first-rate domestic intelligence 
counterterrorism agency, and as part of that, offices have been 
opened around the world, including in Moscow, as part of a--to 
create the relationships that will lead to information that 
will enable them to better protect us here at home. But the--
and, again, this is all part of an on-going investigation. I 
urge you to bring in the folks from the FBI and the CIA to talk 
about this.
    But from what we know now, the notice from Russian 
intelligence to the FBI and the CIA was very vague. Of course, 
most significantly, as much as I know now, nothing was shared 
with us about what the Russian intelligence found out about 
what Tamerlan Tsarnaev was doing in Dagestan and Chechnya. 
There were media reports that he was meeting with a leader, a 
radical leader, et cetera, et cetera. We do know that when he 
came back, he showed great--I mean, much greater signs of overt 
extremism as in the mosque which pushed him out.
    So, you know, President Putin made a statement along, I 
believe, with President Obama, maybe it was with Secretary 
Kerry when he was there, that we have a common enemy here. It 
is true. We should be working together better. That is true. 
But that didn't happen in this case, and that was very 
consequential.
    Mr. Keating. Quick question, if I could, Mr. Chairman, to 
Commissioner Davis or Under Secretary Schwartz.
    In New York they have camera systems that are all 
synchronized and coordinated. Is that unique to New York? Is 
that a pilot? They are trying to make the cameras that are 
there more efficient because of the coordination. I don't know 
how familiar you are. We had a witness last week from New York 
talking about that. Could that be helpful in other cities?
    Mr. Schwartz. It is certainly not unique to New York. When 
we look across Massachusetts and our investment of homeland 
security grant dollars, whether it is UASI dollars, State 
homeland security grant dollars, transit grant dollars, we 
certainly have a history of investing in cameras, video 
surveillance. I have visited the BRIC, which has a quite 
complex, sophisticated system that--within the city of Boston. 
We also have capabilities, for example, in the State emergency 
operation center to tie into transit system cameras, highway 
system cameras.
    I think in the days, weeks, months ahead, as we begin to 
process what we have been through and think about how we are 
going to deal with security around events in the future, we 
will have to spend more time looking at and probably investing 
in not just in the cameras, but what we really need to also 
focus in is the analysis capability, the technology behind the 
cameras. Civil liberties always also being important; we have 
to balance.
    Mr. Keating. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. I thank each of the 
distinguished panelists.
    Let me start first, and, Secretary Schwartz, Commissioner 
Davis, thank you for your great service. Obviously the worst of 
circumstances also give an opportunity to have people seen at 
their best, and I think Boston presented the best of what 
America is all about.
    I also think a theme of communication has come through 
here. I want to credit you with an important thing during the 
process: The ability for your entire group to communicate, and 
regularly, through the media, but that created a sense of 
cohesion and an ability for America to follow on during a very 
difficult time. I think that was a critical thing.
    The second factor you have noted in your written testimony, 
the ability to communicate among each other, which included as 
well the ability of a separate capacity for law enforcement 
across jurisdictions. It is a great story of steps that have 
been done.
    The last thing, however, is we have talked about 
communications you did not receive from the FBI or others. I 
know nobody wants to go through this event, but you did, and 
the after-action report, the analysis, you will watch the 
films, and it will be one of the places we can learn. So we 
encourage you to be critical as you go through that process and 
help us all learn together. But I congratulate you on the 
wonderful work.
    The issue of communication is an aspect of this and how 
people are doing it today. One of the things that bothers me is 
Tamerlan Tsarnaev is identified as having watched on-line 
videos of Anwar al-Awlaki. We are seeing a bit more of that. We 
looked at hearings about people who did this. Senator, you have 
been discussing the idea that it is the ideology. That is 
something we are focused on.
    Who has the responsibility to identify places where the 
ideology is being centralized, and it is serving as the place 
that people are gravitating to? Is the internet companies? Is 
it law enforcement? How do we look at that location as the 
place upon which we can monitor and puts the appropriate level 
of monitoring?
    Mr. Lieberman. Well, again, a very important question, not 
an easy one to answer. I mean, I can tell you, as you probably 
know, that there is a lot of monitoring going on now by 
American law enforcement agencies of violent or jihadist 
websites, of chat rooms, et cetera, and that has really been 
important.
    But it is very hard to control, for instance, the uploading 
of violent YouTube sites. I mean, in this case, Tamerlan 
Tsarnaev, as we know, started a YouTube channel of his own on 
which he was putting on al-Awlaki and other violent Islamist 
extremist advocates.
    I forgot the number, but tens of thousands of such channels 
go up every hour on YouTube. For a period of time--and Google, 
YouTube, has community standards, which is quite admirable, 
because they can't prescreen everything that goes up.
    For a period of time, I had someone on my Senate Homeland 
Security staff who was trying to follow those websites, and 
when he would see one that was violent, he would notify--he 
would make a complaint to YouTube. They would submit to it a 
board, and they pulled a lot of them down.
    In this case--so it is very hard to do this. So I don't 
want to go to on too long and take your time. I would say two 
things. In this case what I am agitated by for all the reasons 
we have talked about is why nobody was particularly looking for 
the name Tamerlan Tsarnaev. By the time he came back from 
Chechnya, Dagestan, and put up that channel of his, somebody 
should have been on him.
    Second, and the most important, responders to this ideology 
are people within the Muslim community. Again, they obviously 
are the great majority, overwhelming, that don't accept this 
ideology. The rest of us can try by our outreach and by our 
advocacy to confront the ideology. But they are our allies. The 
Muslim-American community is probably one of our greatest 
allies in this effort to stop the ideology. It is not as easy 
as stopping an enemy. Forgive me, but as thrilled as I was when 
we took down Osama bin Laden, and as hard as that was, that was 
a direct target. It is a lot harder to confront an ideology and 
to overwhelm it.
    Mr. Meehan. How do we connect the guidelines? I mean, do we 
have to change the Department of Justice guidelines with 
respect to how far they can continue to hold investigations 
open? Do we go back and revisit whether or not people have 
visited these kinds of jihadist websites once we have had some 
kind of a, you know, predisposition, when there has already 
been a report, as you said? I mean, where do we start to--I am 
disturbed that the FBI would have had information, which we 
have already identified, which made him a suspect, or at least 
a person of concern. They closed the book, but subsequently we 
discovered what you have just talked about, which is his 
participation in the violent jihadist websites.
    Mr. Lieberman. Well, I don't have an easy, quick answer to 
that question, but I will tell you I have learned enough from 
this case, and I appreciate your question, to feel very 
strongly that this committee, that the administration, the 
Department of Justice have to review the existing Attorney 
General guidelines for investigations by the FBI, and, most 
importantly and directly, to determine whether those guidelines 
constrained the FBI to stop prematurely, as we look back now, 
stopped the investigation of Tamerlan Tsarnaev after they were 
notified by the Russians. Did they in any way send a message to 
the FBI agents that they shouldn't share this information with 
the local law enforcement until they had a greater level of 
proof that a crime was about to be committed?
    That is a very high standard. It is so high that it 
probably won't allow law enforcement to act before the crime 
or, in this case, the terrorist attack occurs.
    Mr. Meehan. Well, thank you, Senator. My time has expired.
    But, Mr. Chairman, I do hope that is an issue that we can 
use as a stepping-off point with the committee.
    Chairman McCaul. Excellent point. You being a former U.S. 
attorney, me a Federal prosecutor, I think these AG guidelines 
need to be looked at.
    With that, I recognize the gentleman from Texas Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Commissioner Davis, I also want to thank you, and through 
you the first responders who responded so heroically and 
capably after the attacks.
    Commissioner Davis. Thank you.
    Mr. O'Rourke. Really appreciate that.
    I also want to tell you that I appreciate your comments 
about the difficulty in balancing greater scrutiny with the 
community policing that you must do in order to be successful.
    Like you, I live in an international community in El Paso, 
Texas, one whose success is predicated on our relationship with 
Mexico, on our ability to welcome immigrants. I think our chief 
of police and our sheriff in El Paso would agree with me in 
saying that we have routinely been named one of the safest, if 
not the safest, cities over the last 10 years in large part 
because of our immigrant community and not despite it.
    Following on the Chairman's remarks about terrorists who 
would seek to force us to change our way of life, in El Paso 
our way of life has already been changed following this Boston 
attack. Now students who are coming across our international 
bridges to attend school at the University of Texas at El Paso 
are undergoing secondary inspection. We received calls 
yesterday; some are being detained up to 8 hours as they try to 
reconcile data between that shown on their visas and those in 
the computer systems the CBP is using.
    How--as someone who has this responsibility, what advice do 
you have for cities like ours to enable positive relations with 
the large immigrant communities there so that immigrants and 
their families feel comfortable coming to you with information 
that will help you in enforcing law and keeping those 
communities safe, and at the same time balance the need for 
greater scrutiny and vigilance in ensuring that something like 
this doesn't happen again?
    Commissioner Davis. That is a great question, and it is a 
complex answer to it. It starts off with developing 
relationships in immigrant communities, something that we have 
paid particular attention to in Boston over the last 10 years, 
20--15 years since community policing has been put into place.
    We do outreach in minority communities by doing community 
policing training in Spanish. You know, we try to--we try to do 
specific outreach to the Latino community because there has 
been such an influx in some of our neighborhoods.
    Those--I go to those classes, and I listen in, and I have 
an opportunity to talk to people who have newly immigrated to 
the United States, and they are incredibly thankful for the 
work that we are doing in outreach to them. We have developed 
information not because--not through infiltration, but through 
appealing to their sense of community and Nation.
    I think that is the answer to this in large part. You need 
to--you can't develop a relationship with someone in a crisis; 
it has to be developed before the crisis. So there has to be 
real attention paid to who is in our community and what are we 
doing to talk to them. We do that through outreach classes, but 
we are also having great luck with social media recently. So 
the whole use of social media as a dialogue, not just a 
loudspeaker, but a dialogue between the police and the 
community, that plays an important role in our ability to do 
outreach to people.
    As it relates to stops at the border, it is really 
important that the bureaucracy doesn't guide the whole 
interaction, that there is some human interaction there and 
some logic to those communications that happen at the border. I 
think that is the key to it. The horror stories that we hear 
are usually a result of someone following a script that has--
that has rules and regulations, but no logic to it. I think 
there is a combination of both that needs to happen. But, 
again, we are shooting for perfection, and it is difficult to 
achieve.
    Mr. O'Rourke. As you said earlier, no one bats 1,000. I am 
concerned that we not overreact, and, as Professor Southers 
said, that we not try to fix something before all the facts are 
in or, in fact, we run the risk of changing a way of life and 
inadvertently compromising our ability to gain intelligence and 
to gain the cooperation of these immigrant communities. I want 
to make sure, as someone who represents one the of the largest 
immigrant communities in the United States, that that is not 
what we do going forward, because it will again inadvertently 
compromise our ability to make our communities safer.
    So, again, I appreciate your answers, your comments, and 
the work that you and the people that you represent have done 
to make this country safer. Thank you.
    Chairman McCaul. Thank you.
    I want to advise Members votes have been called. We have 
about 6\1/2\ minutes. I am going to allow Mr. Duncan to ask his 
line of questioning, and then we will, as I understand, recess. 
I understand the witnesses are willing to remain available. We 
will be back after votes around 11:35.
    With that, Mr. Duncan is recognized.
    Mr. Duncan. Thank you, Mr. Chairman.
    I want to start off by saying that I believe that the 
former Chairman of the committee Peter King needs an apology 
from mainstream media. He was vilified, demonized for holding 
radicalization hearings, and we saw just radicalization of 
Muslim youths happen with regard to Boston. So that is--I just 
want to throw that out there. I appreciate Chairman King's 
leadership as well as yours on this issue.
    Multiple conflicting reports indicate that Tamerlan may 
have been listed in one or more Federal terrorist databases; we 
know that FBI's TIDE database, but he possibly had a terrorist 
watch list or a terrorist screening database, TSDB, and 
possibly a Treasury Enforcement Communication System, or TECS, 
file. So multiple different hits and different databases that 
may have alerted someone in law enforcement that he was a 
danger.
    The Federal Government has known about information-sharing 
challenges for years. We talked about this in the last Congress 
and kind of pursuing some of that in this Congress about IT 
systems, and communications, and information sharing and cross-
referencing. I can do a Google search on Senator Lieberman and 
find out a lot, because these search engines are able to--on 
the private sector able to interact and share and cross-
reference that type information.
    Since 2005, the GAO has sounded alarms about terrorist-
related information sharing by placing it on its high-risk 
list. According to GAO, the Federal Government has made no 
substantial progress in developing a system to strengthen the 
sharing of intelligence, terrorism, law enforcement, other 
information among all of its stakeholders, including Federal, 
State and local, Tribal, international, and private-sector 
partners. We just heard that the local and State law 
enforcement, as part of the JTTF, were not notified of 
information that the Feds may have.
    So we are struggling to connect the dots with regard to the 
cross-referencing or information sharing. So if the dots had 
formed a picture, or the intelligence had been shared more 
effectively, Commissioner, do you believe we could have 
prevented the attack?
    Commissioner Davis. It is--I can't answer that in one word. 
It is hard--I think the answer is, it is hard to say. Someone 
looked at this initial information and closed the case. So 
there was an assessment that there wasn't enough there to do 
anything more than an initial interview.
    That all has to be reviewed as to what factors occurred 
during the interview, and I haven't seen that information.
    There is then other information that is coming in that 
there were further databases that were--that may have had wrong 
information in them. All of that has to be looked at very 
closely, and I guess in hindsight, if you were to be able to 
connect all of the dots on that first, during that first 
interview, there might have been an open case there that would 
have caused the FBI to brief everyone in the JTTF on it, and we 
would all know about it and we would all make a decision as to 
what each particular agency wanted to do with that information.
    But you have to look at the timeline as to who knew what 
when to make a determination as to whether or not mistakes were 
made. I don't have the answers to that right now. So if we knew 
everything that we know now, absent the blast, well, before 
the--without the blast being involved in it, but if we knew all 
of these things that have come out since then, we would have 
taken a hard look at these individuals. But at this point in 
time, I can't say that when we knew things, that we would have 
done anything differently.
    Mr. Duncan. I mean, I am just amazed that files are 
actually closed on someone who we were notified by a foreign 
country that they may have had ties to terrorism, and they 
actually close the file. That--you know, his name wasn't put 
into a system and once we realize that this gentleman may be--
let me back up and say, I am amazed that the American people, 
the general public in Boston had to identify this guy; that 
somebody within the FBI or JTTF didn't go, wait a minute, that 
guy looks familiar. Didn't we investigate him a couple of years 
ago? They had to rely on the folks within the Boston community 
to identify him.
    One thing we talked about in this committee is the fact 
that CBP has a system. ICE has a system. FBI has a system. NCTC 
has a system, and that if you want to research information 
about certain individuals, you have to go into one system with 
a separate password. If you want to go into another system, you 
have to come out, maybe go to a different location, enter the 
new password in a different system, and do this over and over 
to make sure that you have got the redundancy necessary to find 
out all of the information, whether it is a visa screening, or 
whether it is an act of terror of an individual that is 
suspected. So we need to work, and I think Senator Lieberman, 
this was partly why DHS was set up, so that it would be the hub 
and the wheel to share all of that information so that we 
wouldn't have the mistakes made that we saw leading up to 
Boston that we are starting to discover now.
    So I think this hearing is very timely, to raise that 
awareness within the eyes of the American people, that DHS is 
the hub and the wheel, and we spent hundreds of billions of 
dollars to do this, and I don't believe it has been effective 
as seen by Boston.
    So thank you for you-all's service, Commissioner, God bless 
you, and God bless all of the first responders. With that, Mr. 
Chairman, I yield back.
    Chairman McCaul. Let me thank the witnesses for their 
patience. We stand in recess subject to the call of the 
Chairman. We will reconvene 10 minutes after the conclusion of 
the votes, about 11:35. Thank you.
    [Recess.]
    Chairman McCaul. The committee will resume. I want to thank 
the witnesses for their patience in sticking around during 
votes. I know it was long, but I do want to proceed with this 
hearing so we can let you go.
    Mr. Lieberman. Mr. Chairman, I just want to say that now I 
know what all those witnesses were going through for all those 
years when we adjourned to go and vote.
    Chairman McCaul. It is tempting on the other side, isn't 
it? With that, let me go ahead and get started, and Mr. 
Horsford is recognized for 5 minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman. I want to 
thank you and the Ranking Member, and I want to join with your 
remarks earlier in thanking, particularly Commissioner Davis 
for the hard work of the first responders. You performed 
exemplary, and it was an example of, you know, how we need our 
first responders to react. To the entire city of Boston, and 
the Boston Police Department, you know, as the Chairman and the 
Ranking Members have already said, thank you for your service.
    Without a doubt, the rapid response by the Boston's first 
responders, really made a significant difference. I want to 
point out something in your testimony. You stated that the 
Federal Government provided invaluable assistance both in 
helping us prepare for, and respond to this tragic event. 
Preparedness training provided through UASI and other Federal 
funding set a framework for multiple jurisdictions to work 
seamlessly with one another in a highly effective manner.
    In studies on terrorist's targets, the RAND Corporation, 
has stated that Las Vegas, the district that I partly 
represent, stands out in having a high proportion of high-
likelihood targets compared to the Nation as a whole. But the 
same study also reports that the unique composition of hotels, 
casino, and skyscrapers increases the overall attack 
probability in Las Vegas relative to other cities in the same 
likelihood tier. Yet, in my home State of Nevada, our Urban 
Areas Security Initiative faces reduced funding because of 
flaws in the relative risk profile model that has inexplicably 
dropped Las Vegas' ranking as a likely terrorist target.
    So my question is: Have you seen the same reduced level of 
funding in Boston over the last couple of years, and if so, you 
know, what has that been, and how are you grappling with it?
    Commissioner Davis. Thank you, Congressman. Sheriff 
Gillespie and I have met frequently on this challenge, and we 
traveled to the Middle East this past July and visited police 
officials in Jordan, in Israel, and in the Palestinian 
Authority. We had direct conversations about the threats that 
they are dealing with and how they respond to them. That just 
cemented in my mind, and I am sure in Sheriff Gillespie's mind, 
the need for us to be prepared. UASI is simply the best vehicle 
that we have at the local level to make that happen. We have 
not received significant cutbacks. There have been some 
cutbacks, but we were facing the same threat several years ago 
and overcame it.
    I can tell you that I am convinced now, after responding to 
this incident that if we had not trained through the UASI 
process--they funded a joint terrorism training preparation, 
and something called Urban Shield. If it was not for the--those 
preparations, there would be more people who died in these 
attacks. It is critical that we maintain that funding to urban 
areas. This is not a frivolous expenditure. It is something 
that I have seen work, and it also gives us--we are the people 
on the ground. We know what we don't have, and we know what we 
need to get, and the less bureaucracy around that, the better 
off for us. That is what UASI has done for us.
    Mr. Horsford. Thank you, and thank you for recognizing 
Sheriff Gillespie, and I was meeting with him and our assistant 
sheriff at our counterterrorism center just last week, where 
they, you know, shared with me the fact that in our case, we 
went from a peak of $9 million of UASI funding to under $2 
million recently. So, you know, that is a 70 percent reduction 
in 5 years. It is a huge impact at a time when the threat 
appears to be increasing and so what are your recommendations 
to us as, you know, policymakers at the Federal level, any of 
the witnesses, on how we need to prioritize, you know, these 
funds in order to support your work as first responders or 
other leaders in this regard?
    Commissioner Davis. Just briefly, I will just add to my 
comments by saying that the priorities that you funded worked 
very well for us, and we should continue that. But that added 
component of giving us the ability to meet with foreign police 
and military leaders who are dealing with this threat, and 
understand what they are going through in their countries, as I 
said, we are an international city. That knowledge, I traveled 
with PERF, Police Executive Research Forum, who funded that. 
But that trip and the conversation I had with the people in 
London about the way they responded to the two bombings drove 
this investigation. I can't tell you how invaluable it is. 
Thank you.
    Mr. Horsford. Thank you. Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from North Carolina, Mr. Hudson.
    Mr. Hudson. Thank you, Mr. Chairman, and thank you to our 
witnesses. I know it is a long day for you, but I really 
appreciate your being here. I would like to, at the outset, 
recognized there were some victims of the Boston bombing from 
Charlotte, North Carolina, the Gross family, and I just want to 
again reiterate what this committee said before, that our 
thoughts and prayers are with the victims and the families. 
There are many that are still on the long road to recovery, and 
we are going to keep them in our thoughts and prayers 
throughout this process.
    I guess I will start with Commissioner Davis. One of my 
lines of questioning I would like to go down has to do with the 
type of information sharing when it comes to top-secret 
information. I assume that you and the under secretary have 
clearance, a certain level of clearance and maybe the folks on 
the Joint Terrorism Task Force have top-secret clearance and 
are able to see the same information DHS and other agencies 
have, is that correct?
    Commissioner Davis. That is correct, sir, yes.
    Mr. Hudson. Do you feel like that there is--that you have 
an adequate access to that information through the folks in the 
JTTF, you and your staff?
    Commissioner Davis. Yes, I have been assured by the special 
agents in charge that whatever information comes to their 
attention that affects my community, that I will get that 
information, myself and the mayor as well. Mayor Menino is 
briefed in on any threat that manifests itself, and that has 
worked over the years. We have got information from them on 
various things that were evolving.
    Mr. Hudson. Well, and from your perspective, though, do you 
feel like the mechanisms are in place to get top-secret 
information to your department through the State agencies, the 
dissemination of information? Do we have the proper mechanisms 
in place to get the information you need on threats?
    Commissioner Davis. The mechanisms are there. We have top-
secret and secret computer systems that we have access to in 
our Boston regional intelligence center. We have rooms that 
allow that to happen. We frequently talk about issues that come 
up, and so I think that the mechanisms are in place, yes, I do.
    Mr. Hudson. Great. I guess the other layer of that then 
would be when you have got this top-secret threat information 
that is shared from a Federal agency to your department, but 
then you have got your patrol officers out there, and you want 
them looking and eyes open, taking that information from top-
secret level to a lower level of secrecy that could be 
disseminated on the patrol level, is that something that you 
are equipped to handle? Is that something that--has that become 
an issue? How have you dealt with that in the past?
    Commissioner Davis. Each case is different, Congressman, 
and we have had debates as to what goes out and when it goes 
out. So we, you know, from my perspective, I err on the side of 
pushing information out quickly. There are always deliberations 
about that. There are always conversations about what is 
appropriate to get out to a wider audience. But the protection 
of my officers and the protection of my citizens is my driving 
motivation to get as much information out as quickly as 
possible.
    Mr. Hudson. Well, I think that was clearly evidenced in 
this situation while the world was watching. You and your 
department did an exemplary job, and I really appreciate on 
behalf of the American people what have you done.
    Commissioner Davis. That is very kind of you, sir. Thank 
you.
    Mr. Hudson. Well, I guess the essence of my question is: 
Does the Department of Homeland Security need to do more to 
help you sort of develop the information, then take it from a 
top-secret level to the information that can be disseminated on 
the patrol level? Do we need to look at ways to do a better job 
on the Federal level to help you process or package that 
information so it can be distributed to your officers? Is there 
a need there for that type of assistance?
    Commissioner Davis. My belief is that in the 10 years since 

9/11, these mechanisms as you stated, have been put in place, 
and they work well. However, I think that in this area, like we 
do in a lot of other areas, there should be a constant process 
of improvement. We should be always examining what we are doing 
and moving it to the next level. We have incredible new tools 
that have just developed in the last few years with computers 
and communications equipment that have not been factored in 
appropriately, and so let's--let me just say briefly on the 
radio and communications side of it, okay, so when we talk 
about street-level communication, what I can get out to my 
officers and who is talking to who, we have not moved forward 
as quickly as we should in that particular area. I think that 
has to be looked at.
    But when you stop there and you move up the chain as to who 
talks to who when, and what information is available, it all 
has to be examined all the time. I think this incident is going 
to be a good case study.
    Mr. Hudson. Well, thank you for your answers, and I agree, 
and I think that this committee's approach should be, and is to 
look at lessons learned, look at moving forward, how we can 
improve, and again, try to be right 1,000 percent of the time 
is the goal.
    Commissioner Davis. Thank you.
    Mr. Hudson. Thank you. Mr. Chairman, I yield back.
    Chairman McCaul. I thank you for that. I unfortunately have 
to step out for a minute, so I am going to turn the gavel over 
to a very experienced individual, Mr. King, who chaired the 
committee for 6 years, correct? But before I do that, let me 
just say, Senator, thank you so much for your advice, counsel, 
under secretary, professor, Commissioner Davis, your presence 
here today is, really means a lot to all of us, and your 
testimony, and to the people of Boston. We support you in your 
efforts. Let me also say thank you to the mayor for allowing 
you to come here today to appear before this committee. So 
thank you very much.
    Mr. King [presiding]. The gentleman from California, Mr. 
Swalwell is recognized for 5 minutes.
    Mr. Swalwell. Thank you, Mr. Chairman, and welcome to our 
witnesses. I welcome this opportunity to highlight the brave 
heroes, the citizens of Boston who ran into the blast zone to 
help the victims affected by the blast, but also to highlight 
the brave men and women of law enforcement and the emergency 
responders who hunted, captured, and killed the two individuals 
responsible for this.
    Serving on this committee for me is also special because I 
was a former prosecutor, but also a Congressional intern in 
Washington when September 11 happened, and what happened in 
Boston reminded me that the threats facing our country are 
still very real. While there is information to be learned from 
the intelligence community as far as what they knew before the 
blasts went off, it is clear now that we face new emerging 
threats from lone radicalized wolves who can use readily 
accessible materials that you can get off the internet to wreak 
havoc and do damage in mass groups. That is what I think we are 
here to speak to, protect against, and talk about today. But 
there are a lot of answers to come from the community, but I 
want to talk about what happened once the blast went off, and 
what our emergency responders did and examine to what degree we 
can make sure that you and other agencies are more prepared.
    I also know that because of the sequester, homeland 
security funding could be threatened in the future, and we have 
talked a lot about the Urban Areas Security Initiative. I come 
from Alameda County where I was a prosecutor, and it was the 
Alameda County sheriff's office that developed Urban Shield, 
and they have been doing that for a number of years under the 
leadership of Sheriff Greg Ahern, and I understand that former 
Assistant Sheriff Jim Baker actually went out to Boston back in 
December and led part of the efforts for Boston Urban Shield.
    So I was hoping you could tell me just a little bit about 
what lessons were learned in Boston from your Urban Shield 
program and what would be threatened if you did not have that 
funding in the future?
    Commissioner Davis. Certainly, thank you, Congressman. 
Sheriff Baker and the other individuals who developed Urban 
Shield did us an incredible service. We sent teams out to 
Alameda County twice, and after the second time, we talked 
about them moving the training to the East Coast so that we 
could incorporate people throughout New England. That is 
exactly what happened. We have had two of these exercises now 
that have allowed us to really examine what we would do in the 
case of a mass casualty event like we saw in Boston. We 
included everyone in this training. It wasn't--it sort of 
centered around SWAT teams, but then they brought in hazardous 
materials teams. Kurt and his team were incredibly helpful in 
making this happen, and bringing everybody into the fold on 
this whole exercise.
    One of the things that popped up in our first exercise was 
that our communications with the fire department was not 
sufficient. So we were able to change our radio system to 
correct that, and after the blast happened, that was helpful to 
us. That interoperability made a difference in our ability to 
respond to the marathon.
    Mr. Swalwell. Would reduced funding for that program 
threaten your ability to respond if an attack were to occur 
again?
    Commissioner Davis. Without a doubt. Without question, if 
funds are cut to these programs, we are not going to know what 
we don't know. It is only when you exercise these events that 
you find out that you have a gap in your systems. You--and if 
you find that out after the incident occurs, lives are at 
stake.
    Mr. Swalwell. You mentioned that you were able to work with 
international law enforcement agencies. Were you able to work 
with forces from Israel and anti-terror departments from 
Israel?
    Commissioner Davis. Yes, the Israeli military and police 
services have been very helpful to us sending people over to 
train us. As a matter of fact, the tactic that Sergeant 
Connolly used in opening the bags up, the cut-and-tag tactic 
was taught to us by the Israelis.
    Mr. Swalwell. Again, Chairman, having been here when 
September 11 happened, I remember how dark of a place 
Washington became, but I know that under your leadership and 
also Senator Lieberman, under your leadership, we were able to 
invest in a Department in Homeland Security, and I think what 
we saw after the bombs went off, the coordinated efforts among 
local, State, and Federal law enforcement is what was 
envisioned as far as how we would respond to an attack. So I 
want to thank you, Senator, and also you, Chairman, for your 
work in this area.
    Mr. King. Thank the gentleman. Thank you. The gentleman's 
time is expired. The gentleman from Utah, Mr. Stewart, is 
recognized for 5 minutes.
    Mr. Stewart. Thank you, Mr. Chairman, and to the witnesses, 
thank you for being here today. As with all of us here, we are 
appreciative of that. A very quick comment or two before I get 
into that.
    Mr. Lieberman, you mentioned in your opening comments about 
the need for bipartisanship as we approach this. You have been 
a great example of that through your career and many of us are 
grateful for that.
    Commissioner Davis, if I were a Hollywood casting director, 
and I needed a strong persona of a leader, I think I would look 
to someone like you, so thank you for that.
    Commissioner Davis. Thank you.
    Mr. Stewart. In considering this case, I think many of us 
want to break it down chronologically. You know, maybe phase 
one and phase two. Phase one being what happened up 'til that 
fateful morning, April 15? What is it that took place prior to 
the bombing? Then the second phase is what happened subsequent 
to that, the investigation, the apprehension, you know, the 
pursuit of the individuals, and then what we are doing now, and 
us looking back on lessons learned and what we could have done 
better.
    It seems to me that there were a lot of things in phase one 
and phase two that were done right. You know, this wasn't a 
catastrophic failure in the sense that there were many things 
that were done right, but there were clearly some meaningful 
failures, or we wouldn't be here today. We wouldn't be having 
this conversation. When you look at some of the considerations 
in phase one, you know, how were these individuals radicalized? 
Who assisted them in their radicalization? Did anyone assist 
them in the bombing itself and preparations for it? Were they 
receiving logistical or other kinds of support? Did we miss any 
warning sign? And of course, some of those questions have been 
discussed this morning, and much more conversation as we go 
forward.
    But Mr. Hudson, my friend here, mentioned looking forward, 
and that is what I would like to direct now. That is, I think 
that we can agree that somewhere in our Nation right now, there 
are individuals who would like to do exactly the same thing 
again. In fact, they are probably preparing to do that again. 
Would that be, you know, outrageous to make that claim, or 
would you agree with that? There is someone out there doing 
that. We all agree on that. Yes. Thank you.
    Knowing that there must be individuals who are in some 
phase of planning a similar event, maybe several months away, 
or maybe longer, have we done anything now? Have we looked at 
lessons learned and said, okay, we need to continue the 
investigation. We understand that. But have we done or changed 
anything now in order to make it more difficult or to stop 
those efforts from going forward? Any of you, I would love 
your----
    Mr. Lieberman. I will start it briefly, and thanks for the 
question. Actually, I think this committee is doing that now by 
raising the questions that have been raised today, and to go 
back to what you were kind enough to say at the beginning, I am 
really encouraged by what I take to be a totally nonpartisan 
approach in a committee to finding out what went wrong here. 
That is the first thing we can do. Because you are absolutely 
right, there is at least one other group of people, and 
probably more, who are beginning to think about carrying out a 
terrorist attack against our country. That has been the record 
of the last 11, 12 years since 9/11.
    Mr. Stewart. Mr. Lieberman, if I could, I don't mean to 
disagree with you, because I don't, but if I could just take 
that a little further. We all want to continue the 
investigation, but we don't want to wait until the 
investigation is over to do things that we can do now. That is 
my point. There must be something that we have done that said, 
look, there is an immediacy to this. We can't wait for the 
hearings to conclude. Let's do this now. I am wondering, can 
any of you share things, and say this is what we have changed 
in the last 3 weeks that have made this less likely to happen.
    Mr. Schwartz. If I can offer a couple of observations. You 
are absolutely right. Starting at the local level, regional, 
State, Monday evening, April 15, just hours after the bombing, 
a number of us already were talking about what does this mean 
going forward? What does this mean in terms of our next, you 
know, very large event, July 4, where we have some 800,000 
people in the Boston area?
    So we are already looking forward even as we are also 
looking back. I commend this committee. I commend the media for 
all of the attention. We can certainly hope that one of the 
lessons our communities have learned by watching this, you 
know, 24/7, and living through this watching it on television, 
is that we need the community's participation. I hope that 
message is out there now, and others have talked about it here 
today.
    The importance of the public picking up those warning 
signs--see something, say something. I know that at the local 
and regional, and State levels in Massachusetts, we are already 
looking to increase our engagement with a number of 
communities, including our local Muslim communities. There 
already was a good program in place, but we need to do better. 
We are looking forward, as I said, to July 4. We have, in 
collaboration between the city and State, we have reached out 
and engaged a number of security experts around the country so 
that we can take new looks at prevention, protection going 
forward. The good news story here was the response, the 
recovery, we need to focus more on prevention and protection. 
We will.
    Mr. Stewart. Again, thank you for that. My time is expired. 
If I could just end with this. Again, there were many things 
done right, but there were some meaningful failures and please 
let's not wait for an investigation to complete 6 months ago, 
to do what we can now to implement some changes that would make 
this more difficult. Thank you again to the witnesses. Mr. 
Chairman, I yield back.
    Mr. King. The gentleman yields back. The gentleman from 
Arizona, Mr. Barber, is recognized for 5 minutes.
    Mr. Barber. Thank you, Mr. Chairman, and thanks to the 
witnesses for the exceptional testimony here today. You know, 
many questions have been raised by my colleagues about what we 
can do to prevent a reoccurrence, and we have to ask and answer 
those questions, and I know that we will be having subsequent 
hearings to examine those issues.
    What I want to focus on today is what happened the day of 
the bombing and in the weeks or the days following, because I 
think we can learn a lot, as the gentleman just asked about, 
what we could do better and certainly, we can expedite that 
information.
    I just want to commend both Commissioner Davis, and Under 
Secretary Schwartz for an incredible response, an efficient and 
effective response to this great tragedy. I do know that other 
communities, including my own, have faced similar situations. 
Not exactly a bombing in the case of Tucson, but certainly 
similar in terms of what was required to respond effectively. I 
also want to thank you, Commissioner Davis, for bringing the 
photographs.
    You know, when we get into a discussion about a tragedy 
like this, we sometimes actually forget that there is a very 
personal human tragedy that comes out of this. I know that the 
people in Tucson are still grieving the loss of their loved 
ones, and many people from that shooting are still dealing with 
the change in their lives. So I really appreciate seeing the 
faces of the good people that were lost that day. It reminds us 
why our work is so important.
    You know, I remember seeing photographs of the six people 
who died in Tucson. When you put those photographs up it took 
me back to that terrible day and the subsequent weeks.
    I was in Boston last weekend for Congresswoman Giffords' 
award and I saw the memorial near the finish line, and I saw 
everywhere I went, signs on buses and everywhere else, Boston 
Strong. What I felt and saw in Boston was exactly what I felt 
and saw in Tucson. We will not be defined by these kinds of 
tragedies. We will be defined by how we respond, and I commend 
you and all of the other good people in Boston and in the State 
for that.
    I want to ask a couple of questions about where we are 
today, and I want to, first of all, thank Senator Lieberman for 
coming, and I want to ask this question of you, Senator. In 
your testimony, you pointed out that a holistic approach is the 
most effective way to solve, or to deal with the spread of 
violent Islamic extremism and the radicalization process that 
is going on right now as we have heard in our country. I firmly 
believe that law enforcement, in addition to all of the 
citizens of our community are really critical to that effort.
    Senator, as you know, before you left the Senate, we were 
dealing with the sequestration issue, and I would like to ask 
your opinion about how you believe sequestration has impacted 
on our efforts to both prevent as well as to respond to a 
tragedy like this in the future. I am particularly interested 
in what parts of the Department of Homeland Security, or for 
that matter, any other budget of Federal agency, you would give 
priority to as we are trying to figure out how to deal with 
sequestration.
    We have given the Department of Homeland Security some 
flexibility and they are going to come back to us with 
reprogramming requests. What would you prioritize in light of 
what happened in Boston, and what we know, unfortunately, may 
well happen again?
    Mr. Lieberman. Thanks, Congressman. Not an easy question 
because a lot of the programs that are now being funded and cut 
back a little bit are critically important such as the programs 
to aid State and local law enforcement. But if you look at the 
record of the 12 years now since 9/11, which I recited briefly 
at the beginning, only three, I say only, but the only attacks 
attempted attacks against us that have succeeded were all 
carried out home-grown terrorists. Those are the toughest 
cases, and there is where you require really the whole of 
society that I talked about, and that requires, in my opinion, 
not just FBI, but particularly, State and local law enforcement 
outreaching to the community, engaging the community, 
particularly in this case, the Muslim-American community. This 
is, in a sense, unconventional. But a lot of the communities 
that are going to be asked to do this are strapped or more 
strapped for funds than the Federal Government.
    So if we want to go where the problem seems to be most 
serious right now, this ideology of violent Islamist extremism 
among homegrown radicals. I would say that we don't want to cut 
back in our support of State and local law enforcement because 
they are where it is.
    Mr. Chairman, if I may have a point of personal privilege. 
This Congressman, after the tragedy we had in Connecticut in 
Newtown, called me in a very private call just to--from based 
on his, the pain he went through in Arizona. It was really a 
noble and selfless thing. Until I just--and I am about to shoot 
off my mouth, it was a totally private act which nobody ever 
would have known about. But I am glad to have this opportunity 
publicly to thank you for that. It meant a lot to me.
    Mr. Barber. Thank you, Senator. Thank you, Mr. Chairman.
    Mr. King. The gentleman yields back. Thank you, Senator. I 
would also like to acknowledge the presence of a founding 
Member of this committee, Congressman Shays from Connecticut. 
Congressman Shays was a former colleague of Senator Lieberman. 
Chris, we miss you.
    The gentleman from Pennsylvania, Mr. Perry, is recognized 
for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Gentlemen, thank you 
very much for your service in this regard, in this incident, 
and of course, your service to your community and your country. 
With that, my questions primarily will be to Senator Lieberman, 
and Professor Southers. I know some of it has been covered by 
the acting Chairman at this point, but I can't help but just 
reiterate some names to you, Richard Reid, Jose Padilla, Iyman 
Faris, The Virginia Jihad Network, Assem Hammoud, the 
Lackawanna Six, the Fort Dix Six plotters, Nidal Hasan, Khalid 
Sheikh Mohammed, and Mohamed Atta.
    Now, Senator Lieberman, in your opening statement and 
subsequent questions, I think the American people would agree 
with you, and I think that you get it, so to speak. But I am--
for the professor in particular, I just, I think those names 
are probably familiar to you. What would you say they have in 
common?
    Mr. Southers. I would say, obviously, they have in common 
their religion, and an, if you will, extremist Muslim ideology.
    Mr. Perry. Okay, thank you. That is my concern. You know, 
in the Fifth century BC, Sun Tzu said: ``Know thy enemy and 
know thy self . . . '' and as a military officer, of course, it 
served me well. Based on research, at least 50 publicly-known 
radical Islamist-inspired terror plots targeting the United 
States have been foiled since 9/11. Did you know, Professor, 
that 30 of the FBI's 31 most wanted terrorists are radical 
Islamists?
    Mr. Southers. As a number, no, I did not.
    Mr. Perry. Okay, so my concern, among other things, is that 
you are a professor, and I listened to your testimony, and it 
seems like there is a reluctance to acknowledge what, who the 
face, and who our enemy is by name, and maybe we have a 
definitional problem here, but you know, and let me read the 
President's recent statement.
    The President stated that the dangers to our homeland now 
come from self-radicalized individuals who, because of whatever 
warped, twisted ideas they may have, may decide to carry out an 
attack.
    Where do you suppose these ideas come from, Professor?
    Mr. Southers. They could come from a variety of extremist 
ideologies. Your facts are correct; there had been a number of 
individuals indicted since 9/11. Specifically 207 individuals 
have been indicted since 9/11 in the United States that have, 
as you mentioned, if we will, an al-Qaeda ideology, 5 percent 
of those people for roles in violent incidents. There have been 
139 right-wing militants indicted since 9/11, where just under 
50 percent of those people were engaged in violent attacks 
before arrest.
    So my point in my testimony was one of although the facts 
are correct with regards to the extremist ideology they share, 
that we understand their radicalization is not monopolized by 
any particular ideology, or religion, or race.
    Mr. Perry. But by and large, would you agree that the 
greatest propensity by far is the radical Islam; not any other 
one, just that one?
    Mr. Southers. I would agree that based on the facts we have 
today, absolutely, that would support that.
    Mr. Perry. Okay. So with that, Senator Lieberman, the 
YouTube account under Tamerlan's--by the way, his name is ``the 
Sword of Islam''--showed that he had viewed multiple Russian-
language videos on radical Islam, and even compiled playlists 
of jihadi videos. Should we and should the authorities have 
been concerned?
    Mr. Lieberman. Well, of course. Part of your investigation 
and the Executive branch investigation has to be why weren't 
they? Did they know that? I am afraid that they didn't know 
that Tamerlan had put up his own YouTube channel and was 
broadcasting all of those violent Islamist extremist videos. 
But obviously, that is one of the places where the system broke 
down.
    Mr. Perry. So let me ask you this question, Senator: Why do 
you think--I know you can't answer for him, but why do you 
think this administration is unwilling to use the term 
``radical Islam'' to describe these acts of terror? This is 
really important, because investigations and our National mood 
about how we deal with this, I think, is expressed here. What 
is gained by the President's refusal to appropriately describe 
jihad as expressed by radical Islamist extremists as their 
motivation for attacking the United States and other free 
nations?
    Mr. Lieberman. Well, I don't know. In other words, this is 
a debate that I had over the years during my time in the Senate 
and particularly with this administration. For all of the 
reasons you say, you have got to know your enemy and call it 
what it is, particularly now. There is a danger if you think 
that the enemy is al-Qaeda, and you observe that bin Laden is 
killed, and central al-Qaeda is on the run, you may be lured 
into believing that the war is over. But there is this 
ideology, violent Islamist extremism, which, in fact, is not 
over, it is spreading. It is not just spreading to enough 
people here to makes us worry at home, but it is what is 
happening in Syria, and Mali, and Yemen, and Pakistan, and 
Afghanistan, and Chechnya, and Dagestan, and in America. So I 
don't get it.
    I presume it is because of a sensitivity that if you use 
the term ``Islam'' or ``Muslim'' at all with relationship to 
violence, or extremism, or terrorism, it will do offense to 
Muslims. But, you know, I am privileged that a lot of my fellow 
Americans are Muslim. They are law-abiding. They are patriotic. 
They have nothing to do with these criminals and terrorists.
    Mr. Perry. Absolutely.
    Mr. Lieberman. I don't think it is fair to them--I don't 
think it is fair to them not to single these people out. Maybe 
the words we are using are not right. But, you know, somebody 
else said this, I will just repeat it. It is too short and too 
simple, but unfortunately, it does bear some truth, which is 
that, obviously most Muslims are not terrorists. But the sad 
fact is today that most terrorists that we are dealing with in 
America are inspired by this violent Islamic extremist 
ideology, and you have got to recognize that to deal with it.
    Mr. Perry. Thank you, Senator.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. King. The gentleman yields back.
    I recognize my friend from New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Let me first start out with thanking Commissioner Davis, 
and Under Secretary Schwartz for the incredible job that was 
done in Boston by your organizations along with the Federal 
Government.
    It truly shows that the system works, and that we have the 
capability to, when an event occurs, finalize it very quickly. 
I think it is extraordinary that this whole incident was 
wrapped up in a week. It is absolutely incredible, in my view. 
I thought this would be a situation that would drag on for 
quite some time, but to have an incident happen at the 
beginning of the week, and to have it completed and the bad 
guys found in a week I think says a lot about the system that 
we have in place.
    There were naturally some issues, and they have been 
exhausted here today, I think. But I would like to ask 
Commissioner Davis, you know, the administration has proposed 
to consolidate the Homeland Security grant programs, including 
UASI, the State Homeland Security Grant Program, into one 
funding pool. Under the proposal it is unclear whether grantees 
will be required to dedicate 25 percent of the grant awards to 
law enforcement terrorism--and terrorism prevention activities. 
Based on the way you have been able to utilize those resources, 
do you have concerns about the proposed grant consolidation?
    Commissioner Davis. I certainly owe a debt of gratitude to 
President Obama and to Secretary Napolitano, but I have to say 
that I think that that plan is going to be detrimental to the 
further security of our city. I have to say that the UASI 
program has been extremely helpful and made a difference, and I 
think it should continue as it is.
    Mr. Payne. We have had great experience with that in 
northern Jersey where I come from, Newark, New Jersey, which 
has a major airport, and port, and chemical installations that 
the UASI grant has been instrumental in us being able to do the 
types of things we need to do in order to make sure that that 
area is safe. So with your concern, I am very concerned as 
well.
    The other thing that I have--since joining the committee 
have gotten involved in is the whole question around 
interoperability, and, you know, the response efforts, you 
know, following the bombing demonstrated successful 
interoperability between agencies, disciplines, and 
jurisdictions. You know, the Commonwealth received, as you well 
know, $3.11 million from the Interoperable Emergency 
Communications Grant between fiscal year 2008 and fiscal year 
2010, the last year that program received allocated funding.
    How did these funds from the grant help contribute to your 
interoperability?
    Mr. Schwartz. Well, thank you for the question. As I 
mentioned in my opening statement, interoperability has been a 
huge success story in Massachusetts and was a great story on 
April 15 and the days that followed. Through a variety of grant 
funds, some you mentioned--there was the PSIC money that came 
to the Commonwealth as well--a number of years ago we created a 
State-wide interoperability executive committee that took 
control of and charge over all of the Homeland Security funds 
that came into the Commonwealth, and that group, which is 
comprised of people from all over the State, developed local, 
regional, and State-wide interoperability plans and then 
invested in those plans.
    So if you fast-forward over the last number of years to 
where we were on April 15, an hour before the bombing, as we 
were supporting the Boston Marathon, there were public safety 
agencies, local, State, and Federal, across eight cities and 
towns that were all communicating. Tactical units were on their 
own channels. Command-level people were on their own channels. 
Voice communication was working. That remained true through the 
week.
    But perhaps more importantly, if this were to happen, or a 
similar-type no-notice event happens tomorrow, we have the 
capability across the State by just flipping--you know, pushing 
buttons and flipping switches to make sure that that level of 
interoperability is established. I think it is fair to say that 
none of this would have happened without the Homeland Security 
grant streams that had been coming into the Commonwealth.
    Commissioner Davis. May I just add that there is one fly in 
the ointment here, which is the T-Band. I know we are getting 
into sort of complicated things that I might not be the best 
person to explain, but if we lose T-Band, as is scheduled to 
happen in the next 6 or 7 years according to the FCC rules, 
virtually every police department in the metropolitan area of 
Boston from 495 in will be adversely affected by that.
    We need to revisit that, and we need to talk about these 
new technologies that are out there that will help us with 
interoperability. This has all been put together with funding 
that worked for us, but because of some of the broadband issues 
that are being discussed right now, and the T-Band that we are 
scheduled to lose, we are going to have problems.
    Mr. Payne. Thank you.
    Thank you. Well, Mr. Speaker--Mr. Speaker, I am sorry. Mr. 
Chairman.
    Mr. King. Acting Chairman.
    Mr. Payne. Acting Chairman. I am trying to promote you.
    You know, we need to be cognizant of these types of issues 
moving forward. We see how well it worked in Boston, and to cut 
that funding, I think, would be detrimental to this Nation's 
security moving forward. Thank you.
    Mr. King. I agree with the gentleman, and obviously 
northern New Jersey and New York are really one unit. Thank 
you.
    Before I close the hearing, I just have several questions 
for Senator Lieberman and Commissioner Davis. It is under the 
heading of lessons learned and going forward.
    Senator Lieberman, when the FBI did its investigation of 
the--based on the tip from the Russians to determine whether or 
not the older brother was radicalized, they did not discuss it 
with the imam or anyone in the mosque. My understanding is that 
is because of a change in DOJ guidelines in the last several 
years that to go to a mosque, they have to get approval from a 
committee in Washington, I believe.
    Do you think in view of the fact that if a person is going 
to be radicalized as a Muslim, you should go to his house of 
worship to see whether or not the people in that community 
would have felt that he had been radicalized?
    Mr. Lieberman. I do. I don't know exactly what happened 
here, but this is why I raised the question about the 
Department of Justice guidelines for the FBI, because, again, 
looking back, it is unusual to get this kind of tip from 
Russian intelligence.
    What was the nature of the investigation that the FBI did? 
It sounds to me like--well, we don't know, so will you ask 
them? They talked to Tamerlan Tsarnaev. They talked to his 
mother. They had some sporadic surveillance around his house. 
But as far as I can tell, they didn't talk to anybody else.
    You know, talk about the whole of society, if you really 
wanted to check somebody out before you closed the file, which 
is what they did, you have to talk to friends, neighbors, and 
people in their house of worship. That is not--to me, that is 
not a violation of, you know, the right to freedom of religion 
or anything else. It is putting first the safety of the people 
of Boston in this case, including everybody who was a member of 
the mosque.
    Mr. King. Also, Senator, this is an issue that maybe 
affects the House more than the Senate, but I think the last 
count there was anywhere between 85 and 100 committees, and 
subcommittees, and commissions that claimed some jurisdiction 
over homeland security. Do you think in view of the problems 
that we saw encountered in this particular case, as far as 
maybe one agency not knowing what the other is doing, that the 
time has come to consolidate--further consolidate within 
Congress jurisdiction over the homeland security, rather than 
having it spread over so many different committees and 
subcommittees?
    Mr. Lieberman. Well, I sure hope so. I mean, it is great to 
be back with you, Congressman King. We worked so closely 
together, and we always will, on these matters. You remember, 
after 9/11, after the 9/11 Commission report, the Kean-Hamilton 
report, amazingly we worked together across party lines, both 
Chambers, the White House. We got most of their recommendations 
adopted at least in part except one, the one that reformed 
Congress and limited the number of committees having oversight 
on homeland security, because that was Congress protecting its 
own turf.
    So what is the significance of that? First off, it takes 
time from the Department of Homeland Security that they really 
ought to be spending back at the office protecting our homeland 
security. It also makes the work of Congress less effective in 
combating the threats to our security.
    So I hope that one of the things that may come out is 
that--come out of the tragedy in Boston is that Congress again 
take a look at itself, not just the administrative branch of 
our Government, and figure out how we could better organize to 
deal with homeland defense.
    Mr. King. Thank you, Senator.
    I have a question for Commissioner Davis. You said that the 
mechanisms are in place for the FBI to notify you when there is 
a threat. Do you think we should consider lowering the 
threshold as to what a threat is? For instance, when they were 
told by the Russians to look into the older brother, if that 
should happen in the future, wouldn't it make sense to speak to 
the local police department to see whether or not they know 
anything on him, and perhaps ask the local police to keep an 
eye on him as they go forward?
    Commissioner Davis. That certainly is an area that deserves 
very close scrutiny, Congressman. I believe that our 
relationship has improved dramatically in the last 10 years, 
but when you are dealing with intelligence between nations, 
that is still difficult to access. There are reasons for that, 
and I understand them. But when information is out there that 
affects the safety of my community, I need to know that.
    Mr. King. Thank you, Commissioner. Even if--you know, they 
wouldn't have to tell you it even if it came from the Russians. 
They could just say, we received a tip from someone that 
perhaps he has been radicalized. Could you keep an eye on him?
    Commissioner Davis. Right. I have received Secret and Top 
Secret information in the last 10 years. But I think that where 
that sort of bar is that everybody gets notified on, that has 
to be looked at as to whether it is in the right place.
    Mr. King. After this attack a point was made: There was no 
chatter, there was no international intelligence coming. I 
think that is going to be the wave of the future. There is 
going to be attacks that are under the radar screen, and it is 
more important than ever the local police be involved. There is 
no one that has a better feel for the community than the local 
police.
    Commissioner Davis. We have 600,000 people in local police 
departments across the Nation, which is a force multiplier for 
the Federal agencies.
    Mr. King. Thank you.
    Let me thank all of the witnesses.
    Professor, I didn't welcome you back. I know you testified 
before the committee 5 years ago, I guess it was. It is great 
to have you back.
    Mr. Schwartz, it is great to have you here. You really 
added a lot.
    Commissioner Davis, the whole country is looking at you for 
the outstanding job that you did.
    Senator Lieberman, what can I say? An old friend and a real 
patriot, and one of the few people in politics who never lets 
you down. So, Senator Lieberman, thank you.
    I want to thank all the witnesses for their testimony and 
the Members for their questions. The Members of the committee 
may have some additional questions of witnesses, and we will 
ask you to respond to those in writing. The hearing record will 
be held open for 10 days.
    Let me just say on behalf of myself and the entire 
committee, I thank Chairman McCaul for holding this hearing, 
the first one in the Congress on such a vital issue. With that, 
without objection, the committee stands adjourned.
    [Whereupon, at 12:51 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Honorable Sheila Jackson Lee for Senator Joseph I. 
                               Lieberman
    Question 1. The Boston Marathon bombing appears to be a pernicious 
reminder that the internet has extended the battlefield in the war on 
terror. As a former U.S. Senate Chair of the Senate Committee on 
Homeland Security, how well do you think is the United States meeting 
this new challenge? What more can or should be done?
    Answer. Response was not received at the time of publication.
    Question 2a. Terrorism expert Mitch Silber said that more than 6 
years ago, beginning in 2007, signs began to emerge that radicalization 
on the internet was happening in the United States which led him to co-
author the New York Police Department report, ``Radicalization in the 
West: The Homegrown Threat.'' Do you agree with Mr. Silber's 
assessment?
    Answer. Response was not received at the time of publication.
    Question 2b. Was this a concern or priority when you chaired the 
Senate Homeland Security Committee?
    Answer. Response was not received at the time of publication.
    Question 2c. What, if anything, did you learn that you can share 
with this committee?
    Answer. Response was not received at the time of publication.
    Question 3. As a former State attorney general and U.S. Senator did 
you approve of the decision to put the town on Watertown, Massachusetts 
on ``lock down''? Why or not?
    Answer. Response was not received at the time of publication.
    Question 4. As a former State attorney general and U.S. Senator did 
you approve of the decision to question Suspect No. 3, Dzhokhar 
Tsarnaev, without first apprising him of his Miranda rights?
    Answer. Response was not received at the time of publication.
    Question 5. Do you agree with Sen. Lindsay Graham (R-SC), your 
former Senate colleague, that the captured Boston Marathon bombing 
suspect can and should be treated as an ``enemy combatant''? Explain.
    Answer. Response was not received at the time of publication.
    Question 6. Russia's state security service, known as the FSB, 
first approached the FBI on March 4, 2011, after intercepting a pair of 
phone calls in which Tamerlan Tsarnaev discussed jihad. The Russians 
alerted the FBI that Tamerlan Tsarnaev was planning a trip to the North 
Caucasus, which they feared might accelerate his radicalization and 
lead to terrorist activities. The tip prompted the bureau to conduct an 
investigation that included background checks and personal interviews, 
and Tsarnaev was added to a Federal database. But the spadework 
revealed nothing alarming, and with no further information from the 
Russians, the FBI dropped the matter after a 3-month investigation. Do 
you find any fault with the way the FBI handled this matter?
    Answer. Response was not received at the time of publication.
    Question 7. The FBI didn't alert the CIA about the FSB tip; 
instead, Langley learned of Tsarnaev from the Russians more than 6 
months later. When he returned from the Muslim region of Dagestan on 
July 17, 2012, a U.S. Customs and Border Protection official assigned 
to the Joint Terrorism Task Force in Boston declined to warn domestic 
intelligence counterparts. What was the CBP official to warn domestic 
intelligent counterparts about? That Tamerlan Tsarnaev had returned to 
the United States? That he had been in the Muslim region of Dagestan? 
Both? What, if any, civil liberties or individual rights are implicated 
if the latter?
    Answer. Response was not received at the time of publication.
    Question 8. Are you concerned that apparently none of the 
counterterrorism agencies, individually or collectively, pieced 
together the trail the brothers left on the internet, including songs 
and YouTube videos Tamerlan posted that venerate jihad? Why or not?
    Answer. Response was not received at the time of publication.
    Question From Honorable Susan W. Brooks for Edward F. Davis, III
    Question. While I was the deputy mayor of Indianapolis, I oversaw 
the operations of the police, fire, and emergency management 
departments within the city. From experience, as well as from observing 
numerous incidents over the years, such as 9/11, I know the importance 
of first responders and emergency managers being able to communicate 
with each other during an incident. The initial reports I have heard do 
not indicate that there was a problem related to communications amongst 
first responders. Can you please tell us if the police, fire, etc. were 
all able to communicate with each other during the response?
    Answer. The Greater Boston area is effectively equipped with high-
level UHF-based port radio system called the Boston Area Police 
Emergency Radio Network (BAPERN). This system is used by 166 law 
enforcement agencies, including local, State, county, campus, and 
Federal, and spans a coverage area of over 2,000 square miles. This 
system was an important component of communication among all agencies 
during response. Commercial carriers have no capacity for public safety 
emergency communications. It was especially useful when satellite and 
cellular service were effectively non-existent in the hours following 
the attacks. The system allowed communication across agencies to help 
coordinate the local, State, and Federal response, as well as 
communicate officer and public safety issues. An important component of 
that system, however, is in danger of being taken away. As BAPERN is a 
T-Band system, considerable measures need to be taken to ensure this 
essential public safety interoperable communications system is not 
discarded as part of the implementation of Section 6103 of the Middle 
Class Tax Relief and Job Creation Act of 2012 (Act) as it applies to 
the 470-512 MHz band (T-Band).
  Questions From Honorable Sheila Jackson Lee for Edward F. Davis, III
    Question 1. Was the Boston Police Department caught by surprise 
before or after the two bombs exploded? Explain your answer.
    Answer. The Boston Police Department had no indication that the 
bombs would explode. After checking with our partners at the FBI, 
Department of Homeland Security, and local and State law enforcement 
agencies, it was determined there was no credible, specific information 
indicating an imminent threat to the 2013 Boston Marathon.
    Question 2. Were those resources enough to effectively respond to 
the bombing?
    Answer. Resources were readily available and utilized as well as 
could be in such unexpected circumstances. The Boston Police Department 
had hundreds of officers deployed along the route and affiliated 
hospitals and Boston Athletic Association volunteers were located in 
close proximity. EMS and ambulance services were also available upon 
immediate request. The Boston Police Department also utilized prisoner 
transport vehicles when all ambulances available were occupied. Because 
of these resources, the 19 victims in critical care who were removed 
from the scene survived.
    Question 3. In hindsight, what more could have been done (in 
regards to more resources, better technology, etc.) to deal with the 
aftermath of the bombings?
    Answer. In regards to additional resources and technology 
adjustments, the Boston Police Department has identified areas that may 
have been helpful in the aftermath of bombings regarding analytical and 
tactical support resources to prepare for future events relative to 
terrorism and attacks. These include additional intelligence officers 
and analysts; increased medical equipment available to all vehicle 
units, particularly an ample supply of tourniquets and full response 
kits; additional cameras installed at appropriate heights and locations 
to assist in post-incident investigations; and investment into tactical 
and protective equipment.
    Question 4. How closely was the Boston Police Department able to 
work with police departments of other cities to respond to the bombings 
and the ensuing manhunt?
    Answer. The Boston Police Department worked very closely and 
efficiently with all cities involved in response to the bombings, as 
well as the ensuing manhunt from sharing information to tactical 
response.
    Question 5. Were there other problems in working with other police 
departments?
    Answer. By and large there were no problems working with other 
police departments. Commanders established command posts within minutes 
as each incident unfolded. Mutual aid was requested and granted 
pursuant to State law.
    Question 6. What are the most important lessons learned by the 
Boston Police Department in responding to events like the Boston 
bombings that could help other agencies deal with similar situations?
    Answer. Some of the most important lessons revolve around response, 
technology, training, and social media communication. One lesson is the 
need for a well-coordinated medical response. Saving lives is the first 
priority in a situation such as this. Boston's world-famous hospitals 
were in close proximity to the bombing and medical personnel were 
stationed at the finish line. This led to reduced fatalities. The use 
of tourniquets by first responders also saved lives. Tourniquets as 
standard police equipment as well as other first-responder trainings 
should be reviewed.
    Collaboration in response was also important. The strong existing 
relationships both internally and externally prior to the critical 
incident allowed swift and effective response across all jurisdictions.
    Cell phones and communication needs are other lessons to be 
learned. Based on this experience, cell phones are useless in an 
emergency. The capacity of cell phone companies becomes overrun by the 
general public making it impossible for first responders to 
communicate. Based on this, satellite phone technology is not effective 
for indoor command posts and communication across multiple bodies as 
they do not have the capacity to effectively function.
    Training is also a key lesson. Training and testing procedures 
before-hand helped to uncover problems and allowed us to correct them 
before a critical incident. These also improve collaboration between 
responding agencies. Boston has cross-trained with law enforcement and 
medical agencies on such circumstances and their appropriate response 
plans and procedures.
    Last, but most importantly, the use and power of social media as a 
means to interact with the community is a valuable lesson. There is a 
great need to maintain communication and to notify the public in real-
time during such incidents. Social media is also important for direct 
communication with the public to provide accurate information and 
direction on public safety concerns.
    Question 7. Were the Boston Police Department's efforts impeded by 
circumstances beyond their control? What circumstances? Could they be 
prevented in the future?
    Answer. There are no circumstances that I am aware of at this 
juncture, however the on-going review of the intelligence function is 
critical to understand the pre-event assessment that there was a 
threat.
    Question 8. How soon after the FBI learned who the suspects were 
was the Boston PD notified?
    Answer. The BPD was part of a team that investigated and determined 
the photos of the suspects. Therefore, the BPD was notified 
immediately. The department was also notified immediately when the FBI 
determined the identities of Tamerlan Tsarnaev and Dzhokhar Tsarnaev 
after fingerprints were taken from Tamerlan Tsarnaev's deceased body.
    Question 9. Was the Boston Police Department notified at any point 
before the attacks that Tamerlan Tsarnaev was considered dangerous by 
Russian police and had been questioned by the FBI and was living in 
Boston?
    Answer. No, the Boston Police Department was not notified at any 
point before the attack that Tamerlan Tsarnaev was considered dangerous 
by Russian police and had been questioned by the FBI. The Boston Police 
Department assigns four officers to the Joint Terrorism Task Force. One 
officer was assigned to the squad that investigated Tsarnaev. Despite 
that fact, we were never informed that the FBI had questioned Tsarnaev.
    Question 10. What is the single best advice you would like to pass 
on to your counterparts in the Nation's other large urban areas? What 
advice would you give to your counterparts in rural and sparsely-
populated areas?
    Answer. My advice to both large urban areas and rural areas is that 
training for a multijurisdictional response to large-scale events is 
critical. Police departments across the Nation should make sure to 
include medical personnel in their trainings so that they will be 
prepared in the event of a mass casualty and appropriate response will 
be made.
    Question 11. Does the Boston Police Department feel that it has 
full access to all resources it needs to handle terror situations?
    Answer. We were very satisfied with the procedures that we have in 
place as far as vetting the threat environment especially in response 
to incidents. It is important to review the overall process that the 
Federal Government has in place to vet high-level intelligence 
communication as they relate to specific cities.
    Question 12. Is the Boston Police Department able to replenish its 
resources in a timely manner after terror incidents? If not, does this 
pose an increased threat of a second attack?
    Answer. Mayor Menino and the city of Boston prioritize public 
safety and deploys officers as needed. The Boston Police fully deployed 
it resources and received mutual aid resources and support from other 
many law enforcement agencies and regional response teams in order to 
appropriately deploy and relieve officers as necessary. This assisted 
in our post-attack resources activities. We have also taken the 
necessary precautions as it relates to stress services needed after a 
critical incident such as this. We have put great emphasis on stress 
reduction services for the entire department through our Peer Support 
Unit, as well as outside agencies, including the New York Police 
Department.
    Question 13. What are the Boston Police Department protocols for 
approving overtime during incidents where a large portion of the Police 
Department is needed to work hours on end in response to attacks?
    Answer. The protecting of life is our fundamental responsibility. 
Appropriate resources were activated to do so. The Boston Police 
Department follows a standard protocol for approving overtime. Our 
Department Rule requires every officer to complete and sign an overtime 
authorization record which is then signed by his or her Supervisor and 
by the Commander or Director of his or her Unit. In this case, I 
ordered my Command Staff to ensure full and continuous deployment. A 
series of codes were then opened and used to track and capture the 
overtime costs specific to the event.
    Question 14. How effectively is the Boston Police Department able 
to communicate with Federal agencies and other PD's?
    Answer. On a day-to-day basis, the Boston Police Department 
communicates with Federal agencies and other police departments very 
effectively. All agencies know each other and talk on a regular basis. 
A lapse in communication as events unfolded surrounded the technical 
issues which will require an improved, robust, and technologically-
advanced radio communications system that is surely needed throughout 
the United States for first responders.
    Question 15. Are there channels that are available during extreme 
situations that can prevent any delay in communication?
    Answer. Typically, the Boston Police Department utilizes our 
regular operational radio channels. In an emergency or special event, 
the Department opens event-specific channels so everyone can focus on 
the event without overloading the regular channels. In the case of an 
emergency or critical event that encompasses multiple jurisdictions, 
the Boston Police Department and coordinated departments open a 
regional channel called BAPERN, as mentioned in Question 1, that 
connect to our channels so that we can communicate with the people in 
other agencies who are working the incident.
    Question 16. Does the Boston Police Department use social media as 
a tool to distribute information to the general public? Do they use 
social media as a detective tool? Is it effective as either?
    Answer. The Boston Police does use social media as a tool to inform 
and distribute information to the general public. It is very effective. 
BPD uses the following platforms as an extension of community policing: 
bpdnews.com, Facebook, Twitter, and Instagram. All aspects of social 
media outreach are designed to engage and inform the public with the 
overall goal being an investment in public safety. The BPD has 
increased followers and continues to keep the public and the media up-
to-date on the latest and most reliable information available through 
social media, as well as a means of receiving tips and assistance. 
Social media has been used to establish an on-going dialogue to further 
engage in effective community policing. The power of social media is in 
the back-and-forth conversation, not only in providing information but 
also in receiving immediate feedback into how the information is 
received. This allows us to better assess the community's reaction to 
what we are discussing. The Boston Police Department also uses social 
media as a detective tool and has proven to be effective as an 
investigatory tool as well.
    Question 17. Are there portions of the communication protocols that 
you feel could be refined to improve communication within your police 
department as well as to outside agencies?
    Answer. I have asked for further clarification regarding this 
question.
     Questions From Honorable Susan W. Brooks for Kurt N. Schwartz
    Question 1. In the aftermath of disasters, such as the Boston 
bombing, communicating with the public is vital, not only to ensure 
their safety and save lives, but when appropriate to enlist their help. 
The use of social media by area officials proved invaluable as law 
enforcement first sought to clear the area and later sought information 
to further the investigation, including photos and videos from the 
finish line, and later in identifying the Tsarnaev brothers. FEMA's 
Integrated Public Alert and Warning System (IPAWS) provides alerting 
capabilities across multiple platforms such as television and cell 
phones to enable State and local officials to share information with 
the public. How did your organization communicate information with the 
public immediately after the attack and during the search for the 
suspects and the investigation?
    Answer. Response was not received at the time of publication.
    Question 2. At the time of the bombing, I understand that the 
Commonwealth of Massachusetts had not yet executed an agreement with 
FEMA to become an alert originator through the FEMA IPAWS system. Has 
this process been completed at this point?
    Answer. Response was not received at the time of publication.
    Question 3. I understand that FEMA assisted with the transmission 
of a geographically targeted Wireless Emergency Alert to wireless 
devices in the Watertown area regarding the order to shelter-in-place. 
How did this either positively or negatively help your efforts?
    Answer. Response was not received at the time of publication.
    Question 4a. Director Schwartz, you noted in your testimony the 
positive impact that Federal homeland security investments have had on 
response capabilities in the Commonwealth of Massachusetts and the city 
of Boston. Would you please elaborate and tell us some of the training, 
exercises, and equipment purchases supported by Federal homeland 
security grants and how these assisted authorities after the attack?
    Answer. Response was not received at the time of publication.
    Question 4b. How did these investments enhance coordination between 
and among law enforcement, the fire service, and the public health 
community and with your Federal partners?
    Answer. Response was not received at the time of publication.
    Question 5. While I was the deputy mayor of Indianapolis, I oversaw 
the operations of the police, fire, and emergency management 
departments within the city. From the experience, as well as from 
observing numerous incidents over the years, such as 9/11, I know the 
importance of first responders and emergency managers being able to 
communicate with each other during an incident. The initial reports I 
have heard do not indicate that there was a problem related to 
communications amongst first responders. Can you please tell us if the 
police, fire, etc. were all able to communicate with each other during 
the response?
    Answer. Response was not received at the time of publication.
    Questions From Honorable Sheila Jackson Lee for Kurt N. Schwartz
    Question 1. Fusion Centers are supposed to work with Federal, 
State, regional, and local law enforcement, as well as the public and 
private sector and also serve as the State repository for homeland 
security information and incident reporting. How well does the 
Massachusetts Fusion Center work with other law enforcement agencies? 
In what areas, if any, can this working relationship be improved?
    Answer. Response was not received at the time of publication.
    Question 2. I understand that the Massachusetts Fusion Center also 
serves as the point of contact for local entities seeking to receive 
information from Federal agencies. Explain how this works; how do local 
entities makes requests and how does the Fusion Center handle them?
    Answer. Response was not received at the time of publication.
    Question 3. I understand also that the Fusion Center collects and 
analyzes information to produce and disseminate ``actionable 
intelligence'' to support decision makers and operational personnel. 
How large is the Fusion Center's intelligence gathering and analysis 
operation? How is it funded? Is the funding adequate? How is the 
determination as to whether information constitutes ``actionable 
intelligence'' made?
    Answer. Response was not received at the time of publication.
    Question 4. It is my understanding that intelligence analysts in 
the Fusion Center are assigned accounts which focus on terrorism and 
organized criminal activity and that each analyst develops contacts in 
their area of responsibility and is responsible for awareness in their 
subject areas, focusing on threats to the Commonwealth.
    How many intelligence analysts staff the Fusion Center? How are 
they selected? Trained? Evaluated? How are threats that are not focused 
on the Commonwealth handled?
    Answer. Response was not received at the time of publication.
    Question 5. It is my understanding that the Commonwealth Fusion 
Center produces three types of intelligence products for Fusion Center 
stakeholders:
  <bullet> Bulletins: Reports for immediate distribution, such as 
        officer safety alerts, high-profile incident reports;
  <bullet> Intelligence and Informational Briefings: Oral or written 
        products using all sources available to analysts on an incident 
        or topic to inform stakeholders;
  <bullet> Strategic Assessments: Strategic overviews of criminal or 
        terrorist threats to the public, public safety entities, or 
        owners/operators of critical infrastructure assets.
    The Fusion Center aspires to produce timely and relevant 
intelligence to safeguard the Commonwealth and its citizens. How 
effective would you say the Fusion Center was in producing timely 
intelligence in the case of the Boston Marathon bombing? What, if 
anything, could or should have been done to increase timely 
communication?
    Answer. Response was not received at the time of publication.
    Question 6. How quickly was your agency notified of the incidents 
that occurred at the Boston Marathon earlier this year?
    Answer. Response was not received at the time of publication.
    Question 7. What measures did your department take after hearing of 
the incident?
    Answer. Response was not received at the time of publication.
    Question 8. When did the Massachusetts Homeland Security Department 
learn that the FBI had questioned Suspect No. 1, Tamerlan Tsarnaev? 
How? What action did it take in response?
    Answer. Response was not received at the time of publication.
    Question 9. When did the Massachusetts Homeland Security Department 
learn that Tamerlan Tsarnaev had travelled to Makhachkala, a Russian 
city in the Dagestan region near the Caspian Sea in January 2012?
    Answer. Response was not received at the time of publication.
    Question 10. Does your department work with foreign local law 
enforcement agencies regarding on-going investigations?
    Answer. Response was not received at the time of publication.
    Question 11. In hindsight what, if anything, could have been done 
to prevent the Boston Marathon bombing? What are the one or two most 
critical steps that should be taken immediately to prevent such 
tragedies in the future?
    Answer. Response was not received at the time of publication.
    Question 12. How extensively does your organization use 
contemporary social networking platforms such as YouTube, Twitter, 
Facebook in furtherance of the organization's mission? How effective or 
ineffective have these platforms proved to be?
    Answer. Response was not received at the time of publication.


      ASSESSING ATTACKS ON THE HOMELAND: FROM FORT HOOD TO BOSTON

                              ----------                              


                        Wednesday, July 10, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:17 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Broun, 
Miller, Meehan, Duncan, Marino, Chaffetz, Barletta, Stewart, 
Hudson, Daines, Brooks, Perry, Sanford, Thompson, Sanchez, 
Jackson Lee, Clarke, Richmond, Keating, Barber, Payne, 
O'Rourke, Gabbard, Vela, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to continue our 
series of hearings examining the Boston bombings of April 15, 
2013. I now recognize myself for an opening statement.
    I want to thank the witnesses for appearing here today. 
This is an open hearing, and today, we will vote on convening a 
closed session tomorrow to receive classified testimony from 
the Department of Homeland Security and the National 
Counterterrorism Center.
    Unfortunately, the FBI has refused to appear and continues 
to refuse this committee's appropriate requests for information 
and documents crucial to our investigation into what happened 
in Boston.
    Three months ago there was a terrorist attack in our 
country, and it is this committee's responsibility to find out 
how we did not see it coming. What concerns me greatly is that 
the problem at the heart of preventing the Boston bombings is a 
failure to share information, that that is being witnessed now 
in this very room. The information requested by this committee 
belongs to the American people. It does not belong solely to 
the FBI, and I sincerely hope they do not intend to stonewall 
our inquiry into how this happened.
    I said when I started this investigation that we were going 
to find out what happened, what went wrong and how to fix it, 
and I will not be satisfied until we get the answers that the 
American people deserve.
    As Dzhokhar arrives in court today, justice is just 
beginning. Today we turn to making sure what he did is 
prevented from ever happening again. Just weeks ago, I walked 
the streets of Boston with my colleague, Bill Keating, and 
while the city's resilience and strength were obvious 
everywhere we went, how this attack could have occurred in 
spite of multiple warnings was still not clear. In many ways 
the Boston bombing serves as an assessment of our counterterror 
experts over a decade after 9/11.
    In our investigation, we will look at how far we have come 
and what must be changed to better protect our homeland. Today, 
by looking at other domestic terror attacks on our soil, in 
addition to the Boston bombings, we seek to identify systematic 
vulnerabilities in our defenses, which could have helped 
prevent these attacks and future threats.
    Since 9/11, the great challenge to our vast homeland 
security apparatus remains in connecting the dots. While much 
information is available, we must ensure that we have the best 
system possible for sharing intelligence, particularly when 
information so clearly warrants additional scrutiny, as it did 
with Tamerlan Tsarnaev. In this case, while the FBI had 
investigated the older suspect, his case was not reopened after 
his travel overseas to a hotbed of jihadist terrorism.
    Ultimately, as we refine our post-9/11 counterterrorism 
policies, this type of failure to follow up must not continue. 
This is particularly important as the administration seeks to 
return to a pre-9/11 approach to fighting terrorism on our 
soil, a policy perpetrated by its narrative that the conflict 
with radical Islamists is ending. Unfortunately, the rhetoric 
perpetrated by the administration that the threat of al-Qaeda 
is diminishing and that its franchises are less dangerous is 
not the reality that the United States faces today.
    For evidence of this, look to the latest edition of al-
Qaeda's Inspire magazine, which praised the Tsarnaev brothers 
and encouraged other extremists to conduct similar attacks. 
Terrorists within the United States who are inspired by 
jihadist rhetoric present a new and dynamic threat and must be 
looked at as any less deadly than those abroad.
    In light of Boston, it is more important than ever to find 
weaknesses in our counterterror efforts that can be fixed 
before another attack is attempted. By reviewing the events 
leading to the last five attacks on the homeland since 9/11, we 
will find patterns that will shed light on what we must 
improve. For instance, in June 2009, a terrorist targeted an 
Army Navy Career Center in Little Rock, Arkansas, killing one 
soldier and wounding another. Carlos Bledsoe, an American 
citizen, converted to Islam and spent 16 months in Yemen at a 
jihadist training camp. Bledsoe had been interviewed by the FBI 
twice before the shooting, once in Yemen and then again in 
Nashville. While law enforcement agencies were concerned he may 
have ties to extremist groups, they did not pursue the matter.
    The shooting at Fort Hood, Texas, in my home State, in 
November 2009, is another example of Government officials 
either failing to recognize or failing to pursue a credible 
threat. There were signs Major Nidal Hasan had become 
radicalized, but his superiors failed to discipline or 
discharge him. The FBI was aware Hasan was communicating with 
the terrorist Anwar al-Awlaki a year prior to his attack on 
Fort Hood, where he killed 14 people and wounded 43 others, but 
ultimately this information was not shared with Fort Hood.
    The 2009 attempted attack on a Detroit-bound plane 
Christmas day is yet another example of agencies failing to 
connect the dots. Umar Farouk Abdulmutallab: His father 
reported his son's extremism and hatred of the West to the U.S. 
embassy, but one agency failed to alert another.
    The Times Square bomber, Shahzad, a naturalized U.S. 
citizen born in Pakistan, was placed on the Traveler 
Enforcement Compliance, or TECs system, between 1998 and 2008; 
however, this computer system does not share information 
effectively among databases. Consequently, Shahzad fell off the 
radar screen only to have luck prevent the bomb from going off.
    Finally, the Boston Marathon bombings. They show that when 
agencies fail to share critical information about terrorists, 
they fail to see the full picture, which could point to an 
imminent attack. We still do not know if the FBI was alerted to 
Tamerlan's travel overseas, but we do know that no action was 
taken after the fact. The deputy director of the FBI said that 
even if they had been notified about that travel, the case was 
closed, and it would not have been reopened.
    These events bring to light two areas that deserve scrutiny 
by this committee, the first being whether the information is 
still being stovepiped between agencies, and the second being 
whether our agencies need to update their policies in order to 
be nimble enough to confront the current dynamic threat to this 
country.
    It is easy to see why this absolutely must be done when you 
read the words of our enemy in the most recent issue of AQAP's 
Inspire magazine, which praised the Tsarnaev brothers and the 
Boston bombings, and in one segment a poem written under the 
name ``Tamerlan II'' declares, ``brothers residing in the West, 
grab your chance and walk steadfastly toward your goal. As for 
me in Yemen, whenever I move around with explosives around my 
waist, I wish I am in America.''
    Those chilling words make it clear that our enemies applaud 
the actions of Tamerlan and Dzhokhar, and they will try again 
and again, and we must be better prepared.
    [The statement of Chairman McCaul follows:]
                  Statement of Chairman Michael McCaul
                             July 10, 2013
    I want to thank the witnesses for appearing today. This is an open 
hearing and today we will vote on convening a closed session tomorrow 
to receive classified testimony from DHS and the National 
Counterterrorism Center. Unfortunately, the FBI has refused to appear, 
and continues to refuse this committee's appropriate requests for 
information and documents crucial to our investigation into what 
happened in Boston.
    Three months ago, there was a terrorist attack in our country, and 
it is this committee's responsibility to find out how we did not see it 
coming. What concerns me greatly is that the problem at the heart of 
preventing the Boston bombings--the failure to share information--is 
being witnessed now in this very room. The information requested by 
this committee belongs to the American people. It does not belong 
solely to the FBI, and I sincerely hope they do not intend to stonewall 
our inquiry into how this happened. I said when I started this 
investigation that we were going to find out what happened, what went 
wrong and how to fix it, and I will not be satisfied until we get the 
answers that the American people deserve.
    As Dzhokar arrives in court today, justice is just beginning. 
Today, we turn to making sure what he did, is prevented from ever 
happening again.
    Just weeks ago, I walked the streets of Boston with my colleague 
Bill Keating, and while the city's resilience and strength were obvious 
everywhere we went--how this attack could have occurred in spite of 
multiple warnings was still not clear.
    In many ways, the Boston bombings serve as an assessment of our 
counterterror efforts over a decade after 9/11, and our investigation 
will look at how far we have come, and what must be changed to better 
protect our homeland. Today, by looking at other domestic terror 
attacks on our soil in addition to the Boston bombings, we seek to 
identify systemic vulnerabilities in our defenses which could have 
helped prevent these attacks, and future threats.
    Since 9/11 the great challenge to our vast homeland security 
apparatus remains connecting the dots. While much information is 
available, we must ensure that we have the best system possible for 
sharing intelligence, particularly when information so clearly warrants 
additional scrutiny, as it did with Tamerlan Tsarnaev. In this case, 
while the FBI had investigated the older suspect, his case was not 
reopened after his travel overseas to a hotbed of jihadist terrorism. 
Ultimately, as we refine our post-9/11 counterterror policies, this 
type of failure to follow up must not continue.
    This is particularly important as the administration seeks to 
return to a pre-
9/11 approach to fighting terrorism on our soil--a policy perpetuated 
by its narrative that the conflict with radical Islamists is ending.
    Unfortunately, the rhetoric perpetuated by the administration that 
the threat of al-Qaeda is diminishing, and that its franchises are less 
dangerous, is not the reality that the United States faces today. For 
evidence of this, look to the latest edition of al-Qaeda's Inspire 
magazine which praised the Tsarnaev brothers and encouraged other 
extremists to conduct similar attacks.
    Terrorists within the United States, who are inspired by jihadist 
rhetoric present a new and dynamic threat and must not be looked at as 
any less deadly than those abroad. In light of Boston, it is more 
important than ever to find weaknesses in our counterterror efforts 
that can be fixed before another attack is attempted.
    By reviewing the events leading to the last five attacks on the 
homeland since 9/11, we will find patterns that will shed light on what 
we must improve.
    In June 2009, a terrorist targeted an Army-Navy Career Center in 
Little Rock, Arkansas, killing one soldier and wounding another. Carlos 
Bledsoe, an American citizen, converted to Islam and spent 16 months in 
Yemen at a jihadist training camp. Bledsoe had been interviewed by the 
FBI twice before the shooting, once in Yemen and then again in 
Nashville. While law enforcement agencies were concerned he may have 
ties to extremist groups, they did not pursue the matter.
    The shooting at Fort Hood in November 2009, is another example of 
Government officials either failing to recognize, or failing to pursue, 
a credible threat. There were signs Major Nidal Hasan had become 
radicalized, but his superiors failed to discipline or discharge him. 
The FBI was aware Hasan was communicating with the terrorist Anwar al-
Awlaki a year prior to his attack on Fort Hood, where he killed 13 
people and wounded 43 others, but ultimately this information was not 
shared with Fort Hood.
    The 2009 attempted attack on a Detroit-bound plane Christmas day is 
yet another example of agencies failing to connect the dots. Umar 
Farouk Abdulmutallab's father reported his son's extremism and hatred 
of the West to the U.S. Embassy, but one agency failed to alert 
another.
    The Times Square bomber, Faisal Shahzad, a naturalized U.S. citizen 
born in Pakistan, was placed on the Traveler Enforcement Compliance, or 
``TECS'' System, between 1998 and 2008. However, this computer system 
does not share information effectively among databases and consequently 
Shahzad fell off the radar screen and only luck prevented the bomb from 
going off.
    Finally, the Boston Marathon bombings show that when agencies fail 
to share critical information about terrorists, they fail to see the 
full picture--which could point to an eminent attack. We still do not 
know if the FBI was alerted to Tamerlan's travel overseas, but we do 
know that no action was taken after the fact, and the Deputy Director 
of the FBI said that even if they had been notified about the travel, 
the case was closed and would not have been reopened.
    These events bring to light two areas that deserve scrutiny by this 
committee. The first being whether information is still being stove-
piped between agencies, and the second being whether our agencies need 
to update their policies in order to be nimble enough to confront the 
current dynamic terror threat to this country.
    It is easy to see why this absolutely must be done when you read 
the words of our enemy in the most recent issue of AQAP's Inspire 
Magazine, which praise the Tsarnaev brothers. In one segment, a poem 
written under the name ``Tamerlan 2'' declares:

``Brother residing in the West, grab your chance and walk steadfastly 
towards your goal. As for me here in Yemen, whenever I move around with 
explosive around my waist, I wish I am in America.''

    Those chilling words make it clear that our enemies applaud the 
actions of Tamerlan and Dzhokhar and they will try again.
    We must be better prepared.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member of the committee.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thank you for calling today's hearing. I want to thank our 
witnesses for also agreeing to appear.
    Today we will explore five terrorist incidents that have 
occurred within the United States since the attacks of 
September 11, 2001. In June 2009, Carlos Bledsoe shot two 
people at an army recruiting center in Little Rock, Arkansas. 
He was found guilty and is serving a life sentence.
    In November 2009, Nidal Hasan, a major in the U.S. Army, 
opened fire at Fort Hood, Texas. Jury selection in his trial 
begins this week.
    In December 2009, the Christmas day bomber was arrested in 
Michigan after trying to detonate an explosive aboard a plane. 
He was convicted and is serving four life sentences in a super 
max prison in Colorado.
    In May 2010, Faisal Shahzad tried to detonate a bomb in 
Times Square. He was convicted and is serving a life sentence 
in a Federal prison.
    Finally, in April 2013, two bombs detonated during the 
Boston Marathon, killing 3 people and wounding 260 individuals. 
One suspect is dead and the other makes his first public 
appearance in Federal court today.
    So I would like to begin today's hearing by pointing out 
the similarities in this limited selection of cases. With the 
exception of the Boston Marathon bombing, each of these attacks 
were perpetrated by lone actor. All of these attackers will 
face--have faced trial in the United States, have been 
convicted, and are serving lengthy sentences.
    It appears that the people who committed these attacks were 
radicalized and turned to violence through contacts outside the 
United States. In at least two cases, the primary means of 
violent radicalization appears to have come from on-line 
contacts. In at least three cases, the attackers were 
disillusioned and disgruntled young men.
    It would seem that these cases stand for several 
propositions. First, the Federal court system is perfectly 
capable of handling terrorism cases. As a matter of fact, in 
2009 alone, the Department of Justice charged more defendants 
with terrorism-related charges than any other Federal crime.
    Second, because none of these cases were carried out by an 
organized group, it would seem that terrorists have changed 
their methods. They have shifted their focus to identifying and 
isolating particular individuals. A change in tactics by our 
adversaries should cause us to change our response. Here, our 
response should focus on acts perpetrated by lone-wolf violent 
extremists.
    Third, because none of these attacks were carried out by an 
organized group, we can conclude that our efforts abroad have 
been successful in disrupting their networks.
    Fourth, because these attacks involve violent 
radicalization of disillusioned young men, our focus should be 
on teaching State and local officials and community leaders to 
effectively engage and diffuse situations which may cause these 
roots of anger to grow. Prevention is likely to be more cost-
effective than surveillance, trials, or wars.
    While this hearing focuses on attacks carried out by Muslim 
Americans, these lessons we should take from this hearing 
should not focus on any particular religious group. Over 10 
years after September 11, we must expand our focus. By now, we 
should know that terrorist violence is not limited to any 
particular ideology or nation.
    As the Southern Poverty Law Center reported in March 2013, 
the number of conspiracy-minded, anti-government patriot groups 
on the American radical right reached an all-time high in 2012, 
the fourth consecutive year of growth. The Southern Poverty Law 
Center concludes that these groups will continue to grow and 
become more militant during President Obama's second term and 
due to the National debate on gun control measures.
    So it seems that if we are here to be proactive, we should 
take the lessons we have learned since September 11 and apply 
them to the evolving face of terror, both at home and abroad.
    Additionally, if we are here to be proactive, we should 
focus on where the systems have failed, the vulnerabilities 
that remain, and the constructive actions available to this 
Congress. For instance, we need to understand why one of the 
accused Boston bombers was listed on two Federal databases but 
was available to travel to Russia. We need to understand the 
best and most cost-effective way to fix that problem.
    In essence, we can point the finger, or we can find the 
solution. The choice is ours. In the past, we have not always 
chosen a deliberate path to problem-solving. For instance, the 
Christmas day bomber case exposed vulnerability in the 
checkpoint screening machines used at the airports. Even though 
that terrorist did not board a flight in the United States, the 
Government spent about $800 million on screening machines. 
Today those machines have been removed from the airports 
because Americans decided that they were not willing to give up 
their privacy for security. A few years and $800 million later, 
I hope we have found a solution that allows us to preserve 
privacy while maintaining security.
    Also, if we are here to be proactive, we need to understand 
that solutions cannot be reached without dialogue and an open 
discussion of the facts. At least two of the cases we are here 
to examine have yet to be tried in a court of law. Once a 
verdict has been rendered by a jury, I hope we can look at the 
evidence in the Fort Hood and Boston Marathon cases, but at 
this point, our conclusions are likely to be premature and our 
discussions may undermine a conviction. I am not willing to let 
anyone escape punishment because of words spoken in this room.
    Mr. Chairman, I share your concerns about terrorism in this 
country since September 11 and look forward to a full 
discussion of actions this Congress should undertake to meet 
this challenge in a constructive and bipartisan manner. I yield 
back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 10, 2013
    Today, we will explore five terrorist incidents that have occurred 
within the United States since the attacks of September 11, 2001.
    In June 2009, Carlos Bledsoe shot two people at an Army recruiting 
center in Little Rock, Arkansas. He was found guilty and is serving a 
life sentence.
    In November 2009, Nidal Hassan, a Major in the U.S Army opened fire 
at Fort Hood, Texas. Jury selection in his trial begins this week.
    In December 2009, the Christmas day bomber (Umar Abdulmutallab) was 
arrested in Michigan after trying to detonate an explosive aboard a 
plane. He was convicted and is serving four life sentences in a 
supermax prison in Colorado.
    In May 2010, Faisal Shahzhad tried to detonate a bomb in Times 
Square. He was convicted and is serving a life sentence in a Federal 
prison.
    And finally, in April 2013, two bombs were detonated during the 
Boston Marathon, killing 3 people and wounding 260 individuals. One 
suspect is dead and the other is awaiting trial before a Federal court 
in Massachusetts.
    So I would like to begin today's hearing by pointing out the 
similarities in this limited selection of cases.
    With the exception of the Boston Marathon bombing, each of these 
attacks was perpetrated by a lone actor. All of the attackers who have 
faced trial in the United States, have been convicted, and are serving 
lengthy sentences.
    It appears that the people who committed these attacks were 
radicalized and turned to violence through contacts outside of the 
United States. In at least two cases, the primary means of violent 
radicalization appears to have come from on-line contacts. In at least 
three cases, the attackers were disillusioned and disgruntled young 
men.
    It would seem that these cases stand for several propositions. 
First, the Federal court system is perfectly capable of handling 
terrorism cases. As a matter of fact, in 2009 alone, the Department of 
Justice charged more defendants with terrorism-related charges than any 
other Federal crime.
    Second, because none of these cases was carried out by an organized 
group, it would seem that terrorists have changed their methods. They 
have shifted their focus to identifying and isolating particular 
individuals. A change in tactics by our adversary should cause us to 
change our response. Here, our response should focus on acts 
perpetrated by lone-wolf violent extremists.
    Third, because none of these attacks were carried out be an 
organized group, we can conclude that our efforts abroad have been 
successful in disrupting their networks.
    Fourth, because these attacks involved violent radicalization of 
disillusioned young men, our focus should be on teaching State and 
local officials and community leaders to effectively engage and diffuse 
situations which may cause these roots of anger to grow. Prevention is 
likely to be more cost-effective than surveillance, trials, or wars.
    And while this hearing focuses on attacks carried out by Muslim 
Americans, the lessons we should take from this hearing should not 
focus on any particular religious group.
    Over 10 years after September 11, we must expand our focus. By now, 
we should know that terrorist violence is not limited to any particular 
ideology or nation.
    As the Southern Poverty Law Center reported in March 2013, the 
number of conspiracy-minded anti-Government ``Patriot'' groups on the 
American radical right reached an all-time high in 2012, the fourth 
consecutive year of growth. The Southern Poverty Law Center concludes 
that these groups will continue to grow and become more militant during 
President Obama's second term and due to the National debate on gun 
control measures.
    So, it seems that if we are here to be proactive, we would take the 
lessons we have learned since September 11 and apply them to the 
evolving face of terror, both at home and abroad.
    Additionally, if we are here to be proactive, we should focus on 
where the systems have failed, the vulnerabilities that remain, and the 
constructive actions available to this Congress.
    For instance, we need to understand why one of the accused Boston 
bombers was listed in two Federal databases but was able to travel to 
Russia. We need to understand the best and most cost-effective way to 
fix that problem.
    In essence, we can point the finger or we can find the solution. 
The choice is ours.
    In the past, we have not always chosen a deliberate path to problem 
solving. For instance, the Christmas day bomber case exposed 
vulnerability in the checkpoint screening machines used at the 
airports. Even though that terrorist did not board a flight in the 
United States, the Government spent about $800 million on screening 
machines. Today, those machines have been removed from the airports 
because Americans decided that they were not willing to give up their 
privacy for security. A few years and $800 million dollars later, I 
hope we have found a solution that allows us to preserve privacy while 
maintaining security.
    Also, if we are here to be proactive, we need to understand that 
solutions cannot be reached without dialogue and an open discussion of 
the facts.
    At least two of the cases we are here to examine have yet to be 
tried in a court of law. Once a verdict has been rendered by a jury, I 
hope we can look at the evidence in the Fort Hood and Boston Marathon 
cases. But at this point, our conclusions are likely to be premature 
and our discussion may undermine a conviction.
    I am not willing to let anyone escape punishment because of words 
spoken in this room.
    Mr. Chairman, I share your concerns about terrorism in this country 
since September 11, and look forward to a full discussion of the 
actions that Congress should undertake to meet this challenge in a 
constructive and bipartisan manner.

    Chairman McCaul. I thank the Ranking Member.
    In corresponding with Government witnesses, the Members of 
the second panel have indicated that the topic we are examining 
today is of a sensitive nature and their answers to our 
questions may endanger either National security or compromise 
sensitive law enforcement information, and therefore, it 
appears the best path forward for this hearing is to recess 
after the first panel has concluded and reconvene in an 
Executive Classified session.
    Therefore, pursuant to Rule XI, Clause 2(G)(2), of the 
House of Representatives, I move that the hearing be closed to 
the public at that time. And under Section 969 of the House 
Manual, the motion is in order and is not debatable.
    The motion is now subject to a recorded vote.
    The clerk will call the role.
    The Clerk. Mr. Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. King.
    Mr. King. Aye.
    The Clerk. Mr. King votes aye.
    Mr. Rogers.
    [No response.]
    The Clerk. Mr. Brown.
    Mr. Brown. Aye.
    The Clerk. Mr. Brown votes aye.
    Mrs. Miller.
    Mrs. Miller. Aye.
    The Clerk. Mrs. Miller votes aye.
    Mr. Meehan.
    Mr. Meehan. Aye.
    The Clerk. Mr. Meehan votes aye.
    Mr. Duncan.
    Mr. Duncan. Aye.
    The Clerk. Mr. Duncan votes aye.
    Mr. Marino.
    Mr. Marino. Aye.
    The Clerk. Mr. Marino votes aye.
    Mr. Chaffetz.
    [No response.]
    The Clerk. Mr. Palazzo.
    [No response.]
    The Clerk. Mr. Barletta.
    [No response.]
    The Clerk. Mr. Stewart.
    Mr. Stewart. Aye.
    The Clerk. Mr. Stewart votes aye.
    Mr. Hudson.
    Mr. Hudson. Aye.
    The Clerk. Mr. Hudson votes aye.
    Mr. Daines.
    Mr. Daines. Aye.
    The Clerk. Mr. Daines votes aye.
    Mrs. Brooks.
    Mrs. Brooks. Aye.
    The Clerk. Mrs. Brooks votes aye.
    Mr. Perry.
    Mr. Perry. Aye.
    The Clerk. Mr. Perry votes aye.
    Mr. Sanford.
    Mr. Sanford. Aye.
    The Clerk. Mr. Sanford votes aye.
    Mr. Thompson.
    Mr. Thompson. Aye.
    The Clerk. Mr. Thompson votes aye.
    Ms. Sanchez.
    Ms. Sanchez. Aye.
    The Clerk. Ms. Sanchez votes aye.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Aye.
    The Clerk. Ms. Jackson Lee votes aye.
    Ms. Clarke.
    [No response.]
    The Clerk. Mr. Higgins.
    [No response.]
    The Clerk. Mr. Richmond.
    [No response.]
    The Clerk. Mr. Keating.
    Mr. Keating. Aye.
    The Clerk. Mr. Keating votes aye.
    Mr. Barber.
    Mr. Barber. Aye.
    The Clerk. Mr. Barber votes aye.
    Mr. Payne.
    Mr. Payne. Aye.
    The Clerk. Mr. Payne votes aye.
    Mr. O'Rourke.
    Mr. O'Rourke. Aye.
    The Clerk. Mr. O'Rourke votes aye.
    Ms. Gabbard.
    Ms. Gabbard. Aye.
    The Clerk. Ms. Gabbard votes aye.
    Mr. Vela.
    Mr. Vela. Aye.
    The Clerk. Mr. Vela votes aye.
    Mr. Horsford.
    [No response.]
    The Clerk. Mr. Swalwell.
    [No response.]
    The Clerk. Mr. Rogers.
    [No response.]
    The Clerk. Mr. Chaffetz.
    [No response.]
    The Clerk. Mr. Palazzo.
    [No response.]
    The Clerk. Mr. Barletta.
    [No response.]
    The Clerk. Ms. Clarke.
    [No response.]
    The Clerk. Mr. Higgins.
    [No response.]
    The Clerk. Mr. Richmond.
    [No response.]
    The Clerk. Mr. Horsford.
    [No response.]
    The Clerk. Mr. Swalwell.
    [No response.]
    Chairman McCaul. How am I recorded?
    The Clerk. The Chairman is not recorded.
    Chairman McCaul. I vote aye.
    The Clerk. Mr. McCaul votes aye.
    Chairman McCaul. The clerk will report the tally.
    The Clerk. Mr. Chairman on that vote, there were 23 yeas 
and zero noes.
    Chairman McCaul. The ayes have it. The motion is--the Chair 
recognizes the gentlelady from Texas.
    Ms. Jackson Lee. I think--if you want to carry the motion, 
it is--thank you very, Mr. Chairman. I did vote aye, but if I 
might engage in a semi-colloquy with the Chairman.
    As you well know, we have gone over the last couple of 
weeks with the public expressing concern, not particularly the 
topic of this hearing, but particularly concerned about their 
own security and their own privacy. This vote might be 
interpreted as a committee desiring to hide information from 
the public. I know that those of us who voted do not want to 
hide information from the public and are very sympathetic to 
their rights to privacy and civil liberties.
    My inquiry would be that this hearing be closed is 
specifically to protect information that directly is perceived 
by those witnesses to have a direct National security impact, 
and it is not intended to hide vital information from the 
American public.
    Chairman McCaul. The gentlelady----
    Ms. Jackson Lee. I yield to the gentleman.
    Chairman McCaul. The gentlelady is correct, and I 
appreciate you making that point. It is unfortunate the FBI has 
declined to attend even the closed session.
    The ayes have it, the motion is agreed to. The committee--
--
    Ms. Jackson Lee. I thank the Chairman.
    Chairman McCaul. The committee will recess at the 
conclusion of the first panel, and we will reconvene at 9:00 
a.m. on Thursday, July 11. The clerk will find a notice to 
Members with additional details.
    [The information follows:]

?

COMMITTEE ON HOMELAND SECURITY
ROLL CALL 4



With Motion by Mr. McCaul to close the hearing and meet in Executive Session on July 11, 2013, after the
 conclusion of the first panel.
Agreed to: 23 yeas with none voting nay.



----------------------------------------------------------------------------------------------------------------
                Representative                  Yea    Nay               Representative              Yea    Nay
----------------------------------------------------------------------------------------------------------------
Mr. McCaul, Chairman.........................     X          Mr. Thompson of Mississippi, Ranking      X
                                                              Member.
Mr. Smith of Texas...........................     X          Ms. Loretta Sanchez of California....     X
Mr. King of New York.........................     X          Ms. Jackson Lee......................     X
Mr. Rogers of Alabama........................                Ms. Clarke...........................
Mr. Broun of Georgia.........................     X          Mr. Higgins..........................
Mrs. Miller of Michigan......................     X          Mr. Richmond.........................
Mr. Meehan...................................     X          Mr. Keating..........................     X
Mr. Duncan of South Carolina.................     X          Mr. Barber...........................     X
Mr. Marino...................................     X          Mr. Payne............................     X
Mr. Chaffetz.................................                Mr. O'Rourke.........................     X
Mr. Palazzo..................................                Ms. Gabbard..........................     X
Mr. Barletta.................................                Mr. Vela.............................     X
Mr. Stewart..................................     X          Mr. Horsford.........................
Mr. Hudson...................................     X          Mr. Swalwell of California...........
Mr. Daines...................................     X
Mrs. Brooks of Indiana.......................     X
Mr. Perry....................................     X
Mr. Mark Sanford, Chairman...................     X
                                                                                                   -------------
                                                             Vote Total:                              23      0
----------------------------------------------------------------------------------------------------------------

    Chairman McCaul. We are now pleased to have three 
distinguished witnesses on our first panel to discuss this 
important topic. First, we are very pleased and honored to have 
the Honorable Rudolph Giuliani. Needs little introduction here, 
but I will give a short one. Served as mayor of New York City 
from 1994 to 2002, most notably serving as mayor during the 
terrorist attack of September 11, 2001. Prior to his service as 
mayor, Mr. Giuliani served as U.S. attorney for the Southern 
District of New York, which many at Justice would argue is the 
best U.S. attorney's office in the Nation, from 1983 to 1989. 
Throughout his career, Mr. Giuliani has received many awards 
and commendations, including being named Time magazine's person 
of the year for 2001 and receiving the honorary knighthood from 
Queen Elizabeth, II, in 2002.
    Thank you so much for being here.
    The Honorable Michael Leiter served under two Presidents as 
director of the National Counterterrorism Center from June 2008 
to July 2011. He remains a highly respected voice on terrorism 
threats, on National security. Currently Mr. Leiter is the 
senior counsel to the chief executive officer at Palantir 
Technologies. In addition, he serves as a National security and 
counterterrorism analyst for NBC News.
    Dr. Bruce Hoffman is the director of the Center for 
Security Studies and a tenured professor at Georgetown 
University School of Foreign Service. Professor Hoffman was 
scholar in residence for counterterrorism at the Central 
Intelligence Agency between 2004 and 2006, and served as an 
advisor on counterterrorism to the Coalition Provisional 
Authority in Baghdad, Iraq, during the spring of 2004.
    I thank you both, Michael Leiter and Dr. Hoffman, for being 
here today.
    The witnesses' full statements will appear in the record.
    The Chair now recognizes Mayor Giuliani for 5 minutes for 
an opening statement.

 STATEMENT OF THE HONORABLE RUDOLPH W. GIULIANI, FORMER MAYOR, 
                         NEW YORK CITY

    Mr. Giuliani. Mr. Chairman, Ranking Member, distinguished 
Members of the committee and guests who are here. It is a 
privilege to testify before you on this important subject.
    Since September 11, 2001, there is rarely a day that goes 
by that I am not asked by someone: Are we safer today than we 
were before September 11? The answer to that question has never 
been actually a clear yes or no. In some ways, the answer is 
yes, we are safer; in other ways, we just haven't given it 
enough attention to certain areas that make us vulnerable, or 
we haven't anticipated it, because we can't anticipate 
everything.
    I would say that probably the prevailing view right now 
among most security experts is that we have improved our safety 
and security with regard to attacks by air; we have improved 
our safety and security with regard to attacks by very large, 
well-recognized, and identified terrorist groups; but that we 
are now much more vulnerable to attack by either single 
individuals or much smaller groups who are acting on their own. 
We have seen a few very recent attacks like that, Boston being 
one of them, Little Rock, Fort Hood before that, the attempted 
attack in Times Square, the successful attack at Fort Dix, and 
the air attack that was foiled over Detroit.
    Of course, the one in Boston was probably the one that--was 
probably the one that got everyone riveted around the idea that 
the single or small attacks are now something that we have to 
really worry about, but they really are not new, and they have 
actually gone back quite some time. Maybe in some way it is a 
failing of ours that it takes us so long to identify these 
things as a new method of attack.
    I mean, the new method of attack in Boston goes back to at 
least 2005 in London, when essentially a very similar kind of 
thing happened. Homegrown terrorists in England, people who 
were U.K. citizens, in a very surprising way to the U.K. 
authorities attacked the city of London. It just so happens I 
was there that day and observed that attack and got very 
involved in the aftermath of it. From that point on, we all 
should have been alerted to the fact that this is a very 
deliberate part of the Islamic extremist ideology to use single 
individuals, smaller groups, as a way of attacking us. Going 
back to the early part of this century, bin Laden was 
encouraging people to do that.
    So maybe one of the things we can examine is why it takes 
us so long, 10 years, to recognize this as a new form of 
attack, when in fact this is a very old form of attack.
    The individuals and the small groups that do these attacks 
largely operate on their own, but usually there are some 
training or encouragement from a more organized or established 
outside group, and these smaller parters adopt on their own 
some or all of the extremist jihadist message, sometimes with 
outside encouragement, sometimes with support, very rarely 
completely on their own.
    These self-generated terrorists operate in ways that make 
them much harder to detect, and sometimes just as dangerous as 
the more highly organized groups. They are more difficult to 
detect, because they engage in many fewer electronic wire 
communications with organizations that we have under physical 
or technological surveillance or that we have infiltrated with 
undercover agents.
    Large international groups that are going to carry out a 
terrorist plot almost has to trip over some of our things that 
we have put there to detect them. They have got to communicate 
by phone. They have got to transfer money. They have to 
transfer equipment. They have to move people. They almost 
always have to deal with someone who is giving us information. 
The chances of our detecting a large, well-organized plot is 
much, much greater than a young man, or two young men in Boston 
or New York, planning on their own to do this, where maybe they 
make a few contacts, but they are relatively few and very hard 
to find in the avalanche of information that comes to 
intelligence services every day.
    One or two people who are motivated on their own by reading 
Inspire magazine, following jihadist websites, attending 
mosques that encourage violent jihadism. Certainly not all 
mosques do that by any means, but it would be foolish to ignore 
the fact that some mosques inspire violent jihadist terrorism.
    Indeed, the first attacked that really shocked the country 
in 1993 in my city was inspired in a mosque in Union City, New 
Jersey, by a Muslim cleric, who is now serving 100 years in 
prison.
    These are much, much harder to detect, and these 
individuals acting alone can be extremely dangerous, because 
although they operate independent of one another, and it is 
perfectly accurate to describe them as independent actors, 
sometimes that is deceiving, because these independent actors 
are connected by a very, very well-defined common cause, 
Islamic extremism or jihadism. Even if no single act of theirs 
can do the damage of a September 11, 2001, smaller, more 
frequent attacks that can kill people, shock the country, show 
us how vulnerable we are, can just as well serve the goal of 
these jihadist groups, which is, after all, to try to frighten 
us, to destabilize us, to make us become less confident in our 
system of government.
    So how do we deal with these sporadic, smaller groups? How 
do we change our approach to terrorism so that we can detect 
them as effectively as we have been able to detect the much 
larger groups?
    As a threshold matter, we shouldn't begin by stopping doing 
what we are doing on the larger groups. This has actually been 
very effective, and it would be very unfortunate if we were to 
take some resources away from dealing with the larger groups in 
order to deal with the smaller groups. This should be an 
expansion of what we do, rather than in any way a contraction 
of what we do, because these groups still pose a mortal threat 
to us. It may be this new method of terrorism is new to us, it 
is not new to them, and the old method of terrorism is still 
very much alive and well. These large groups are, as we speak 
today, planning somewhere in the world to come here and bomb us 
in some kind of a spectacular way, and any attempt to back off 
that with the thought that we have conquered them would be 
exceedingly unrealistic and very, very dangerous. We have by no 
means conquered well-organized Islamic terrorist groups.
    Whether we recognize that we are at war with them is almost 
completely irrelevant, because they are at war with us. The 
real question is: Are we going to recognize they are at war 
with us or are we going to fool ourselves into a very, very 
dangerous state of denial?
    However, the first thing we must recognize about these 
smaller groups is we have to be able to identify them with 
precision. Violent jihadism is an ideological serial killer. 
The way to catch a serial killer, which I have had some 
experience with, is to recognize the connection between the 
murders; find the common threads and the shared motivations in 
the devious act, and then, hopefully as early as possible, you 
catch the serial killer. If you go on for years not recognizing 
the common threads, being afraid to identify the common threads 
because you are so frightened of political correctness that you 
can't state the logical conclusion, then those serial killings 
go on interminably. It is absolutely vital that we identify our 
enemy correctly, because it is very, very hard to find someone 
that you don't identify correctly.
    These attacks on our homeland and others, such as the 2005 
London bombing, have been connected by a common motivation and 
a singular purpose. The underwear bomber, the Times Square 
attempt, the Tsarnaev brothers, Major Hasan, who announced at 
Fort Hood that he was killing in the name of Allah, were all 
adherents to the jihadist goal of Islamic domination and the 
murder of free and innocent people, whom they regard as 
infidels in order to accomplish that goal. Failure to recognize 
these common threads leads to a great deal of wasted effort. In 
analyzing the avalanche of data presented to intelligence 
analysts every day, we often describe it, and it is absolutely 
accurate, that these people are looking for a needle in a 
haystack. It is not for just any needle. It is a needle that 
has very clear identifiable characteristics.
    So, in order to confront this threat effectively, we have 
to purge ourselves of the practice of political correctness 
when it goes so far that it interferes with our rational and 
intellectually honest analysis of the identifying 
characteristics that help us to discover these killers in 
advance.
    For example, and this is with the benefit of hindsight, 
there would have been a much greater chance of preventing Fort 
Hood and possibly, and this I emphasize as ``possibly,'' the 
Boston bombings if the relevant bureaucracies had been less 
reluctant to identify the eventual killers as potential Islamic 
extremist terrorists. Bureaucracies respond to the message that 
they get from above. Leadership in Government requires 
understanding that the signals sent by a chief executive, the 
President, a Governor, the mayor, the head of a police 
department, the head of the FBI, affect the behavior of 
bureaucracies, they respond to them.
    A message conveyed from the top that it is inappropriate to 
label someone an Islamic extremist, almost no matter how 
compelling the proof, will make bureaucracies reluctant to 
pursue leads that would otherwise be pursued.
    You can't fight an enemy you don't acknowledge. If the 
party line is to never use the words ``Islamic extremist 
terrorist,'' if there is a reluctance to label something as a 
jihadist act, then the result the next day and the day after 
and the day after that is a bureaucracy that is paralyzed by a 
greater fear of being wrong that they are going to identify 
someone as an Islamic extremist terrorist than they are going 
to be wrong about preventing a bombing.
    The elevation of political correctness over sound 
investigative judgment and data collection certainly explains 
the failure to identify Major Hasan as a terrorist. Despite 
repeated indications of his jihadist views, not only did 
political correctness fail to identify him as a terrorist, it 
led to his being promoted in the United States Army.
    That political correctness has been extended so far, that 
the current administration describes his act as workplace 
violence. This isn't just preposterous. What we fail to 
realize, this is dangerous to do this. It leads to all sorts of 
mistakes being made by the bureaucracy, who realize that they 
can't identify people correctly without great fear that they 
are going to be in trouble.
    Even at this date, it would surely be enormously helpful if 
the Fort Hood attack were described as an act of terror. After 
all, the man was yelling ``Allahu Akbar'' as he was 
slaughtering people. We don't need to discover his motivation. 
He explained his motivation to us. We just failed to listen to 
it.
    The application of political correctness to the 
investigation of Tamerlan Tsarnaev and his brother prior to the 
Boston bombing is not as clear. I can't be certain that that 
played a role in a failure to investigate with the vigor and 
the intensity that in hindsight it seems should have been done, 
but it is certainly a question worth asking. Would other steps 
have been taken if this fear wasn't so great that, gee, you 
might make a mistake and identify someone as an Islamic 
extremist terrorist who wasn't? That is certainly something 
that is absolutely required to pursue.
    Expanding our defenses against these isolated or smaller 
groups is going to require a very different strategy. It is 
going to require a significant involvement of local law 
enforcement. If the genesis of this terrorism is domestic, 
which it obviously is, then our only chance to detect it, our 
only real chance to detect it in advance is if the FBI and 
other Federal agencies use local law enforcement as their eyes 
and ears. There are only about 12,000 to 13,000 FBI agents for 
the entire world. There are 35,000 New York City police 
officers for one city. There are 800,000 police officers for 
our country; 12,000 FBI agents; 35,000 police officers; 800,000 
police officers Nation-wide. If you are trying to find a needle 
in a haystack in a community in America, the FBI cannot do it. 
They just don't have the numbers to do it. The New York City 
Police Department, the Boston Police, the Los Angeles Police, 
the Washington Police, they have the numbers to do it, and the 
reality is that they have to be trained in how to detect 
terrorism.
    Former Police Commissioner William Bratton, who was my 
police commissioner in New York and the police commissioner in 
Los Angeles, has developed an excellent protocol called ``the 
precursors of terrorism,'' things that police officers can be 
trained to do to look for terrorists that give you signs of a 
possible terrorist threat.
    Over the past 15 years, and certainly over the past 2,000, 
because I have been in law enforcement about 2,000 years, I 
think, but going back to the 1960s and 1970s, I have worked 
with the FBI and local police, the FBI has made enormous 
progress in bringing in State and local law enforcement. The 
level of cooperation today is light-years ahead of what it was 
when I first got involved in law enforcement in the 1970s. The 
Joint Terrorism Task Force in New York City, which was 
established way back in the 1970s, I worked with in both 
capacities as the United States attorney, basically in charge 
of what they were doing, and as the mayor of New York City, who 
supplied their police officers, and the level of cooperation 
there is superb. I could give you one example after another of 
terrorist acts they have prevented in New York when I was U.S. 
attorney, when I was mayor, and now under Mayor Bloomberg, but 
the reality is more has to be done in order to foster this 
cooperation.
    I don't know, the committee will find out, if the FBI 
properly notified the Boston Police, was there a notification 
within the JTTF, wasn't there. Apparently, it didn't get to the 
police chief about the information from Russia. I believe there 
was an obligation to notify. Don't know if it happened or it 
didn't happen.
    But there is a second reason why the Boston Police should 
have been notified, and it wasn't just to notify the Boston 
Police, it was to ask for their help. If the FBI receives 
notification from the government of Russia that a man is a 
suspected terrorist and the FBI doesn't know if the man is a 
suspected terrorist or not but has to investigate this, where 
would you go immediately? Where should you go immediately to 
get information about that, but to the police department in the 
place where this man lives, not just to notify them, but to ask 
for their help, to ask them for all the information they have 
about him, to ask them to put him under surveillance, to ask 
them to watch him.
    When the man engaged in a very, very strange act of going 
to Russia--and going to Russia should have been just a massive 
act, it should have set off all kinds of alarms. If I am 
correct about this, his family left Russia and obtained 
political asylum in the United States, saying that if they went 
back to Russia, they would be persecuted. Now all of a sudden, 
he is going back to Russia, and no one connected the dots; 
place that he is going to be persecuted, place that he is going 
back to. He obviously wasn't going back to listen to the Moscow 
symphony. He had to be going back for a purpose that was 
nefarious.
    Those dots weren't connected. That information wasn't 
passed on to the Boston Police when he returned, who would have 
been in a position to put him under surveillance. The FBI 
couldn't do that with its small forces. I think that is the 
area that I would examine, that I think would be a great 
benefit to law enforcement. Why did that connection--did the 
connection get made? I don't know. Maybe it did. If it didn't 
get made, why didn't it get made? Most importantly for our 
future, in the future, let's make certain that it does get 
made, because this is not the last act like this we are going 
to--we are going to--we are going--we are going to face. So I 
think you have some very important questions to ask.
    In assessing our level of danger from and our defenses 
against terrorism, both President George W. Bush and President 
Barack Obama have continually warned us, no matter how 
effective we are, we have to succeed 100 percent of the time, 
and the terrorists only have to succeed one time. Both 
Presidents are absolutely correct, and because of that, our 
response to terrorism in America must be subjected to 
constructive criticism and excruciating analysis. It must be 
free of political correctness, and it must be constantly 
reevaluated to reduce our percentage of failure of terrorism to 
as close to zero as possible.
    That is what you are engaged in, and I very much respect 
what you are doing. Thank you.
    [The prepared statement of Mr. Giuliani follows:]
               Prepared Statement of Rudolph W. Giuliani
    Good morning, Mr. Chairman and Members of the committee, and thank 
you for inviting me to address the critical topic of attacks on our 
homeland.
    Since September 11, 2001, rarely a day goes by that I am not asked 
``are we safer today than we were before the 2001 attacks?'' The answer 
has never been a clear ``yes'' or ``no.'' It's always been a question 
of areas of increased security and areas where we either have not given 
enough attention or just not anticipated.
    The prevailing view today among security experts is that although 
we have improved our safety and security with regard to attacks from 
the identified and organized Islamic extremist terrorist groups, we are 
vulnerable against attack on our homeland by a single individual or 
small, previously-unidentified groups. This is not a new phenomenon. It 
happened at Little Rock and Fort Hood. It was stopped in Times Square 
and Fort Dix, and foiled in the air over Detroit. And of course, most 
recently, we saw it in Boston. At the time of the Fort Dix plot, then-
U.S. attorney Chris Christie, who developed that case with the FBI and 
local police, told me quite prophetically that home-grown terrorism 
would be as great a threat as the more organized international efforts.
    The individuals and small groups that organize these attacks act 
largely on their own, but usually with some training or encouragement 
from more organized or established foreign terrorist groups. These 
smaller plotters adopt, on their own, some or all of the Islamic 
extremist jihadist message of the larger groups, sometimes with outside 
encouragement or support from the larger groups. Indeed, Osama bin 
Laden and others urged on these smaller, locally-planned attacks and 
they continue to be promoted by other extremists. And each time they 
act they reveal just how vulnerable an open and free society can be.
    These self-generated terrorists operate in ways that make them both 
hard to detect and, sometimes, just as dangerous as the more highly-
organized and established groups. They are more difficult to detect 
because they engage in fewer electronic and wire communications with 
people and organizations whom we may have under physical or 
technological surveillance or that we may have infiltrated by 
informants or undercover agents. If a larger international terrorist 
organization sets out to launch an attack in the United States, there 
is a good chance that they will trip a proverbial wire or appear on a 
radar screen that has been set up to detect them and prevent them for 
completing their twisted goal. It can happen by having contact with an 
informant or undercover agent or by monitoring their electronic or wire 
communications.
    On the other hand, one or two people who are motivated on their own 
by reading Inspire magazine, following jihadist websites, or attending 
mosques that encourage violent jihadism, are much harder to detect. It 
is true that the self-starting, self-motivated jihadists sometimes make 
contact with established groups, but it is usually infrequent, and the 
contacts can be buried and impossible to single out in the massive 
volume of data that we collect.
    And as we have seen, these individuals, acting alone or with one or 
two others, can be extremely dangerous because, although they operate 
independent of one another, they are united by a common cause--Islamic 
extremism or jihadism. Even if no single act of theirs can do anywhere 
near the damage of September 11, 2001, the smaller, more frequent 
attacks motivated by the same cause--jihadism--can kill and can induce 
the kind of widespread fear that is the goal of a terrorist attack in 
the first place.
    So how do we combat these sporadic, disorganized, but highly 
dangerous attacks on our homeland? In my view, what is required is not 
a change in our plan to protect against terrorism, but an expansion of 
it.
    As a threshhold matter, there should be no reduction in the effort 
against the organized terrorist groups like al-Qaeda and its branches 
and affiliates. They still pose a mortal threat and often play a role 
in influencing or assisting the self-generated jihadists. Surveillance 
of these organized and established terrorist groups can help us 
identify the self-generated jihadists and prevent attacks, so we must 
keep the pressure on the larger groups.
    At the same time, we must recognize the threat posed by smaller 
groups and identify it with precision. Violent jihadism is an 
ideological serial killer, and the way to catch a serial killer is to 
recognize the connection between murders, find the common threads, and 
the shared motivations in the devious acts. The same is true of the 
self-generated jihadists who seek to attack us at home. Theirs are not 
the isolated, unrelated acts of violent individuals. They are related 
by a common cause, a similar motivation, and a singular purpose: To 
advance the goals of Islamic extremism. Acknowledging the connection 
makes it easier to identify suspects and stop attacks in advance.
    The attacks on our homeland, and others such as the 2005 London 
bombing, have been connected by a common motivation and a singular 
purpose. The underwear bomber, the Times Square attempt, the Tsarnaev 
brothers, and Major Hasan--who announced at Fort Hood that he was 
killing in the name of ``Allah''--were all adherents to the jihadist 
goal of Islamic domination and the murder of free and innocent people 
whom they regard as infidels. Failure to recognize these common threads 
leads to a great deal of wasted effort in analyzing the avalanche of 
data presented to intelligence analysts. Every day they are looking for 
a needle in a haystack and it's not just any needle, it's a needle with 
very clear, identifiable characteristics.
    So, in order to confront this threat effectively, we must purge 
ourselves of the practice of political correctness when it interferes 
with our rational and intellectually honest analysis of identifying 
characteristics that help us to discover these killers in advance.
    For example, there would have been a greater chance of preventing 
Fort Hood and maybe the Boston bombings if the relevant bureaucracies 
had been less reluctant to identify the eventual killers as potential 
Islamic extremist terrorists. Bureaucracies respond to the message they 
are getting from the top. Leadership in Government requires 
understanding that the signals sent by a chief executive, a President, 
a Governor, or a mayor affect the behavior of bureaucracies, even ones 
such as the military and the FBI. In the present climate, the message 
being conveyed from the top is that it is inappropriate to label 
someone an ``Islamic extremist'' no matter how compelling the 
suspicions. But you can't fight an enemy you don't acknowledge. If the 
party line is to never utter the words ``Islamic extremist terrorist,'' 
if there is reluctance to label clear acts of terror motivated by 
jihadism as part of a radical global movement, then the result is a 
bureaucracy paralyzed by the fear of incorrectly identifying someone as 
an Islamic extremist terrorist.
    This elevation of political correctness over sound, investigative 
judgment and data collection certainly explains the failure to identify 
Major Hasan as a terrorist despite repeated indications of his jihadist 
views. Not only did political correctness lead to a failure to identify 
him as a suspected terrorist, but it went so far as to cause his 
superiors to promote him from captain to major. Indeed, the tyranny of 
political correctness has been extended so far that Major Hasan's 
actions have been labeled as ``workplace violence.'' That is not just 
preposterous, it is dangerous. Even at this late date, it would surely 
send a message if the Fort Hood attack were designated as an act of 
terrorism, which it was, and there was a clear statement from our 
leaders that investigators should worry more about preventing terrorist 
attacks than the consequences of being accused of profiling.
    The application of political correctness to the investigation of 
Tamerlan Tsarnaev prior to the Boston bombing is not as clear, but its 
impact may have played a role in the failure to identify Tsarnaev as a 
suspected terrorist even after warnings by the Russian government. It 
is certainly worth asking the question whether the fear of incorrectly 
identifying Tsarnaev as a suspected Muslim extremist might have played 
a role in not taking all the steps that seemed prudent given his 
suspicious behavior and determining whether the Russian warnings about 
him had any merit.
    Expanding our defenses also means much greater involvement by local 
law enforcement. If the genesis of this terrorism is domestic, then our 
only chance to detect it is if the FBI and other Federal agencies use 
local law enforcement as its ``eyes and ears.'' There are only about 
12,000 agents in the FBI right now--and we may lose some of those men 
and women if sequestration does not end. New York City alone has 35,000 
police officers. There are over 800,000 other State and local police 
officers Nation-wide. Large numbers of these officers must be trained 
to detect what former New York and Los Angeles Police Commissioner Bill 
Bratton has described as ``the precursors of terrorist acts.''
    Over the past 15 years, the FBI has made great strides in involving 
local police through joint terrorism task forces and other 
collaborative efforts. But this process must continue in order to break 
down any remaining reluctance to share and involve the ``locals.'' We 
give ourselves a much greater chance of identifying future attacks if 
the FBI and other Federal agencies include the local police as an 
extension of their investigatory reach.
    Some believe that the threat of self-induced jihadism on our shores 
reduces the need for technological surveillance. Actually, just the 
opposite is true. We need every tool at our disposal. It is true that 
the smaller jihadi groups do not communicate internationally with the 
frequency of the established terrorist groups. Nor do they leave 
international money trails or travel records. But that does not mean 
that they never communicate. Major Hasan sought advice from Anwar al-
Awlaki. The older Tsarnaev brother made a very suspicious trip to 
Russia. These acts should have raised major concerns. In Tsarnaev's 
case, he and his family were granted political asylum in the United 
States by convincing American authorities that if they were returned to 
Russia they were in danger of political persecution. But all of a 
sudden, Tamerlan Tsarnaev returned to the place he claimed would 
persecute him. This should have immediately raised a red flag and led 
to increased surveillance upon his return to the United States.
    No matter how new, or how different, this threat of homeland 
terrorism is, the most important thing for us to continue to develop at 
home and abroad is human intelligence. One of the risks of gathering so 
much information through advanced technology is that it tends to gives 
us a false sense of security. The large volume of electronic data 
collected every day is of no use if the few items of relevant 
information can't be separated from the much larger volume of 
irrelevant information. The most useful source of information that 
allows our analysts to develop the key words and phrases and numbers to 
highlight and focus on is the information gathered through human 
intelligence--informants and undercover agents. We must constantly 
develop human intelligence sources.
    In assessing our level of danger from, and our defenses against, 
terrorism, both President George W. Bush and President Barack Obama 
have continually warned us that no matter how effective we are, we have 
to succeed 100% of the time, and the terrorists only have to succeed 
one time. Both Presidents are correct, and because of that, our 
response to terrorism in America must be subjected to constructive 
criticism and excruciating analysis, must be free of political 
correctness, and must be constantly re-evaluated to reduce our 
percentage of failure and the terrorists' percentage of success, to 
zero.
    Thank you.

    Chairman McCaul. Thank you, Mayor. Thank you so much for 
being here and thank you for your insightful testimony.
    The Chairman now recognizes the Honorable Michael Leiter 
for 5 minutes.

STATEMENT OF THE HONORABLE MICHAEL E. LEITER, FORMER DIRECTOR, 
                NATIONAL COUNTERTERRORISM CENTER

    Mr. Leiter. Mr. Chairman, Ranking Member Thompson, Members 
of the committee, it is a pleasure to be back in front of you, 
also an honor to be with both Mayor Giuliani and Bruce Hoffman, 
two counterterrorism icons.
    Before reflecting on the five instances where our defenses 
were not perfect, I really do want to begin with some of our 
successes, because in truth, they are a lot more prevalent than 
the tragic counterparts. I am always very careful saying this, 
because the loss of 18 people is a tragedy and I don't want to 
underestimate that. I have met at Dover Air Force Base the 
bodies of our fallen soldiers. I have known people who have 
been killed by terrorists, so I don't want to make light of the 
losses we have suffered, but frankly, in my view, it is nothing 
short of remarkable that since 
9/11, we have had a total of 18 people killed in the homeland 
by al-Qaeda-inspired terrorism: 13 at Fort Hood; 1 at Little 
Rock; and 4 in Boston most recently. These were all tragic, and 
they have an enormous psychological effect on the entire 
country, but in my view, this toll is simply astounding.
    I would venture a potentially dangerous guess, but if I had 
asked the Members of this committee on September 12, 2001, how 
many Americans would be killed by terrorists in the United 
States over the subsequent 12 years, not one of you would say 
18. Many of you would say 1,800. Some of you might say 18,000. 
So our record is far from perfect, but it is pretty good.
    In my view, the roots of this success come in many forms. 
First, the incredibly successful offensive strikes in Pakistan 
and Yemen and elsewhere that have crushed al-Qaeda overseas; 
excellent human and technical surveillance and intelligence to 
penetrate these networks abroad and domestically; improved 
screening of travelers and cargo traveling to the United 
States; vastly accelerated and improved information sharing 
amongst Federal agencies; improved domestic counterterrorism 
intelligence investigations led by the FBI, but as the mayor 
intimated, very much done in conjunction with DHS, and even 
more importantly, State and local authorities; as we saw in 
Boston, first responder and community preparedness to after an 
attack to reduce the consequences of that attack; and finally, 
a piece which I think is central and can often be lost in the 
counterterrorism dialogue, unfortunately, community engagement, 
especially with the American Muslim community to reduce the 
attractiveness of the message and ensure that the community 
feels that they are one with the Government's intention.
    So the concrete result of this is a very long list, but 
very briefly: The 2011 arrest of Khalid Aldawsari in Texas, the 
2010 destruction of the attempt to take down two U.S. cargo 
planes by al-Qaeda in the Arabian Peninsula, Najibullah Zazi's 
arrest as he attempted to bomb the New York subway system in 
2009, the 2008 arrest of Bryant Neal Vinas, who plotted with 
al-Qaeda in Pakistan to attack the New York City trains, a 2007 
attack in Fort Dix to attack soldiers, and in 2006, the 
disruption of Operation Overt to down numerous airliners.
    Now, again, our defenses aren't perfect, but I want to 
stress that, and I say this completely apolitically, we have to 
accept that counterterrorism perfection is impossible. This 
isn't an excuse. I take responsibility for those plots that I 
didn't help stop and that we didn't stop before an attack 
happened, but we do have to have realistic expectations so we 
don't have partisan witch hunts after the fact.
    So what should the American people and you expect? That it 
is far less likely that we have large-scale successful attacks 
and that it is significantly less likely that we have small-
scale attacks, but even some of the examples that the committee 
has mentioned as failures, I would note it is a layering of 
counterterrorism defenses which helped make them not be 
successful.
    The case of Times Square, it is undoubtedly true that we 
did not identify Faisal Shahzad before the fact, but one of the 
reasons that his bomb failed was Faisal Shahzad knew that the 
FBI had tripwire programs in place and that if he bought a 
certain type of fertilizer, they would be tipped off. The 
result: He bought a type of fertilizer that wouldn't explode.
    In the case of the Christmas day bomber, once again, we 
failed to identify the individual, but what was al-Qaeda in the 
Arabian Peninsula forced to do? Use a detonator that was less 
likely and, in fact, failed to work.
    All of that being said, what are some quick lessons that I 
would learn and I would urge this committee to learn from the 
five plots where we didn't fully succeed? First, and I think I 
have a slightly different view than the mayor on this, but I 
agree with much of his thrust, recognizing radicalization is 
undoubtedly critical. We need to improve our training. We can't 
be afraid to train both the FBI and State and local officials 
so they understand radicalization. I do think that, at least in 
the case of Fort Hood, a failure to recognize that 
radicalization process and Major Hasan's violent inclinations 
were a factor in not stopping that plot.
    But with that, I must say, in my 6\1/2\ years working 
intelligence and counterterrorism in the U.S. intelligence 
community for two Presidents, the idea that political 
correctness in any systematic way affected our efforts to find, 
locate, and either kill or arrest terrorists is simply beyond 
me.
    Second, al-Qaeda-inspired messages on the internet are here 
to stay, and we have to do more to understand them, track them 
and, to some extent, disrupt them. I think the case of Boston 
is an interesting one, and I do believe that the FBI, Homeland 
Security, State and local officials need to work together more 
closely to allocate responsibility to monitor those virulent 
websites that produce some of the radicalizing influences that 
we have seen in some of these cases. I believe this is a 
current weakness.
    Third, the shift from radicalization to mobilization is 
incredibly hard to detect and is resource-intensive. If we 
could put surveillance on everyone who is radicalized, this 
would be pretty easy. We would watch them, and when they moved 
to violence, we would stop them. We can't. We can't with 
Federal resources. We can't with all our State and local 
resources. There are too many. Detecting that tipping point 
where someone moves from radicalized to mobilized is the very 
hardest piece.
    I believe in the case of Carlos Bledsoe, the Federal 
Government failed to do that effectively, but it is not clear 
to me that there were resources in place that would have been 
able to follow him sufficiently to stop the shooting at the 
Army Recruiting Center.
    Fourth, information sharing within the U.S. Government has 
to be maintained. I think the case of Fort Hood does represent 
the low point in this. It was a failure to share information 
between the FBI and Department of Defense and a failure to 
provide some information to the National Counterterrorism 
Center and similar organizations. This has to continue to be 
pressed. Even in light of what we have heard about NSA 
surveillance, I believe this committee must continue to press 
the Executive branch to make sure this information is provided 
to the agencies that can connect the dots when that is 
possible.
    Fifth, joint terrorism task forces, joint terrorism task 
forces of the FBI are critical and do excellent work, but they 
don't do everything. The lacking piece, which may have been 
present in the Boston bombing, is those cases that the FBI and 
the JTTFs cannot continue to investigate when they don't have 
the resources or they deem something not to be a sufficient 
threat. In those cases, we must create a better system linking 
the FBI, State and local fusion centers, and State and local 
authorities to pick up those smaller pieces. In my view, 
although we have invested an enormous amount in State and local 
fusion centers over the past 12 years, the fusion centers, the 
JTTFs, and State and local officials are not sufficiently tied 
together.
    Chairman McCaul and Ranking Member Thompson, I think you 
have known me for the past several years to be very committed 
to this problem. I would urge this committee to keep the 
pressure on the administration but to also provide the service 
that you must to the American people to convince them that the 
members of the Federal Government and State and local officials 
are not spying for the sake of spying and that you as a 
committee are, in fact, holding the Executive branch's feet to 
the fire to ensure that their civil liberties and privacy are 
being protected.
    I thank Ms. Lee, Ms. Jackson Lee for making the statement. 
Much of this cannot be spoken about in open hearings, but as 
much as we can, we must, because without the trust of the 
American people, the FBI, the CIA, the Department of Homeland 
Security, the police departments across this country would be 
looked at as the enemy, and we cannot allow that to happen, 
because once that happens, our efforts to actually disrupt 
these terrorist acts would be seriously undermined. Thank you.
    [The prepared statement of Mr. Leiter follows:]
                Prepared Statement of Michael E. Leiter
                                overview
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for inviting me to testify concerning past terror 
plots against the homeland. Although the membership on this committee 
has changed over the years, this body has always been at the forefront 
of understanding threats and shaping our Government's response to them. 
On behalf of those who continue to serve in homeland security and 
intelligence organizations, I want to thank the committee for its 
continuing oversight and support.
    For the men and women of the U.S. counterterrorism community, there 
is no priority higher than detecting, disrupting, and--if all else 
fails--minimizing the effects of a terrorist attack in the homeland. 
Since 2001, our record obviously isn't perfect, but it is in my view 
truly impressive. Today I will offer my views on what has gone well and 
also what we can learn from the near misses--and tragic terrorist 
successes--over the past 12 years.
                             the successes
    Before reflecting on five instances where our defenses weren't 
perfect, I must begin with the successes--because they are in truth far 
more prevalent than their more tragic counterparts. One cannot judge 
the extent of our success merely by considering casualties, but it is 
at least a starting point.
    In my view it is nothing short of remarkable that since the tragedy 
of 9/11, 18 people have been killed in the United States by al-Qaeda-
inspired terrorists: Thirteen at Ft. Hood, one in Little Rock, 
Arkansas, and most recently four in Boston. Again, all of these deaths 
as well as those who were injured are tragic tales of loss to families 
and friends. Moreover, these attacks result in emotional and 
psychological scars for Americans far from the sites.
    As just noted, however, I firmly believe this relatively small toll 
is not just noteworthy but almost astounding. Yes it is 18 too many, 
but had I polled this committee's predecessors on September 12, 2001, 
as to what the toll of al-Qaeda might be over the subsequent 12 years, 
I am confident that the answers would have been in the hundreds, 
thousands, or perhaps even tens of thousands. The reason this has not 
been the case is not because al-Qaeda and its adherents have 
capitulated. Rather, it is solely because of counterterrorism offensive 
and defensive successes in the homeland and around the world.
    The roots of these successes come in many forms. Key amongst them:
  <bullet> Offensive strikes overseas that have disrupted al-Qaeda's 
        leadership in Pakistan and Yemen.
  <bullet> Excellent human and technical intelligence--collected both 
        unilaterally and in cooperation with our allies--to penetrate 
        terrorist networks and disrupt plots.
  <bullet> Improved screening of travelers and cargo traveling to the 
        United States.
  <bullet> Vastly accelerated and improved information sharing amongst 
        organizations like the CIA, NSA, FBI, DHS, DOD, and National 
        Counterterrorism Center (NCTC).
  <bullet> Improved domestic counterterrorism intelligence and 
        investigations, led by the FBI but supported by DHS and State 
        and local authorities.
  <bullet> First responder and community preparation to respond to 
        attacks and mitigate their seriousness.
  <bullet> Community engagement to reduce the attraction of al-Qaeda's 
        message in the Muslim community.
    The concrete result of this work is a long list of disrupted plots 
that must be remembered: The 2011 arrest of Khalid Ali-M Aldawsari in 
Texas as he plotted to attack power plants, military targets, and 
others; the 2010 attempt to take down two U.S. cargo planes with bombs 
made in Yemen; Najibullah Zazi's 2009 attempt to attack the New York 
City subway; the 2008 arrest of Bryant Neal Vinas who homeland attacks 
with al-Qaeda in Pakistan; a 2007 plot to attack soldiers at Ft. Dix, 
New Jersey; and the 2006 Operation Overt that disrupted a plot to bomb 
numerous transatlantic airliners.
    Of course, these are but a sample of the much larger set of 
disrupted plots that have kept the American people and our allies far 
safer than they otherwise would have been. Regrettably, our defenses 
are not--nor can they ever be--perfect. And in this regard, the 
successful attacks and the nearer misses can illuminate how our efforts 
can be improved.
                       learning from other plots
    At the committee's request, I will now address five plots that 
ended with less success than any counterterrorism professional or the 
public hoped. Specifically, the 2009 murder of an Army recruiter in 
Little Rock, Arkansas; the murder of 13 in Ft. Hood, Texas that same 
year; the failed plot to down Northwest Airlines Flight 253 on 
Christmas day 2009; the attempted car bomb in Times Square in 2010; and 
finally the recent tragic events surrounding the Boston Marathon that 
left 4 dead.
    To begin, all of these certainly represent instances where we could 
have done much better. But it must be stressed--and I say this as an 
apolitical National security professional--we must accept that 
counterterrorism perfection is impossible. This is not to make excuses, 
and I take personal responsibility for my own contributions to 
instances where we didn't stop an attack before it happened, but rather 
to set realistic expectations so that we don't have partisan witch 
hunts after the fact.
    In my view what the Congress and American people should expect is 
that their Government will continue to reduce the likelihood of a 
catastrophic attack. By this I mean that major attacks like 9/11 should 
be extremely unlikely to occur thanks to our defenses, and even 
smaller-scale attacks like Boston will often--but not always--be 
thwarted. Moreover, whatever attacks do get through the gravity of the 
results should be mitigated by effective pre- and post-attack measures. 
This last point is critical, for the counterterrorism system has 
purposeful overlapping defenses because we know that no single 
countermeasure will always prove successful.
    In several of the cases raised by the committee, systematic 
defenses have been the backstop after we failed to identify specific 
plots or operatives before the fact. For example, in the case of Times 
Square the bomber was aware of FBI tripwire programs that resulted in 
his buying the wrong type of fertilizer to make an effective bomb. 
Similarly, in the case of the Christmas day bomber, passenger screening 
led al-Qaeda to use a less effective detonator than they otherwise 
might thus providing passengers and crew critical moments to disrupt 
the attack. Thus, although both of these attacks were far closer than 
we would have liked, the full panoply of defenses were critical in 
saving lives.
    All of this being said, I believe there are several critical 
lessons to be learned from these five plots.
    Recognizing radicalization remains critical.--Through excellent 
analytic work in the intelligence community, we understand the 
radicalization process better today than ever before. Nonetheless as 
several of the cases illustrate, there is no radicalization formula nor 
has our understanding migrated fully to those operators who are on the 
front lines. The FBI has improved training to agents and analysts, but 
we should ensure that all interagency, State, and local members of the 
Joint Terrorism Task Forces have high-quality training on 
radicalization using the full resources of the U.S. Government, to 
include the NCTC. Without such training, we run a serious risk of 
agents or analysts not recognizing particularly troubling signs of 
radicalization that might warrant further investigation. This training 
should also be reviewed by outside experts to ensure that it is not 
providing misguided information or views that could lead to the 
inappropriate targeting of individuals.
    Although there were a wide variety of factors in the case of Ft. 
Hood (which were thoroughly documented in reports authored by former 
FBI Director Judge William Webster and the Senate Homeland Security and 
Government Affairs Committee), I believe the issue of recognizing 
radicalization was a factor. Without trying to isolate the failure to a 
single cause, had certain agents and analysts appreciated some tell-
tale signs of radicalization it is at least more possible that more 
aggressive investigative steps would have been taken.
    Al-Qaeda-inspired internet voices are here to stay.--The 
radicalizing influence of al-Qaeda-aligned internet voices continue to 
be a significant factor in homegrown terror plots. The FBI, DHS, NCTC, 
and others have done much to keep up with what has been a trend since 
at least 2004. But the rapidly-changing nature of technology, the ease 
with which plotters can adopt new methods of communicating, and a 
massive volume of data all make keeping up with homegrown extremists 
difficult.
    The Boston Bombing investigation will, I hope, lead to greater 
consideration of how social media might help identify especially 
worrisome suspects. As has been widely reported, Tamerlan Tsarnaev 
posted videos on a YouTube channel in his true name--but of importance 
this occurred after the FBI threat assessment had already been closed. 
Although I do not believe there was anything remotely like a ``smoking 
gun'' in these videos, there may have been materials that indicated 
radical tendencies. Combined with information from Russian officials, 
it is at least possible that this would have interested investigators. 
But again, given that this open source material was only available 
after the Bureau closed its investigation, it is open to question if 
the FBI would have had any reason (or, potentially, authority) to 
monitor his internet activity.
    The shift from radicalization to mobilization remains a significant 
challenge.--For homegrown terrorism, identifying individuals who are 
sympathetic to al-Qaeda's views is challenging but feasible. More 
difficult, however, is predicting which of those who have been 
radicalized will actually mobilize and pursue violence. Moreover, 
detecting mobilization poses significant legal, policy, and practical 
challenges. Specifically, there is limited legal justification for 
disrupting individuals who have not yet moved to plotting. And it is 
impossible--and of questionable wisdom--to maintain surveillance of 
every individual that falls into this category.
    The case of Carlos Bledsoe, the Little Rock, Arkansas shooter, is 
instructive in this regard. In Bledsoe's case, there were clear 
indicators of his at least suspicious activity in Yemen and potential 
radical leadings. Bledsoe did not, however, rise to the level of 
requiring constant surveillance because it was not clear that he was 
pursuing violence upon his return to the United States. Without such 
constant--and resource-intensive--surveillance Bledsoe was tragically 
able to target an Army recruiting center.
    Information sharing within the U.S. Government must be 
maintained.--Information sharing has been a mantra since 9/11, but the 
challenges we face today are not always the same as what we faced 12 
years ago. That being said, pressures to roll back information sharing 
are ever-present and should be resisted while still adequately 
protecting civil liberties and privacy. As a general matter, sharing 
within the Executive branch is good, although the sharing of more raw, 
less-processed data with organizations like NCTC is important to 
finding previously-unknown connections. In addition, ensuring that 
relevant but not counterterrorism-specific information (e.g., travel 
data) within the counterterrorism community must be maintained.
    The case of Ft. Hood represents an obvious low point in information 
sharing but in my view much has been done to address some of the core 
weaknesses. More specifically, in that case we saw a serious breakdown 
in sharing between FBI and the Department of Defense, as well as 
sharing--due to legal and policy limitations--of certain Foreign 
Intelligence Surveillance Act (FISA)-obtained material with the NCTC. 
Both of these failings have since been addressed.
    FBI-led Joint Terrorism Task Forces (JTTF) are necessary and 
effective, but not sufficient. In most cases, FBI-led JTTFs have 
performed exceedingly well. The JTTFs help ensure that all U.S. 
Government and relevant State and local investigative resources are 
leveraged in a focused manner. But the nature of JTTFs (using all of 
the U.S. Government's resources to include classified information from 
the intelligence community) means that information is not automatically 
shared outside the Task Force--although any Federal or local personnel 
detailed to the Task Force can seek supervisor permission to share 
information with non-Federal partners. This limitation means that State 
and local officials cannot always play as full a role in 
counterterrorism efforts as we might want.
    Many would point to State and local fusion centers as the solution 
to this challenge, but this mistakes the role that these centers 
generally play. Fusion centers are critical for sharing general threat 
information, as well as fusing information from State and local 
authorities, but the centers do not serve as a locus for investigative 
information sharing. And it is this area where we continue to bear 
risk. In my view there would be serious value in ensuring the fusion 
centers, working with JTTFs as well as FBI Field Intelligence Groups 
(FIGs), serve a prominent role in combing through investigative 
information that the FBI and JTTFs cannot or will not pursue.
    The Boston bombing is the most recent example of this challenge. It 
has been reported that the Boston and Cambridge Police Departments (as 
opposed to some officers from those departments on the JTTF) were 
unaware of reports of Tamerlan Tsarnaev's radicalization. This makes 
sense, as the report from Russian authorities would have been 
classified and thus at least initially confined to the JTTF. And once 
the FBI's threat assessment of Tsarnaev was legitimately closed, there 
would be even less reason--and possible policy prohibitions against--
sharing the information with State and local authorities.
    It is not the case, however, that State and local authorities are 
blind to many cases similar to Tsarnaev. In fact, the vast majority of 
unclassified Guardian leads (the type of lead in the Tsarnaev case) are 
already available to State and local authorities through Law 
Enforcement Online (LEO) and eGuardian. Thus we should ensure that 
fusion centers, local authorities, DHS, and FBI are working together to 
allocate effectively scarce resources to maximize our coverage of cases 
that do not rise to levels of apparent seriousness that will guarantee 
intensive JTTF focus. And the advantage to doing so is that State and 
local organizations operate with very different--and in some cases 
broader--authorities than their Federal counterparts.
    Congress has an important role to play in such an arrangement by 
ensuring that law, policy, and resources enable rather than impede such 
information sharing. The advantage is obvious: Although the FBI cannot 
and should not maintain investigations of individuals who have been 
cleared of wrongdoing, local officials have very different legal 
authorities and resources and might--in certain cases--be better-
positioned to continue coverage of individuals like Tsarneav based on 
their well-established police powers. With appropriate oversight, 
fusion centers and their Federal counterparts can ensure the allocation 
of scarce operational resources are used as effectively as possible.
    I would be remiss, however, if I did not flag some of the obstacles 
to this approach. Specifically, passing lead information to local 
authorities after an FBI investigation has been closed has real privacy 
and civil liberties consequences--and again may in some cases be in 
tension with the Privacy Act and other Federal statutes. In addition, 
the desire to share information more broadly must always confront the 
risk to intelligence sources and methods--an especially challenging 
case like that of Tsarneav where information is from a foreign 
intelligence partner. Finally, in some cases even if information is 
passed local authorities will be ill-equipped to take meaningful 
action, thus also raising further privacy and civil liberty concerns.
                               conclusion
    We have had more than our share of successes in combatting 
terrorism--especially in the United States--over the past 12 years. 
That being said, we have not always been as successful as we would all 
hope for. We should continue to push for evolutionary change to our 
counterterrorism efforts. This requires truly cooperative work between 
the Executive and Legislative branches, as well as rigorous oversight 
from all three branches to ensure public faith and trust. Combatting 
terrorism in the homeland is challenging and simultaneously must be 
done meticulously as to not violate the Constitutional protections we 
all hold dear. I very much hope my reflections can play a small role in 
assisting this committee in achieving our common goals.

    Chairman McCaul. Thank you, Director Leiter.
    The Chairman now recognizes Professor Hoffman for 5 
minutes.

STATEMENT OF BRUCE HOFFMAN, PROFESSOR AND DIRECTOR, CENTER FOR 
 PEACE AND SECURITY STUDIES AND SECURITY, GEORGETOWN UNIVERSITY

    Mr. Hoffman. Chairman McCaul, Ranking Member Thompson, 
distinguished Members of the committee, my humble apologies for 
being so late, my apologies to your staffs and also to my 
fellow witnesses. Thank you for the opportunity to testify. It 
is a great honor to do so beside two such distinguished 
Americans as Mayor Giuliani and Mr. Leiter.
    Today the core al-Qaeda organization is widely seen as on 
the verge of strategic collapse. However, even though al-Qaeda 
may be in decline, al-Qaeda isn't. The movement's ideology 
continues to resonate and attract new adherents. Al-Qaeda thus 
remains an appealing brand in North and West Africa as well as 
in the Levant. The movement also retains its visceral hatred of 
the United States and the West, along with the potential to 
inspire and motivate individuals to engage in deadly acts of 
homegrown terrorism, as we likely saw last April in Boston.
    For more than a decade, al-Qaeda has withstood arguably the 
greatest international onslaught directed against a terrorist 
organization in history. Further, it has consistently shown 
itself capable of adapting and adjusting to even the most 
consequential countermeasures directed against it, having, 
despite all odds, survived for a quarter of a century.
    Throughout its history, the oxygen that al-Qaeda depends 
upon has ineluctably been its possession of or access to 
physical sanctuary and safe haven. In the turbulent wake of the 
Arab Spring and the political upheaval and instability that 
have followed, al-Qaeda has the potential to transform toeholds 
established in the Levant and perhaps in the Sinai and in both 
North and West Africa into footholds, thus complementing its 
existing outposts in Pakistan, Afghanistan, Yemen, and Somalia. 
Hence, while Osama bin Laden's death inflicted a crushing blow 
on al-Qaeda, it is still not clear that it has necessarily been 
a fatal one.
    Today al-Qaeda is arguably situated in more places than it 
was on September 11, 2001. It maintains a presence in some 14 
different theaters of operation, compared to half as many as 
recently as 5 years ago. Although some of these operational 
environments are less amenable than others, such as in 
Southeast Asia, others have become sites of revival and 
resuscitation, such as in Iraq and North Africa, or of 
expansion, such as in Syria, Nigeria, Mali, Mauritania, and 
Niger.
    Al-Qaeda has been able to achieve the unthinkable, 
radicalizing persons who are citizens of or residents in the 
United States and Canada and inspiring and motivating them to 
engage in terrorist acts, whether on their own, such as 
occurred at Fort Hood, Texas, in 2009, or at the direction and 
behest of al-Qaeda senior leadership, such as the plot to stage 
suicide bomb attacks on the New York City subway system in 2009 
or the more recent plot in Canada that was reportedly 
orchestrated by al-Qaeda commanders based in Iran.
    The continuing challenge that the United States will face 
is that al-Qaeda's core ideology remains attractive both to 
hard core radicals and is also capable of drawing new adherents 
into its ranks. Even in death, Anwar al-Awlaki is still the 
movement's preeminent recruiting sergeant. Indeed, the latest 
recruits to this struggle are the Tsarnaev brothers, products 
of centuries-long conflict between Russia and Chechnya.
    The violence inflicted on Muslims in general and Muslim 
women and children around the world has been cited by many 
other homegrown terrorists as a salient motivating factor in 
their politicization and radicalization. This may also explain 
why the American invasions of Iraq and Afghanistan were cited 
by Dzhokhar Tsarnaev as the reasons behind his and his older 
brother's bombing of the Boston Marathon.
    There is no one path to radicalization. Individuals will 
always be attracted to violence in different ways. These 
radicalized persons come from every walk of life, from 
marginalized people working in menial jobs, some with long 
criminal records or histories of juvenile delinquency, to 
persons from solidly middle and upper middle class backgrounds, 
with a university and perhaps even graduate degrees.
    Indeed, the common element in the radicalization process 
reflects these individuals' deep commitment to their faith, 
often recently discovered; their admiration of terrorist 
movements or leading terrorist figures, who they see as having 
struck a cathartic blow against their creed's enemies wherever 
they are and whomever they might be; hatred of their adopted 
homes, especially if in the United States and the West; and a 
profoundly shared sense of alienation from their host 
countries.
    At the start of the war on terrorism a dozen years ago, the 
enemy was clear and plainly in sight. It was a large terrorist 
organization situated mostly in one geographic location, and it 
was led by an identifiable leader. Today, when the borders 
between domestic and international terrorism have blurred, and 
our adversaries are not only identifiable terrorist 
organizations but enigmatic individuals, a complete rethinking 
of our counterterrorism policies and architecture is needed.
    We built an effective defense against the previous threat. 
Our challenge today is to develop new defenses against this 
more amorphous, diffuse, and individualized threat while at the 
same time to continue to destroy and upend al-Qaeda, its 
affiliates and associates, and most especially, the ideology 
that fuels and sustains them. Thank you.
    [The prepared statement of Mr. Hoffman follows:]
                  Prepared Statement of Bruce Hoffman
    This testimony assesses the current state of the al-Qaeda terrorist 
movement and its likely future trajectory. It considers the prevailing 
assumptions about al-Qaeda and the threat that it poses; al-Qaeda's 
current capacity for violence; and, its ability to plan strategically 
and implement terrorist operations. In this respect, even though the 
core al-Qaeda group may be in decline, al-Qaeda-ism, the movement's 
ideology, continues to resonate and attract new adherents. Al-Qaeda 
thus remains an appealing brand in North and West Africa as well as in 
the Levant. The movement also retains its visceral hatred of the United 
States and the West along with the potential to inspire and motivate 
individuals to engage in deadly acts of homegrown terrorism, as we saw 
last April in Boston.
    Today, the Core al-Qaeda organization is widely seen as on the 
verge of strategic collapse. The evidence supporting these claims is 
compelling. Osama bin Laden, the co-founder and leader of al-Qaeda, is 
dead. The four-fold increase in targeted assassinations undertaken by 
the Obama administration has thus far killed some three dozen key al-
Qaeda leaders, as well as nearly 250 of its fighters, thereby setting 
the core organization, in the words of a U.S. State Department 
analysis, ``on a path of decline that will be difficult to reverse.''
    Although one cannot deny the vast inroads made against Core al-
Qaeda in recent years, the long-established nucleus of the al-Qaeda 
organization has proven itself to be as resilient as it is formidable. 
For more than a decade, it has withstood arguably the greatest 
international onslaught directed against a terrorist organization in 
history. Further, it has consistently shown itself capable of adapting 
and adjusting to even the most consequential countermeasures directed 
against it, having, despite all odds, survived for a quarter century.
    In this respect, the ``Arab Spring,'' and especially the on-going 
unrest and protracted civil war in Syria, have endowed the al-Qaeda 
brand and, by extension, the core organisation, with new relevance and 
status that, depending on the future course of events in both that 
country and the surrounding region, could potentially resuscitate Core 
al-Qaeda's waning fortunes. The fact that the al-Qaeda Core seems to 
enjoy an unmolested existence from authorities in Pakistan, coupled 
with the forthcoming withdrawal of U.S. forces and ISAF troops from 
Afghanistan, further suggests that Core al-Qaeda may well regain the 
breathing space and cross-border physical sanctuary needed to ensure 
its continued longevity.
    Throughout its history, the oxygen that al-Qaeda depends upon has 
ineluctably been its possession of, or access to, physical sanctuary 
and safe haven. In the turbulent wake of the ``Arab Spring'' and the 
political upheavals and instability that have followed, al-Qaeda has 
the potential to transform toeholds established in the Levant and 
perhaps in the Sinai and in both North and West Africa into footholds--
thus complementing its existing outposts in Pakistan, Afghanistan, 
Yemen, and Somalia.
    Hence, while bin Laden's death inflicted a crushing blow on al-
Qaeda, it is still not clear that it has necessarily been a fatal one. 
He left behind a resilient movement that, though seriously weakened, 
has nonetheless been expanding and consolidating its control in new and 
far-flung locales.
    Today, al-Qaeda is arguably situated in more places than it was on 
September 11, 2001. It maintains a presence in some 14 different 
theatres of operation--compared to half as many as recently as 5 years 
ago. Although some of these operational environments are less amenable 
than others--such as Southeast Asia--others have been the sites of 
revival and resuscitation--such as in Iraq and North Africa--or of 
expansion--such as in Syria, Nigeria, Mali, Mauritania, and Niger.
    Al-Qaeda has also been able to achieve the unthinkable: 
Radicalizing persons who are citizens of or resident in the United 
States and Canada and inspiring and motivating them to engage in 
terrorist acts whether on their own, such as occurred at Fort Hood, 
Texas in 2009; or at the direction and behest of al-Qaeda's senior 
leadership, such as the plot to stage suicide bomb attacks on the New 
York City subway system or the more recent plot to attack a Canadian 
train that was reportedly orchestrated by al-Qaeda commanders based in 
Iran.
    Bin Laden thus created a movement that, despite a decade of 
withering onslaught and attrition, continues to demonstrate its ability 
to:
  <bullet> preserve a compelling brand;
  <bullet> project a message that still finds an audience and adherents 
        in disparate parts of the globe, however modest that audience 
        may perhaps be;
  <bullet> replenish its ranks (including those of its key leaders); 
        and,
  <bullet> pursue a strategy that continues to inform both the 
        movement's and the core's operations and activities, and that 
        today is effectively championed by Ayman al-Zawahiri.
    In this respect, since 2002, al-Qaeda has embraced a grand strategy 
for that was defined as much by al-Zawahiri as bin Laden. It is a plan 
that deliberately (and successfully) transformed it into a de-
centralized, networked, transnational movement rather than the single 
monolithic entity that al-Qaeda was on the eve of the September 11, 
2001 attacks.
    Accordingly, despite Core al-Qaeda's alleged abject decrepitude 
today, the movement has nonetheless pursued a strategy designed to 
ensure its survival. Continuing to attack the United States is only one 
step in this strategic plan, which is also focused on:
  <bullet> Attriting and enervating America so that a weakened United 
        States would be forced out of Muslim lands and therefore have 
        neither the will nor the capability to intervene;
  <bullet> Taking over and controlling territory, creating the physical 
        sanctuaries and safe havens that are al-Qaeda's lifeblood; and
  <bullet> Declaring ``emirates'' in these liberated lands that would 
        be safe from U.S. and Western intervention because of our 
        alleged collective enfeeblement.
    Although it may be tempting to dismiss this as equal parts bravado 
and wishful thinking, as Johns Hopkins University Professor Mary Habeck 
has cogently observed, ``No al-Qaeda affiliate or partner--including 
the Taliban, al-Qaeda in Iraq, or the Shabaab--has been deposed from 
power by an uprising of the local population alone. They have needed 
outside intervention in order to expel the insurgents, even when the 
people have hated al-Qaeda's often brutal rule.'' France's intervention 
in Mali earlier this year being the most recent example substantiating 
Professor Habeck's important point.
    One can therefore make a reasonable argument that Core al-Qaeda 
has:
  <bullet> a well-established sanctuary in Pakistan that it functions 
        in without great hindrance and that it is poised to expand 
        across the border into Afghanistan as the U.S. military and 
        ISAF continue to withdraw from that country, until the complete 
        drawdown set for 2014;
  <bullet> a deeper bench than has often been posited (or at least has 
        been shown to be deeper at various critical junctures in the 
        past when the Core al-Qaeda's demise had been proclaimed);
  <bullet> a defined and articulated strategy for the future that it is 
        pursuing;
  <bullet> a highly capable leader in al-Zawahiri who, over the past 2 
        years--despite predictions to the contrary--has been able not 
        only to keep the movement alive, but also to expand its brand 
        and forge new alliances (particularly in West African 
        countries); and,
  <bullet> a well-honed, long-established dexterity that enables it to 
        be as opportunistic as it has been instrumental--that is, 
        having the capability to identify and exploit whatever new 
        opportunities for expansion and consolidation present 
        themselves.
    It is often said that, much like bin Laden's killing, the ``Arab 
Spring'' has sounded al-Qaeda's death knell. However, while the mostly 
non-violent, mass protests of the ``Arab Spring'' were successful in 
overturning hated despots and thus appeared to discredit al-Qaeda's 
longstanding message that only violence and jihad could achieve the 
same ends, in the more than 2 years since these dramatic developments 
commenced, evidence has repeatedly come to light of al-Qaeda's ability 
to take advantage of the instability and upheaval in some of these same 
countries to re-assert its relevance and attempt to reverse its 
decline.
    Moreover, while the ``Arab Spring'' has transformed governance 
across North Africa and the Middle East, it has had little effect on 
the periphery of that geographic expanse. The continued antipathy in 
Pakistan toward the United States, coupled with the increasing activity 
of militant groups there--most of whom are already closely affiliated 
with Core al-Qaeda--has, for instance, largely undermined the progress 
achieved in recent years against terrorism in South Asia. Further, the 
effects of the ``Arab Spring'' in Yemen, for instance, have clearly 
benefitted AQAP at the expense of the chronically weak central 
government in that country. AQAP in fact has been able to expand its 
reach considerably, seizing and controlling more territory, gaining new 
adherents and supporters, and continuing to innovate tactically as it 
labors to extend its attack capabilities beyond the Arabian Peninsula. 
Although al-Shabaab has been weakened in Somalia as a result of its 
expulsion from the capital, Mogadishu, and the deaths of two key Core 
al-Qaeda commanders who had both embedded in the group and had enhanced 
appreciably its terrorist capabilities, al Shabaab nonetheless still 
maintains a stranglehold over the southern part of the country, where a 
terrible drought and famine threaten the lives of hundreds of thousands 
of people. Al Shabaab has also expanded its ambit of operations beyond 
Somalia to Kenya where, over the past 2 years, a variety of civilian as 
well as governmental targets--including churches and foreign tourists--
have been attacked in operations frequently employing suicide bombers.
    Meanwhile, the instability and disorders generated by the ``Arab 
Spring'' have created new opportunities for al-Qaeda and its allies in 
the region to regroup and reorganize. Indeed, the number of failed or 
failing states or ungoverned spaces now variously found in the Sahel, 
in the Sinai, in parts of Syria and elsewhere has in fact increased in 
the aftermath of the changes witnessed across North Africa and the 
Middle East since 2011. In no place is this clearer or more 
consequential than in Syria. It is there, that al-Qaeda's future--its 
power and perhaps even its longevity--turns.
    Given these developments, several conclusions based on the 
preceding discussion may be posited that will likely affect Core al-
Qaeda's future trajectory:
  <bullet> First, al-Qaeda is still strongest at the geographical 
        periphery of the dramatic events of the past 2 years in North 
        Africa and the Middle East. Pakistan, Somalia, and Yemen, as 
        noted above, still remain key al-Qaeda operational environments 
        and sanctuaries and, in Yemen's case, rather than depriving al-
        Qaeda of political space, the ``Arab Spring'' has created new 
        opportunities in that country for AQAP's expansion and 
        consolidation of its recent gains. Core al-Qaeda demonstrably 
        benefits from, and feeds off, these developments--thus 
        promoting its longevity, at least for the foreseeable future.
  <bullet> Second, the conflict in Syria--and the attendant 
        opportunities it presents to al-Qaeda at a critical time in its 
        history--has potentially breathed new life into the al-Qaeda 
        brand and movement, exactly as Iraq did after 2003. Because of 
        its effective intervention in Syria, al-Qaeda's prospects are 
        today brighter than arguably at any other time in the past 
        decade.
  <bullet> Third, al-Qaeda's core demographic has always been 
        disenfranchised, disillusioned, and marginalized youth. There 
        is no evidence that the potential pool of young ``hot heads'' 
        to which al-Qaeda's message has always been directed will 
        necessary dissipate or constrict in light of the ``Arab 
        Spring.'' Moreover, it may likely grow in the future as 
        impatience over the slow pace of democratisation and economic 
        reform takes hold and many who took to the streets find 
        themselves excluded from or deprived of the political and 
        economic benefits that the upheavals in their countries 
        promised. The recent events in Egypt, of course, being the most 
        glaring and parlous case in point. The losers and disenchanted 
        of the ``Arab Spring'' may thus provide a new reservoir of 
        recruits for al-Qaeda in the near future--especially in those 
        countries across North Africa and the Middle East with 
        proportionally high populations below the age of 20.
  <bullet> Fourth, the continued fragmentation of the jihadi movement 
        as a result of bin Laden's killing and Core al-Qaeda's 
        weakening may paradoxically present new and daunting challenges 
        to both regional and Western intelligence and security 
        services. The continual emergence of new, smaller, more 
        dispersed terrorist entities with a more fluid membership that 
        easily gravitates between and among groups that have little or 
        no established modus operandi will raise difficulties in terms 
        of identifying, tracking, anticipating, and predicting threats. 
        The authorities in Northern Ireland, for instance, encountered 
        precisely this problem in the aftermath of the 1998 ``Good 
        Friday'' accords, when the threat from a single, monolithic 
        entity, the Provisional Irish Republican Army (PIRA), devolved 
        into the atomized threats presented by the smaller, less 
        structured, more amorphous dissident Republican groups. A 
        similar process has been noted by authorities in Indonesia 
        following the collapse of Jemaah Islamiya, a close al-Qaeda 
        ally, and its splintering into smaller, more numerous lashkars 
        or militias that have proven difficult to identify and track.
  <bullet> Fifth, the progeny of seminal jihadi leaders either killed 
        or imprisoned over the past decade as a result of the war on 
        terrorism may emerge as heirs to the movement bequeathed to 
        them by their elders. For instance, until his death in 2009, 
        Saad bin Laden, Osama's eldest son, was being groomed to 
        succeed his father. The prospect of additional sons, nephews, 
        cousins, and more distant relations of deceased or imprisoned 
        jihadi leaders forming a new generation of fighters and filling 
        leadership roles in Core al-Qaeda is unnerving: Not least 
        because successive generations of the same terrorist 
        organisations have shown themselves to be more lethally violent 
        than their predecessors.
  <bullet> Sixth, there is the problem of the ``old made new'': Former 
        leaders or senior-level fighters who emerge from prison or 
        exile to assume key positions of command of new or existing 
        terrorist organisations, including Core al-Qaeda, and thus 
        revitalize and reinvigorate flagging or dormant terrorist 
        groups. This same development of course led to the formation of 
        the AQAP in early 2009. Egyptian President Morsi's pardon of 16 
        leading jihadi prisoners from the al Gama'a Islamiyya and al 
        Jihad's groups and the amnesties granted to hundreds of others 
        have the potential to infuse existing local and regional 
        organizations with greater militancy and violence. In addition, 
        at least a dozen or more key Core al-Qaeda personnel are still 
        sheltering in Iran, including Saif al-Adl. If allowed their 
        freedom, they could easily strengthen the existing central 
        leadership.
  <bullet> Finally, the continued absence of a successful, major al-
        Qaeda attack in North America since 2001 may induce a period of 
        quiet and calm that lulls us into a state of false complacency, 
        lowering our guard and, in turn, provoking al-Qaeda or one of 
        its allies to chance a dramatically spectacular attack in the 
        United States.
    None of the above is pre-ordained, much less certain. At least 
three scenarios are possible. In the first, the Core al-Qaeda 
organization continues to degenerate and eventually becomes a post-
modern, desperate movement with a set of loose ideas and ideologies. 
This would be accompanied by the continued ascendance of affiliates and 
associated groups within a broad ideological and strategic framework 
bequeathed by the core organization.
    A second scenario would see Core al-Qaeda's continued weakening 
which produces an even more fragmented jihadi movement. These smaller, 
less capable entities would continue to pose a terrorist threat, but a 
far weaker, more sporadic and perhaps less consequential one. However, 
as previously noted, they would likely be more difficult to track, 
identify, and counter.
    A third scenario is dependent upon whether Syria re-vitalizes the 
al-Qaeda Core and attendant movement. The big question is whether al-
Qaeda can avoid making the same mistakes that previously undermined its 
struggle in Iraq, for instance, and how successful Core al-Qaeda 
continues to be at balancing relations with its local and regional 
affiliated and associated groups.
    Regardless of which scenario materializes, the continuing challenge 
that the United States faces is that al-Qaeda's core ideology remains 
attractive to a hard core of radicals and capable of drawing new 
adherents into ranks. Even in death, Anwar al-Awlaqi has proven to be 
an effective recruiting sergeant.
    Indeed, the latest recruits to this struggle are the Tsarnaev 
brothers--products of centuries-long conflict between Russia and 
Chechnya. The violence inflicted on Muslims in general and Muslim women 
and children around the world have been cited by many other homegrown 
terrorists as a salient motivating factor in their politicization and 
radicalization. This may also explain why the American invasions of 
Iraq and Afghanistan were cited by Dzhogar Tsarev as the reasons behind 
his and his older brother's bombing of the Boston Marathon.
    There is no one path to radicalization. The reasons why someone 
picks up a gun or blows themselves up are ineluctably personal, born 
variously of grievance and frustration; religious piety or the desire 
for systemic socio-economic change; irredentist conviction or 
commitment to revolution. And yet, though there is no universal 
terrorist personality, nor has a single, broadly applicable profile 
ever been produced, there are things we do know. Terrorists are 
generally motivated by a profound sense of--albeit, misguided--
altruism; deep feelings of self-defense; and, if they are religiously 
observant or devout, an abiding, even unswerving, commitment to their 
faith and the conviction that their violence is not only theologically 
justified, but divinely commanded.
    Theological arguments in this context are invoked both by the 
organizations responsible for the attacks and by the communities from 
which the terrorists are recruited. In the case of Muslims, although 
the Quran forbids both suicide and the infliction of wanton violence, 
pronouncements have been made by radical Muslim clerics, and in some 
instances have been promulgated as fatwas (Islamic religious edicts), 
affirming the legitimacy of violence in defense of defenseless peoples 
and to resist the invasion of Muslim lands. Among the most prominent 
was the declaration by the Ayatollah Khomeini who once declared (in the 
context of the Shi'a interpretation of Islam) that he knew of no 
command ``more binding to the Muslim than the command to sacrifice life 
and property to defend and bolster Islam.'' Radical Islamist terrorist 
movements have thus created a recruitment and support mechanism of 
compelling theological incentives that sustain their violent campaigns 
and seeks vengeance--despite America's withdrawal from Iraq and 
impending departure from Afghanistan.
    Individuals will always be attracted to violence in different ways. 
Just look at the people who have gravitated towards terrorism in the 
United States in recent years. We have seen terrorists of South Asian 
and North as well as East African descent as well as those hailing both 
from the Middle East and Caribbean. We have seen life-long devout 
Muslims as well as recent converts--including one Philadelphia suburban 
housewife who touted her petite stature and blonde hair and blue eyes 
as being so atypical of the stereotypical terrorist so as to defy any 
efforts at profiling. Radicalized over the internet, she sought to use 
her self-described ability to avoid detection to assassinate a Swedish 
artist who drew an offensive cartoon of the Prophet Muhammad.
    These radicalized persons come from every walk of life, from 
marginalized people working in menial jobs, some with long criminal 
records or histories of juvenile delinquency, to persons from solidly 
middle and upper-middle class backgrounds with university and perhaps 
even graduate degrees and prior passions for cars, sports, rock music, 
and other completely secular and material interests.
    Relationships formed at work, at school, on sports teams, and other 
recreational and religious activities as well as over the internet can 
prey upon the already susceptible. In some instances, first generation 
sons and daughters of immigrants embrace an interpretation of their 
religion and heritage that is more political, more extreme, and more 
austere--and thereby demands greater personal sacrifices--than that 
practiced by their parents.
    Indeed, the common element in the radicalization process reflects 
these individuals' deep commitment to their faith--often recently re-
discovered; their admiration of terrorist movements or leading 
terrorist figures who they see as having struck a cathartic blow for 
their creed's enemies wherever they are and whomever they might be; 
hatred of their adopted homes, especially if in the United States and 
the West; and, a profoundly shared sense of alienation from their host 
countries.
    At the start of the war on terrorism a dozen years ago the enemy 
was clear and plainly in sight. It was a large terrorist organization, 
situated mostly in one geographic location, and it was led by an 
identifiable leader. Today, when the borders between domestic and 
international terrorism have blurred, when our adversaries are not only 
identifiable organizations but enigmatic individuals, a complete re-
thinking of our counterterrorism policies and architecture is needed. 
We built an effective defense against the previous threat. Our 
challenge today is to develop new defenses against this new more 
amorphous, diffuse, and individualized threat while at the same time to 
continue to destroy and upend al-Qaeda, its affiliates and associates, 
and most especially the ideology that fuels and sustains it.

    Chairman McCaul. Thank you, Professor Hoffman.
    The Chairman now recognizes himself for 5 minutes for 
questions.
    Let me just state at the outset, it is the Constitutional 
responsibility of this committee to conduct oversight into 
these matters, to get to the truth, but also to find solutions. 
It is the intention of this Chair to issue a report of findings 
and recommendations to improve the system where there may be 
failures.
    Mayor, I would like to ask you a couple of questions. 
First, let me say I agree with you that our inability to define 
the threat because of political correctness, I think, poses a 
danger to the safety of Americans.
    With respect to Boston, you have worked extensively with 
JTTFs, you have a unique background to bring to the table here. 
You were high up in the Justice Department. Then you were U.S. 
attorney. Then as mayor of New York with the NYPD, you have 
seen all the Federal, State, and local assets that are at play 
here. After 9/11, the goal was to connect the dots, and the 
JTTFs have been the model of coordination and cooperation in 
terms of communication.
    For the most part, I think, Director Leiter, as you point 
out, they have been very successful.
    The ones I have worked with have been very successful. They 
are all in the same room. The walls have been taken down. They 
talk to each other. That is the way they are supposed to work.
    In the case of Boston, it raised some concerns to me, and I 
wanted to echo a few points that you made as well. We had 
police commissioner Ed Davis come testify before this 
committee. He is currently testifying before the Senate as I 
speak. But his testimony was interesting, because when I asked 
him, did you know about the Russian warning, his answer was no. 
I said, did you know that the FBI had opened up a criminal 
investigation into Tamerlan? His answer was no. Did you know 
that he traveled overseas to Dagestan, which in the context of 
the Russian letter, that was what they warned us about, that he 
was going to travel overseas to meet with extremists and come 
back? The answer was no, in spite of the fact he has four 
Boston Police officers on the JTTF.
    He didn't know about it and the Boston Police didn't know 
about it on the JTTF. To me, that is an issue. Then to make the 
bold assertion that even if they knew about his foreign travel 
to a Jihadist part of the world, Chechen rebels fight alongside 
al-Qaeda. But to make the assertion that that wouldn't have 
made any difference because the case was closed raises a whole 
other set of issues for me.
    When I talked to Ed Davis and we went up to Boston, Mr. 
Keating and I, he said the thing is, the hardest thing for me 
to say is I didn't know about it, I didn't know about it. He 
said, you know what, my guys know the streets. The FBI does 
their job and they do it well, but my guys know the streets. 
Mayor, as you pointed out, local law enforcement are the eyes 
and ears on the ground. You have 12,000 FBI agents as you 
pointed out, Nation-wide, and you have 800,000 police officers 
Nation-wide, 35,000 of those in New York, because New York has 
stood up.
    So it seems to me they are a great force multiplier because 
here we are, 12 years after 9/11, and we still are not seeing 
that kind of coordination and communication taking place. When 
the FBI says we don't have the resources, why don't you 
leverage State and locals? They want to help, the Boston Police 
wanted to be a part of this, they wanted to be at the table. 
They wanted to be at that interview, they wanted to know about 
the Russian warning. There weren't that many leads, and there 
certainly weren't that many foreign threats coming in to the 
Boston area. So as a general question, mayor, 12 years later, 
what has gone wrong here and what can we do to fix this?
    Mr. Giuliani. Mr. Chairman, I don't know if what went wrong 
is systemic or just a thing that happened within that 
organization. I don't know if the information was communicated 
within the JTTF, so that one of the four Boston Police knew 
about this, and they didn't communicate it to their chief 
commissioner. Whether it wasn't communicated to police 
officers, it is hard to say. I don't know if this is an 
individual thing that went wrong, or it is some systemic thing 
that is going wrong. What I do know is that if you ask me what 
does the new strategy have to be to deal with this new threat 
of isolated, individual, smaller groups, the emphasis on State 
and local law enforcement becomes critical here, because we are 
talking about a large international group like al-Qaeda, and 
then the CIA, the NSA, the FBI, they are going to be the main 
actors in being able to find them, because they are operating 
internationally. But if you are saying to me, as we all, I 
think, agree, that our threat now are two young men living in 
Boston, or somebody living in Philadelphia, or someone living 
in New York or someone living in Las Vegas, they are not going 
to find them, you are only going to find them with the local 
police.
    In my experience of, I don't know, 40 years of working with 
the FBI and local police and whatever. It seems to me the 
breakdown when it happens, and it happens less often now, the 
FBI shares a lot more than it ever did 20 years ago. The 
breakdown comes about if you really ask the FBI, they will say, 
we can't trust the local police. They might make a few 
exceptions, they might say we can trust New York, we can trust 
Boston, but can't trust the local police, they are going to 
leak the information, maybe inadvertently, because they are not 
as professional as we are.
    Here is the reality. What the FBI should do is honestly 
confront that with the police department. Go to that police 
department and say, we can share information like this with Ray 
Kelly, we can share information like this with this department, 
that department, some other department, but we have concerns 
about yours and we want to work with you to train them so that 
we are confident that we can share information with them. 
Listen, even the FBI has occasionally had leaks, nobody can be 
holier-than-thou about this.
    So there is an obligation here that if the FBI is 
uncomfortable sharing with local law enforcement, then the FBI 
has to take the initiative to confront local law enforcement 
and get local law enforcement in that particular area to 
straighten out whatever the inadequacy is, because we can no 
longer deal with this by not sharing information. We are going 
to miss other Bostons if the Federal Government doesn't engage 
local police department in a very, very big way. They are our 
only answer to finding these isolated, single individuals, 
small groups.
    So I would say in my--I don't know if this is the case in 
Boston, I really am giving you my experience more than what 
happened in Boston. But whenever I have confronted the 
situation of, even when I was the mayor and my JTTF didn't get 
information I thought it should get, very often I got the, we 
are not sure about the reliability of this particular police 
officer, this particular unit. Well, then you come to me in 
advance and tell me you are not and let's straighten it out 
because it is really important that we share this information, 
at least that would be my recommendation.
    Chairman McCaul. Thank you. Even at the Federal level, the 
Customs flag went up, we don't know if the FBI got the travel 
information on him, that is a whole another breakdown at the 
Federal level. But going back to the State and local, Director 
Leiter, you know, when he comes back, he has these radicalized 
YouTube websites, he has a mosque that he is radicalizing in, 
he is literally kicked out of a mosque. It seems to me, again, 
the Boston Police know the streets, they could have taken a 
second look at this individual. But that just didn't happen in 
this case. I understand hindsight is 20/20, but what are some 
of the prohibitions within the current JTTF structure that you 
would recommend improving? For instance, I know the four Boston 
Police officers can't even talk to their police chief.
    Mr. Leiter. Mr. Chairman, first of all, let's remember in 
this case, it would not actually have been the Boston Police 
Department, it probably would have been the Cambridge Police 
Department which matters because Cambridge is a much smaller 
department, who knows I am sure the JTTF. But you are not 
always going to have a situation where a local police 
department is even represented on that JTTF. In terms of tough 
fiscal times now, that is becoming more and more the case.
    To your question about what they can do, my understanding 
how the JTTF works, those Boston or Cambridge Police 
departments could have asked for permission to share that with 
their chief. I think--and that is so the JTTF knows where the 
information is going. I think that is probably a good protocol, 
my guess is all too often it means they don't ask at all, it 
doesn't get shared. I do think that on a more systemic basis as 
the mayor implied, we need to make sure that every JTTF, when 
an investigation is concluded, that that information is 
effectively shared back with the host department, so the 
department can decide whether using its own police powers, it 
really should be concluded or whether or not they can do more 
where the FBI can't.
    I have to add, you understand as an attorney, Mr. Chairman, 
that there are real civil liberties issues here and in this 
case with a bomber, and we say, well, they should have fed it 
to him, and we would have seen that he was being radicalized.
    In many other instances, sharing information about someone 
who the FBI has investigated, they say nothing's wrong, and now 
we are going to start sharing and letting the local police keep 
a quite surveillance on them. This has implications and I 
think----
    Chairman McCaul. I would agree to an extent, but this in 
case the Russian warning, the threat was fulfilled by the 
actions of the overseas travel, which I think takes it to whole 
other level, that it should have raised an additional level of 
scrutiny, so with that, I see my time is way over expired, Mr. 
Ranking Member. I will now recognize you for questions.
    Mr. Thompson. Well, Mr. Leiter, finish your statement.
    Mr. Leiter. Mr. Chairman, I don't disagree that the travel 
overseas is something that the FBI or anyone would want to know 
and would consider. It is my understanding they were notified, 
they didn't, for the agent, change his conclusion it should be 
closed, but my point is when we share this information, which I 
think needs to be done for all the reasons the mayor says, the 
FBI can't do this, local police have an understanding, this 
needs to be done in a systematic way so that the Boston Police, 
the Cambridge Police, the Massachusetts State Police can say 
these 100 cases the FBI is done with, do we care about them in 
some way and what should we do about them?
    Then they also have the make the decision, is this okay, is 
this permissible under our local police authority the FBI 
doesn't have. That requires real oversight in Massachusetts, in 
Washington, and the like to make sure that is not being done in 
an inappropriate manner.
    Mr. Thompson. Thank you. Mr. Chairman, this is an excellent 
panel. I think we picked up a lot of information. After we 
created DHS, after the unfortunate incident of 9/11, Congress 
also tried to legislate the culture of organizations by saying 
you must share information. We, told CIA you must start talking 
a little more to the FBI, and so we did it, but along the way, 
we ran up on something called ``need to know'' from an 
intelligence standpoint. Some of us say, well, what do you mean 
by ``need to know''? Well, we decide what we need to share with 
the next organization.
    Mayor, have you seen a lessening of that, or are we still 
kind of caught in that culture of telling people just what you 
want them to know rather than a full face sharing of 
intelligence in our--ask Mr. Leiter a similar kind of question.
    Mr. Giuliani. Mr. Thompson, this confuses me because this 
is a situation of just not ``need to know,'' it is ``need to 
get help.'' So it would seem to me that the FBI should have 
communicated with the local police, Boston, Cambridge, 
whatever, all of them to get help, not just to let them know. 
The FBI was presented with a significant fact, the Russians 
identified this man as a suspected terrorist, that could either 
be valid information, the FBI might have thought the Russia is 
misleading us, but you needed help. So where are you going to 
go to get information about this? Russia wouldn't give you any 
more, the man lived in Boston, the man lived in Boston for 
quite some time. As a matter of help, you would go to the 
Boston Police and say, what do you know about him? That part is 
the part I don't understand.
    The need to know part, I think that--I think due to the 
efforts of Congress, both Presidents, President Bush, President 
Obama, I think a lot has changed to the positive. That is why 
this is a more unusual circumstance. Twenty years ago this 
would have been the usual thing that happened, this is a more 
unusual circumstance now largely because the FBI is sharing 
much better now than it did before.
    So I don't have the answer to and I think that is what your 
inquiry is about--I don't know why they didn't go to the local 
police, not only to warn them, but to ask for their help in, 
after all, kind of solving this puzzle, was Tsarnaev a 
terrorist, or was the Russians either wrong or misleading us 
trying to get us involved in the whole Beslan-Chechnya problem.
    Mr. Leiter. Congressman Thompson, I think it is still 
problem, and at its nub, it is that people generally will share 
now, but they will generally share once they determine that 
something is relevant to a terrorism investigation that someone 
else might be able to help them on, and that is too late. The 
fact is you have to share volumes of information across the 
U.S. Government, for example, travel information from DHS needs 
to go to FBI and NCTC. It generally does, but there are often 
disputes about that because they say, well, it is just travel 
information, it is not counterterrorism information. The answer 
is you don't know if it was counterterrorism information until 
you have it, until you can compare it to other information and 
find connections between those dots.
    So I think the committee's pressure needs to be on ensuring 
that people are sharing core information that they collect from 
the very start, even if there is no indication yet that it is 
relevant to an individual investigation.
    Mr. Thompson. Dr. Hoffman, do you have some comments on 
that?
    Mr. Hoffman. Well, certainly the fellow witnesses know far 
more about this than I do, but it seems that two things--one is 
that the main challenge is how we interject the radicalization 
process, and how you intervene before a crime is committed, and 
how do you identify this process of people embracing violence? 
I think the important point is that we shouldn't look at the 
Boston Marathon attacks as an aberration. I think this is 
probably going to be as the terrorist threat evolves, the next 
generation threat, and getting it right, I think, is going to 
be enormously important.
    Mr. Thompson. Thank you. I yield back, Mr. Chairman.
    Chairman McCaul. I thank the Ranking Member. The Chairman 
now recognizes the gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Let me thank you, 
commend you for holding this hearing, and a series of hearings 
on the Boston bombing, which I agree with Dr. Hoffman, this 
will be the rule rather than exception as we go forward. Let me 
also, just for the record, state that as far as lone wolves 
that Abdulmutallab, the Christmas day bomber in 2009, was not a 
lone wolf, he was trained by AQAP, and sent out on a mission; 
and also Shahzad, the Times Square bomber, was trained by the 
TTP in Pakistan. So there was the incident of international 
nexus here with terrorism.
    Let me thank all the witnesses for their testimony. Let me 
just say with Mayor Giuliani, Rudy, when I was listening to the 
introduction that the Chairman gave you and he mentioned you 
being elevated to knighthood by Queen Elizabeth, those days 
when we were taking the subways in Brooklyn and Manhattan, I 
never--of all the things you were going to be it was never a 
Knight of the British Empire, but congratulations.
    Mr. Giuliani. I haven't told anyone in Brooklyn that--I try 
to keep it a secret, and the Chairman outed me.
    Mr. King. Yeah, there you go. Thank you, Mike, for bringing 
that up.
    If we could focus on what happened here in Boston, 
actually, there are more facts Mr. Chairman has gotten into, 
and I would like to get into also. The fact is the Boston 
Police they have four detectives with Top Secret clearance on 
the JTTF, they were never--even the four JTTF people with Top 
Secret clearance were never told about the letter from Russia, 
they knew nothing about it. The commissioner knew nothing about 
it.
    The commissioner then went back and from the 7 years he was 
commissioner, went back and found out that during those 7 years 
his police officers, his detectives had never been given any 
Top Secret information by the FBI, this was kept from them. Now 
I know it is different in New York, it is different in Nassau 
County and Suffolk County, but I was struck by this.
    Also, you add to that that when the younger brother was in 
the hospital being interrogated, he said that they had been on 
their way to Times Square to carry out a bombing in Times 
Square, and the FBI never told the NYPD about that. It was 4 
days later when Commissioner Kelly found out about this from 
somebody else that this threat had been made against New York. 
The FBI's excuse was, well, he was in the hospital, he could 
couldn't have carried out the bombing.
    At that stage no one knew who else was involved in this 
plot. At the very least, the FBI should have done is contacted 
the NYPD and said they have been on their way to carry out an 
attack in Times Square.
    So I think the FBI has a lot to explain for here and I am 
not trying to be a Monday morning quarterback, but the fact 
that they are not here, Mr. Chairman, they have stonewalled us 
completely since the Boston bombing, I think it is 
unacceptable. We talked about information sharing, we were 
insisting on information sharing among all levels of government 
and with different agencies. The fact that the FBI is not 
sharing information with this committee which has jurisdiction 
over Homeland Security, I think is just totally unacceptable. I 
think we should stand together really on both sides of the 
aisle and really insist that the FBI be much more accountable 
to us. But I think this is a leading question, but specifically 
to Director Leiter and Mayor Giuliani, do you think JTTFs can 
function effectively if Top Secret information is not 
transmitted to them by the FBI?
    For instance, with the older brother, when the FBI was 
notified by the Russians apparently under Attorney General 
guidelines, they were not allowed to go to the mosque to see if 
he had been radicalized, they were not allowed to talk to his 
Imam to see if he had been radicalized. Well, the fact is if 
they had gone to the Boston Police, as I am sure all of you 
know, the police have so many informants on the streets, they 
have so many people on the streets who knows things, if they 
could have just gone to them and said do you know anything 
about him?
    Also that would have been out there so that when he was 
thrown out of the mosque a year later, in January 2012 he was 
put out of the mosque, 2013, 2012, he was actually ejected from 
the mosque for radical behavior, that would have been known. 
The police could have brought that to the FBI's attention. The 
FBI doesn't have street informants, they don't have people 
working on the streets like this.
    So again, I don't mean it as a leading question but without 
that sharing of information such vital issue as this between 
the FBI and the police can the JTTF work effectively?
    Mr. Giuliani. The whole purpose of the JTTF is so that you 
can share information. So any police officer on the JTTF should 
be cleared for getting classified information, it is a perfect 
opportunity to do that, it is a perfect opportunity to clean up 
the problem that I mentioned earlier where the FBI--if you go 
back to the earlier era of law enforcement, the FBI was 
probably correct in many cases, but you couldn't share 
information with some local police department because they were 
unprofessional, they were corrupt, they weren't going to handle 
the information correctly.
    That is largely not true today, I mean, there are probably 
some exceptions to that. But what the FBI should do is make 
certain that it has the ability to communicate with the local 
police. If that means going to the local police commissioner 
and saying, you know, you have got to tighten up your 
department, you have got to solve these problems so we can 
share with you, then I think the FBI should do that. 
Particularly since the new threat that we are facing is a 
threat where we are going to be looking for people in America's 
communities and America's neighborhoods, in America's homes, 
the FBI can't possibly do that.
    The thing that confounds me about this, which is, as I said 
before, it is not so much their failure to warn, but their 
failure to ask for help, which in this case they needed.
    Mr. Leiter. Congressman, I think the mayor is exactly 
right, if you are on the Joint Terrorism Task Force, you have a 
clearance and should have access to this information. Now in 
this case, the question would still be what do those police 
officers do in working with their home departments after the 
FBI goes out and interviews Tsarnaev and says, he is not a 
threat? Let's just assume that that is a reasonable conclusion 
of time, how can Boston Police, how can Massachusetts State 
Police, how can Cambridge Police pick up what the FBI no longer 
can cover?
    Now I will say, I don't mean to be an FBI apologist here, 
my understanding is the FBI, not in its law enforcement role, 
but actually had visited that mosque and had engaged with that 
mosque in the past on a community engagement front, which I 
think is a very important role for FBI but others as well, to 
hopefully get reports about people like Tsarnaev. Now that 
didn't happen here, but we have to continue to encourage the 
FBI, DHS, and State and local authorities to engage with 
mosques in the same way that they engage with all community 
organizations.
    Mr. King. I will just state, that the FBI never told anyone 
on the JTTF, any police officers on the JTTF about the Russian 
inquiry. Also they did not question anyone in the mosque about 
the older brother. Also afterwards, even when the brothers' 
pictures were on television all over the world, nobody from the 
mosque came forward to identify them.
    I know, just one 10-second remark, I fully agreed with what 
the Chairman said and Mayor Giuliani said about the Fort Hood 
massacre, it was ridiculous to call that workplace violence. 
The Chairman and I worked to get Purple Hearts for those killed 
at Fort Hood, because I think they are casualties and 
definitely casualties in an international war. I yield back.
    Chairman McCaul. I thank the gentleman for his questioning. 
The Chairman now recognizes the gentlelady from the great State 
of Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Chairman, thank you very much. I want to 
thank you and the Ranking Member for your cooperation and 
commitment to the security of this Nation. I am reminded of my 
premise for serving on this committee, Mayor, since the heinous 
tragedy of 9/11. Those of us who were in the United States 
Congress had the humble but awesome challenge of coming to view 
the aftermath. As you well know, many Members of Congress came 
to Ground Zero sobering, emotional experience, many of us early 
enough to see the remnants of recovery. It is a scene that will 
never be forgotten by those of us who serve, but more 
importantly, the American people.
    My inquiry of the Chairman on the issue of security to the 
witnesses and recognition of civil liberties is that I am 
always reminded of those words that were said in the aftermath 
that we would not allow ourselves to be terrorized, and we 
would not allow ourselves to deny our citizens their civil 
liberties and civil rights. I maintain that as a dual 
responsibility of this committee, and I am glad to see 
witnesses acknowledge the importance of that.
    Let me, as I thank the mayor and all the witnesses for 
their service, just make an inquiry of a line of questioning 
that I am glad--the mayor indicated that both President Obama 
and President Bush both said that our challenge is to be 
successful 100 percent of the time, for if that is not the 
case, we are obviously vulnerable. I am curious and interested 
in your of line of reasoning about leadership from the top. 
Certainly, we know, among other things, our Presidents speak 
around the world, they interface with Mideast leaders; 
President Obama, of course, spoke in Cairo and it all was under 
the premise of making the Nation more secure.
    I hope, Mayor Giuliani, you are not suggesting that those 
kinds of outreach would intimidate our law enforcement officers 
because I want to do everything I can to let them know as a 
Member of Congress that believes in engagement, I am, however, 
not suggesting that my behavior of engagement is to instruct 
them not to do as you have just laid out for us, I am just 
trying to clarify the record.
    Mr. Giuliani. What I was saying is it does not relate to 
the statements that the President makes internationally or his 
engagement against terrorism or his desire to try to work 
things out with some of these countries. I was really being 
more specific about Major Hasan, because I think it is 
exceedingly damaging to engage in this fiction that the attack 
at Fort Hood was workplace violence. I think--I know many, many 
law enforcement officers, New York City police officers, FBI 
agents, other agencies, and there is a certain reluctance to 
describe someone as a Islamic extremist terrorist, for fear 
that you are going to make a mistake. If you make a mistake, 
the consequences are going to be very, very heavy. I don't know 
that that played a role in Boston, I am not sure of that. I am 
not sure we will ever know that. But it certainly played a role 
in the case of Major Hasan, it was so obvious that this man was 
a possible terrorist.
    Now some of this goes back, to be fair, to before President 
Obama. Hasan was being evaluated in the military, also during 
the Bush administration, where there was a similar kind of 
reluctance. I think it would be very--I think it would be very 
helpful and very healthy if the Hasan situation were described 
correctly. I think it would leave us with law enforcement 
officers and intelligence agents having a correct sense of that 
because it is very, very difficult, but we want them to err on 
the side of protecting us from bombings, not protecting us from 
possibly making a few mistakes about how you classify people.
    Ms. Jackson Lee. Thank you very, very much. I ask the 
Chairman's indulgence, I want to raise two questions and I see 
my clock is ticking, but I think that was an important 
clarification. I would indicate to you, Mayor, that many 
civilians were impacted at Fort Hood, and I champion the cause 
that it was in no way workplace violence, it was after the fact 
noted, and those officers who were the supervisors of Major 
Hasan should have detected the erratic behavior. I call that 
connecting the dots and I argue vigorously that we have to 
improve our connecting the dots. If we have an aftermath of 
assessing what happened with that major, then we need to 
indicate that that the dots were not connected. There were so 
many lives still impacted at Fort Hood.
    Let me go to the other two witnesses. I want you to expand 
on one as the mayor has indicated, what we can do to law 
enforcement to let them know that connecting the dots is not 
going to drive an attack on their determination if they fairly 
connect the dots on individuals who have erratic behavior that 
suggests that they are self-radicalized or that they are 
terrorists. If you could talk about that in terms of the fusion 
center and how we spent our money.
    If I could get a question into Mr. Hoffman just to indicate 
what are we doing right or wrong with a review of our own self-
appointed, anointed terrorist in the United States? Where are 
we missing the boat on that?
    Mr. Leiter. Congresswoman, I do want to make one note which 
is the day after the Foot Hood attack, the National Counter 
Terrorism Center entered the attack at Fort Hood in the 
worldwide incident terrorist database.
    Ms. Jackson Lee. That was----
    Mr. Leiter. The day after. I am not disagreeing. I think 
certainly some of the Army reviews were driven by political 
correctness or failure to report back. But the NCTC called it 
terrorism the day after the attack.
    To your question of how we are spending our money and 
improve the ability to detect this. We have spent a lot of 
money on State and local fusion centers. In my view, we have 
not always done it smartly. We have to make sure the State and 
local fusion centers are: (A) Trained. We don't have people who 
actually recognize radicalization. We saw that in Fort Hood. We 
had agents and task force officers who were looking at the 
behavior and didn't recognize radicalization in the same way 
that honestly people who studied radicalization would at a 
place like NCTC or FBI headquarters.
    So we have got to improve that training. That applies not 
just to State and local fusion centers, but to FBI officers 
themselves, and we have to give them good training so they are 
not afraid of being political or forced to be politically 
correct.
    Second, we have to tie the fusion centers and the JTTF 
closer together. We have largely created them as independent 
enemies, the best place is they are collocated and they talk to 
each other. But to me, the State and local fusion centers play 
two roles: First, they take the pieces that the FBI 
investigators need help on and they help parse that out to the 
State and local communities for follow-up investigation.
    Second, they take those pieces that are coming up from the 
State and local officials when they see things and say that is 
a little funny, and then they coordinate with the JTTF to 
figure out who will investigate that information that is 
bubbling up.
    Honestly in my experience, State and local fusion centers 
are not doing enough of that. They are looking at screens and 
they are waiting for a big event, they have to be more involved 
in the investigative work up front to allocate scarce 
resources.
    Ms. Jackson Lee. Mr. Hoffman.
    Mr. Hoffman. Well, I think Mr. Leiter was quite correct 
when he began his testimony to point out the series of 
successes, and certainly our counterterrorism capabilities have 
evolved in recent years. What I see is this constant problem 
and what slips through the net is the counter radicalization 
process, or interdicting radicalization, and this goes back to 
the Somali Americans in Minnesota in 2008, 2009, where actually 
30 of them were actually radicalized and recruited and sent to 
Somalia, and see occurring again with the Tsarnaevs.
    I think two dimensions is the problem: One is as the two 
distinguished witnesses have said, tightening up the Federal, 
State, and local law enforcement nexus. I think this is 
critical, because in almost all these cases, what you find is 
these individuals navigating between jurisdictions. The case of 
Najibullah Zazi, for example, he relocated from New York City 
to Aurora, Colorado, then drove cross-country back to New York. 
In the case of Faisel Shahzad, of course, he lived in suburban 
Connecticut and then crossed into New York.
    The Tsarnaevs, as Mayor Giuliani says, were actually based 
on suburbs and came to Cambridge. So that is one dimension is 
tightening that up. I think the other one, and perhaps my 
colleagues can comment on it. They certainly probably know more 
than I do. But what has always eluded me is who is responsible 
for counter radicalization in the United States today? I mean, 
we are talking about the phenomena where a crime hasn't yet 
been committed. Now certainly it receives high-level direction 
from the White House and from the National Security Council, of 
that there is no doubt. Certainly it was a priority, especially 
under Mr. Leiter's tenure at the NCTC. But then beyond those 
two more coordinating functions and policy functions, who in 
the Federal Government is responsible for it? Is it the 
Department of Homeland Security? Is it the FBI? Well, a crime 
really hasn't been committed.
    This is why I think it is so important to enlist local 
police forces as we have heard because at least they have the 
access and the knowledge of the street that can at least 
facilitate the identification of the radicalization process, 
but there has to be, I think, some direction or some Federal 
agency that actually takes ownership of this.
    Mr. King [presiding]. The time of the gentlelady has 
expired. Chairman McCaul has had to leave temporarily to go to 
a Science and Technology Committee markup; he will be back 
shortly.
    Ms. Jackson Lee. Let me thank you, Mr. Chairman, for the 
time, I thank you, I yield back.
    Mr. King. I thank the gentlelady. It brings back memories 
of when I was Chairman and the gentlelady was always extremely 
eloquent, sometimes overly eloquent. In any event, with that, I 
recognize the subcommittee's Chairwoman, Mrs. Miller.
    Ms. Jackson Lee. It is good to be back.
    Mrs. Miller. Thank you, Mr. Chairman, and I want to thank 
all the witness for being here. I appreciate your services very 
much. All of us do to the country and what you have done. 
Specially to the mayor, I would like--I didn't know you at 9/
11, I was still at Michigan Secretary of State that day, had an 
election in Detroit as you were in New York, but I remember, as 
we all do, where we were that day, what happened that day, what 
happened afterwards, and I think that is where you picked up 
what I think is the greatest title, and that is America's 
mayor, because you were----
    Mr. Giuliani. Thank you.
    Mrs. Miller. You were more than the President, more than 
the Governor, more than the FBI Director, more than the CIA, 
more than the Department of Defense. Everyone seemed to look to 
you for what had happened, why it had happened. What was the 
path forward? What would America think about from that day 
forward? I guess my question, Mr. Mayor, wants to go a bit, how 
do the American people perceive this war on terror? How do we 
actually prosecute these enemy combatants, these terrorists? 
Because obviously, we do face a new type of enemy. It is not 
like the battlefields that are clearly drawn, everyone has--
each side has their colored uniforms on and you are able to 
very quickly identify who the enemy is. You spoke about 
identifying the enemy and how important that is for us. But now 
you have got a new type of enemy that sees the battlefield 
asymmetrically really, whether it was the finish line at the 
Boston Marathon, they saw that as the battlefield.
    I want to, I guess, talk about one that is very personal 
obviously the Christmas day bomber in 2009 over the skies of 
Detroit. That terrorist, enemy combatant, in my mind, saw the 
battlefield that particular day as seat 19A and at that time, 
that Northwest flight. You know, what happened then, and we 
learned some lessons from that as we always do. I mean, the 
plane actually taxied up to the gateway rather than it should 
have been held out on the tarmac really. But we learned from 
that.
    Then they arrest him, take him off to the University of 
Michigan Burn Center where he received the very best treatment 
known to mankind, immediately lawyered up, very quickly 
lawyered up, Mirandized, lawyered up. So I am certain we lost 
kinds of valuable information at that time with that particular 
terrorist. Then he was, of course, tried in Detroit at huge 
expense to the taxpayers, an enormous amount of security that 
was necessary there, et cetera.
    I guess my question is, and I said actually that day, this 
guy is an enemy combatant, should not be Mirandized, should not 
be treated; this is not a law enforcement situation going on. I 
guess my question really is: How do you think we should be 
treating these individuals? Now he is serving a life term, that 
is fine, but what about all the information we lost by not 
turning him over to a military tribunal or what have you? I am 
just questioning as we look at these individuals and how this 
administration, the Department of Justice is proceeding, 
whether that is the right path forward in an effort to really 
put into the American psyche, we are in a war with these 
individuals, it is not just some law enforcement thing.
    Mr. Giuliani. I think it is a very, very good point that 
the reality is that we keep referring to these individuals as 
isolated acts, single individuals, that is true, they are 
isolated, single individuals, but they are also connected, it 
is not as if these are completely independent of each other, 
they are connected by exactly the same motivation, exactly the 
same causative factors, they are driven by the same ideology. 
If you recognize that, it makes it easier to catch them, it 
makes it easier to find the clues and the things that would 
lead to who they are and why they are doing what they are 
doing.
    I also--I certainly in both cases, the Detroit case and the 
Boston case, if it were my decision, I would have treated them 
both as enemy combatants for the purpose question of 
questioning endlessly. The fact is particularly with Boston, 
you had more than enough evidence to convict the younger 
Tsarnaev brother. If you needed more evidence than that, I 
never would have hired you as an assistant U.S. attorney. If 
you needed more evidence than they already had by the time they 
caught them, well then, you shouldn't prosecute a case.
    There was no reason, we didn't need his statement as a 
properly admitted confession or admission. What we needed was 
an endless amount of information from him. So it would have 
been, I think, a much wiser thing to declare him a enemy 
combatant at least for 3 or 4 or 5 weeks and question him when 
he got better, question him for as long as you have to question 
him to get every bit of information out of him. Same thing is 
true in Detroit. We also should recognize about the Detroit 
situation, that seems to me we only prevented that by a luck, 
nobody should be taking credit for ``gee, what a great job we 
did in preventing that bombing''; he just was incompetent and 
we can't count on that.
    I always have found in my life that I learn a lot more from 
when I lose and fail than when I succeed. Therefore I think you 
shouldn't feel any kind of guilt about going back and examining 
these situations where we fail with excruciating analysis, 
because that is the only way we will prevent these things in 
the future. Our goal, our goal is a very difficult one here, to 
protect lives, we have to be right 100 percent of the time. So 
maybe we can't reach that standard, but the more analysis we do 
of these incidents after they happen, the more we are going to 
learn so that we fix it in the future. Why we would ever want 
to deprive ourselves of information I can't figure out. I mean, 
there was no tactical reason to give either one of these people 
Miranda warnings. In either case you would be able to prosecute 
and convict because you had enough evidence to do it. You 
certainly have more than enough basis to describe them as part 
of an international conspiracy against us. One they voluntarily 
joined, one they voluntarily joined on their own when they 
decided to undertake these acts.
    Many of them announced to us their motivation when they 
commit crimes like Major Hasan did, we are not talking about 
the bombing in London that took place just a short time after 
Boston, that bomber went on television to tell us in case we 
didn't get it right, that he was doing this in the name of 
Allah.
    So we get an idea that he joined the same conspiracy. So 
you certainly have enough basis to describe them as enemy 
combatants. When you have enough evidence to convict, it seems 
to me you should subject them to long periods of questioning so 
you can be sure that you get everything out of them that is 
useful to us in the future. Then you can move on and prosecute 
them in a military court or you can send them back to a 
civilian court and prosecute them there after you have gotten 
out of them everything you can get out of them.
    Mrs. Miller. Thank you very much; my time has expired. 
Thank you, Mr. Chairman.
    Mr. King. The gentlelady yields back. The gentleman from 
Massachusetts who has a great personal involvement in this 
matter, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. Mr. Chairman, it was 
mentioned by the Chairman that there is a judicial proceeding 
in Massachusetts going on today with Dzhokhar Tsarnaev, but 
there is another proceeding going on with the trial of another 
proceeding trial of James Whitey Bulger, and both of those 
trials have a common thread of what happens when information is 
not shared among law enforcement officers and how they can butt 
heads and actually hurt the effort. That is what this 
committee's responsibility is, that is what my responsibility 
is as Congressman is to do an oversight function, not a blame 
function. Find out what went wrong so that we can save future 
lives, and I think we can.
    Now my involvement in this took me to Russia. First I sent 
a staff person to Russia, and then followed up personally where 
I met with the deputy director of the FSB, and I met with the 
director of counterterrorism. While I was in Russia upon my 
questioning, first questioning why they didn't respond to the 
FBI's three requests for extra information and having those top 
officials say they didn't know anything about the request, 
never heard about it. They said to me, get me the names of the 
people that the request was made to under them and get me the 
date of when that was sent. So there is a gap even there, they 
wanted to get an answer to that.
    Now in my questioning them, they began to refer to a piece 
of paper, and finally I asked for the piece of paper. They said 
it was a March 4, 2011 correspondence they sent to the FBI and 
the CIA, and I asked them for a copy, and they said: Well, 
can't you get one from your own people? I asked them for 
theirs, I kept prodding because I wasn't sure, frankly, if I 
can get one, I still don't. This committee has requested that 
and still doesn't have a copy of that, as a matter of fact. But 
they read to me that document of March 4, 2011, and it was 
amazing in its detail, dealing with Tamerlan Tsarnaev, and that 
is what prompted the interview by the FBI, Joint Terrorism Task 
Force shortly thereafter.
    Now Tamerlan Tsarnaev, was put into the TIDE and TECS 
database shortly thereafter, I think about a 3-month period, 
from what I could gather, that file was closed, case closed. 
Now 9 months later after that date of that letter, Tamerlan 
Tsarnaev is in Russia. We had reports that our office was able 
to get that he was meeting with a known terrorist insurgent 
Mahmud Nidal, someone already on their radar screen in Russia, 
had they known this. Yet there was another gap where that could 
have been closed.
    Now he came back to the United States, after the person he 
met with reportedly was killed and the other person was known 
to him was killed, so he sort of went home I think. So when he 
came home he applied for citizenship and his FBI background 
check that went into that is my understanding.
    Now he is already on those databases. In the course of 
doing that, they proved it was background check to go ahead and 
pursue legal citizenship, and it wasn't picked up then. Why if 
they are on the database and you are going through that, why 
wasn't that picked up as well? Department of Homeland Security, 
we asked them, we said despite being on those databases, why 
was he able to pass the FBI background check at least receive 
the citizenship interview. DHS, Department of Health and Human 
Services says, yes, they communicated that to the FBI, but the 
case was closed.
    Part of our oversight has to deal with case closed process, 
because something is wrong. The answer that we keep getting 
back is well, it wouldn't have mattered anyway because the case 
was closed. His activities didn't stop. We have to find a way, 
I am suggesting this as a question to anyone. We have to find a 
way to get through this bureaucracy where case closed stopped 
everything, and in fact, became an excuse for why other things 
weren't done with different agencies in the U.S. Government, 
what can we do about this? We have to--our obligation is 
oversight, our obligation is the to look at the process, and 
there are obviously things that were wrong. Help us, if you 
could, with your expertise, how can we crack through some of 
these things so we don't have a future case closed roadblock? 
It just stops everything from happening.
    Mr. Leiter. Congressman, I think your basic observation is 
exactly right. Let's assume, again, that the FBI did everything 
right up to the moment of closing the case, that there was 
nothing sufficiently suspicious, they interviewed him, case 
closed. His life still goes on, he continues to evolve. So we 
have got to have a system for both the State and local and for 
the FBI and for Homeland Security, that that information is 
getting added back into that closed case so people go back and 
say, should it still be closed or should we reopen it? If that 
is not happening, and in some cases not, that is bad. But I am 
going to turn it around a little bit which is, you then also 
have to tell the FBI and State and locals, how long should they 
keep going back and looking at these people?
    Now let's take it out of the violent Islamic extremist 
terrorists, and let's put it in the domestic terrorism case, 
somebody gets a tip that their neighbor in Texas is stockpiling 
guns, and the FBI goes and interviews them and says, ``Are you 
kidding me, I am not violent, I just like shooting guns,'' and 
they close the case. How long should the FBI go back and look 
at that case? How long should the State and locals look at that 
case wondering about that person and still in some way or 
another, keep them under suspicion?
    Mr. Keating. Let me ask you one question, how common is it 
in a country like Russia would get that specific, I know you 
never read it, we haven't read it, that specific kind of 
information to a country? If that is the case, wouldn't you go 
back to that country? Part of that, by the way, as I recall was 
a reference to the fact he might change his name slightly in 
trying to come back, which, in fact, either was a scrivener's 
error or something happened and has been reported, not personal 
information, that his name was slightly altered too.
    Mr. Leiter. It is not common but I have great sympathy for 
an organization when they go back to an intelligence agency and 
get stiff-armed three times in a row.
    Mr. Keating. I don't know if that is the case, that is my 
point.
    Mr. Leiter. I think it is relatively common, but again, 
whether it is this case or another case, there will be cases 
that the FBI closes. How do we spread that responsibility, 
share that with the State and locals so other resources can 
keep an eye on it and how long? Right now, the fusion centers 
frankly aren't doing a great job of picking that up because we 
haven't driven them to do that. The JTTF rules make it 
difficult, not impossible, but difficult for that information 
to be shared so the Mayor of New York, or Ray Kelly or Ed Davis 
or the Cambridge police chief can decide, you know what, this 
is worth my time and energy even if it is not worth the FBI. We 
don't want the FBI making that decision, we want the State and 
local authorities making that decision because they know if 
they want to guard against that or robberies or anything else.
    So you have got to make sure that information is shared 
systemically with oversight, and then put that burden on the 
State and locals in the fusion center and to do with it what 
they want and make sure that that information is being 
refreshed.
    Mr. Keating. This clearly should have come up even with 
trying to get the citizenship again. That was after he returned 
from Dagestan, so something should have still been in the 
system internally. We are not talking about someone's civil 
rights, we are talking about something internally in the system 
that would have red flagged that.
    Again, I don't think there were any clear answers. That 
will be our job here to do these things. When we talk about 
information sharing, I just want to give this one comment: Part 
of the information sharing better be with the Member of 
Congress as well. We are not getting that information to 
conduct our proper oversight, and I am glad to hear the 
Chairman say we are not going to stop until we get it. I yield 
back.
    Chairman McCaul [presiding]. I thank the gentleman and 
really apologize to the witnesses. I got called for a vote for 
NASA reauthorization, I had to go over there.
    Director Leiter, it would be interesting for you to give 
recommendations on the fusion centers, as you mentioned, I 
think they have on a role here. I don't think they are doing 
in--in Texas, the fusion center works really well, but not 
other places in the country and that would be helpful.
    Mr. Leiter. Mr. Chairman.
    Chairman McCaul. Yes.
    Mr. Leiter. I don't mean to put all the blame on the fusion 
centers either. This has to be a relationship between the FBI 
and the fusion center. The FBI has to provide the information 
to the fusion center so they can do this and then support the 
State and local authorities in that follow-on operation or 
mission.
    Chairman McCaul. Thank you. So, Mr. Keating, I think we 
heard repeatedly in Boston ``case closed''. With that, I 
recognize Mr. Meehan from Pennsylvania.
    Mr. Meehan. Thank you, Mr. Chairman and thanks again to 
this very, very distinguished panel. I want to follow up a 
little bit on my good friend, Mr. Keating's inquiries, and it 
goes to the degree to which there is an ability to pursue 
investigations, at what point in time do you discontinue an 
investigation? Mayor, it has been a while since I guess you 
have blown off your old U.S. attorneys' manual.
    Mr. Giuliani. I don't know if they had manuals in my day.
    Mr. Meehan. You might have been freer to act and that is 
part of the issue. Mr. Leiter, as a former prosecutor, and I 
know you work very, very closely in your prior capacity with 
the rules, and to some extent, the constraints. We have Senator 
Lieberman before us who spent a great deal of time looking at 
these issues as well. In the aftermath of Boston, one of things 
he was concerned about were Attorneys General's guidelines 
which may, in and of themselves, allow even the agents 
themselves to ask questions to a certain point and then, you 
know, political correctness, you only ask so long which would 
never happen in a murder investigation.
    Those were the days when we used to look traditionally at 
crimes that were committed and we ask questions until we have a 
resolution. Now the dynamic has changed, we are being asked to 
investigate matters before a crime commits. So there is some 
tension about how deeply you go. Do we need to revisit 
guidelines? Do we need to be more aggressive at pursuing these 
and where is the right place for us to keep cases in some kind 
of status in which new information, particularly you have 
touched on it, the issue of information that comes over the 
internet becomes the kind of a thing that allows to us reopen 
the inquiry?
    Mr. Leiter. Congressman, I think you absolutely nailed it. 
I do think this is exactly where the mayor is right, that 
political correctness comes in to being, becomes an issue. You 
have one overarching issue, Congress passes a law, maybe it is 
the Privacy Act, maybe it is the FISA Act or whatever it may 
be, and the Attorney General has got guidelines. Usually they 
push the bar down a little farther. Then you have the FBI 
create their domestic intelligence operations guidelines, and 
they make everybody a bit more nervous. You wanted to let them 
to do this and suddenly they are doing a lot less internally.
    So what I think the role Congress has to play is make sure 
the Attorney General guidelines and the FBI internal 
regulations about what they can do are really consistent and 
aren't being risk-averse in asking those questions.
    Now as you yourself noted, these sorts of investigations 
are different for a bank robber, they are different because 
there hasn't been a crime yet, and they are also different 
because they implicate the First Amendment. The free expression 
of religion in some cases in a way that the normal bank robbery 
doesn't, so it is a riskier area. But you have to make sure you 
have got good alignment between how people are operating in the 
Federal Government in the fusion centers and the JTTFs, so it 
is consistent with the maximum authority you have given them 
under the law.
    There is a last piece here, Congressman, which is after 
they do that, that you need to give them top cover, because I 
have sat in this chair when I was an official in the U.S. 
Government, and I was getting yelled at by people in your seats 
about ``how dare you watchlist my constituents, my constituent 
never did anything,'' and every time TSA stops them at the 
airport. Three months later after the Christmas day bombing the 
very same people, not suggesting Members of this committee, 
were saying ``how dare you, Mr. Leiter, why aren't there more 
people on the no-fly list, everyone should be on the no-fly 
list.''
    So you have set that bar, make sure the Executive branch is 
honoring that bar to its fullest and be honest after the fact 
that people in the Executive branch are doing really hard jobs, 
did it with your blessing as long as they are doing what you're 
explicit about allowing them to do.
    Mr. Meehan. I think you are right, and obviously those were 
Members of a prior Congress that you are talking about. But the 
NSA issue is a perfect example of how it has had a tremendously 
chilling effect on the ability of us to pursue where we need to 
go as a Nation in terms of protecting the homeland, but maybe 
it is an appropriate time to be asking those questions as well 
as for another forum. But Mr. Mayor, do you have any thoughts 
on the comments that Mr. Leiter made?
    Mr. Giuliani. I think Mr. Leiter is absolutely right. I 
think that the reality is that these are just natural concerns 
that people who are doing high-risk investigations have. The 
atmosphere you create for them, means they are going to go 
further or they are going to back off. If they think they will 
be criticized if they make a mistake, unduly criticized, they 
are going to back off quickly. If they think they are going to 
be supported if they make a mistake, then they are going to go 
further.
    There is a second issue that I think, when I was listening 
to Mr. Keating's question also comes up, I don't know that this 
is just a matter of political correctness or a fear, I also 
think it is a matter of resources. The FBI, as I pointed out 
earlier, is only 12-, 13,000 agents. That is a very small law 
enforcement agency. New York City Police Department, 35,000 
police officers. When I was the mayor, it was 41,000 police 
officers. Eight hundred thousand police officers Nation-wide. 
In a 12,000-person organization, you have to have some degree 
of discipline and an economy about what you can investigate. 
You can't investigate everything. Even things that should be 
investigated, you can't investigate, you don't have the 
resources to do it.
    So I think the suggestion which either came from Mr. 
Keating or Mr. Leiter or both, that one of your recommendations 
should be that if the FBI doesn't want to pursue it, and if 
they can be honest about it because they just don't have the 
resources to do it, which they don't, then they should turn it 
over to Philadelphia Police, or Boston Police, or the New York 
Police, or the Chicago Police, to further investigate. Then 
they can make the decision with a larger resource pool 
available. Is this something worth pursuing or isn't it?
    I would think in this situation, at least we know enough 
about it that this would have been something that if you had 
more resources, this is something you would have kept after, 
particularly, I find his going back to Russia, a startling 
event, particularly since he sought asylum in the United 
States. I dealt with thousands of asylum cases when I was 
associate Attorney General because it was during the Mariel 
Boatlift and Haitian migration.
    You get asylum in the United States if you prove that there 
is a valid fear of persecution if you go back to your homeland. 
So he proved to our satisfaction, his family did, that he would 
be persecuted if he went back to Russia. All of a sudden he 
gets up and he goes back to Russia after the Russians told us 
he was a suspected terrorist. My goodness. I mean, alarm bells 
should have gone off when that happened, something strange is 
going on here that this guy is going back to the country from 
which he was persecuted, would seem to me you would put him 
back on the list and you would watch him more carefully. So 
there was plenty here.
    If the FBI had come to the conclusion, we have done the 
best we can, we don't have the resources to go any further, 
then you have got this very large local law enforcement agency, 
give them the chance at least to go forward. Something should 
be built in, whatever protocols exist, so that the FBI is 
encouraged to do that. If they have to straighten out a local 
law enforcement agency and get the local law enforcement agency 
to make itself more responsible, less likely to leak, then 
raise that issue and get that straightened out in advance.
    Mr. Meehan. Well, I know, Mr. Chairman, as I yield back, 
that one of the--that is one of the concepts that was behind 
the creation of the fusion centers, was just that principle, 
that they would be the follow-up force to pursue that which 
could not be done. The fact that it isn't happening 
appropriately is, I think, another weakness that we ought to be 
observing and putting in as part of the analysis that is 
included in your report.
    Thank you, Mr. Chairman.
    I yield back
    Chairman McCaul. We certainly will.
    The Chairman now recognizes Mr. Vela from Texas.
    Mr. Vela. Thank you, Mr. Chairman.
    Mr. Leiter, yesterday, a subcommittee of this full body, 
led by Chairman Duncan as that subcommittee, had a hearing 
about the influence of Iran in the Western Hemisphere. 
Understanding that terrorists may enter this country through 
many other ports of entry, I am curious about your thoughts on 
what we can do more in terms of a relationship with Canada and 
Mexico to prevent these terrorists from coming into this 
country.
    Mr. Leiter. I think, Congressman, we have at least two 
examples already of Iranian-influenced or sponsored terrorists 
using both of those countries. You have the plot against the 
Saudi ambassador, which was sponsored by Iran and involved the 
Southern Border, and then, as Professor Hoffman noted, you have 
an al-Qaeda-inspired plot in Canada, which involved leadership, 
al-Qaeda leadership in Iran. So we know both those borders are 
vulnerabilities. They pose very different challenges, though. 
Obviously, in the Southwest Border, it is mass and volume, but, 
frankly, if you have Iranians coming through that border, they 
tend to stand out.
    On the Northern Border, obviously, there is still lots of 
mass and volume, but it is a very, very diverse population 
coming across that Northern Border, and in that sense, it can 
be harder to catch these things, all going to ensuring that 
DHS, FBI, NCTC, CIA are sharing information about travelers in 
a seamless way so we can hopefully detect these people, but it 
also goes to another point, which is as a general matter of the 
past 12 years, Iranian-sponsored terrorism in the form of 
Hezbollah or Quds Force has not gotten the same focus as al-
Qaeda-inspired terrorism in the United States, appropriately 
so.
    But if you are going to free up the FBI to pursue Iranian-
sponsored terrorism, which I think is a real and growing threat 
in this country, then you have to have them shed some other 
mission, and one of the ways to do that goes right back to what 
the mayor was saying about ensuring State and locals are being 
fully leveraged.
    So Iran is a real threat on both borders. We have seen it 
over the past 2 years. The FBI has to have the resources to 
pursue that threat, and you can do that in part by leveraging 
State and locals for these lower-level threats, like what 
eventually became the Boston bombing.
    Mr. Vela. So do you view the degree of risk from the 
standpoint of entry of Iranian terrorists as equal?
    Mr. Leiter. Congressman, I view it as different. It is a 
real threat that Iran, especially were there to be a conflict 
between the West and Iran over its nuclear facilities, there is 
a real threat of Iran using Hezbollah or Quds Force to attack 
the United States. There are Hezbollah operatives in the United 
States today. We have seen Quds Force plot attacks here in the 
United States, and the border is a vulnerability. Again, if 
there is a shooting war, and to some extent the Iranians 
already think they are in a shooting war with us, we will 
become increasingly vulnerable.
    Mr. Vela. I guess what I meant, as equal as the threat of 
entry by either border being as virtually equal.
    Mr. Leiter. Congressman, frankly, I wouldn't diminish the 
possibility of either of those entries, Southern Border, 
Northern Border, or any port of entry. Iran and Hezbollah and 
Quds Force are sophisticated enough to get operatives in this 
country through any of the three, and they will use any 
vulnerability in any of the three to get people inside.
    Mr. Vela. So my next question was: In terms of our 
relationships with both countries, what more can we do to avoid 
those threats?
    Mr. Leiter. Congressman, I wish I were a greater expert on 
our current relations with Mexico and Canada on this. I know 
there is a--Mrs. Miller has left. There is incredible pressure 
obviously to keep both of these borders open for very good 
economic reasons. At the same time, having worked more with the 
Canadians; I think the Canadians are very focused on this 
issue.
    On the Mexico Border and the Southwest Border, frankly, I 
think that from the government of Mexico perspective, there are 
bigger issues than Iran, and that is the general insecurity of 
the border and the flow of drugs, guns. So I think in that 
sense, probably continuing to focus on this with the government 
of Mexico would be very critical.
    Mr. Vela. You mentioned that with respect to the New York 
Times Square bombing, that there was, due to the type of 
fertilizer that that particular bomber had used and because 
there were mechanisms in place that were able to detect other 
more dangerous versions: What information do we have about 
materials that were used in the Boston bombing in that regard? 
If you have that information, can you elaborate, you know, why 
maybe we were not able to identify those materials?
    Mr. Leiter. Well, we learned from the Oklahoma City bombing 
that nitrogen fertilizer-based--fertilizer, nitrogen-based 
fertilizer is an incredibly effective improvised explosive 
device. After that event, the FBI started controlling that. So 
if you have go out and buy 1,000 pounds of nitrogen-based 
fertilizer, the next day, you know, Agent Smith is probably 
going to knock on your door and say, ``How come you are buying 
this?'' That is why Faisal Shahzad did not buy the right 
fertilizer.
    Now, in the case of Boston, frankly, the enemy got smarter, 
and the enemy got smarter in part because they were training 
through things like al-Qaeda in the Arabian Peninsula, Inspire 
magazine, and they bought things that really can't be 
controlled very well. You can't control the purchase of 
pressure cookers. You can't control--well, you can, but not 
very effectively--control the purchase of firecrackers. You 
can't control the purchase of small BB's and things like that. 
So they were smart enough to buy things that aren't controlled. 
That, regrettably, I think, as the mayor and Professor Hoffman 
had said, when you are part of this ideological group, you 
learn from each other's mistakes, and you get smarter about it. 
They were smarter about it.
    The good news is they couldn't build bombs that were nearly 
as big and as powerful as we have seen in the past; big enough 
and powerful enough to kill three and wound many others, but 
not catastrophic death at Boston that we might have otherwise 
had.
    Mr. Vela. Thank you, Mr. Leiter, Mayor and Dr. Hoffman. I 
yield.
    Chairman McCaul. The Chairman recognizes the gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Mr. Chairman, thank you so much.
    I want to just thank the gentleman from Texas for following 
up on yesterday's hearing about the Iranian threat in the 
Western Hemisphere. I want to thank the director for your 
comments and recognizing that there is an Iranian threat and 
that Hezbollah and Quds Force, all of the Iranian proxies and 
their actual paramilitary groups are trying to infiltrate this 
country, have operatives in this hemisphere. Your comments sort 
of contradict the State Department, who I hope is taking note 
of those comments, when they say that the Iranian threat is 
waning in this hemisphere. I think that is taking a very narrow 
view. That is sort of like focusing on the row you are plowing 
and not the field, but--so I appreciate the frankness and 
openness on the Iranian threat. We are not going to slow down 
on recognizing and raising awareness for America about that.
    So I want to just take a moment and thank the mayor for 
continuing to talk about political correctness. Director, you 
may disagree with some of that, but let me just tell you where 
I am going, is that I have talked for the last 3 years about 
the disappearing language of terror, the fact that the 9/11 
Commission report used words that really identified the real 
threat, whether it is the words ``jihad'' or ``al-Qaeda'' or 
``Muslim Brotherhood'' or identifying the state sponsors of 
terror or terrorist organizations themselves, these are 
identifiers. When you see that the use of those identifiers are 
discouraged or those words themselves are stripped from the 
lexicons of some of the law enforcement agencies, as we have 
seen over the last 4 or 5 years, that concerns me, because I do 
believe that you have got to be able to identify your enemy and 
talk openly about your enemy. But when I hear that the DOD and 
the Pentagon discourage the use of certain identifying words 
within our military apparatus and they discourage those 
officers from talking about those type threats, then you do, I 
believe, have a Fort Hood-type situation where maybe military 
officers that saw something happening were fearful of 
identifying that as a jihadist-type threat because they were 
fearful about future promotions or assignments. I understand 
how the military works there.
    So I don't think we need to back away from being able to 
talk about the threats that we face, and so I appreciate the 
frankness that we are seeing today and from the mayor.
    So just segueing into the fact, and let me just say that, 
Mayor Giuliani, in the hours and days and weeks after the 
September 11 attack, your even-keeled, trustworthy leadership 
became both a symbol of New York's and our Nation's resolve, 
and I have reason to believe that--and the competence of our 
Government's ability to respond to acts of terror and mass 
disaster really came about from your leadership. So I thank you 
for that, because I was sitting in South Carolina, and I was 
watching it from afar, and I was inspired. I was inspired to 
the point to get back involved in public service.
    But let me expound on that in that Ted Poe from Texas and I 
were on a boat in the Philippines, a PT boat, with a Navy, a 
young man who was in the Navy manning a 50-caliber gun fighting 
the war on terror in Mindanao in the southern Philippines, as 
far as way from New York as you can think, as far as way from 
Afghanistan as you can envision, and we asked him, why did you 
join the Navy? He said, ``Sir, I am from New York,'' and he 
said, ``My best friend and I went down on September 12, and we 
joined, because we never wanted to see that happen again.'' He 
was inspired from your leadership, I believe, as well, and he 
is serving our Nation in that.
    So when we talk about political correctness and I talk 
about your leadership, you helped really, I think, start the 
ball rolling on the ``See Something, Say Something,'' you know, 
to inspire Americans to actually watch your surroundings and be 
cognizant of what is going on and see that backpack laying 
there.
    But when we talk with the DHS about their communication 
with America, they seem sort of antagonistic. It seems to me 
that on a whole host of issues, from TSA screening to DHS 
ammunition purchases, the Department does a horrendous job 
communicating its mission and its policies to the American 
people.
    So, Mayor, how would you recommend that the DHS could 
better engage the American people, rather than continuing that 
antagonism, because I do believe that ``See Something, Say 
Something'' is part of the answer to involve the American 
people? So if you could address that, and that will be my last 
and final question.
    Mr. Giuliani. Thank you, Mr. Duncan. The reality is this is 
a very difficult balance, right? We want an alert group of 
citizens who are reporting to us information that they see that 
is suspicious. We want police officers who have been trained on 
the precursors of terrorism. I recommend to you an article 
written by Commissioner Bratton, oh, gosh, about 4 years ago 
now, in which he describes the training he put the Los Angeles 
Police Department through to look for the warning signs of a 
terrorist act.
    You want a citizenry that is alert to that. You want a 
police department that is sensitive to it.
    At the same time, we don't want to trample on people's 
civil liberties, because if you have a citizenry that is very 
alert to that and you have a police department that is very 
sensitive to it, they are going to occasionally make mistakes. 
They are going to see something suspicious that turns out to be 
innocent activity. That is a very, very difficult balance, that 
is a very difficult balance to strike, but we have to attempt 
to do it.
    We always had to attempt to do it. We now have to attempt 
to do it if, in fact, we have finally recognized that we face 
this threat of one-off terrorists, self-inspired terrorists, 
because the only signs of them are probably going to be these 
things that you see in the community by the police or citizens.
    I think that being honest about what we face will make that 
citizenry more willing to come forward and make that police 
department more willing to take a risk in our favor than if we 
engage in this, you know, fiction that there is no war, there 
is no war against us. Well, that is absurd. I mean, they 
believe there is a war against us. It is just a matter of 
whether we recognize it or not.
    It is absurd to say that there isn't a connection between 
these things. Within a couple of weeks of each other, there was 
a connection between Boston and London, right? The bombers in 
Boston were inspired by jihadism, by Islamic extremism. The guy 
in London went on television to explain to us he was inspired 
by exactly the same thing.
    I don't think we are insulting anybody. I don't think we 
are offending anybody if we just recognize--you know, if we 
just recognize reality. If we don't do that, we are going to 
lose a lot of these hints.
    Before September 11, I saw my city saved from terrorism 
several times by an alert police department that wasn't afraid 
to come forward. There was an incident that occurred about 2 
years before September 11. A young New York City police 
officer, I think a rookie police officer, was patrolling a 
subway station in Brooklyn. He noticed two men that looked 
Middle Eastern suspiciously looking at a train station. I don't 
exactly remember what the suspicion was, but they looked 
suspicious. He went to his sergeant at the desk at his Brooklyn 
precinct, and he said, ``you know, I saw these two Middle 
Eastern-looking guys, and they looked suspicious.'' Sergeant 
could have said, ``oh, forget it, kid, you know, there are 
plenty of those situations in Brooklyn, and get lost.'' The 
sergeant said, ``you know, I will check with the JTTF.'' So he 
called in the JTTF. This was about 10 o'clock at night. At 5 
o'clock in the morning, the JTTF broke into a row house in 
Brooklyn and shot this man as he was about to hit the toggle 
switch of a bomb that would have blown up that entire building. 
They were planning to blow up this subway station.
    That was--this is what we want to happen. We want a 
police--we want rookie police officers who are alert enough to 
pick out things like that, because it prevents--now, it can't 
happen every time, but we--this is what the FBI needs if it is 
going to help us prevent these kinds of things from happening.
    Maybe we have to err on the side a little bit of telling 
them, ``Don't be afraid to act on your instincts.'' Because 
every once in a while when they act on their instincts, they 
are going to make a mistake, but the question is: On which side 
do we want to err? Do we want to err on the side of making sure 
we never make a mistake and falsely identify someone as a 
terrorist who isn't, or do we want to err on the side of making 
sure that we don't have any future Boston bombings?
    I think that is a political choice, not in a partisan 
sense, but in a legal sense. That is a political choice that 
has to be made as to which that we want to do. I know which one 
I think we should do, but I think that is something that is a 
little bit confusing right now.
    Mr. Duncan. Yeah. Well, let me just end saying, God bless 
you guys and everyone that is working to keep this country 
safe.
    I believe, Mr. Chairman, that if we are honest with the 
American people and have an adult conversation about the real 
threat and talk about real terms, that I believe we will be 
better off in the long run. So I yield back the balance.
    Chairman McCaul. I agree.
    The Chairman now recognizes the gentleman from Louisiana, 
Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    I will just pick up where the mayor left off, and that is 
talking about giving our law enforcement officers the 
reassurance that if it is a good faith effort and it is wrong 
or a mistake, that we are going to support them, because we 
want them to use their judgment and their--well, use their 
judgment and to trust their instincts.
    What, in your opinion, do we need to do to send them that 
message that you think would reassure them and give them the 
confidence to take that chance?
    Mr. Giuliani. I think the FBI engaging them more would be 
enormously helpful. The FBI developing--now with a new 
director, maybe this is one of the initiatives that could take 
place. For the FBI to really think in terms of a potential 
800,000 additional law enforcement agents are available to us, 
and it probably isn't going to be all of them, because they all 
can't be trained, but maybe the FBI should undertake to train 
them in what they should be looking for, how they should 
conduct themselves, even how they should conduct themselves in 
trying to strike the balance between how far do we go and when 
do we violate somebody's civil liberties. That would be a very 
valid thing, you know, for the FBI to do.
    I have always found--here is the thing that breaks down 
these institutional barriers, which I saw in the Federal 
Government and I saw in New York City government. Some of our 
agencies in New York City government, as Congressman King 
knows, don't exactly get along all the time. The more these 
people get to know each other and the more it becomes a 
personal relationship, the better it works.
    The first Joint Terrorism Task Force was set up in New York 
City in the late 1970s between an FBI director named Ken Walton 
and a New York City police commissioner named McGuire, and they 
were good friends. They were facing bombings then that have 
nothing to do--they were facing bombings that included--it was 
a Cuban--a Cuban terrorist group. So they were facing all these 
bombings, and they decided that they were going to do a Joint 
Terrorism Task Force, make the cops and the FBI agents partners 
so they would sit down and investigate the cases together. This 
only came about because of their personal relationship. Most of 
the cops probably thought it was a terrible mistake, you can't 
work with the FBI. Most of the FBI thought the FBI would be 
compromised forever working with the New York City Police 
Department. But because these two guys got along with each 
other, so if you foster these relationships, then this 
information flows a lot better.
    Mr. Richmond. Well, and that goes right into my next 
question, and Mr. Leiter, I will give you a shot at answering. 
Do we leave this voluntarily up to the FBI, or do we set some 
sort of protocols or rules whereby when something is--a trigger 
is reached, that there is some mandatory disclosure or 
information sharing?
    Mr. Leiter. Well, Congressman, I tend to think that--I 
mean, I am an Executive branch guy. I was Judiciary; now I am 
Executive, so I like a little bit of flexibility for the 
Executive branch, because I don't think that a Congress wants 
to be in the position of figuring out when exactly something 
should or should not be shared, but you can also set the tone 
for this. You know, I have worked with this committee a lot. It 
would be great to have a joint hearing between this committee 
and the House Judiciary Committee and invite FBI and DHS to sit 
next to each other and you have, you know, Ed Davis up there, 
too. That is a statement that, here, we are going to work 
together on this; we are going to resource the two 
organizations, Justice and Homeland Security, in a way that 
forces you to work together. We are only going to have--we are 
only going to fund future fusion centers if they were co-
located with joint terrorism task forces. That is a message to 
the Executive branch that you will operate in a joint way; we 
are going to set the standards. I think it is--you can provide 
reporting requirements.
    So rather than providing rules, figure out if you get 1,000 
Guardian leads, that is a tip to the FBI, tell us what 
percentage of those leads are provided to State and local 
fusion centers and then to State and local police departments. 
Then you can make the judgment if it is 5 percent our share, 
that is a problem; if it is 95 percent shared, you can have 
that conversation, but I think that is probably a better 
methodology of legislating than trying to say you will share 
under these circumstances, you won't share under others.
    Mr. Richmond. Well, thank you for that. I know that we have 
had a lot of talk about political correctness today, and part 
of the conversation also has to be about political courage. Mr. 
Mayor, we talked about the 9/11 Commission report, but I still 
think that we are far too patient as a committee in not 
claiming our rightful jurisdiction so that the Department of 
Homeland Security is not spread out all over the place, 
answering to 108 committees or subcommittees over the last 
couple years. It is one of the--one of the suggestions that has 
not been implemented, and I don't think it is a Democrat or 
Republican thing, but I think that it is one thing that this 
committee could do in a bipartisan manner is to make sure that 
we bring enough attention to the fact that we still do not have 
the jurisdiction that we should have, no matter if it is 
Chairman King or Chairman McCaul or former Chairman Thompson, 
that we do it. I think that the more that these things happen, 
the more it highlights the fact that we have an interest, we 
have the ability to do it, but we just don't have the 
jurisdiction so that we can get to where we need to be as a 
committee.
    So, with that, Mr. Chairman, I would yield back.
    Chairman McCaul. I thank the gentleman. That is a work in 
progress.
    Director Leiter, actually your recommendation is one that I 
have already been discussing with the Chairman of Judiciary to 
hold a joint hearing. I am not sure the FBI will show up, but 
they should in a closed session, I would think.
    So with that, I now recognize Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Mr. Mayor, let me just say I have a special admiration for 
Italian mayors who are Yankee fans.
    You know, I believe our first priority in any type of 
immigration laws are, No. 1, to protect the American people. I 
think that is first and foremost in my mind and what we should 
do. Obviously immigration is at the forefront of what we are 
debating here. I would like to point out that when we talk 
about border security, sometimes what is left out is visa 
overstays. Nearly--over 40 percent of the people that are in 
the country illegally didn't cross a border. They come legally 
on a visa, overstayed a visa and we simply can't find them.
    When I look at--and in any State that has an international 
airport, I believe you are, therefore, a border State. When we 
look at some of the attacks that we have seen, whether it be 
the Christmas day bomber, whether it was Tamerlan going back to 
a country that he was fleeing from and being able to get back 
into the United States, whether it was his buddy who got back 
here on a student visa when he wasn't even in school any 
longer. Whether it was Mahmud Abouhalima, who in 1986 was given 
amnesty as an ag worker, when in reality, he was taxi cab 
driver and was involved in the 1993 attack on the World Trade 
Center. The only thing he planted in America was a bomb. 
Whether it be the two of the pilots on 9/11, who had their 
students visas approved after they were dead. I think it is 
obvious to me that we have gaping holes in our visa system 
here.
    My question is: With that, do you feel that it would be in 
the best interests of the American people that we fix that 
problem first, since we know it is a National security threat 
and would solve half of our problem as well as making cities--
no one knows better than you what happens when somebody gets 
by. I would like your opinion.
    Mr. Giuliani. Well, Mr. Barletta, I think there is no 
question that our immigration system has to be fixed. I mean, 
your body has just passed a massive reform. Some people think 
it is enough; some people think it isn't enough, but you have 
made a good-faith effort to try to fix it, which hasn't been 
done in a very long time to improve border security.
    I think that too often, we think of border security just in 
terms of illegal immigration. We don't think of it in terms of 
if we are open to illegal immigration, we are also open to 
terrorists coming in and we don't know who they are, drug 
dealers coming in, criminals coming in, people who are mentally 
ill coming in.
    A civilized country controls its border. There is nothing 
unfair about that. There is nothing inhumane about that. It is 
actually humane to the citizens that are here that we make a 
good-faith effort to figure out everybody who is in this 
country and identify themselves when they come in.
    Virtually every other democracy has a pretty strict policy 
about who they let into their country. You know, you travel; I 
travel. We have to identify ourselves when we go into England, 
France, Germany, Italy, China, anyplace else.
    So I think that to the extent that we can have a system 
that allows us to get as close to 100 percent as possible at 
identifying everybody who comes into the United States, we are 
going to be a much safer country. We are going to be safer 
against terrorism. We are going to be safer against crime. We 
are going to be safer against communicable disease. So I think 
this is just one of the things that, you know, benefits from 
it.
    If we don't have control, if we don't have reasonable 
control of our borders, then, you know, everything else kind of 
falls apart. So I hope that with the bill that you passed--not 
that you, the Senate passed and the bill that you are going to 
pass eventually, I hope what comes out of that is, whatever 
happens on the other part of it, much more resources for Border 
Patrol.
    I have always thought it was much easier than people think 
to control the south--Southern Border of the United States, 
that it is not as impossible a task as people make it out to 
be. I look at this size of the border, I think of how I 
reorganized a police department to reduce crime in New York 
City. I know this sounds like a strange statement, but I think 
it would be easier to control the Southern Border than to 
reduce crime by 50 or 60 percent in New York City. The scale is 
about the same. We have 77 police precincts. You would need 
about 50 Border Patrol stations. We had about 40,000 police 
officers. You'd probably only need about 20,000 to 30,000 
Border Patrol to do it.
    If we did it, we would end up with a much better economic 
system, too. Then if we had control over who was coming in 
legally and we knew who they were, then we could expand the 
number of people coming in legally. We could make it easier for 
them to come in legally, make it impossible for them to come in 
illegally. I think this will help reduce the risk of terrorism, 
and it helps in about 100 other ways.
    Mr. Barletta. I think simply put, you wouldn't replace the 
carpeting in your home if you still had a hole in your roof.
    Mr. Giuliani. I think that is right, yes.
    Mr. Barletta. Thank you. I yield back the balance of my 
time.
    Chairman McCaul. Thank the gentleman.
    Just for the record, this committee did pass the Border 
Security Results Act unanimously, which is almost unheard of in 
today's political environment.
    So, with that, the Chairman now recognizes the gentleman 
from California, Mr. Swalwell.
    Mr. Swalwell. Hi, Mr. Mayor, and welcome, and welcome to 
our other witnesses. I was a Congressional intern when 
September 11 happened, and, you know, I really appreciated your 
leadership. It was a terrifying time to be in Washington, even 
more terrifying to be on the ground in New York City, and you 
really led the city with your leadership. I even remember 
reading your book when I was in college, and I still follow the 
under-promise, over-deliver model----
    Mr. Giuliani. Thank you very much.
    Mr. Swalwell [continuing]. That you prescribed. I think you 
would agree that even the Congress came together, and it was a 
moment of bipartisanship. We sang on the--the Members sang on 
the House steps ``God Bless America'', and the days, weeks, and 
months after, our country really did come together.
    You have really acknowledged President Bush's role, and you 
seem to have praised President Bush and the role he prayed.
    Would you agree, though, that President Obama, since he 
took office, he has increased the number of drone strikes that 
the Bush administration was conducting once he took office and 
actually went after terrorists more abroad than President Bush 
did?
    Mr. Giuliani. I think there are some very good things that 
President Obama has done. I think there are things I strongly 
disagree with that President Obama has done. I think I 
particularly believe that the drone program has been an 
effective program.
    I don't know the program in great detail. I mean, there is 
an awful lot about it that is Classified. I don't know exactly 
how the choices are made about who is targeted for attack and 
who isn't. But if you ask me in general, do I think the drone 
program is a good thing, I do. I think it is a necessary one.
    Mr. Swalwell. I would more just point out that the program 
has certainly escalated since President Bush left office, and 
President Obama----
    Mr. Giuliani. Yeah. I do--I don't want to get contentious, 
but I do have one issue with it maybe coming at it from where I 
come at it, which is there was such a tremendous amount of 
concern in capturing terrorists and subjecting them to 
intensive questioning, including the three or four that were 
waterboarded, and now, of course, we have killed many, many 
more of them.
    Mr. Swalwell. Well, and I will----
    Mr. Giuliani. It would--it would--the one hesitation I 
would have about the drone program is, do we deprive ourselves 
of the ability to get information from people if we engage in a 
little more of the dirtier task of capturing them and 
questioning them? I am not an expert on this. I don't know what 
the right answer is, but I think that is a legitimate question 
to ask.
    Mr. Swalwell. But would--you would also agree that as far 
as foreign surveillance and the NSA and the data collection and 
the PRISM program, that has certainly escalated since President 
Bush was in office. Our efforts to identify foreign nationals 
who are participating in terrorism and their efforts to 
communicate in American, that President Obama, even taking heat 
in his own party, has stepped up efforts.
    Mr. Giuliani. He has certainly stepped up efforts and 
continued some of the programs that President Bush started.
    Mr. Swalwell. He participated in the ordering of the 
killing of Osama bin Laden.
    Mr. Giuliani. For which I have given him great praise and 
told him personally I thought it was a real act of leadership 
in doing that.
    Mr. Swalwell. I mean, I think there may be disagreements 
on, you know, some of the tactics used, but, I mean, I think 
you would probably agree, I mean, President Obama has continued 
President Bush's efforts on the war on terror and has in some 
ways been more successful.
    Mr. Giuliani. In some ways, he has been more successful.
    In some ways, he has been less successful. I think he has 
been less successful in capturing people and getting 
information from them.
    My major objection to President Obama's change has been in 
his unwillingness to describe it as a war on terror, because I 
think it sends the wrong signals to our bureaucracy, and I 
think it sends the wrong signals to our enemies. I think they 
perceive that as a sign of weakness and almost irrationality 
that you would not describe us as being at war with terrorists 
when they are at war with us.
    Mr. Swalwell. I want to just shift topics. We have seen in 
the last few weeks--well, we had a plane crash in San 
Francisco, which is right near my district, and you saw social 
media was the first on the ground to respond before first 
responders, before traditional media. We saw in the Boston 
bombings that it was the FBI working in--collecting information 
from social media, and using and engaging a new audience to try 
and learn more about these bombers that helped their 
investigation. And ask you to kind of go back in time. What 
role do you think social media would have played had it been 
around on September 11, and what role do you hope to see it 
play or what role do you see it playing as we address the 
terrorist threat going forward?
    Mr. Giuliani. Social media has expanded exponentially since 
September 11, so that is probably a hypothetical question that 
is almost impossible to answer. If a September 11 were planned 
today, the chance of picking it up through social media and 
other forms of communication, which we now have much more 
surveillance of, as we found out, is much greater. Again, there 
is no 100 percent chance you are going to pick something up. 
But I think one of the reasons, I have forgotten who made this 
statement about--I think you did, about how long we have gone 
without a really massive attack, attack like September 11, I 
think one of the reasons for that is it would be very hard to 
do, to accomplish that today. The things that are in place 
today that weren't in place before September 11 give us a much 
greater chance of picking up a massive attack. On the other 
hand, that then leaves us vulnerable to these smaller attacks, 
which in essence, take place under the radar that we have set 
up. So we are safer against one, but we are more vulnerable to 
another.
    Although the numbers are different--you know, in a large 
attack, more people die; in a smaller attack, less people die--
both of them are enormously destabilizing to a country that, 
after all, values every human life. So if you say, well, 13 
died here and 3,000 died there, and that does make a 
difference, but it is still very destabilizing, particularly if 
we have numerous acts like this, if we have numerous attempts 
to attack us. Even the attempts that we stop are very 
destabilizing.
    Mr. Swalwell. Thank you, Mr. Mayor.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Utah, Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing.
    To the three witnesses, thank you for being here today.
    Mr. Mayor, you have received great praise, as you should 
have. Having been knighted, I hope you are not offended we 
haven't called you Sir Giuliani.
    Mr. Giuliani. No. I appreciate it. I try to hide--I 
explained to Mr. King, I try to hide the fact.
    Mr. Stewart. I think that mayor is sufficient.
    Mr. Giuliani. In Brooklyn, this would be perceived very 
poorly.
    Mr. Stewart. As it would in my hometown as well.
    I would like to just very quickly follow up on Mr. 
Swalwell's comments, recognizing to me the severe irony that 
most, if not all, of the policies of former President Bush had 
in place and that which our President campaigned so 
aggressively against are the very policies that he has kept, 
and perhaps President Bush had more than a few things right, 
and I think history is going to prove that that was the case.
    I have taken a lot of notes from you gentlemen on the 
things that you have testified here today. You have used words 
``common threads.'' We have talked a lot about political 
correctness, at one point, Mr. Giuliani, I this you said 
``Islamic domination.''
    I would like to talk about some of those ideas, the big 
picture, or the bigger picture, if we could. Specifically, I 
would like to talk about the motivation for their actions. What 
motivates our enemies to do the things that they have done? It 
has been said that maybe the United States is to blame for some 
of their actions and some of their vitriol and hatred against 
us; perhaps if we had not been so colonial, or if we had not 
exploited developing nations, or perhaps if we didn't have U.S. 
personnel in certain parts of the world right now.
    I guess, at its essence, this idea of American 
exceptionalism, do you have faith in that or do you believe 
more in the idea of American relativism or cultural relativism? 
I just think that is absurd, by the way, and that is a topic 
for another day. But I think that America is, as Abraham 
Lincoln said, the last best hope of man. I think that is not 
just true for Americans; I think that is true for people all 
over the world.
    At its heart, then, though, my question is this: Is there 
anything that we can do that will eliminate or maybe at least 
lessen their motivation to bring us harm, or is it a greater 
truth that the reality is that as long as Islamic 
fundamentalism exists, that they will always seek to destroy 
us? I would appreciate your opinions on those from any of you.
    Mr. Giuliani. Mr. Stewart, I have no doubt about the answer 
to your question----
    Mr. Stewart. Okay.
    Mr. Giuliani [continuing]. Because I faced this in the days 
after September 11, trying to figure out, why would somebody do 
what they did?
    The reality is what we do is only at the margins of what 
they do to us. Their motivation--their motivation, even though 
it can be described as irrational, maybe even insane, I mean, 
their motivation is their perception of their religion. It is 
an incorrect perception, or at least I believe it is. It is a 
completely deceptive kind of view of the major message of the 
Muslim religion, but it is the message they have taken out of 
it.
    The only way we can stop them is if we stopped being a 
democracy, if we stopped respecting the rights of women, if we 
subjugated women to where they believe women belong in society; 
if we stopped believing in God the way we believe in God and 
accepted their belief about God. To a large extent, we would 
have to do away with our financial system the way it operates. 
I mean, we would essentially have to--we would essentially have 
to change our values to fit their values in order for them not 
to want to kill us, because that is why they are trying to kill 
us. It is not about Israel and Palestine. That is a side issue. 
It is not about our occupation of any place, because we haven't 
really occupied any Muslim lands, really. It is not like the 
dispute with communism over an economics system and even a 
social system. This emanates from their perception of their 
religion and what their religion is demanding of them.
    Now, they may get to that because of psychological problems 
they have, but then when they get to it, they are all joined in 
the same motivation. So if you are asking, ``well, gee, how can 
we in some broad sense stop that?''--we can't. But on a smaller 
level, we can try.
    I mean, on a smaller level, we could try to engage more 
with moderate, sensible, mainstream members of the Muslim and 
Islamic community, of which there are many. We could try to 
encourage them more to step out on this.
    I am going to tell you a totally unrelated story, but it is 
part of how I think about all this. When I was United States 
attorney, the first thing I began pursuing was the mafia, and 
after bringing my first case against the mafia, I was 
criticized for using the word ``mafia.'' Not only was I 
criticized for using it, it was demanded that I be removed from 
office, because it violated the Justice Department guideline 
that you couldn't use the word ``mafia.'' It was a guideline 
that had been put in at the behest of the Italian American 
Civil Rights Committee that got Attorney General Mitchell to 
agree to do this. The Italian American Civil Rights League was 
headed by Joseph Colombo, who was the head of the Colombo crime 
family. But you couldn't use the word ``mafia,'' because it was 
insulting to Italian-Americans to use the word ``mafia.''
    I said that I was going to continue to use the word 
``mafia,'' because it should only be insulting to Italian-
Americans who were members of the mafia or Italian-Americans 
who sympathize with the mafia, but for Italian-Americans who 
thought of the mafia as a group of murdering imbeciles, which 
is what they were, then it should be liberating; it should 
point out to society that, yes, there is this aberrational 
group called the mafia, but most Italian-Americans don't want 
them, don't like them, want to see them gone.
    It would be very, very healthy if that is the dialogue we 
had with the Muslim community, that most Muslims should be as 
opposed--and I hope they are, and I believe most of them are, 
the question is getting everyone to speak out and getting on 
the same page about this. But nobody should be defensive about 
describing something as Islamic terrorism that you are 
insulting legitimate, decent members of the Islamic religion. 
If you say ``Islamic extremist terrorism,'' you are insulting 
exactly who you want to insult, Islamic extremists and those 
who sympathize with them. Anybody in the Islamic community who 
is nervous about that should get over it.
    Mr. Stewart. Mr. Mayor, I appreciate your answer. I wish, 
gentlemen, if we had more time, I would maybe follow up 
individually with you and your opinions on that as well.
    Mr. Leiter. Mr. Chairman, if I could have--just very 
quickly, because I think this is a critical question. Al-
Qaeda's narrative is pretty simple; it is us versus them. The 
``us'' is the West, United States, Western, Israel. The 
``them'' is all of the Muslim world. We have to do everything 
we can to show that that narrative is false, that the ``us'' is 
the West and the vast, vast majority of Muslims in the United 
States and elsewhere. The ``them'' is that tiny proportion of 
the violent Islamic extremists around the world who are 
actually terrorists.
    We are not going to change those terrorists' minds. We have 
to kill them, capture them, and the like.
    What we can do is help ensure that the rest of the Muslim 
world and the rest of the non-Muslim American world and the 
like realizes that we are in it together against that tiny 
percentage. Again, the us versus them is not West versus Islam.
    Mr. Stewart. Okay. Again, I thank you for that response. I 
think you are exactly right.
    Maybe, Mr. Chairman, if I could just conclude with this, 
for that small percentage, and it is a small percentage, but 
there are those that exist, the Islamic fundamentalists, that 
this is a long, long haul for us here. Short of us redefining 
who we are as a people, something that has been developed over 
hundreds of years, short of that, which we are clearly not 
going to do, then this will be a conflict that will exist, 
again, for the long haul, and we need to prepare ourselves and 
prepare the American people for that.
    So, with that, Mr. Chairman, thank you.
    Chairman McCaul. Thank you.
    The Chairman now recognizes the gentlelady from New York, 
Ms. Clarke.
    Ms. Clarke. Thank you, Mr. McCaul, Ranking Member.
    You forgot to say the gentlelady from Brooklyn.
    Sir Giuliani, I think we have not given Brooklyn the fact 
that it is far more cosmopolitan these days than perhaps has 
been given credit for during the proceedings today, but it is 
great to see you here.
    The rest of our witnesses, it is good to have you here as 
well.
    Mr. Giuliani, Honorable Giuliani, Mayor Giuliani, you may 
recall that my mother served as a council member----
    Mr. Giuliani. Yes. Of course.
    Ms. Clarke [continuing]. During your mayoralty. So it is 
good to have you here to give us a sobering look at what we are 
challenged with.
    What I find, having been in New York all my life, is that 
we oftentimes forget that--or get caught up in the hindsight--
is 20/20 type-of philosophy, in that, you know, New York has 
become the way it has become because we have been the No. 1 
terrorist target.
    I remember the 1993 bombing, because my father was in the 
building at the time. None of us could have imagined that the 
World Trade Center would have been bombed. From that, we 
decided we would put barriers at the lower levels of our high-
rise buildings and protect, you know, municipal buildings and 
what have you, but none of us could envision that then people 
would fly planes from above to then take down buildings. Right? 
So, now, we know that we have to reorient ourselves in terms of 
security, intelligence, things of that nature. I think that, 
you know, it is an on-going battle, it is an on-going challenge 
that we have to think outside the box, to use the type of 
information-sharing capabilities that we have in real time to 
try to avert things.
    But, Mr. Leiter, I think you put your finger on the pulse 
of it: It is a challenge, and resources are finite.
    You know, my question is: What role does DHS play in the 
intelligence community? Because if we can't answer that 
question, then our mission as a committee, the mission of the 
agency that was stood up with a very focused purpose, it is all 
for naught. I would like to get your responses. You know, just 
given what we know now, you know, how do we minimize human 
error, and how do we use this agency as the agency to get that 
done?
    Mr. Leiter. It is an excellent question, Congresswoman. I 
would say, to me, DHS intelligence has struggled at times. We 
all know it has struggled. It has, in my view, four principal 
things that it has to do really well, and all the rest, it 
should just stop doing entirely.
    No. 1, it is the only intelligence organization that is 
focused on what is going in and out of the borders, people and 
goods. It better do that perfectly, or as near as you can to 
perfect, and it has to do that in close conjunction with CBP, 
Customs and Border Protection, and Immigrations and Customs 
Enforcement. I will come back to in a minute. That is No. 1.
    No. 2, critical infrastructure. It is the only intelligence 
organization that focuses on critical infrastructure in the 
United States, so it better do that as well as anyone can, 
understanding where that infrastructure is, what the defenses 
are, what the vulnerabilities are, and how to protect it.
    No. 3, and this is what we have talked about a lot, it has 
to be the lead in helping those fusion centers actually serve 
that collection management, burden-sharing, follow-up 
investigation effort that we have all talked so much about. In 
my view, it hasn't done a great job at that. It has done a good 
job of building fusion centers and getting information out to 
fusion centers and educating that workforce, but this more 
granular operational level is not what it has worked with the 
fusion centers as much to do.
    Fourth and final, it has to be a true fusion center within 
DHS itself to leverage all of the intelligence that Customs and 
Border Protection, Immigrations and Customs Enforcement, TSA, 
Secret Service, Coast Guard already get. It has to be that hub, 
because no one else can do that.
    If it can do those four things really well, then everything 
else can be forgotten. In my view, I hope the next Under 
Secretary focuses on that, focuses on building the workforce to 
do that. It will still be a tough challenge.
    Ms. Clarke. Did either of you want to try to----
    Mr. Giuliani. It seems to me that that is a perfect 
analysis of how you can focus DHS, which, after all, is in the 
scheme of things in Washington a new agency.
    Ms. Clarke. Yeah.
    Mr. Giuliani. If you are as effective and as strong a 
leader for Brooklyn as your mother was, we will be very well 
served.
    Ms. Clarke. Thank you.
    Mr. Giuliani. She was a great woman.
    Ms. Clarke. Thank you.
    Thank you. I yield back, Mr. Chairman.
    Chairman McCaul. Let me thank the gentlelady from Brooklyn 
for that question. That sets up a good record for us with 
respect to INA within DHS.
    With that, the Chairman now recognizes the very patient 
gentlelady from Indiana, former U.S. attorney, Mrs. Susan 
Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman.
    Thank you so very much to all of you for coming and 
sharing. That is actually what I want to talk about.
    Director Leiter, you mentioned that there may be a lack of 
training. You mentioned that we might have even had some FBI 
agents, which causes me great concern, because after 9/11, we 
did extensive training. Certainly communities like New York, 
maybe Los Angeles, Chicago knew a lot about terrorism. Those of 
us in central Indiana and throughout the rest of the country 
probably didn't know a lot about terrorism on 9/11, but then, 
for years, led by the FBI and the Federal Government, we went 
out and U.S. attorneys worked to train our local law 
enforcement and our communities about prevention and detection 
of terrorism. I am concerned that we have very much gotten away 
from that. I am curious whether or not, you know, 
professionals, like Dr. Hoffman and other experts who study 
this, are actually brought in, whether it is to conferences, 
whether it is to the training of new agents or agents that are 
now being placed on JTTF's and fusion centers and the local law 
enforcement, and I would like to you comment, because I think 
that is something that may be lacking as we have moved away 
from 9/11.
    So if you would just start, and would like the others' 
thoughts on it, because I think if we don't train--I just held 
a hearing yesterday in our Emergency Preparedness, Response, 
and Communications subcommittee of this committee, and it was 
about the use of social media in disaster preparedness, 
terrorist response. If we don't continue to train and educate 
on whether it is communication tools or, I think more 
importantly, what are terrorist organizations looking like now, 
or terrorist individuals looking like, I think we will just 
continue to have attack after attack like we have suffered. So 
if you would just----
    Mr. Leiter. First of all, Congressman, we are undoubtedly 
in a much better place than we were on 9/11. I mean, the 
average police chief throughout the country, the average agent 
knows 100 times more than they did about what al-Qaeda is and 
what Sunni extremism and Iranian threats and all these things, 
so it is undoubtedly better, but a couple of things.
    First, it is a never-ending process. You can't stop, 
because you have a new generation of officers and agents coming 
in all the time. With declining resources on this, what is one 
of the first things if you are a local police chief you are 
going to cut? Well, I can worry about crime that happens every 
day or terrorism that might happen. I know what I am going to 
do. I am going to stop sending my people to JTTF, I am going to 
give them less terrorism training. So, in declining resources, 
we have to keep the focus on this, and we have to keep doing 
it.
    Next, I do think, again, this is where political 
correctness can have a very bad influence. The FBI has been 
bitten by this before in its training, in part because some of 
its training was done by contractors who really didn't know 
what they were doing. So I think the FBI, DHS have to rely on 
the expertise that is in the Federal Government, expand that. 
Bruce Hoffman and I have worked together extensively over the 
past 7 or 8 years. There are people who really understand this. 
You have to do it in a way that people aren't scared about 
teaching the truth, because that is a sure-fire way of missing 
the forest for the trees.
    Mrs. Brooks. Dr. Hoffman.
    Mr. Hoffman. Well, this goes back to Mayor Giuliani's 
points, which I think is very important, is that the perception 
is that we don't have war on terrorism anymore, and at a time 
of constrained fiscal resources, it is almost the perfect storm 
in a sense. I mean, to say the war of terrorism is over; there 
are fewer resources, so I think there are fewer of these 
opportunities, when there were certainly more in the immediate 
aftermath of 9/11. So I think there has to be that focus, 
especially--and I think foremost is the threat is changing and 
evolving. I mean, it is a very different threat, I think, than 
we faced, fortunately, because of our successes in countering 
terrorism, than 10 years ago, but the threat still exists.
    Second, I think one of the problems is that outside of the 
Federal Government, this became a cottage industry and all 
sorts of charlatans and people with questionable views and 
people that often taught, I think, extremely incorrect, 
inappropriate instruction, that they had absolutely no 
qualifications gave a lot of the training a bad name. So I 
think you need qualified people to do the training.
    But I have to say, just in the past year, I was part of a 
training team for a Federal agency. We had done this actually 
every year since 2002. This is the first year that--and this 
was done by the U.S. Military Academy's Combating Terrorism 
Center. This was the first year it was discontinued, and the 
justification was even though the counterterrorist training had 
gotten the highest ratings in this particular element of the 
intelligence community, the instruction's management was told 
that this was no longer a priority.
    Mrs. Brooks. Thank you.
    I don't know, Mayor, if you have anything you'd like to add 
to----
    Mr. Giuliani. Well, you know, I would add----
    Mrs. Brooks [continuing]. The importance.
    Mr. Giuliani. I would just add to it that one of the things 
that I have found effective in trying to convince State and 
local law enforcement to devote more attention to terrorism is 
that the assumption is, as both gentlemen were pointing out, 
that with limited resources, if you train for terrorism, 
necessarily you are taking away from their ability to detect, 
you know, other crimes and to deal with local crime. But the 
fact is, a police department that has been trained to detect 
terrorism does a better job of detecting everything else. After 
all, you are just teach--you are really teaching them how to 
patrol effectively, which is what you want of a uniformed 
police service to do. So it isn't as if these resources are 
wasted.
    If you train them to detect terrorism, they are going to do 
a better job of detecting possible muggers, murderers, rapists. 
They are just going to be better law enforcement officers. So 
that you have to try to get mayors, police commissioners to 
stop thinking of this as a zero-sum game, and if I do this, I 
am not doing that.
    The same thing is true for the Department of Homeland 
Security convincing State and local governments they should be 
prepared for the emergency response after a terrorist act. The 
chance of any community in America being the subject of a 
terrorist attack is very, very small. The chance of a terrorist 
attack somewhere is very, very great. The preparations they do 
to be ready for a terrorist attack makes them better able to 
deal with a hurricane or a tornado. I think we have seen that 
in some of the different emergency responses we have seen to 
these natural disasters being a lot better in places that were 
prepared for terrorism than in places that weren't.
    Mrs. Brooks. Thank you very much. I would just comment that 
we learned that certainly the preparation that Boston 
undertook, I believe, in November on a terrorist exercise, on 
an exercise and planning, absolutely saved lives this spring. 
So----
    Mr. Giuliani. That is the point--that is the point that I 
guess should be made after speaking so much about some of the 
things that we have done wrong, but from the moment the attack 
happened, the emergency response thereafter was about as good 
as it could possibly be, that saved lives and that also 
restored public confidence. You know, after a terrorist attack, 
a community is traumatized.
    I was in London for the bombing in 2005, and they missed, 
from an intelligence point of view, here one of the greatest 
intelligence services in the world, missed all the signs of 
that bombing, which is pretty startling, but from the moment 
the bombing took place, their emergency response was first-
rate, it was terrific, and it restored public confidence within 
24 hours.
    Mrs. Brooks. Thank you. I will yield back.
    Chairman McCaul. Let me just echo the comments. When I 
talked to the first responders in Boston, the way they triaged, 
using grant funding from DHS, 260 wounded that could have 
easily bled out in the streets that day, and they saved every 
one of them. So it is truly remarkable.
    With that, last but not least, I now recognize the 
gentleman from Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    I feel compelled to just respond to some of the comments 
from the gentlemen from--my colleague from California. I find 
it hyperpartisan and blatantly hypocritical that he would extol 
the virtues of the current administration's continuation of 
President Bush's programs, having run specifically against 
those programs, deriding them without acknowledging at least 
the fact that those programs are due in very large part for the 
successes of counterterrorism operations regarding the current 
administration.
    But with that, I will start with you, Mr. Mayor. Thank 
every one of you gentlemen for your service and your diligence 
and patience here today. I just want to read an exerpt here: 
U.S. officials initially described the Times Square plot as a 
lone-wolf attack and displayed--correction--downplayed links to 
the Pakistani Taliban, despite the existence of the tape, the 
tape that was released the day before.
    With this and things like naming Nidal Hasan's acts as 
workplace violence, the attack in Benghazi as a spontaneous 
eruption from a crowd, I am wondering, can you tell me what the 
upside is? Why would we choose, as an administration, as a 
Nation, why would we choose to characterize the enemy this way, 
these acts? What do we gain? What are we gaining from that? Do 
you know? I mean, I know it is not you. I know it is not you, 
but I am trying to strategize. What is the strategy in doing 
so?
    Mr. Giuliani. Well, I mean, the only thing I--I feel very 
uncomfortable giving this explanation, because it is my 
hypothetical sort of psychobabble analysis of somebody else's 
thinking, but I believe the thought is that if you engage too 
much in direct conversation about this or just logical 
conclusions about what happened, you are going to offend the 
other side so much that it is going to lead to further attacks. 
I think that is a----
    Mr. Perry. But is there----
    Mr. Giuliani. I think----
    Mr. Perry. Mayor, with all due respect, is there any 
evidence----
    Mr. Giuliani. Please. I am not arguing that. I think that 
is a terrible mistake. I am telling you what I think----
    Mr. Perry. Right.
    Mr. Giuliani [continuing]. What I think the motivate--in 
fact, I think it is just the opposite, because my knowledge of 
Islamic terrorism goes back to about 1973, when I--or 1974, 
when the attacks--you know, when the Palestinian attacks 
occurred, and I was an assistant U.S. attorney, and then I was 
put on a commission by President Ford to study Islamic 
terrorism in 1975.
    Mr. Perry. I mean----
    Mr. Giuliani. I investigated----
    Mr. Perry [continuing]. Is there any evidence to----
    Mr. Giuliani. I investigated Islamic terrorism as U.S. 
attorney. I dealt with it as mayor. The reality is, and I 
believe this firmly, the more euphemistic we are, the weaker 
they think we are.
    Mr. Perry. There is no evidence----
    Mr. Giuliani. The more----
    Mr. Perry [continuing]. To support that----
    Mr. Giuliani. And the more----
    Mr. Perry [continuing]. By placating them, they will hate 
us less. Is that true?
    Mr. Giuliani. Is that--and the stronger we are and the more 
direct we are, and more honest we are and the tougher we are, 
the less likely they are to attack us. Anyway, the more direct 
we are and the tougher we are, the greater chance we give 
ourselves of preventing them from attacking us. We are not 
going to finesse our way out of this.
    Mr. Perry. I am in concurrence, Mr. Mayor.
    Mr. Leiter, you, in your opening dialogue, referenced a 
whole series of thwarted attacks in America and locations maybe 
close by or at least in the Western world. There was one theme, 
there was one theme for all of them. We have heard about 
political correctness over and over again in this committee on 
this hearing and other ones in the past, but I would say--I 
would ask you: Is there any reason for us, for me, to believe 
that those attacks are similar to ones that were enumerated in 
this committee on this day by folks from the Southern Poverty 
Law Center as being similar to maybe Christian organizations or 
maybe somebody that was unhappy with President Obama and his 
recent election? Is there any correlation, is there any nexus, 
is there any similarity?
    Mr. Leiter. Well, I actually think there are significant 
similarities. The similarities in many cases for the 
radicalization process, whether it is through violent Islamic 
extremism or some other fill-in-the-blank ideology, you 
generally have an individual who is disconnected from large 
parts of society, undergoing a crisis, finds an ideology which 
makes them feel like they are part of something larger, and 
then they strike out with violence. So, in that sense, a lot of 
the psychological effort, even if the ideology is very 
different, the process of people moving towards violence is 
quite similar.
    Mr. Perry. Okay. So--and I agree with you there, but my--I 
guess I need to restate my question. Actualization. From 
radicalization to actualization, actually carrying out the 
attack or what have you, is there any similarity from the 
statistics of Islamic radicalism and these attacks and thwarted 
attacks, versus domestic terrorism as we would call it that, 
individuals that grew up in hometown America and got 
radicalized by something and then carried out the attack?
    Mr. Leiter. Well, depending on when we set the time line, 
the number of Americans killed by domestic extremists remains 
greater than extremists inspired by al-Qaeda's ideology. If you 
go back and include Timothy McVeigh, obviously, you have more 
Americans killed by that form of domestic extremism.
    Over the past 10 years, I think the numbers are much 
closer. I don't know all domestic terrorist incidents. The one 
that comes to mind obviously is the shooting at the Holocaust 
Museum. I think some of that mobilization to violence is not 
dissimilar. So I am sorry, Congressman, but I actually see some 
significant similarities in all of these cases.
    The difference, the key difference, I do think, is in the 
case of al-Qaeda-inspired ideology, it is more of a global 
ideology, which requires more of a global response.
    Mr. Perry. I just want to get the facts, so I don't mean to 
be confrontational.
    I don't necessarily see it that way, but as the mayor has 
already talked about and I think you too as well, we have 
priorities, we have limited resources. If the majority of the 
attacks or attempted attacks are coming from one organization, 
ideology, shouldn't we--and if that is the case, I guess I am 
asking shouldn't----
    Mr. Leiter. We should absolutely prioritize. I can tell 
you, having worked very closely with FBI and DHS, the 
overwhelming priority is al-Qaeda-inspired extremism. Frankly, 
in some ways, we may have overinvested. So if things like some 
domestic extremism, Iranian-sponsored Hezbollah, Quds Force 
terrorism is probably, in my view, lower than it might be, but 
I think, given the consequences of attacks that we saw on 9/11, 
the global influence of al-Qaeda and homegrown extremism, it is 
not completely out of whack, but the overwhelming focus for 
JTTF's in this country today is al-Qaeda-inspired terrorism.
    Mr. Perry. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The Chairman recognizes the gentleman from 
New York for a few seconds.
    Mr. King. Thank you, Mr. Chairman.
    I will just make this quick. Besides thanking the 
witnesses, I would like to announce Marc Mukasey, who is in the 
audience. He is with Mayor Giuliani. His father is an 
outstanding Federal judge, who presided over one of the worst 
examples of Islamic terrorism in the country; because of that, 
had to be protected U.S. Marshals for many years. Also thank 
him for his service as Attorney General.
    So, Marc, tell your father he owes me one. Okay? Thank you. 
Again, thank him for his service.
    Chairman McCaul. Let me just close by saying thank you to 
the witnesses. This has been extremely and extraordinarily 
invaluable for our report and recommendations that we will be 
developing.
    Thank you particularly, mayor, for being here and taking 
the time to show up.
    I am going to close with this statement. On July 19, 2012, 
the FBI released a press statement proclaiming that they were 
already implementing the terror prevention recommendations of 
the Webster Commission, which investigated the Fort Hood 
shooting. Just 2 days earlier, July 17, Tamerlan returned from 
the Chechnya region, and the FBI kept the case closed.
    The FBI is at the center of our efforts to prevent attacks 
on the homeland, and it is this committee's responsibility to 
find out how we did not see this attack coming. It is 
unfortunate that the FBI has chosen to obstruct this 
committee's oversight, jurisdiction of events leading up to a 
terrorist attack on our country. This committee has specific 
questions related to our investigation of the Boston Marathon 
bombing, and the FBI refuses to answer those.
    For the FBI to allege that this committee does not have 
jurisdiction over investigating a terrorist attack in the 
homeland in the United States is a disservice to the American 
people. This committee will continue with its investigation and 
will not stop until our investigation is complete.
    Last, I ask unanimous consent that a written statement from 
Bart Johnson, executive director of the International 
Association of Chiefs of Police, and a letter from Stephen 
Kelly, the assistant director of the FBI for Congressional 
affairs, informing this committee that the FBI refuses to 
provide a witness for the hearing be included in the record.
    Without objection, so ordered.
    [The information follows:]
    Statement of Bart R. Johnson, Executive Director, International 
                    Association of Chiefs of Police
    The 9/11 terrorist attacks taught us that information exchange 
between local, State, Tribal, and Federal law enforcement and homeland 
security partners is absolutely critical to ensuring the safety and 
security of our Nation and the communities we serve. As the 9/11 
Commission properly noted, the lack of effective information and 
intelligence sharing among Federal, State, Tribal, and local law 
enforcement agencies was a major handicap in our Nation's homeland 
security efforts.
    However, due to the hard work of our Nation's law enforcement and 
intelligence community professionals, advances in technology, and 
increased partnership and trust between Federal, State, and local 
authorities, our ability to share information has improved tremendously 
in the 12 years that have passed since 9/11. The evidence is clear that 
as a result of these changes and relationships, our capacity to 
identify, investigate, prevent, and respond to these events has 
enhanced significantly.
    In the aftermath of the Boston Marathon bombing and the successful 
investigation which followed, I received an email from Colonel Tim 
Alben of the Massachusetts State Police. I believe his email accurately 
reflects on both the importance of Federal, State, and local 
information and intelligence sharing but also on the remarkable 
progress that we have made since the 2001 terrorist attacks. His email 
to me read, in part:

``Since 9/11, we've understood that the only way to defeat this 
terrorist threat is through collaborative efforts and partnerships 
between local, State and Federal law enforcement. These partnerships 
are critical to any hope of success but talking about issues like this 
can often be easier than actual implementation . . . 

`` . . . The Boston FBI Office has been literally overflowing with 
activity and there are agents here from all over the country. In the 
middle of this activity; in the midst of the FBI Boston Headquarters 
are our Troopers and local police officers, tied to the hip of FBI 
agents, working hand in hand with one common direction. As FBI SAC Rick 
DesLauriers has repeatedly said `one team, one fight'. While no 
situation is ever perfect, I can attest to the fact that many of the 
criticisms regarding cooperation and information sharing that existed 
pre-9/11 have been eliminated and, as law enforcement, we can all take 
great pride in that alone.

``There are many other success stories here, too many to go into detail 
on now, but they include the Boston JTTF, our Fusion Center and the 
Boston Regional Intelligence Center (BRIC). These are post-9/11 
creations that, more recently, have come under scrutiny and unjustified 
criticism. I hope in the coming weeks that we have an opportunity to 
address all of this. As with every event of this scope, we'll find 
things we can improve upon, share this with everyone, and become even 
better. But the message we need to hear today is that the investment in 
leadership development, the availability of advanced technology, the 
progress in information sharing and the collaboration among our IACP 
members has made the difference we have worked so hard at achieving.''

    Colonel Alben's message is a testament to the progress that the 
United States and its law enforcement agencies have made since 
September 11, 2001. In addition to what he mentions above, it was clear 
that a number of the capabilities on display in the aftermath of the 
Boston attack were the result of the following measures:
  <bullet> Planning, exercises, and training for mass casualty events 
        (this saved lives).
  <bullet> The observance of NIMS, ICS, and command and control.
  <bullet> Integration of Federal, State, and local law enforcement 
        capabilities.
  <bullet> Use of social media in the investigation.
  <bullet> The use of social media in engaging and informing the 
        public.
  <bullet> Effective information sharing between all levels of 
        government through infrastructures such as the National Network 
        of Fusion Centers, and others.
  <bullet> Effective use of technology and equipment.
  <bullet> The sharing of technology and equipment among agencies.
    Finally, what we saw in action in Massachusetts was effective 
leadership, true collaboration, and trusting partnerships. This gave 
the city, the surrounding area, and the country, the confidence that 
law enforcement was working together and using everything at their 
disposal to bring this incident to a swift close.
    Collaboration, information, and intelligence sharing among Federal, 
State, Tribal, and local law enforcement agencies needs to continue. 
Although we have made great strides, our work is not done. I understand 
that there are currently hearings being conducted on the Boston 
Terrorist attack and I am confident that a thorough review will be 
conducted to determine if there were any intelligence gaps. If any are 
uncovered, I am equally confident that they will be corrected.
    It is for this reason, the IACP continues to work closely with its 
Federal, State, and local partners to make the processes for 
communicating and sharing information as easy and efficient as 
possible, while at the same time protecting privacy and civil rights 
and liberties. Through a range of efforts, from clarifying how and to 
whom one should report suspicious activity to and to implementing 
technological enhancements for information-sharing systems, these 
initiatives aim to improve the ability of all levels of law enforcement 
to combat the increasingly diverse threats facing the United States.
                                 ______
                                 
      Letter From Stephen D. Kelly, Assistant Director, Office of 
                         Congressional Affairs
                                      July 3, 2013.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Mr. Chairman: This responds to your letter dated June 12, 
2013, requesting FBI participation in a hearing on July 10, 2013, 
entitled ``Assessing Attacks on the Homeland: From Fort Hood to 
Boston,'' and to your letter dated May 15, 2013, concerning the 
Committee's requests for additional information and all documents in 
our possession concerning Tamerlan Tsarnaev and the bombing at the 
Boston Marathon on April 15, 2013.
    We appreciate the Committee's responsibility to conduct oversight 
over certain Executive Branch agencies, notably the Department of 
Homeland Security, as set forth in the House Rules cited in your 
correspondence. In response to the Committee's non-oversight requests 
to the FBI, we have provided information and responded to the 
Committee's questions through interagency briefings on April 23; May 
13; and June 6, 2013, and in telephone briefings and meetings with 
senior FBI officials on April 22; May 9; and June 12, 2013. We continue 
to schedule briefings for your staff concerning non-investigative 
matters,
    In responding to requests from Congress related to on-going 
criminal matters, the Department of Justice is required to balance 
Congressional requests for information with its own Constitutional and 
statutory obligations to preserve the integrity of active criminal 
investigations, particularly during an on-going prosecution in Federal 
court. The Department's long-standing policy is to decline to provide 
Congressional committees with access to materials related to active, 
on-going law enforcement investigations. This policy ensures the 
greatest possible success for the investigation and any resulting 
prosecution consistent with the Constitutional and legal requirements 
for any criminal proceeding. Consistent with this policy, we are unable 
to provide the Committee ``all information possessed by the U.S. 
Government'' related to Tamerlan Tsamaev and the on-going 
investigation. Similarly, we decline the Committee's request to provide 
a witness for the noticed hearing while the investigation and 
prosecution are on-going.
    We appreciate your support for our efforts to ensure justice for 
the victims of these tragic attacks.
            Sincerely,
                                             Stephen Kelly,
               Assistant Director, Office of Congressional Affairs.

    Chairman McCaul. With that, again, my thanks to the 
witnesses. It has been extremely invaluable for all Members 
here today and I think to the American people.
    With that, this hearing is adjourned. Oh, I am sorry. 
Recessed.
    [Whereupon, at 12:28 p.m., the committee was recessed, to 
reconvene July 11 in Executive Session and subsequently adjourn 
on that day.]

                                 <all>

</pre></body></html>
